<html>
<title> - REVIEW OF THE PRESIDENT'S EMERGENCY SUPPLEMENTAL REQUEST FOR UNACCOMPANIED CHILDREN AND RELATED MATTERS</title>
<body><pre>[Senate Hearing 113-854]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-854

     REVIEW OF THE PRESIDENT'S EMERGENCY SUPPLEMENTAL REQUEST FOR 
               UNACCOMPANIED CHILDREN AND RELATED MATTERS

=======================================================================

                                 HEARING

                               BEFORE THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     JULY 10, 2014--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
         

   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                                               
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
24-808 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e384938ca3809690978b868f93cd808c8ecd">[email&#160;protected]</a>                              
                               
                              
                               
                      COMMITTEE ON APPROPRIATIONS

               BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN M. COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
MARK L. PRYOR, Arkansas              MARK KIRK, Illinois
JON TESTER, Montana                  DANIEL COATS, Indiana
TOM UDALL, New Mexico                ROY BLUNT, Missouri
JEANNE SHAHEEN, New Hampshire        JERRY MORAN, Kansas
JEFF MERKLEY, Oregon                 JOHN HOEVEN, North Dakota
MARK BEGICH, Alaska                  MIKE JOHANNS, Nebraska
CHRISTOPHER A. COONS, Delaware       JOHN BOOZMAN, Arkansas

                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Chairwoman Barbara A. Mikulski..............
                                                                     1
    Prepared Statement...........................................
                                                                     4

Statement of Senator Richard C. Shelby...........................
                                                                     5

Prepared Statement of Senator Daniel Coats.......................
                                                                     6
Prepared Statement of Senator John Boozman.......................
                                                                     8
Statement of Hon. Sylvia Mathews Burwell, Secretary, Department 
  of Health and Human Services...................................
                                                                     8
    Prepared Statement...........................................
                                                                     9
        HHS's Mission and Role...................................
                                                                    10
        Steps HHS is Taking in Response to the Rising Number of 
          Unaccompanied Children.................................
                                                                    10
        Supplemental Appropriations Request......................
                                                                    11
Statement of Hon. Jeh Johnson, Secretary, Department of Homeland 
  Security.......................................................
                                                                    12
    Prepared Statement...........................................
                                                                    14

Statement of Hon. Thomas A. Shannon, Jr., Counselor of the 
  Department, Department of State................................
                                                                    17
    Prepared Statement...........................................
                                                                    19
        The Problem..............................................
                                                                    20

Statement of Juan P. Osuna, Director, Executive Office for 
  Immigration Review, Department of Justice......................
                                                                    22
    Prepared Statement...........................................
                                                                    24
        Immigration Court Process................................
                                                                    25
        Asylum and Protection Under the Convention Against 
          Torture................................................
                                                                    25
        Legal Representation for Children........................
                                                                    26
        Adjudication Priorities..................................
                                                                    26
        Budget and Resource Impact...............................
                                                                    26

HHS Unaccompanied Children Funding...............................
                                                                    28
Need for Additional Funds........................................
  								    29
Effects on Border Without Supplemental...........................
  								    29
Trafficking Victims Protection Reauthorization Act...............
                                                                    30
Placement With Sponsors..........................................
                                                                    31
Deportations, Number of..........................................
                                                                    32
U.S. Customs and Border Protection Funding.......................
                                                                    32
Border Patrol Agents.............................................
                                                                    33
Administratively Uncontrollable Overtime Bill....................
                                                                    33
Immigration Proceedings Caseload.................................
                                                                    34
National Guard Use...............................................
                                                                    36
Detention Center Locations: Consult With State, Local Officials..
                                                                    37
Financial Impact on Local Communities............................
            							    38
Federal Law Enforcement Training Center: Detention Center Funding
  								    38
Deferred Action for Childhood Arrivals...........................
  								    39
Detention Versus Alternatives to Detention.......................
                                                                    42
Legal Services...................................................
  								    43
Health and Legal Services........................................
                                                                    43
Trafficking......................................................
                                                                    45
Justification for Emergency Supplemental.........................
                                                                    47
Public Messaging in Central America..............................
                                                                    50
Border Security: Mexico Assistance...............................
                                                                    50
Removal Process, Expediting......................................
                                                                    51
Fort Sill Facility...............................................
                                                                    54
Length of Stay...................................................
                                                                    55
Shelter Services.................................................
                                                                    55
Length of Stay...................................................
                                                                    55
Congressional Visits.............................................
  								    56
HHS Supplemental Request.........................................
  								    56
Future Planning..................................................
 								    59
Smuggling Rings..................................................
  								    61
Humanitarian Treatment...........................................
        							    61
Immigration Status...............................................
  								    62
Immigration Reform...............................................
  								    62
Voluntary Return: Mexico.........................................
 								    64
Reprogramming....................................................
  								    66
Discretion.......................................................
  								    66
Legal Services...................................................
  								    68
Number of Unaccompanied Children.................................
  								    70
Repatriation, Return of Unaccompanied Children...................
  								    71
Border Security: Rio Grande Valley...............................
  								    71
Placement With Sponsors..........................................
  								    71
Immigration Process..............................................
  								    72
Additional Committee Questions...................................
  								    73
Questions Submitted to Secretary Sylvia Burwell..................
  								    74
    Questions Submitted by:
        Chairwoman Barbara A. Mikulski...........................
          							    74
          Challenges to Increasing Shelter Capacity..............
            							    74
          Ensuring Adequate Access to Social Services............
            							    74
        Senator Patrick J. Leahy.................................
          							    76
          HHS Reprogramming......................................
            							    76
          Legal Counsel for Unaccompanied Children...............
                                                                    76
          Identification of Parents..............................
            							    77
        Senator Mary L. Landrieu.................................
                                                                    77
        Senator Mark Pryor.......................................
          							    79
        Senator Richard C. Shelby................................
                                                                    80
          Failure to Budget in Advance...........................
            							    80
          Fiscal Year 2014 Funding...............................
                                                                    80
          Budget Estimates.......................................
                                                                    81
          Selection of UAC Housing Facilities....................
                                                                    82
        Senator Jerry Moran......................................
                                                                    82
        Senator John Boozman.....................................
                                                                    83

Questions Submitted to Secretary Jeh Johnson.....................
                                                                    83
    Questions Submitted by:
        Chairwoman Barbara A. Mikulski...........................
                                                                    83
          Adhering to the 72-Hour Rule...........................
                                                                    83
          Detaining and Removing Family Units....................
                                                                    84
        Senator Mary L. Landrieu.................................
                                                                    86
          Demographics of Unaccompanied Children.................
                                                                    86
          Refugee Act of 1980....................................
                                                                    88
          Post-Katrina Emergency Reform Act of 2006..............
            						            89
          Accountability.........................................
                                                                    90
        Senator Mark Pryor.......................................
                                                                    91
          Budget Request.........................................
                                                                    91
          Effect on U.S. Customs and Border Protection...........
                                                                    91
          Working with Border Authorities in Mexico..............
                                                                    92
          Biometric Identification...............................
                                                                    92
        Senator Mark Begich......................................
                                                                    92
          Circumstances, Reasons that Led to Migration...........
                                                                    92
          Securing the Southwest Border..........................
                                                                    93
        Senator Christopher A. Coons.............................
                                                                    93
          Alternatives to Detention..............................
                                                                    93
          Legal Orientation Program..............................
                                                                    94
          Asylum Officers........................................
                                                                    94
        Senator Richard C. Shelby................................
                                                                    94
          Illegal Migration by Families..........................
                                                                    94
        Senator Jerry Moran......................................
                                                                    95
          Tracking Unaccompanied Children........................
                                                                    95
          Stemming the Flow of Border Crossings..................
                                                                    95
        Senator John Boozman.....................................
                                                                    98
          Money Spent to Address Problem.........................
                                                                    98
Questions Submitted to Hon. Thomas Shannon.......................
                                                                   101
    Questions Submitted by:
        Chairwoman Barbara A. Mikulski...........................
                                                                   101
        Senator Patrick J. Leahy.................................
                                                                   104
        Senator Mary L. Landrieu.................................
                                                                   105
        Senator Mark Pryor.......................................
                                                                   109 
        Senator Mark Begich......................................
                                                                   111
        Senator Christopher A. Coons.............................
                                                                   111
        Senator Richard C. Shelby................................
                                                                   112
        Senator John Boozman.....................................
                                                                   114 

Questions Submitted to Juan P. Osuna.............................
                                                                   116 
    Questions Submitted by:
        Chairwoman Barbara A. Mikulski...........................
                                                                   116
          Legal Representation Services..........................
                                                                   116
          Immigration Judges.....................................
                                                                   116
        Senator Mary L. Landrieu.................................
                                                                   117
          Legal Services for Unaccompanied Minors................
                                                                   117
        Senator Mark Pryor.......................................
                                                                   117
          Influx of Unaccompanied Children.......................
                                                                   117
          Immigration Backlog....................................
                                                                   118
        Senator Richard C. Shelby................................
                                                                   118
          Immigration Judges.....................................
                                                                   118
        Senator Susan M. Collins.................................
                                                                   118
          Gang Members Claiming Asylum...........................
                                                                   118
        Senator John Boozman.....................................
                                                                   119
          Legal Representation for Illegal Immigrants............
                                                                   119

Material Submitted Subsequent to the Hearing.....................
                                                                   120 
    Prepared Statement of:
        American Immigration Lawyers Association.................
                                                                   120
          Border Security and Enforcement........................
                                                                   120
          Detention and Custody..................................
                                                                   121
          Screening..............................................
                                                                   121
          Ensuring Meaningful Access to Asylum, Humanitarian 
            Relief and Due Process...............................
                                                                   122
        Church World Service.....................................
                                                                   123
          U.S. Must Ensure Protection of Unaccompanied Children 
            and Adequate Funding for Refugee Resettlement........
                                                                   123
        Episcopal Church.........................................
                                                                   125
        Ethiopian Community Development Council, Inc.............
                                                                   126
        Fire Suppression Funding Solutions Partner Caucus........
                                                                   127
        First Focus Campaign for Children........................
                                                                   130
        HIAS.....................................................
                                                                   133 
          Jewish Statement on Unaccompanied Children at the 
            United States-Mexico Border..........................
                                                                   135 
        Human Rights First.......................................
                                                                   136 
          Review of the President's Emergency Supplemental 
            Request for Unaccompanied Children...................
                                                                   136
        International Rescue Committee...........................
                                                                   139
        Kids in Need of Defense..................................
                                                                   141
        Lutheran Immigration and Refugee Service.................
                                                                   144
        National Immigrant Justice Center (Heartland Alliance)...
                                                                   145
          Forced Migration: Unaccompanied Children Flee 
            Increasing Violence and Danger in Central America....
                                                                   146
          Fair and Efficient Hearings: the Importance of Legal 
            Counsel for Unaccompanied Children...................
                                                                   147
          Emergency Supplemental Request: Misguided Allocations 
            for Enforcement and Deterrence.......................
                                                                   148
          Retaining Critical Due Process Protections for Children 
            in Times of Crisis: The Importance of the William 
            Wilberforce Trafficking Victims Protection and 
            Reauthorization Act of 2008 (TVPRA)..................
                                                                   149
        Record of Refugee Council USA............................
                                                                   150
        Tahirih Justice Center...................................
                                                                   152
        United Nations High Commissioner for Refugees............
                                                                   153
        U.S. Committee for Refugees and Immigrants...............
                                                                   156
          A Refugee Crisis.......................................
                                                                   156
          USCRI Data on Unaccompanied Immigrant Children.........
                                                                   157
          Emergency Funding Needs................................
                                                                   157
          USCRI's Six Policy Solutions...........................
                                                                   157
        Young Center for Immigrant Children's Rights.............
                                                                   158
          Preserving Necessary Protections for the Most 
            Vulnerable Children..................................
                                                                   158
 
     REVIEW OF THE PRESIDENT'S EMERGENCY SUPPLEMENTAL REQUEST FOR 
               UNACCOMPANIED CHILDREN AND RELATED MATTERS

                              ----------                              


                        THURSDAY, JULY 10, 2014

                                       U.S. Senate,
                               Committee on Appropriations,
                                                    Washington, DC.
    The committee met at 2:32 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Leahy, Harkin, Murray, 
Feinstein, Durbin, Landrieu, Reed, Tester, Udall, Shaheen, 
Merkley, Begich, Coons, Shelby, Cochran, Collins, Murkowski, 
Graham, Kirk, Coats, Blunt, Moran, Hoeven, Johanns, and 
Boozman.


          opening statement of chairwoman barbara a. mikulski


    Chairwoman Mikulski. Senator Shelby is on his way from 
voting, and the official part of the hearing will begin 
shortly.
    I just wanted to do two things. One, as you all know, today 
is the hearing on the supplemental request submitted by the 
administration to cover the unexpected and unanticipated needs 
of the significant number of unaccompanied children coming to 
our border. I want those who follow our committee so very 
closely to know that, on Tuesday, we will be marking up the 
Defense Appropriations Subcommittee, and we will do a full 
committee markup on the defense appropriation on Thursday.
    The committee should be alerted that if we can get other 
things done during the week, with appropriate notice following 
the rules, we will do so. However, we will not do anything 
until after Tuesday afternoon.
    So we know that Tuesday morning will be the Subcommittee on 
Defense markup. We will look also for opportunities, because 
there is unfinished business at the full committee level, the 
opportunity, perhaps, to go to the floor with one or more 
bills, and, of course, we will have to look for where we will 
go after our hearing on the supplemental for unaccompanied 
children.
    We are also keenly aware that there is a need by many 
members to be able to catch planes this afternoon, which is 
why, with the indulgence and concurrence of everybody, I would 
like to start my opening statement, so that we can get to the 
witnesses, for those of you who might have to leave.
    We will be recognizing people in their order of arrival, 
and we will proceed in that direction.
    So for today, the purpose of today's hearing is to examine 
the President's emergency request for the funding of $3.7 
billion to address the crisis of children from Central America 
crossing our southwestern border by the thousands.
    Their situation is extremely dire. The United States of 
America has an obligation to deal with this emergency.
    These children are seeking refuge. They are seeking refuge 
from organized crime, despicable gangs, vile human traffickers 
who are exploiting and profiting from human misery and 
desperation, primarily in three countries--Guatemala, Honduras, 
and El Salvador.
    They are willing to risk their lives in order to get away 
from the terrible violence.
    The President's emergency request totals $3.7 billion for 
caring for the humanitarian needs of the children; detention 
and enforcement at the border; identifying their legal status 
under our rule of law; and robust deterrence in the children's 
home country by going after and prosecuting the organized crime 
syndicates, the smugglers, the coyotes, and the traffickers.
    There also is a funding request for a massive education 
campaign warning Central American families about the dangers 
and false hopes of the journey. We also need to make sure that 
we are working with the Central American countries in 
structuring repatriation and reintegration.
    Today, our witnesses will be Secretary Sylvia Burwell from 
the Department of Health and Human Services (HHS); Secretary 
Jeh Johnson, the Secretary of the Department of Homeland 
Security (DHS); Ambassador Tom Shannon of the State Department, 
Ambassador Shannon, an experienced South American hand, 
counselor to John Kerry, and specifically appointed by 
Secretary Kerry to be his point person on all matters related 
to this crisis at our borders.
    And then also, we will have Juan Osuna, the executive from 
the Executive Office of Immigration Review (EOIR) at the 
Department of Justice (DOJ), a witness that particularly 
Senator Shelby wanted.
    We had hoped that Attorney General Holder could have come. 
We respect, of course, your presence, sir, and welcome it. 
Attorney General Holder is traveling.
    And we hope that as the full Senate gains more knowledge 
about this, we will look forward to hearing from the Attorney 
General as well.
    Now this Appropriations Committee, and particularly my 
Appropriations subcommittee chairs, realized early on that the 
President's fiscal year 2015 budget request was inadequate to 
this growing emergency. Our committee had to make some hard 
choices. And in the bills we have already marked up, we had to 
make hard choices in the funding related to Homeland Security, 
Human Services, State Department, and Justice.
    While the Murray-Ryan budget deal gave us tremendous 
certainty, the actual budget is quite spartan. And therefore, 
we did the best we could.
    Our appropriations job now is to make sure that the 
resources to deal with this are met. There needs to be food and 
shelter for children seeking refuge. Border agents in detention 
facilities need to be available. We want to be able to relieve 
the overworked and highly stressed Border Patrol agents who are 
doing a great job at the border.
    And there needs to be shelter. We now have too few beds to 
care for these many children while we determine their legal 
status.
    We need to add immigration judges and legal services to 
make sure that we can determine their legal status in a way 
that meets all requirements of the law, the law that is on the 
books, and at the same time honor the fact that America is a 
country of the rule of law.
    There also has to be muscular deterrence, going after 
criminals and gangs who so exploit these children and their 
families, who mislead them, misinform them, and even abuse them 
as they make this perilous and treacherous journey from Central 
America.
    I know there are many like myself who support comprehensive 
immigration reform, and there are many views on that. But I 
caution my colleagues, today's topic is not about immigration 
reform. It is about meeting this refugee crisis.
    The best way to make sure the surge in children is 
temporary is to pass the emergency supplemental, making sure we 
have a deterrence strategy against the smugglers and 
traffickers, and a real effort by the Central American 
countries to also be a source of deterrence.
    Right now, 57,000 unaccompanied children have arrived. We 
can expect as many as 90,000 by the year.
    Last week, I toured the border with three of the witnesses 
at this table, Secretary Burwell, Secretary Johnson, and, of 
course, Ambassador Shannon.
    We saw young children, some as young as 5, 7, 9. They had 
one instruction: Cross the border, turn yourself in, and hope 
for the best.
    Border agents who found them find these children 
dehydrated, malnourished, scared. Many have been abused. They 
come here relying on smugglers' false promises, smugglers that 
are part of dangerous gangs and cartels who see women and 
children like commodities, to be able to buy and sell them 
across the borders.
    Children leave home based on lies, endure dangerous 
journeys and the threat of being trafficked along the way.
    President Obama has come before us to ask for designated 
funds to meet the emergency. I believe that this is an 
emergency designation. The Budget Control Act defines an 
emergency as spending for the prevention or mitigation or 
response to loss of life or property, or a threat to national 
security that is sudden, urgent, unforeseen, and temporary.
    I agree with the President, and I believe that this 
situation is an emergency.
    Our first goal must be to protect the safety and health of 
the children, and make sure that we have the resources to do 
it.
    Our second goal is to make sure that their legal status is 
determined under the law that we have, so that then their 
future can be legally determined.
    And third, there must be a muscular deterrence strategy to 
discourage families from sending their children with smugglers 
who profit from them.
    We look forward to listening to our witnesses, and I look 
forward to working with our colleagues in order to be able to 
move the President's supplemental.
    I also want to note that though we are hearing from 
government witnesses today, we have opened up the hearing 
procedures for any nonprofit that wishes to submit testimony to 
the committee. We have already heard from 13 of them, and those 
records will be open for the next 2 weeks.


                           prepared statement


    The President's urgent supplemental also included $615 
million to prevent and fight wildfires. We are not going to go 
into that today. Today, the subject of thousands of children at 
our doorstep will take the committee's attention.
    [The statement follows:]
          Prepared Statement of Chairwoman Barbara A. Mikulski
    The purpose of today's hearing is to examine the President's 
emergency request for funding of $3.7 billion to address the crisis of 
children from Central American crossing our Southwestern border by the 
thousands.
    Their situation is extremely dire. The United States has both a 
security and moral obligation to help resolve this emergency.
    These children are seeking refuge from organized crime, gangs and 
human traffickers who are exploiting and profiting from human misery 
and desperation in Guatemala, Honduras and El Salvador.
    The President's emergency request totals $3.7 billion for caring 
for the humanitarian needs of the children, detention and enforcement 
at the border, identifying their legal status under our rule of law, 
robust deterrence in children's home countries by breaking down and 
prosecuting organized crime syndicates of smugglers and traffickers, 
conducting a massive education campaign warning Central America 
families about the dangers and false hopes of the journey, and guiding 
Central American countries' institutions for repatriation and 
reintegration of deportees.
    Our witnesses today are Secretary of Health and Human Services 
Sylvia Burwell, Secretary of Homeland Security Jeh Johnson, Ambassador 
Thomas Shannon of the State Department and Juan Osuna, Director, with 
the Executive Office of Immigration Review in the Department of 
Justice.
    My appropriations subcommittee chairs and I realized early on that 
the President's fiscal year 2015 budget request was inadequate to 
address this emergency.
    We had to make some hard choices in the bills we've already marked 
up to increase funding for the Department of Homeland Security, the 
Department of Health and Human Services, the State Department, and the 
Department of Justice. Because though the Murray-Ryan budget deal gave 
us tremendous certainty, the actual budget is still Spartan.
    Our job as Appropriators is making sure resources are at the border 
now for food and shelter for the children seeking refuge, for border 
agents who are overworked and detention facilities with too few beds, 
for transportation to shelters and to home countries, for immigration 
judges and legal services so they can bring final resolution to cases, 
and for muscular deterrence to go after criminals and gangs who mislead 
and misinform Central American families.
    And while I support comprehensive immigration reform, that's not 
the topic of today's hearing. Today is about meeting emergency funding 
needs. The best way to make this surge of children temporary is to pass 
an emergency supplemental and undertake a substantial deterrent 
strategy so we can attack the smugglers and traffickers and inform 
families of the risks of coming here.
    Already this year, 57,000 unaccompanied children have arrived, and 
we expect 90,000 by the end of the year. In addition, more than 39,000 
parents with children have arrived. I saw the crisis last week when I 
toured the border with our witnesses. Young children, ages 5, 7 and 9 
years old, are given one instruction: cross the border and turn 
yourselves in.
    Border agents find them dehydrated, malnourished, scared and 
abused. They come here relying on smugglers' false promises. Smugglers 
are part of dangerous gangs and cartels that see everything as a 
commodity--women, children and drugs. Children leave home based on lies 
to endure the dangerous journey and the threat of being trafficked into 
vile situations.
    President Obama has designated these funds as an emergency. There 
are very specific criteria in the law for this designation. The Budget 
Control Act of 2011 defines ``emergency'' funding as spending for ``the 
prevention or mitigation of, or response to, loss of life or property, 
or a threat to national security that is sudden, urgent, unforeseen and 
temporary.''
    I agree with President Obama that this funding meets those 
criteria. The situation along our border is dire.
    Our first goal must be to protect the safety and health of children 
and to make sure we provide the resources to do that.
    Our second goal must be a muscular deterrence strategy that 
discourages families from sending their children with smugglers out for 
profit. But a great nation can't let these children suffer once they 
turn themselves in at our border.
    Children as young as 5 years old need food and housing while the 
Justice Department ascertains the legal status of children seeking 
refuge under the rule of law.
    I look forward to hearing from the representatives of the 
administration about their plans to address this emergency. We also 
received testimony from faith-based and social service organizations 
that we will make a part of the official record. We will leave the 
official record open for 15 days so we can hear from many voices on 
this issue.
    I note for the committee that the administration has also requested 
supplemental funds to prevent and fight wildfires, totaling $615 
million. I have asked Senators Reed and Murkowski to closely examine 
this request, as chair and ranking member of the Interior 
Appropriations Subcommittee.

    Chairwoman Mikulski. So we look forward to moving the 
hearing along and dealing with the supplemental.
    I now turn to my vice chairman, Senator Shelby, for his 
remarks.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you. Thank you, Madam Chair.
    Why are we here today? We are here because our Nation's 
immigration system is broken. We are here because the Obama 
administration, as well as previous administrations, have 
failed to secure our borders and has ignored our existing 
immigration laws for a long time.
    Is it anything new? Over the years, we've spent billions of 
dollars on immigration enforcement, but to no avail.
    Currently, we have millions of illegal immigrants in our 
Nation. The result of President Obama's failure, I believe, to 
enforce immigration law currently on the books has been 
predictable. And that is one of the reasons we are here this 
afternoon.
    Now we are being asked by President Obama to approve a $3.7 
billion request to resolve the current crisis at our border. 
There are several questions that I think need to be answered. 
What exactly is the $3.7 billion going to address? Will this 
request be the end or will it be the beginning of many new 
requests by the administration for emergency funding?
    And while the President is seeking billions for the 
admission, detention, and care of illegal children and adults 
only--yes, only--$45.4 million, is my understanding, is 
requested for the Department of Justice's adjudication and 
immigration proceedings. This fact is very troubling to me.
    Estimates suggest the expense for HHS is more than $15,000 
for every minor in U.S. custody--$15,000. For HHS alone, the 
President requests an additional $1.8 billion, with no firm 
policy to stem the influx and no way to pay for it.
    I personally have no confidence that pouring billions of 
dollars into our current immigration system will solve the 
crisis. I think we have to get serious about enforcing our 
current laws and protecting our border, if we are ever to get 
different results.
    In 2011, HHS took custody of 6,560 unaccompanied children 
coming into this country illegally. Today, that number has 
skyrocketed. Indeed, last October, roughly 52,000 unaccompanied 
children have illegally entered the United States.
    Customs and Border Protection (CBP) estimates that as many 
as 150,000 children may attempt to cross the border in 2015.
    If we continue to double down on the same failed 
immigration policies, where does that take us in 2016, 2017, 
and beyond?
    I look forward to working with the chairperson here to 
ensure that we do not reward illegal immigration. I believe 
that we must start with actually securing our border, which we 
have never done; enforcing our Nation's immigration laws, which 
we don't do; and definitively saying no to people who come here 
illegally.
    Thank you, Madam Chairman.
    Chairwoman Mikulski. Thank you, Senator Shelby.
    If there any statements to be submitted for the record, it 
will be inserted, without objection.
    [The statements follow:]
               Prepared Statement of Senator Daniel Coats
    Chairwoman Mikulski, thank you. And thank you to our witnesses for 
appearing today.
    Like my colleagues, I have watched with increasing frustration the 
rapidly growing humanitarian crisis on our southwest border. More than 
60,000 unaccompanied alien children (UACs)--mostly from Guatemala, 
Honduras, and El Salvador--have been apprehended on America's southern 
border during this fiscal year. Another 50,000 family members--one or 
both parents traveling with their children--have been apprehended 
during the same time period.
    To put these numbers in perspective, just 3 years ago the Border 
Patrol apprehended just 16,000 unaccompanied alien children. In fiscal 
year 2008, the number was half that--only 8,000.
    We cannot sit back and let this situation grow worse, as it does 
day by day. We must find a way to solve this humanitarian crisis and 
stem the flow of unaccompanied minors entering our country. There is a 
way to do it and it should be guided by key principles that reflect the 
country's rule of law and compassionate hearts. I believe the solution 
involves four key components:
1. Enforcing existing law to stop the influx of illegal immigration and 
        return those who have already come.
    First, we must stop the influx of children. That means going after 
the cartels, smuggling organizations, and traffickers. It also means 
returning the children who have come here--to show the children who 
will come soon that the dangers of the journey are not worth it.
    The children who are making these dangerous treks from Central 
America are attempting to escape dire situations, often in the hands of 
smugglers, largely because of false information and promises they have 
received that are not true. They long for a better life and have been 
told this is how to get it. Sadly, the latest survey from Doctors 
without Borders in southern and central Mexico found that 58 percent of 
their patients suffered at least one episode of violence along their 
way from Central America to the United States. This includes these 
children.
    One media network did a series called ``Borderland'' that followed 
the path of Central American migrants, including children. They found 
that 80 percent of all migrants will be assaulted, 60 percent of women 
will be raped and only 40 percent of all migrants will actually make it 
to the border.
    But why now--why in the last 2 years have the numbers of UACs and 
family units skyrocketed? Because in 2010, the White House began 
administratively chipping away at our Nation's immigration laws. This 
generated whispers of hope that ran rampant through the families of our 
Central American neighbors and gave many the false impression that 
reaching American soil guarantees a new life.
    This belief spread in 2012 when President Obama took a further step 
by essentially halting the removal of illegal immigrants who arrived as 
minors. Since that time, the rate of children coming illegally across 
our border has increased exponentially. Bringing us to the dramatic 
number we see in May and June of 2014--more than 10,000 per month. This 
cannot continue. The rule of law must be restored.
2. A viable repatriation plan.
    Second, the Administration must deliver a clear message and its 
actions must match its words--these children will be sent back.
    To give force to this statement, we must develop a viable 
repatriation plan. Repatriation sends a clear message that the United 
States will send children back to their home country and unite them 
with their families. Parents will see children returned home, and 
perhaps not spend the money and risk the danger of sending their 
children away. We must deter children from even starting this arduous 
journey.
    A viable repatriation program must include a streamlined and 
appropriate processing system. The Administration has some flexibility 
under current law to move families and children through immigration 
proceedings in an accelerated manner. However, I believe--and the 
Secretary of Homeland Security has stated--that we need to go further 
changing current law to treat all unaccompanied alien children the 
same. This would allow Central American children who qualify to choose 
voluntary return rather than the drawn out immigration proceedings that 
should lead to their removal.
    I also believe we need to go another step further. The Secretary 
needs the discretion to apply expedited removal to children in certain 
circumstances--like the crisis we face today. To deter children from 
taking this dangerous journey, we must return those who have already 
come. Otherwise, the tide of illegal entry will continue to rise.
3. Working with the governments of Central American countries and 
        insist they fully cooperate.
    Third, the United States must make clear to Central American 
leaders that any assistance from our country is contingent on working 
with our government to break this cycle of illegal immigration. Unless 
we engage in a cooperative effort, the current cycle will remain 
intact. These countries can help law enforcement crack down on 
smugglers.
4. Reasonable care for the children while they are here.
    Lastly, the vast majority of the new funding the President is 
requesting would go to caring for illegal immigrants who are already 
here. This would include housing, transporting, and caring for the 
children and families already in the United States.
    It is our responsibility as a nation and a compassionate society to 
care for the hurt and displaced, but we cannot simply open our arms and 
encourage all the world's children to strike out on their own, face 
endless dangers, and come to our shores.
    As unaccompanied minors await their day in court, we must continue 
to provide adequate housing and care. Our country should continue to 
meet the needs of children who have been sent here. However, we should 
also not be taxing the resources of our military bases in order to 
accomplish this priority.
    Given how rapidly this situation is escalating, the United States 
has a moral responsibility to swiftly solve this crisis. This situation 
involves more than just unaccompanied minors. We cannot ignore the 
national security implications of a weak border.
    At the end of the day the journey to the border of the United 
States is incredibly dangerous. I believe all of us, Republicans and 
Democrats, should be able to agree on one thing: the children involved 
in this situation are not the ones we should be blaming for the 
problems on our border.
    Rather, through the Administration's open border policies and 
refusal to enforce our Nation's immigration laws, we find ourselves in 
this situation where we have created a false sense of opportunity, 
which has exacerbated this humanitarian crisis.
    In closing, I would ask members of this Committee to examine 
closely the reason we are here today--an emergency supplemental. As we 
near the end of fiscal year 2014, I think it's appropriate that we 
consider the needs of agencies saddled with this crisis. But to ask for 
funding into fiscal year 2015 is inexcusable. The Administration simply 
cannot say it did not foresee this crisis when the President submitted 
his fiscal year 2015 budget request. And instead of giving his agencies 
the resources they need to tackle this problem, he's asking for off-
budget money--much of it with out-year costs. This is largely an fiscal 
year 2015 budget amendment. We should consider the fiscal year 2015 
needs in the context of the fiscal year 2015 bills for these agencies.
    As we proceed through this hearing, I urge my colleagues to be 
conscious of that.
    Madam Chairwoman, that concludes my statement. Thank you.
                                 ______
                                 
               Prepared Statement of Senator John Boozman
    Thank you all for being here. This is such an important issue for 
the whole country. I know the challenges your men and women are seeing 
on the ground are vast as you all work in a coordinated manner to 
address the current crisis with unaccompanied children (UACs) arriving 
on our doorstep. Securing our border and respecting and enforcing rule 
of law have always been priorities of mine, as they are for my 
constituents at home in Arkansas. That being said, those things have 
not been happening and the President has been picking and choosing what 
laws to enforce and that has led us to the crisis we're currently 
facing. To address this issue, this week the President requested $3.7 
billion taxpayer dollars without any strings attached or policy changes 
that will prevent this from intensifying further and happening again 
down the road. To me, that is unacceptable. I understand that these are 
children and the need to provide resources to meet their needs, and no 
one believes that money isn't part of the solution, but we cannot 
continue to throw money at a problem that won't be solved if the Obama 
Administration won't discuss policy fixes with Congress and continues 
to go around our laws and act by executive order. We need to ensure 
that any allocated resources are used wisely. These children need to be 
taken care of while in the U.S., but returned to their own countries as 
soon as possible. Certainty of return is the only way to shut the wave 
off. I look forward to discussing this request with my colleagues, but 
no decision Congress makes on this issue should be taken lightly.

    Chairwoman Mikulski. We are now going to turn to our 
witnesses. Rather than go through lengthy introductions, I am 
going to just suggest that Secretary Burwell start, Secretary 
Johnson, Ambassador Shannon and then Mr. Osuna be the wrapup 
from Justice.
    Secretary Burwell, you can just go right on, in the 
interest of time and expedition. STATEMENT OF HON. SYLVIA 
MATHEWS BURWELL, SECRETARY, DEPARTMENT OF HEALTH AND HUMAN 
SERVICES
    Secretary Burwell. Chairwoman Mikulski, Ranking Member 
Shelby, and members of the committee, I want to thank you for 
the opportunity to discuss these issues today.
    The influx of unaccompanied children across our Nation's 
borders is an urgent humanitarian situation that calls for a 
robust humanitarian response. It is a complex, evolving 
situation for which there are no easy answers. It is a 
situation we are taking very seriously across the 
administration, recognizing our dual purpose of taking care of 
these children while we also enforce the law.
    As a Nation of laws, we must acknowledge that many of the 
children crossing our borders do not have a legal basis to 
remain in this country. We must acknowledge that we are talking 
about children, many of them young children who are escaping 
unthinkable violence and living in conditions that are 
difficult for many of us to imagine.
    Oftentimes, they are preyed on by smugglers who have made 
it their business to bring unaccompanied children across the 
borders.
    I had the opportunity to meet a few of these children last 
week, as the chairwoman mentioned. We visited a Customs and 
Border Patrol station along with a temporary shelter at an Air 
Force base in Texas, and we met the remarkable Americans who 
are caring for these children and supporting this mission in 
other important ways.
    Some of the folks work for CBP, FEMA, and HHS. Others are 
grantees and community members. All are going above and beyond.
    The children had heartbreaking stories to share. A teenage 
girl told us how she had fled her home when her uncle had been 
murdered in front of his house. Sadly, this story is not an 
anomaly. Many of these children are escaping violence and 
threats by gangs, and they and their families are being preyed 
upon by smugglers.
    A situation of this magnitude calls on all of us to work 
across Government to enforce the law and to care for these 
children in a manner that honors our values.
    Federal law says that the HHS role is to feed, shelter, and 
provide medical care for unaccompanied children until we are 
able to place them in a safe and suitable setting with family 
members or sponsors, while they await immigration proceedings.
    As the number of children has grown, our resources have 
been stretched thin. In fiscal year 2011, an estimated 6,500 
unaccompanied children came into our care. This increased to 
13,600 in 2012, and almost 25,000 in 2013. As of July 6, over 
50,000 children have been apprehended and placed in our care in 
fiscal year 2014.
    To address the associated challenges, HHS has put together 
a two-pronged strategy for our part. One is first to drive down 
the length of time that children remain in shelters. The other 
is to expand our shelter capacity.
    When it comes to time that children are in our care, we 
have made significant progress. Since 2011, when it took 75 
days, we have reduced that time to 35 and are continuing to try 
to make progress, so we move even more quickly.
    On permanent shelter capacity, we have added about 1,700 
beds since January, and we have also opened temporary shelters 
with three military bases across the country.
    While temporary solutions were necessary in the short term, 
makeshift solutions do not make long-term fiscal sense. 
Temporary shelters cost more than the permanent shelters.

                           PREPARED STATEMENT

    As we move forward, the reality is that we don't have 
enough beds, and we don't have sufficient resources to continue 
to add beds to ensure that the children are not staying in the 
holding facilities at the border. That is why the President has 
made the request that we are discussing today, and we believe 
this investment will allow our department to bring on the 
additional capacity that we need.
    The gravity of this situation calls for a robust and 
compassionate approach that reaches across government and 
empowers us to enforce the law.
    Thank you, and I welcome your questions.
    [The statement follows:]
           Prepared Statement of Hon. Sylvia Mathews Burwell
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
committee, thank you for inviting me here today to discuss the 
Department of Health and Human Services' (HHS) work to address the 
recent rise in unaccompanied children crossing the southwest border 
into Texas. This influx requires a robust humanitarian response on both 
sides of the border, and I very much appreciate the opportunity to 
discuss HHS' role in addressing this situation with you. I want to 
thank Senator Mikulski for joining Homeland Security Secretary Johnson, 
Ambassador Shannon, Associate Administrator for Response and Recovery 
at FEMA Joe Nimmich, and me on a fact-finding visit to a Customs and 
Border Protection (CBP) Border Patrol station in Texas and our 
Department's temporary shelter located at Joint Base San Antonio-
Lackland. We experienced firsthand the complexity of the current 
situation.
    To help us deal with the immediate situation, I will highlight the 
Department's role under the law in caring for unaccompanied children 
who are apprehended by CBP; the steps we take to place children with 
appropriate sponsors who can care for a child while awaiting resolution 
of their case; the challenges we face as we work to meet the needs of 
this unprecedented number of children; and the President's emergency 
supplemental appropriations request.
    In our trip to Texas last week, it was clear that the current 
influx of unaccompanied children across our border is the result of 
complex human tragedies--families separated by thousands of miles, 
children risking their lives to flee dangerous situations in their home 
countries, and communities across Central America devastated by 
violence (due in part to the drug trade and transnational criminal 
organizations) and facing an exodus of the next generation. 
Unaccompanied children are subjecting themselves to serious risks to 
make the journey here and our Border Patrol stations are overcrowded to 
the breaking point.
    This is not an issue that lends itself to easy answers, but I am 
confident that, working together, we can care for the unaccompanied 
children in a way that honors the values of the American people while 
at the same time enforcing the law and dissuading children from 
undertaking this dangerous journey.
                         hhs's mission and role
    The children who are apprehended while trying to enter the United 
States without a parent or guardian are one of the many vulnerable 
populations that HHS serves. By law, the Administration for Children 
and Families (ACF) must accept unaccompanied children under the age of 
18 (except those from Canada and Mexico) who are apprehended by CBP 
into its care and custody. ACF provides grant funding to 63 nonprofit 
organizations, including faith-based organizations, to operate shelters 
around the country to care for these children until they can be placed 
with sponsors, usually parents or other relatives, while awaiting 
immigration removal proceedings.
    Faced with a dramatic rise in the number of unaccompanied children 
coming into our care and custody, and without sufficient capacity at 
our permanent shelters, the Department has had to establish temporary 
emergency shelters. In recent weeks, we have opened shelters on three 
military bases--Joint Base San Antonio-Lackland in Texas; Fort Sill in 
Lawton, Oklahoma; and Naval Base Ventura County in Oxnard, California.
    The growth in numbers is staggering: in fiscal year 2011 an 
estimated 6,590 unaccompanied children entered our country. In fiscal 
year 2014, we are preparing for a scenario in which 90,000 of these 
children cross our borders. Reasons for this increase are complex. A 
key factor is the high level of violence in Honduras, El Salvador, and 
Guatemala, the countries of origin for most unaccompanied children, 
which is exacerbated by a misperception that the United States is 
issuing ``permisos'' or permits for children and families who cross the 
border to remain in the United States. This misperception is 
propagated, in part, by individuals offering smuggling services to 
vulnerable children, many of whom have been separated from their 
parents by thousands of miles.
    At the direction of President Obama, on June 2, the Administration 
established a Unified Coordination Group to leverage Federal resources 
to provide humanitarian relief to address the ongoing situation. In 
coordination with the Departments of Defense (DOD), Homeland Security, 
Justice, State, and the General Services Administration, we are working 
to better understand the reasons for the increase in the number of 
unaccompanied child arrivals; develop strategies to expand capacity to 
serve the rising number of unaccompanied children; and identify new 
facilities to serve as shelters for the unaccompanied children.
 steps hhs is taking in response to the rising number of unaccompanied 
                                children
    As the number of unaccompanied children apprehended has outstripped 
HHS's shelter capacity, Border Patrol stations have become very 
overcrowded and children are remaining in CBP custody far beyond the 72 
hour limitation laid out in Federal law. At HHS, we are addressing the 
time children spend in CBP custody through two key strategies: (1) 
reducing the amount of time that children remain in our care before 
being placed with a sponsor (typically a parent or other relative) who 
can care for them safely and appropriately while their immigration case 
is processed; and (2) expanding our shelter capacity. We have made 
progress in both areas, though significant work remains.
    In the last 3 years, ACF has streamlined its placement process, 
reducing the average amount of time unaccompanied children spend in 
shelters. ACF has cut the average length of stay for all unaccompanied 
children from 75 days between fiscal year 2005 and fiscal year 2011 to 
fewer than 35 days in fiscal year 2014. In June, the Department 
launched a pilot project in two of our permanent shelters to further 
expedite the process for children who are being released to their 
parents in the United States while awaiting immigration proceedings. 
This expedited process still includes the critical steps to assuring 
child safety (such as background checks of potential sponsors and 
screening the child for abuse, abandonment, neglect, trafficking and 
serious mental health issues), but speeds up the process so that we are 
able to more quickly move children out of CBP detention facilities and 
shelters and into more appropriate settings. If successful, we will 
expand the use of this expedited process to additional shelter sites.
    Speeding the process alone will not solve the problem. We must 
expand our shelter capacity so that we can serve the children who are 
already here even as we work across the Federal government to stem the 
flow of unauthorized children crossing the border.
    Today, we have space for approximately 6,600 children in our 
permanent shelters and specialized placements (such as foster care for 
very young children)--an increase of about 4,700 over the shelter 
capacity in place in July 2011 and an increase of about 1,700 since 
January 2014. In addition, we have opened three emergency shelters that 
can serve a total of 2,975 children at a time.
    But even with these expansions, we do not have enough capacity to 
take unaccompanied children into our care quickly and overcrowding at 
CBP facilities remains a serious problem. Over the July 1-7 period, an 
average of 2,000 children were in CBP custody awaiting HHS placement 
and a majority had been in CBP custody for more than 72 hours. In June, 
CBP opened a temporary holding facility for unaccompanied children in 
Nogales, Arizona, which has relieved some pressure in the border patrol 
stations. Many children at the Nogales facility are subsequently placed 
in our shelters on military bases.
    Thus, we are continuing to seek additional locations that can serve 
as temporary or permanent shelters. However, the bottom line is that 
our current appropriation simply is not sufficient to allow us to bring 
on and maintain the shelter capacity that is needed to address the 
current situation.
    Finally, there is one other important element to HHS's role in this 
response. Through the Office of the Assistant Secretary for 
Preparedness and Response (ASPR), HHS has been providing emergency 
response and medical support to some CBP facilities, when requested by 
DHS, including the new facility in Nogales, Arizona. Members of the 
Commissioned Corps of the U.S. Public Health Service, the Office of 
Emergency Management, and the National Disaster Medical System are 
providing public health and medical coordination, medical screening, 
basic medical care, vaccinations, and mental health screening for 
unaccompanied children at the Nogales facility in addition to 
augmenting ACF-contracted staff in temporary shelters on military 
installations. This work has helped speed up medical screenings and 
vaccinations all children receive who come it HHS custody and has 
reduced emergency room visits and helped address important health 
issues while unaccompanied children are in CBP custody.
                  supplemental appropriations request
    We appreciate the Committee's willingness to provide ACF with 
increased funding based on updated arrival estimates in the annual 
fiscal year 2013 and fiscal year 2014 appropriations bills. Coupled 
with the Department exercising its transfer authority, the increased 
funding in fiscal year 2013 allowed ACF to serve all incoming 
unaccompanied children transferred to its care. In fiscal year 2014, we 
have taken several steps within our current authority to increase 
funding for the UAC program before coming to Congress with a 
supplemental request. First, the Department used the Secretary's 
transfer authority to provide the maximum amount of available funds to 
this program. And in June, we notified Congress of the need to 
reallocate up to $94 million from several Refugee and Entrant Assistant 
programs to the unaccompanied children program to further augment 
funding for the UAC program. Reallocating these funds is not without 
serious implications. These funds are needed by states, local 
governments and voluntary agencies to help refugees and asylees 
maximize their potential in the United States. These programs provide 
them with the critical resources to assist in becoming integrated 
members of American society. The United States has a solemn commitment 
to assist refugees and asylees, who have fled persecution and have 
often spent years in refugee camps waiting for a chance at a new life. 
We did not make the decision to reallocate these funds lightly. We 
simply did not have other options when faced with our legal duty to 
care for unaccompanied children and after exhausting our transfer 
authority.
    Even these additional funds are not sufficient to care for the 
growing number of unaccompanied children in the United States. The 
President's emergency supplemental request seeks an additional $1.8 
billion for HHS to provide care for these children, consistent with 
Federal law, while also maintaining services for refugees. With these 
funds, HHS will be able to acquire additional capacity in the near term 
to accommodate the growing number of unaccompanied children, and 
continue the ongoing medical response activities that our Department is 
supporting. It also provides resources for HHS to establish more 
permanent capacity that will allow us to replace temporary shelters, 
reducing our need to use DOD facilities, and will allow us to shift to 
more cost-effective care for these children. We are requesting 
additional funding for the remaining months of fiscal year 2014 and 
then going forward. Securing these funds now will enable us to better 
manage the program, including the need to secure additional permanent 
shelter capacity and increase the number of children we can serve and 
to reduce the use of temporary shelters provided by DOD.
                               conclusion
    In my trip last week, I witnessed the remarkable work of our men 
and women on the ground, protecting our borders and caring for 
children. This is truly a unified government and community response, 
with employees across the government working side by side every day to 
respond to the tremendous challenges presented. And they are not doing 
it alone. Top-notch organizations around the country serve as our 
grantees and operate shelters that provide compassionate care to 
unaccompanied children. Communities are pitching in, too--from donating 
astroturf for a recreational space to arranging religious services for 
the children. Americans can be proud of the work carried out through 
partnerships between government entities, the military, and 
communities.
    Congress is a key partner in this response as well, and I 
appreciate the attention that you and your colleagues have paid to this 
important issue. I look forward to working with you on our response and 
ensuring that HHS and our partners have the necessary resources to 
provide care for unaccompanied children, provide needed services to 
refugees, and do best by our communities.
    Again, thank you for the opportunity to testify. I would be happy 
to answer any questions you may have.

    Chairwoman Mikulski. Secretary Johnson. STATEMENT OF HON. 
JEH JOHNSON, SECRETARY, DEPARTMENT OF HOMELAND SECURITY
    Secretary Johnson. Thank you, Madam Chair, Vice Chair 
Senator Shelby. Thank you for hearing us today.
    You have my prepared statement. Let me just summarize it 
with some less formal observations about this request.
    First of all, I believe we can and we will stem this recent 
tide of illegal migration into the Rio Grande Valley sector.
    The request that we have made for a $3.7 billion 
supplemental is, indeed, a lot of money for the taxpayer. I 
think Senator Shelby asked the right question: What will it 
address? What am I being asked to pay for?
    And from my perspective, this request has the right focus 
on deterrence, added detention, and removal, and removal more 
quickly than we have done in the past.
    From my perspective, the supplemental seeks $1.1 billion 
for Immigration and Customs Enforcement (ICE), $879 million of 
which goes to adding detention capacity for adults who bring 
their children--family units, as we refer to them. We have 
already begun the process of building increased detention 
capacity for family units at Artesia, New Mexico, where I am 
going tomorrow. We need money to build additional family unit 
capacity.
    $109 million goes to ICE for working with the three Central 
American countries from which this migration is coming, to 
expand their own resources.
    With respect to the Customs and Border Protection (CBP), 
$433 million is requested, $364 million of which is for added 
Border Patrol agents' overtime and the like, for their 
capacity.
    As DOJ will point out, there is a $640 million request, $45 
million of which goes to more judge teams and to an increased 
caseload of 55,000 to 75,000 cases a year. The Deputy Attorney 
General and I have already agreed that with this added 
capacity, the recent influx should be the priority.
    The State Department is seeking $300 million, $295 million 
of which is for repatriation and reintegration into society.
    Members of the committee, doing nothing is not an option. 
At our current burn rate within the Department of Homeland 
Security, ICE will run out of money in mid-August. Given the 
added transportation costs, given the added enforcement costs, 
Customs and Border Patrol will run out of money by mid-
September, at the current burn rate, given the situation we 
face.
    The one additional point I would like to add is the 
transfer authority that we have requested within the Department 
of Homeland Security and between HHS and DHS, in our view, is 
critical, on the basis of the possibility of evolving 
circumstances.
    I would also like to point out that we are not starting 
from standing still. We have already done a number of things to 
address the recent influx. We have, with respect to the adult 
population that is part of this recent migration, already 
dramatically reduced the expedited removal time, the turnaround 
time, from something like 33 days to 4 days with respect to the 
adult population.
    I personally witnessed, when I was in Guatemala 2 days ago, 
an airplane of adults coming back, who were being repatriated 
to Guatemala. And we have asked for additional capacity for 
repatriation.
    With regard to the family units, I have already noted that 
we have built Artesia, New Mexico, which is a Federal Law 
Enforcement Training Center (FLETC), into a detention center 
for family units. I am going there tomorrow to highlight that 
fact, and we need to build more.
    With regard to the unaccompanied children, this is 
obviously a major challenge with a humanitarian component to 
it. I know that personally. Along with Secretary Burwell, we 
have spent considerable time ourselves with the children, and 
we are bound and determined to do the right thing.
    But we are and we must request added resources to move 
these cases quickly. Along with the Department of Justice, 
there is a public relation awareness campaign, which the First 
Lady of Guatemala herself, along with this government, has 
spearheaded.
    This is the First Lady of Guatemala's public awareness 
campaign, which she gave me yesterday--``Stay back home''--that 
she's asking the children of her country to hear.
    The Guatemalans have established a task force that I 
witnessed yesterday. And the Mexicans, I am pleased to note, 
announced on Monday that they intend to add to their border 
security along their southern border.

                           PREPARED STATEMENT

    So considerable progress has already been made in this 
regard to stem this tide, among other things. But the 
supplemental is, in our judgment, an absolute necessity to 
address the situation.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Hon. Jeh Johnson
    Chairwoman Mikulski, Ranking Member Shelby, and members of this 
committee, thank you for the opportunity to testify today about the 
Department's efforts to address the recent rise of unaccompanied 
children and adults with children crossing the Southwest border in the 
Rio Grande Valley in South Texas.
    The recent and dramatic rise in illegal migration across our 
border, from Honduras, El Salvador and Guatemala, presents a major 
challenge to the United States. Particularly because so many of those 
crossing our border are children, there is also a humanitarian 
dimension to this problem, which the U.S. Government is bound and 
determined to respect. As Americans, we will adhere to domestic and 
international law, due process, and the basic principles of charity, 
decency, and fairness. But, in the final analysis, our border is not 
open to illegal migration.
    Our message is clear to those who try to illegally cross our 
borders: you will be sent back home. We have already added resources to 
expedite the removal, without a hearing before an immigration judge, of 
adults who come from these three countries without children. We have 
worked with the governments of these countries to repatriate the adults 
quicker. (Indeed, while in Guatemala City 2 days ago, I personally 
witnessed a flight of repatriated adults returning home.) Within the 
last several months, we have dramatically reduced the removal time of 
many of these migrants. Within the law, we are sending this group back, 
and we are sending them back quicker.
    Then there are adults who brought their children with them. Again, 
our message to this group is simple: we will send you back. We are 
building additional space to detain these groups and hold them until 
their expedited removal orders are effectuated. Last week we opened a 
detention facility in Artesia, New Mexico for this purpose, and we are 
building more detention space quickly. Adults who brought their 
children here expecting to make it to the nearest bus station in the 
United States were surprised that they were detained at Artesia. They 
will be sent back quickly, with the sad recognition that the large sum 
of money they paid a criminal smuggling organization to get them to the 
United States will go to waste.
    Then there are the unaccompanied children. As I have said many 
times, the long journey for a child, in the custody of a criminal 
smuggling organization, from Central America to the United States is 
dangerous. Many of the children are exploited, abused and hurt. Under 
our laws, an unaccompanied child from Central America must be 
transferred from the Department of Homeland Security (DHS) to the 
Department of Health and Human Services (HHS) and placed by HHS in a 
situation that is in the best interest of the child. But, the removal 
proceeding against the child continues. Every child will retain the 
right, like adults, to assert a claim of asylum or seek other 
protections. But, unless the child has been granted asylum or some 
other protection in this country--and the vast majority will not--he or 
she will be sent back and we seek additional resources to do that 
quickly.
    Those who cross our border illegally must know there is no safe 
passage, and no free pass; within the confines of our laws, our values, 
and our resources, they will be sent back to their home countries.
    I am grateful that the Senate Appropriations Committee included in 
its fiscal year 2015 DHS appropriations bill an additional $164.5 
million to address this surge in unaccompanied children. However, given 
the current dramatic increase in apprehensions and activities 
associated with unaccompanied children and family groups, the resources 
necessary to appropriately address this issue are simply not available 
within the current fiscal year 2014 budget or the proposed fiscal year 
2015 appropriation. To effectively address this emerging crisis, the 
President has requested emergency supplemental appropriations of $3.7 
billion to comprehensively address this urgent humanitarian situation, 
including $1.5 billion for DHS to support more detention and removal 
facilities and enhanced processes as well as increased activities to 
disrupt and dismantle the human smuggling organizations that bring 
these individuals across U.S. borders.
    Put plainly, without supplemental funding, in August U.S. 
Immigration and Customs Enforcement (ICE) will run out of money and DHS 
would need to divert significant funds from other critical programs 
just to maintain operations. Likewise, the Department of Health and 
Human Services (HHS) will be unable to address the influx of children 
by securing sufficient shelter capacity, leading to more children being 
held at short term border patrol processing stations for longer periods 
of time. Going forward, HHS will be unable to set-up more stable, cost-
effective arrangements for these children, Border Patrol agents will 
have to be re-assigned from their border security work to assist at 
facilities housing children, and ICE will lack the resources needed to 
sufficiently maintain and expand detention and removal capacity for 
adults with children who cross the border illegally. Without additional 
funds, the Department of Justice (DOJ) will be unable to keep pace with 
its growing caseload, leading to longer wait times for those cases 
already on the docket. And absent dedicated resources in Central 
American countries, we will not make progress on the larger drivers of 
this humanitarian situation. For this reason, supplemental resources 
are urgently needed to continue forward with the aggressive response 
that the administration has deployed to date.
    This emergency supplemental request is a direct result of the 
urgent situation in the Rio Grande Valley. In fiscal year 2013, CBP 
apprehended approximately 24,000 unaccompanied children at the border. 
By the end of June of this fiscal year, that number has already doubled 
to more than 157,000, and it continues to climb. We are preparing for a 
scenario in which the number of unaccompanied children apprehended at 
the border could reach up to 90,000 by the end of fiscal year 2014.
    I know that additional money alone will not fully address the 
challenge we face, and we do not make this request lightly. While 
building capacity is necessary, we must also ramp up our ability to 
safely and quickly return the influx of these recent border crossers, 
which is exactly what we are doing.
    As I have previously testified, we have established added capacity 
to deal with the processing and housing of the children and families 
and we are actively exploring additional options. To process the 
increased numbers of unaccompanied children and family groups in Texas, 
DHS has brought the children to our processing center at Nogales, 
Arizona, before any unaccompanied children are sent to HHS, to whom DHS 
is mandated by law to transfer custody once they are identified as 
unaccompanied children. We are also arranging additional processing 
centers to handle the rise in the Rio Grande Valley, including adding a 
1,000-bed processing center in McAllen.
    Critically, DHS is also building additional detention capacity for 
adults who cross the border illegally in the Rio Grande Valley with 
their children. For this purpose DHS has established a temporary 
facility for adults with children on the Federal Law Enforcement 
Training Center's campus at Artesia, New Mexico. The establishment of 
this temporary facility will help CBP process those encountered at the 
border and allow ICE to increase its capacity to house and expedite the 
removal of adults with children in a manner that complies with Federal 
law. Artesia is one of several facilities that DHS will use to increase 
our capacity to hold and expedite the removal of the increasing number 
of adults with children illegally crossing the Southwest border. DHS is 
ensuring that after apprehension, families are housed in facilities 
that adequately provide for their safety, security, and medical needs. 
Meanwhile, we will continue to expand use of the Alternatives to 
Detention program to ensure compliance with notices to appear before 
immigration judges for removal proceedings. DHS has also surged USCIS 
officers to hear credible fear claims and conduct the screening 
process. DOJ is temporarily reassigning immigration judges to handle 
the additional caseload. These immigration judges will adjudicate these 
cases as quickly as possible, consistent with all existing legal and 
procedural standards, including those for asylum applicants. Overall, 
this increased capacity and resources will allow ICE to return certain 
migrants from Central America to their home countries more quickly.
    DHS has brought on more transportation assets to assist in the 
effort. The Coast Guard loaned air assets to help transport the 
children and families between CBP facilities. ICE is now leasing 
charter aircraft to transport unaccompanied children to HHS custody.
    Throughout the Rio Grande Valley sector, we are conducting public 
health screening for all those who come into our facilities for any 
symptoms of contagious diseases or other possible public health 
concerns.
    In order to effectuate the safe and timely return of these 
migrants, we are engaging with senior government officials of 
Guatemala, El Salvador, Honduras, and Mexico to address our shared 
border security interests, the underlying conditions in Central America 
that are promoting the exodus, and how we can work together to assure 
faster, secure removal and repatriation.
    Just yesterday I returned from Guatemala. Joined by SOUTHCOM 
Commander General John Kelly and Ambassador Thomas A. Shannon, I met 
with President Otto Fernando Perez Molina to discuss the urgent 
situation and to express our commitment to work with Guatemala to stem 
the flow of individuals, address the root causes of the influx, and to 
expand the capacity of these countries to receive and reintegrate 
repatriated migrants.
    As a part of these international engagement efforts, the United 
States has committed foreign assistance resources to improve the 
capacity of these countries to receive and reintegrate returned 
individuals and address the underlying security and economic issues 
that cause migration. This funding will enable El Salvador, Guatemala, 
and Honduras to improve their existing repatriation processes and 
increase the capacity of these governments and nongovernmental 
organizations to provide expanded services to returned migrants. 
Additional resources will support community policing and law 
enforcement efforts to combat gang violence and strengthen citizen 
security in some of the most violent communities in these countries.
    DHS has also added personnel and resources to the investigation, 
prosecution, disruption, and dismantling of the smuggling organizations 
that are facilitating border crossings into the Rio Grande Valley. ICE 
Homeland Security Investigations (HSI) is deploying 60 additional 
criminal investigators and support personnel to their San Antonio and 
Houston offices for this purpose, as well as supplementing this with 
additional intelligence and programmatic support from ICE headquarters. 
ICE will continue to vigorously pursue and dismantle these human 
smuggling organizations by all investigative means to include the 
financial structure of these criminal organizations.
    We have increased CBP staffing and detailed 115 additional 
experienced agents from less active sectors to augment operations 
there. On June 30, I announced the immediate deployment of 150 U.S. 
Border Patrol agents to the Rio Grande Valley sector to augment illegal 
entry detection efforts while enhancing processing and detention 
capabilities.
    Our plan of action is comprehensive and wide-reaching. However, the 
measures that we have taken--which have been critical and must be 
sustained--are and will continue to be costly. Many of these activities 
were not contemplated at the time Congress passed the fiscal year 2014 
DHS appropriations act. With such a dramatic increase in the number of 
unaccompanied minors and family groups being apprehended, significant 
additional resources are needed. As a result, the President sent a 
letter to Congress on June 30, providing an update on the 
Administration's efforts to address this situation and requesting 
congressional action on emergency supplemental appropriations 
legislation to support the following:
  --an aggressive deterrence strategy focused on the removal and 
        repatriation of recent border crossers;
  --a sustained border security surge through enhanced domestic 
        enforcement, including interdiction and prosecution of criminal 
        networks;
  --a significant increase in immigration judges, reassigning them to 
        adjudicate cases of recent border crossers, and establishing 
        corresponding facilities to expedite the processing of cases 
        involving those who crossed the border in recent weeks;
  --a stepped up effort to work with our Central American partners to 
        repatriate and reintegrate migrants returned to their 
        countries, address the root causes of migration, and 
        communicate the realities of these dangerous journeys; and
  --the resources necessary to appropriately detain, process, and care 
        for children and adults.
    Specifically, the President has requested your support on emergency 
supplemental appropriations legislation providing DHS with $1.5 billion 
for fiscal year 2014 and 2015 costs related to surge in unaccompanied 
children and families. Of this amount, $433 million is included for CBP 
and $1.104 billion is included for ICE.
    Of the $433 million included for CBP, $329 million is for 
operational costs to include care, feeding, and transportation costs of 
unaccompanied children and family groups. In addition, this amount 
would provide $35 million for new processing and detention facilities 
at Nogales and McAllen. Finally, the request supports CBP's efforts to 
detect and interdict unaccompanied children across U.S. borders, 
including $29 million for increased CBP support of the Border Security 
Task Forces, particularly along the Southwest border, and $39 million 
for an additional 16,526 flight hours (above the level in the 
President's fiscal year 2015 Budget request) and 16 additional crew 
members for CBP's Unmanned Aircraft Systems.
    Of the $1.104 billion included for ICE, $995 million is for 
operational costs to include the detention, alternatives to detention, 
prosecution, and removal of family groups, as well as transportation 
costs of unaccompanied children to HHS custody. Another $109 million is 
included to support increased efforts to detect, disrupt and dismantle 
efforts to smuggle unaccompanied children and family groups across U.S. 
borders.
    The requested amount would include $116 million for operational 
costs associated with the transportation of unaccompanied children to 
HHS custody, and $879 million for 6,350 additional family unit beds, 
23,000 additional alternatives to detention participants per day, 
additional prosecution capacity, and related transportation and removal 
costs for family groups. Finally, the request strengthens ICE efforts 
to detect and disrupt efforts to smuggle unaccompanied children across 
U.S. borders, including $46 million for 179 additional members of the 
Border Security Task Forces, particularly along the Southwest Border, 
$38 million for additional domestic and international investigations 
and intelligence support, and $6 million for Operation Torrent Divide.
    As the urgent situation presented by the influx of unaccompanied 
children and families in south Texas continues to evolve, we will look 
to use every available tool to ensure that we are addressing these 
challenges and changing circumstances, including the potential use of 
transfer authority if necessary and appropriate.
    Finally, I want to once again thank Chairwoman Mikulski, Ranking 
Member Shelby, and members of this committee for this opportunity to 
testify and for the strong support that I have received from the 
committee since becoming Secretary of the Department of Homeland 
Security. We are committed to continuing to work closely with the 
committee and Congress on this critical issue, and to keep you 
informed. DHS is updating members and staff on the situation in 
conference calls two times a week, facilitating site visits to Border 
Patrol facilities in Texas and Arizona for a number of members and 
their staff, and providing daily updates to the Appropriations 
Committee on border apprehensions data.
    In cooperation with the other agencies of our Government that are 
dedicating resources to the effort, with the support of Congress, and 
in cooperation with the Governments of Mexico and Central America, I 
believe we can stem this tide and address the broader issues. The 
requested supplemental funding is critical to enabling the Department 
to fulfill its mission and address the dramatic surge in unaccompanied 
children and families in a manner that maintains border security and 
reflects our laws and values.
    Thank you for listening and I look forward to your questions.

    Chairwoman Mikulski. Thank you, Secretary Johnson.
    Ambassador Shannon.
STATEMENT OF HON. THOMAS A. SHANNON, JR., COUNSELOR OF 
            THE DEPARTMENT, THE DEPARTMENT OF STATE
    Ambassador Shannon. Madam Chair, Mr. Vice Chairman, Senator 
Shelby, members of the committee, thank you very much for this 
opportunity to testify before you on the President's 
supplemental budget request.
    My colleagues, the Secretary of Health and Human Services 
and the Secretary of Homeland Security, have described well the 
situation in front of us, both the crisis and the challenge. I 
would like to address briefly the foreign policy implications 
and the larger diplomatic challenge we face.
    I would like to start by making three broad statements 
about the migration crisis that we are facing at this point.
    First, migration by unaccompanied children is not a new 
phenomenon along our Southwest border. However, what we are 
facing now in terms of its size and its composition is. It is 
unprecedented and it is unique in terms of its drivers, and, we 
believe, its solution.
    It is unprecedented and unique first because, historically, 
migration by unaccompanied children has been a Mexican 
phenomenon. It is no longer. Actually, the numbers of 
unaccompanied Mexican children have been dropping over time, 
but what we have been seeing is a dramatic increase in the 
number of Central American children.
    And from our point of view, this means that something is 
driving them out of Central America. This is a Central 
American-driven process.
    Second, while the motives behind migration are mixed, and 
while many of those coming to the United States are driven by 
traditional factors such as family unification and economic 
opportunity, it is evident from interviews with them, both by 
our Customs and Border Patrol officials and by non-governmental 
organizations (NGOs) that work along the frontier, that 
underlying much of the migration is a fear of violence and 
especially activity by criminal gangs. In other words, there is 
a significant push factor to this migration.
    The third point is that the migration is regional. And 
while much of it is directed toward the United States because 
of existing migrant networks in the United States, and the 
attraction of our country, the impact of this migration is 
being felt throughout the region. The U.N. High Commission on 
Refugees has registered a 400-percent increase in asylum 
requests in neighboring countries, which means that when 
children decide they either can't make it to the United States 
or they don't want to run the risk, if they feel they have to 
leave, they do. And they are going elsewhere in the region.
    Because of this third point, we believe that our diplomatic 
approach in the region and our foreign policy approach has to 
be regional in nature also, and that we have to involve the 
source in the transit countries, but also those who are 
affected broadly by migration.
    In the process of working up this supplemental request and 
looking again at our broader Central American strategy, we have 
come up with a five-step or five-part strategy that we are in 
the process of implementing.
    The first step is establishing a common understanding of 
what is happening and why between the United States, the three 
source countries--Guatemala, Honduras, and El Salvador--and the 
major transit country, Mexico.
    The second step is fashioning a common public messaging 
campaign to deter migration, especially by children. This 
campaign highlights the dangers of migration, but also counters 
misinformation from smugglers seeking clients.
    The third step is improving the ability of Mexico and 
Guatemala to interdict migrants before they cross into Mexico 
and enter the established smuggling routes that move the 
migrants to our border.
    Fourth is enhancing the capacity of Guatemala, Honduras, 
and El Salvador to receive and reintegrate repatriated migrants 
to break the cycle of migration and discourage further efforts 
at migration.
    The fifth step is addressing the underlying causes of 
migration of unaccompanied children by focusing additional 
resources on economic and social development, and enhancing our 
citizen security programs to reduce violence, attack criminal 
gang structures, and reach out to at-risk youth. This strategy 
is a cooperative effort defined by collaboration between the 
United States, Mexico, Guatemala, Honduras, and El Salvador. It 
is a new approach to address migration issues that reflects the 
growing ties and common interests created among our countries 
by demographics, trade relations, and increased security 
cooperation.
    As we looked at the portion of the supplemental that 
belongs to the foreign affairs community to the Department of 
State and to our partners in DHS and the Department of Justice, 
we decided that we would allocate $300 million in two fashions, 
$5 million on public diplomacy of messaging and $295 million in 
economic support funds broadly divided between the headings of 
prosperity, governance, and security.
    I am happy to discuss why we did this and how it is that we 
propose to use these monies.
    As noted by my colleagues, we believe this request is 
reasonable and necessary. It builds on work we are already 
doing in Central America, and it takes advantage of existing 
expertise and experience, and expands our ability to encourage 
Guatemala, Honduras, and El Salvador to work with us closely on 
an issue of compelling human drama and national interest.
    This request will also allow us to build a new 
comprehensive and collaborative approach with Central America 
and Mexico to problems that have an immediate manifestation in 
migration, but underlie the larger development and security 
challenges facing our closest neighbors.

                           PREPARED STATEMENT

    By working to meet the challenge of illegal migration of 
unaccompanied children to the United States, we will be 
advancing broader interests in the region and giving substance 
to our vision of an Americas where democracy and markets 
deliver economic and social development.
    This is an investment worth making, and I thank you for the 
opportunity to discuss this request with you and look forward 
to your questions.
    [The statement follows:]
              Prepared Statement of Hon. Thomas A. Shannon
    Madam Chair, Mr. Vice Chairman, members of the committee, thank you 
for this opportunity to testify before you on the President's 
supplemental budget request to address the increase in child and adult 
migration from Central America in the Rio Grande Valley areas of the 
Southwest border.
    It is an honor to appear before you with the Secretaries of 
Homeland Security (DHS) and Health and Human Services (HHS), as well as 
Director Osuna from the Justice Department, to describe the 
supplemental budget request, and to explain how we would use the 
proposed funding to address the migration crisis unfolding on our 
southwest border.
    My esteemed colleagues have laid out the dimensions of this crisis, 
and its impact on existing resources at DHS, HHS, local law enforcement 
agencies, State humanitarian and disaster response teams, municipal and 
State governments, and on local communities as they face an 
unprecedented surge in attempted migration to the United States by 
unaccompanied children.
    We are facing an acute crisis on our southwest border, as tens of 
thousands of children leave Honduras, Guatemala, and El Salvador to 
travel through Mexico to the United States. Driven by a mix of motives 
and circumstances, these children are fleeing their homelands in search 
of their parents, better life opportunities, and, in some cases, safety 
from violence and criminal gang activity.
    The human drama of this migration is heightened by the nefarious 
role of smuggling operations. Smugglers exploit these children and 
their families, preying on their desperation and hope, while exposing 
the children to grave dangers, abuse, and sometimes death as they move 
the children along a journey of more than one thousand miles.
    You have heard of the efforts made by DHS and HHS to apprehend, 
screen, process, place, and in some cases return these children. You 
have also heard of the resource and infrastructure challenges we face 
along our Southwest border. The need for additional funding to meet 
these challenges is great, but such funding is necessary to ensure that 
these children, an especially vulnerable class of migrant, are treated 
in a humane and dignified fashion as we enforce our laws and meet our 
international obligations.
    I would like to describe to you our diplomatic efforts to address 
this phenomenon, and to highlight how supplemental funding would be 
used along with existing resources to address the factors that are 
driving children from their homes in Guatemala, Honduras, and El 
Salvador.
                              the problem
    Migration by unaccompanied children is not a new phenomenon. It has 
ebbed and flowed for some time. However, what has changed is the size 
of the migration and the source countries. In the past, most children 
migrating illegally to the United States were Mexican nationals. Under 
existing law, these children could be returned to Mexico through 
expedited removal. In 2008, we returned 34,083 unaccompanied (Mexican) 
children to Mexican authorities. Vigorous enforcement of our laws, new 
forms of law enforcement partnerships with Mexico through the Merida 
Initiative, and efforts by the Government of Mexico to address the 
factors driving such migration helped reduce the number of 
unaccompanied children from Mexico who were apprehended attempting to 
enter the United States.
    As you are well aware, this decline has been offset by a surge in 
unaccompanied children migrating from Central America. While we have 
witnessed an increase in such migrants from Central America over the 
past several years, more than 50,000 unaccompanied children from 
Central America have been apprehended along our Southwest border this 
fiscal year. Of these migrants, nearly three-quarters are males between 
the ages of 15 and 17 years of age.
    Efforts to understand the drivers of this migration by the United 
Nations High Commission of Refugees, NGOs, and information collected in 
interviews conducted by Customs and Border Protection officials 
highlight the mixed motives behind this surge in Central American 
migration. For the most part, these children have abandoned their homes 
for a complex set of motives that combine a desire to be with their 
parents and pursue a life of greater opportunity and wider possibility. 
Underlying some of this migration is a fear of violence in their home 
communities, and a fear that criminal gangs will either forcibly 
recruit or harm them.
    In short, this migration trend is the product of economic and 
social conditions in Honduras, El Salvador, and Guatemala. A 
combination of poverty, ineffective public institutions, and violence 
have combined to push these children from their homes and to begin an 
arduous and dangerous journey.
    While the United States has been the primary destination of these 
migrants, largely because family members are already here, the impact 
of the migration has been felt throughout the region. The United 
Nations High Commission on Refugees has identified a more than 400 
percent increase in asylum requests made by unaccompanied children from 
Honduras, Guatemala, and El Salvador in neighboring countries.
    To address the challenge posed by the migration of unaccompanied 
children, we have fashioned a five-part strategy designed to stem the 
flow of migrants, screen them properly for international protection 
concerns, and then begin timely repatriation. This strategy consists 
of:
  --One: Establishing a common understanding of what is happening and 
        why between the United States, the three source countries--
        Guatemala, Honduras, and El Salvador--and the major transit 
        country, Mexico.
  --Two: Fashioning a common public messaging campaign to deter 
        migration, especially by children. This campaign highlights the 
        dangers of migration, but also counters misinformation or 
        smugglers seeking clients.
  --Three: Improving the ability of Mexico and Guatemala to interdict 
        migrants before they cross into Mexico and enter the 
        established smuggling routes that move the migrants to our 
        border.
  --Four: Enhancing the capacity of Guatemala, Honduras, and El 
        Salvador to receive and reintegrate repatriated migrants to 
        break the cycle of migration and discourage further efforts at 
        migration.
  --Five: Addressing the underlying causes of migration of 
        unaccompanied children by focusing additional resources on 
        economic and social development, and enhancing our citizen 
        security programs to reduce violence, attack criminal gang 
        structures, and reach out to at-risk youth.
    This strategy is a cooperative effort defined by collaboration 
between the United States, Mexico, Guatemala, Honduras, and El 
Salvador. It is a new approach to address migration issues that 
reflects the growing ties and common interests created among our 
countries by demographics, trade relations, and increased security 
cooperation.
    So far, our diplomatic outreach has created a common understanding 
of the problem of migration by unaccompanied minors and the 
responsibility of all the countries to address it. President Obama's 
outreach to Mexican President Enrique Pena Nieto, Vice President 
Biden's trip to Guatemala to meet with the leaders of Guatemala, El 
Salvador, and Honduras, Secretary Kerry's meeting with these leaders in 
Panama during the inauguration of the incoming Panamanian president, 
DHS Secretary Johnson's trip to Guatemala to meet with President Perez 
Molina, Under Secretary of State Sarah Sewall's trip to Honduras, and 
my own engagement with the Foreign Ministers of Guatemala, El Salvador, 
and Honduras were all part of intense engagement over the last several 
weeks.
    Our engagement has also allowed us to fashion a common public 
message that has received support from the highest levels of government 
in Guatemala, Honduras, and El Salvador. For example, the visits of the 
First Ladies of these countries to the Southwest border to meet with 
unaccompanied children, and their subsequent public statements urging 
their compatriots not to send their children north or expose them to 
smugglers have echoed powerfully in their counties. Combined with 
public messaging campaigns by our Embassies, the governments of these 
countries and Mexico, we have helped create a new and dynamic debate 
about illegal migration that undermines efforts by smugglers to entice 
young people into migration through misinformation about the risks of 
the journey and the benefits they will supposedly receive in the United 
States.
    The announcement of Mexican President Pena Nieto of a new Mexican 
southern border strategy was a welcome step towards improving Mexico's 
ability to exercise greater control along its border with Guatemala. 
Announced in the presence of the Guatemalan president, this initiative 
is a manifestation of a new willingness to work together along their 
border. To match this level of cooperation, we are working to provide 
support to Mexico's southern border initiative and intend to provide 
$86 million of International Narcotics and Law Enforcement (INL) funds, 
and we are working with Guatemala to improve its border controls, with 
special focus on building joint task forces that link all agencies with 
responsibility for border control.
    In regard to repatriation and reintegration, Vice President Biden 
announced during his trip to Guatemala $ 9.6 million to improve the 
ability of the source countries to increase the number of repatriated 
migrants they can receive and assist in their reintegration.
    Our work in Mexico through the Merida Initiative, and in Central 
America through the Central America Regional Security Initiative 
(CARSI), has allowed us to build the relationships, understanding, and 
capacity to help the Central American source countries to address the 
underlying causes or drivers of migration by unaccompanied children. 
Our development assistance work conducted by USAID has also allowed us 
to build new assistance partnerships that can be turned to helping our 
partner countries address the economic and social development issues 
that also contribute to migration.
                        the supplemental request
    The success we have enjoyed so far, while important, is not enough 
to stem completely the migrants moving towards our Southwest border. 
The supplemental request, although focused largely on addressing 
resource and infrastructure issues along our border, also has an 
important component focused on the work I have described. The $300 
million request allocates $5 million on public diplomacy and messaging, 
and $295 million in Economic Support Funds (ESF) on an initiative 
broadly grouped under the headings of prosperity, governance, and 
security.
    The $125 million directed toward prosperity would focus on 
improving economic opportunity and creating jobs, improving customs and 
border controls to enhance revenue collection and economic integration, 
and investing in energy to reduce the cost and improve access to energy 
as a driver of economic growth.
    The $70 million requested for governance would focus on improving 
public sector management, fiscal reform, and strengthening the 
independence, transparency, and accountability of the judiciaries in 
Guatemala, Honduras, and El Salvador. The purpose of these funds would 
be to promote rule of law, attack corruption, and enhance the 
efficiency and efficacy of government.
    The $100 million requested for security would focus on expanding 
community based program to reduce youth crime and violence, expand 
national police capacity, attack gangs and organized crime, promote 
prison reform, and enhance migrant repatriation capacity. These funds 
would allow us to work with our partners to improve citizen security 
and address the violence that is one of the principal drivers of 
migration.
    We believe this request is reasonable and necessary. It builds on 
work we are already doing in Central America, takes advantage of 
existing expertise and experience, and expands our ability to encourage 
Guatemala, Honduras, and El Salvador to work with us closely on an 
issue of compelling human drama and national interest.
    This request will also allow us to build a new, comprehensive, and 
collaborative approach with Central America and Mexico to problems that 
have an immediate manifestation in migration, but underlie the larger 
development and security challenges facing our closest neighbors. By 
working to meet the challenge of illegal migration of unaccompanied 
children to the United States, we will be advancing broader interests 
in the region and giving substance to our vision of an Americas where 
democracy and markets deliver economic and social development. This is 
an investment worth making. I thank you for the opportunity to discuss 
this request with you and look forward to your questions.

    Chairwoman Mikulski. Thank you, Ambassador Shannon.
    Mr. Osuna.
STATEMENT OF JUAN P. OSUNA, DIRECTOR, EXECUTIVE OFFICE 
            FOR IMMIGRATION REVIEW, DEPARTMENT OF 
            JUSTICE
    Mr. Osuna. Good afternoon, Madam Chair, Vice Chairman 
Shelby, and other members of the committee. Thank you for the 
opportunity to speak with you today about the Justice 
Department's role in the Government-wide response to the 
situation along the southern border.
    In addition to the Attorney General, the Deputy Attorney 
General could not appear today because he is actually traveling 
at the border.
    I will be concentrating my testimony today on the Executive 
Office for Immigration Review, which is the largest component 
of the DOJ portion of the supplemental, and it is the agency I 
head.
    EOIR is responsible for conducting civil immigration 
removal proceedings through our immigration courts around the 
country and our appellate level court, the Board of Immigration 
Appeals. Our caseloads follows immigration enforcement patterns 
at the border and in the interior. Every individual that the 
Department of Homeland Security formally charges with being 
removable from the United States results in another case for 
EOIR.
    The 375,000 matters pending at the end of June, we are 
currently managing the largest caseload the immigration court 
system has ever seen.
    Overall, there are now 243 immigration judges in 59 courts 
around the country. Many of our courts are located along the 
southern border, including San Diego, Harlingen, Texas, and El 
Paso. Some courts are actually located within ICE detention 
centers for efficiency reasons, including the border locations 
of Eloy, Arizona; Port Isabel, Texas; and East Mesa, 
California.
    The highest priority cases for EOIR have been those 
involving detained aliens, and the agency has focused on the 
timely adjudication of those cases, which involve individuals 
that DHS has apprehended and charged with removal from the 
United States, often for criminal convictions that make them 
removable.
    The current situation along the Texas border is prompting 
us to reset priorities across the entire immigration court 
system as we along with our Federal partners respond to the 
President's directive to focus additional resources on the 
border, particularly on those, as the Secretary said, who 
entered the border in recent weeks.
    From now on, the following four types of cases will be the 
highest priorities for the immigration courts. Detained cases 
will continue to be a top priority, but to those we are going 
to be adding those involving unaccompanied children, adults who 
arrive with children who are detained, and adults who arrive 
with children who are not detained and are released on 
alternatives to detention, such as electronic monitoring.
    This means that the cases will go to the front of the line 
for adjudication, and immigration judges will be reallocated to 
make sure that these cases are heard promptly ahead of others.
    While there are already likely sufficient number of 
immigration judges assigned to the regular detained cases, what 
the prioritization of the rest of the cases means is that we 
will make additional judges available from the regular 
nondetained dockets to make sure that those cases are heard 
promptly--again, namely unaccompanied children and adults who 
arrive with children.
    This will have large consequences for the broader 
immigration court caseload. Cases not considered a priority 
will take longer to adjudicate, in some cases considerably 
longer. However, given the seriousness of the situation along 
the border, it is the appropriate response for our agency.
    Regardless of the changes in priorities that we are making, 
our overriding principles will remain that every fact is 
considered, every application of law is correct, and all 
persons appearing in our courts will receive due process of 
law.
    In order to meet its mission for the timely adjudication of 
cases, EOIR must be provided with the ability to properly staff 
our immigration courts with the judges and staff to most 
efficiently process cases.
    In 2010, we began an aggressive hiring effort to address 
the significant rise in caseload, and this met with 
considerable success.
    Unfortunately, sequestration and funding constraints that 
resulted in hiring freezes had a negative and worsening impact 
on our operations, increasing the number of cases pending 
adjudication and extending court dockets far into the future.
    This year's appropriations act included funds enabling the 
department to lift the hiring freeze, and we began an 
aggressive hiring effort to back fill more than 200 vacant 
positions nationwide, including at least 30 new immigration 
judges. And the President has presented his request for fiscal 
year 2015, which also includes an increase for our agency and 
would add another 30 judges or more.
    I would like to just highlight for the rest of my time the 
President's request for $71 million presented yesterday for 
supplemental DOJ funding to address the border situation. This 
request includes $64 million to be directly appropriated to DOJ 
and $7 million to be transferred to DOJ from funding 
appropriated to the State Department.
    Of the $64 million appropriated to the Justice Department, 
the EOIR would be allocated $38.7 million to support additional 
immigration judge teams, and $6.7 million for equipment and 
technology to maximize our flexibility and ensure that our 
judges are available when we need them and where we need them.
    In addition, the request includes $2.5 million for 
successful legal orientation programs, and $15 million for 
direct legal representation for children in immigration 
proceedings.

                           PREPARED STATEMENT

    In addition, the request includes just over $1 million for 
DOJ's office of immigration litigation to support the expected 
workload increase, and finally the $7 million that would be 
transferred from the State Department would support a wide 
range of DOJ programs designed to build law enforcement 
capacity in Central America to combat transnational crime.
    I ask for your support for the President's request.
    [The statement follows:]
                  Prepared Statement of Juan P. Osuna
                              introduction
    Madam Chairwoman, Ranking Member Shelby, and other distinguished 
members of the committee, thank you for the opportunity to speak with 
you today about the Department of Justice's Executive Office for 
Immigration Review (EOIR), and our contributions to the Governmentwide 
response to the humanitarian situation in the Rio Grande Valley areas 
of our Nation's Southwest border. The Deputy Attorney General could not 
appear before you today because he is traveling on the Southwest 
border. Border issues generally, and the humanitarian situation that we 
will discuss today, are top priorities for the Department of Justice 
(DOJ).
    EOIR administers the Nation's immigration court system, composed of 
both trial and appellate tribunals. Removal proceedings before EOIR 
begin when the Department of Homeland Security (DHS) formally charges 
an alien with being removable from the United States. EOIR's 
immigration judges decide whether the alien is removable based on the 
facts and the DHS charges and, if removable, whether the alien is 
eligible for--and merits relief or protection from--removal. EOIR is 
responsible only for civil immigration proceedings, and EOIR's 
adjudicators have no role in state or Federal criminal proceedings. 
EOIR's immigration judges, for example, do not determine the guilt or 
innocence of aliens charged with criminal wrongdoing at the border or 
in the interior of the country.
    Overall there are now 243 immigration judges in 59 courts around 
the country. Many of our courts are located near or along the southern 
border, including in San Diego, California; El Paso, Texas; and 
Harlingen, Texas. Some courts are located within DHS detention centers, 
including the border locations of East Mesa, California; Eloy, Arizona; 
and Port Isabel, Texas.
    The appellate level of EOIR is the Board of Immigration Appeals 
(BIA), which sits in Falls Church, Virginia. The BIA consists of 15 
board members, supported by a staff of attorney advisors, and is headed 
by a chairman. The BIA has nationwide jurisdiction and hears appeals of 
immigration judge decisions. When appropriate, the BIA issues binding 
precedent decisions interpreting complex areas of immigration law and 
procedure. Either an alien or DHS may file an appeal with the BIA.
    At the end of fiscal year 2013, EOIR's immigration courts had 
350,330 cases pending, marking an increase of approximately 23,000 
cases pending over the end of fiscal year 2012. In the first three 
quarters of fiscal year 2014, that pending caseload grew by 
approximately 25,000 cases, reaching 375,373 cases, our highest 
caseload to date. The pending caseload is directly tied to both the 
number of cases that DHS files in the immigration courts and EOIR's 
ability to complete those cases with available resources.
    Each immigration court's caseload is tied directly to DHS 
enforcement activities. DHS determines both detention space allocations 
and the filing of charging documents. As such, EOIR is in regular and 
continuing contact with DHS to anticipate and respond to caseload 
trends. Through this close coordination, our two departments are able 
to explore additional ways of handling the removal adjudication process 
more efficiently and focus resources on the highest priority cases.
                       immigration court process
    DHS initiates removal proceedings when it serves an individual with 
a charging document, called a Notice to Appear (NTA), and files that 
NTA with one of EOIR's immigration courts. This is the same process 
currently being followed for the large numbers of unaccompanied minors 
and adults with children that have been crossing the border in recent 
weeks.
    When the immigration court receives the NTA from DHS, the court 
schedules a removal hearing before an immigration judge. There may be 
one or multiple hearings, depending on the nature of the case. Removal 
proceedings begin with a ``master calendar'' hearing, during which the 
immigration judge ensures that the individual understands the alleged 
immigration law violations. The judge also provides information on 
available free or low cost legal representation resources in the area. 
Then, generally, the immigration judge will schedule an ``individual'' 
hearing at which both parties will present the merits of the case to 
the immigration judge.
    The outcome of many removal proceedings depends on whether the 
individual is eligible for relief or protection from removal. 
Immigration law provides relief or protection from removal to 
individuals who meet specific criteria. In most removal proceedings, 
individuals admit that they are removable based on the charge contained 
in the NTA, but apply for one or more forms of relief, such as 
cancellation of removal, adjustment of status, asylum, or other 
remedies provided by immigration law. For cases involving adults with 
children, DHS will issue an NTA to each family member, although the 
individual members may, if appropriate, appear together in consolidated 
proceedings before the immigration court.
    Unaccompanied minors are placed in immigration proceedings when DHS 
files an NTA with the immigration court after the child is placed with 
an appropriate sponsor or in the care of HHS' Office of Refugee 
Resettlement (ORR), thereby allowing the child's case to begin in the 
court location where the child will be residing and avoiding delays due 
to changes in venue. Cases involving children are placed on the court's 
juvenile docket. All immigration courts have arranged for specialized 
juvenile dockets, which consolidate children's cases for master 
calendar hearings. Twenty-six immigration courts are actively hearing 
children's cases on these dockets. The cases generally proceed under 
the laws that apply to adults, but judges employ their training to take 
into consideration the special vulnerabilities and needs of children. 
We provide specialized training to immigration judges who are expected 
to hear cases involving juveniles. In addition, the Office of the Chief 
Immigration Judge has issued an Operating Policies and Procedures 
Memorandum that deals exclusively with the handling of cases involving 
unaccompanied children.
       asylum and protection under the convention against torture
    All EOIR staff members understand the importance of asylum claims 
and claims for protection and the need to decide these life-changing 
cases expeditiously while taking appropriate time to consider all of 
the relevant facts and applicable law. While we take seriously our 
responsibility to decide cases in an expeditious manner, the utmost 
priority for every type of case is ensuring that every respondent is 
treated fairly and that the facts and arguments presented by the 
parties are considered in accordance with U.S. immigration law.
    There are two types of asylum processes--defensive and affirmative. 
The defensive asylum process generally applies to aliens who are in 
removal proceedings before EOIR and who request asylum before an 
immigration judge. The process is called ``defensive'' because it can 
provide aliens with relief (a ``defense'') from removal from the United 
States. The affirmative asylum process generally applies to aliens who 
have not been placed into removal proceedings and who initially file 
asylum applications with DHS's U.S. Citizenship and Immigration 
Services (USCIS). Affirmative asylum applicants whom USCIS does not 
find to be eligible for asylum and are not in lawful status are served 
with a NTA and the cases are referred to immigration court, where 
immigration judges conduct a de novo hearing of their asylum cases.
    Generally, a person in removal proceedings would express a desire 
to file an asylum application at a master calendar hearing. The 
immigration judge would then schedule the person's case for an 
individual hearing on the merits of the asylum claim. Asylum claims 
asserted by UAC are always initially heard by USCIS, and their 
immigration court cases may be administratively closed pending a USCIS 
interview and decision on the asylum application. The immigration judge 
will consider the asylum application if it is not granted by USCIS.
                   legal representation for children
    Children are not guaranteed representation in immigration court 
proceedings, and the need for legal services far exceeds available pro 
bono resources. The removal cases of unaccompanied children are often 
continued multiple times in order to allow a child the opportunity to 
seek legal representation. The Department of Justice is taking action 
to encourage legal access and, in some cases, direct representation to 
children.
    DOJ recently launched ``justice AmeriCorps,'' a grant program that 
will enroll approximately 100 lawyers and paralegals as AmeriCorps 
members to provide legal services to the most vulnerable of these 
children. This program, a partnership with the Corporation for National 
and Community Service, responds to Congress' direction to EOIR ``to 
explore ways to better serve vulnerable populations such as children 
and improve court efficiency through pilot efforts aimed at improving 
their legal representation.'' In addition, DOJ believes the AmeriCorps 
members will help identify unaccompanied children who have been victims 
of human trafficking or abuse to assist in the investigation and 
prosecution of those who perpetrate such crimes on those children.
                        adjudication priorities
    EOIR has been working closely with its Federal partners in order to 
respond to the recent increase in migrants along the southwest border. 
As a result of this coordination, EOIR will be refocusing its resources 
to prioritize cases involving migrants who crossed the southwest border 
in recent weeks and are placed into removal proceedings by DHS. EOIR 
will now prioritize the adjudication of cases involving unaccompanied 
children, adults with children in detention, adults with children 
released through ``alternatives to detention,'' and other individuals 
in detention. To realign our resources with these priorities, EOIR will 
reassign immigration judges in immigration courts around the country 
from their regular dockets to hear the cases of individuals falling in 
these four groups. Lower priority cases will be rescheduled to 
accommodate higher priority cases.
    In addition, as DHS builds additional detention capacity, including 
for family units, EOIR will assign additional judges to handle the 
cases of those individuals who are detained and placed in removal 
proceedings. These judges will help adjudicate new cases as quickly as 
possible consistent with fairness and due process and all existing 
legal and procedural standards, including those for asylum applicants.
    Because some immigration judges will be reassigned to immigration 
courts along the southwest border, the recent migrant influx is likely 
to impact the dockets of immigration court locations nationwide. 
Therefore, EOIR will also focus its attention on hiring new immigration 
judges to adjudicate cases in immigration courts around the country. 
EOIR also plans to expand its legal access programs in order to improve 
access to legal information and counseling for those facing removal 
proceedings. EOIR this week sent to the Federal Register a rule to 
provide for the appointment of temporary immigration judges to assist 
with the situation.
    Although adjudication priorities are changing, all cases will be 
adjudicated consistent with all substantive and procedural rights and 
safeguards applicable to immigration proceedings. EOIR remains 
committed to working with our Federal partners to help address this 
urgent border situation as it continues to evolve.
                       budget and resource impact
    EOIR must maintain the ability to properly staff our immigration 
courts with the immigration judges and support staff needed to most 
efficiently and fairly process cases. In 2010, the Department and EOIR 
placed a great emphasis on the hiring of new immigration judges in 
order to address the rapidly rising caseloads. The effort met with 
significant success, increasing our immigration judge corps and adding 
more law clerks to assist the judges.
    Unfortunately, funding constraints that resulted in a hiring freeze 
beginning in January 2011 had a negative and worsening impact upon 
EOIR's core mission, and increased the number of cases pending 
adjudication and extending court dockets further into the future. And 
more than 100 immigration judges--more than one-third of the 
immigration judge force--are eligible to retire in fiscal year 2014 
alone.
    In February 2014, the fiscal year 2014 appropriations act included 
funds enabling the Department to lift the hiring freeze and EOIR began 
a hiring initiative to backfill more than 200 vacant positions, 
including at least 30 immigration judges.
    The Department continues to seek the resources necessary to hire 
additional immigration judges, BIA attorneys, and other staff; to 
provide them with sufficient training and tools, and to continue 
pursuing other improvements that will benefit the immigration court 
system and the parties who appear before EOIR.
    On March 4, 2014, the President presented his fiscal year 2015 
budget request to Congress. EOIR's request includes $347.2 million in 
discretionary budget authority, which is approximately 11 percent above 
the fiscal year 2014 enacted level. The resources the President's 
budget requests for EOIR for fiscal year 2015 are essential to our 
ongoing efforts to recruit, train, and equip top-quality immigration 
judges and court staff.
    As you know, the President has proposed a supplemental funding 
request for fiscal year 2014 that includes $64 million to be 
appropriated to DOJ and $7 million to be transferred to DOJ from 
funding appropriated to the State Department. Of the $64 million 
appropriated directly to DOJ: EOIR is requesting $38.7 million to 
support 25 additional immigration judge teams, in addition to 15 
temporary immigration judges EOIR will designate $6.7 million for 
equipment to maximize our flexibility and ensure that our judges are 
available where we need them; $2.5 million for the Legal Orientation 
Program (LOP) and the Legal Orientation Program for Custodians (LOPC), 
which provides direct assistance to adults and custodians of children 
in the immigration court system, including legal orientation 
presentations to the adult care givers of unaccompanied children in 
EOIR removal proceedings; and $15 million for direct legal 
representation to contract with lawyers to represent approximately 
10,000 children in currently in immigration proceedings. DOJ's Office 
of Immigration Litigation within the Civil Division is requesting $1.1 
million to support the expected workload increase in the Civil 
Division's Office of Immigration Litigation.
    In addition, $7 million of the Department of State request would 
support the wide range of DOJ programs in the region, including vetted 
units, Regional Legal Advisors, and Senior Law Enforcement Advisors. 
This funding will allow DOJ to assist Central American countries in 
combating transnational crime and the threat posed by criminal gangs. 
The aim is to address the issues that have been a factor in forcing 
many migrants to flee Central America for the United States.
    Specifically, the State funding for DOJ would provide legal and law 
enforcement advisors for El Salvador, Guatemala, and Honduras and allow 
the Department to initiate law enforcement and prosecution training 
programs in each of the three countries to build capacities to 
effectively handle ongoing complex investigations, emphasizing the 
investigation of human smuggling organizations; improve communication 
between law enforcement and prosecutors regarding enforcement actions 
on the border, particularly in cases involving human smugglers; and 
help create teams of human trafficking prosecutors and organized crime 
prosecutors who could respond when needed on short notice.
                               conclusion
    Madam Chairwoman, Ranking Member Shelby, and distinguished 
committee members, despite the caseload challenges that it faces, EOIR 
continues to make great strides. Our adjudicators and staff are 
dedicated professionals who work every day to ensure efficient and fair 
immigration court proceedings, both at the trial and appellate levels. 
EOIR faces the demands of a large and increasing caseload, but, with 
Congress's continued support, we are confident that EOIR will 
effectively meet that challenge.
    Thank you for your interest and for the opportunity to speak with 
you today. I am pleased to answer any questions you might have.

    Chairwoman Mikulski. I want to thank the witnesses for 
their testimony, and now we are going to go to questions.
    You can see the enormous interest of the committee, that we 
have 24 of our 30 Senators who are members of this committee 
who are participating.
    It will be led off by myself and Senator Shelby, followed 
by Senators Tester and Alexander, Udall and Moran, Murray and 
Collins, Merkley and Johanns. That is the first hour. I can go 
to the second hour, but we are going to move right along here.
    I would like to go to the written testimony of Secretary 
Johnson, and I really ask my colleagues on the committee to 
turn to page 2, the second paragraph. What this says is, 
without the supplemental funding in August, and then, Mr. 
Secretary, you elaborate on what will happen if we do not pass 
the supplemental. So I would ask my colleagues to look at it, 
but I am going to go to you, Secretary Burwell.
    Of the $3.7 billion, $1.8 billion is at HHS. Now, if we 
don't pass the supplemental by August, what will happen? You 
gave a compelling narrative about the situation of the 
children, but what is it that you need $1.8 billion to buy?
    And that is what America's middle class is asking. We are 
worried about these children, but back home, they are worried 
about their children.
    Could you tell us why this is urgent, why you need the $1.8 
billion, and what happens if we don't do this supplemental?

                   HHS UNACCOMPANIED CHILDREN FUNDING

    Secretary Burwell. The money for HHS is purely for the care 
of the children, and we generally refer to that as beds, and 84 
percent of that we say is for beds for the children, and 14 
percent for other services, and 2 percent just in terms of 
administrative costs over time.
    But with regard to when we say a bed, what we mean is 
actually the full care for the child. And I assume that we are 
going to talk about that throughout the hearing today, in terms 
of whether that is the fact that all of those children receive 
a wellness exam. And that is important to the public health of 
our Nation. It is important to the public health of those 
children.
    Each of those children also receives mental health 
interviews. As we have talked about, these children have been 
in, some of them, very tragic situations, and we need to make 
sure that as we place those children, we consider those types 
of things. The child is in our care.
    In addition, we are not putting an additional burden on the 
communities when the child is in our care. When the child is in 
our care, we actually do many of the health examinations as 
part of our system where the child is.
    In addition, we are educating and providing some 
educational components for those children so they are not in 
the system.
    And so the cost for us in terms of the overarching cost is 
really about the care.
    The 14 percent are other services. Those are legal services 
and certain health services that go beyond what we provide. So 
if a child actually has a situation that requires medical 
attention that is beyond basic child welfare that the 
physicians and other medical attendants can take care of and 
the child must go to the hospital, we pay for that care, the 
Federal Government. And part of HHS's responsibility pays for 
that care.
    In addition are the costs that we are talking about when we 
say the legal costs. The type of assistance that we pay is for 
the children when they come in to receive materials, and 
sometimes those are done by video and sometimes those are done 
in person.
    And they receive two types of information. One is the 
children come to understand and know their rights and 
protections that they have as part of this process. The second 
thing is the children are actually taught, and it is explained 
what the immigration proceedings that they will face will be.
    For some of the children, we do additional supplemental 
group education sessions where they can ask questions, and 
overtime for certain children that have special needs.
    That is what the money is for.
    Chairwoman Mikulski. So what happens is, while Ambassador 
Shannon and the State Department are supposed to be encouraging 
people not to come, and I think the fact is there is not enough 
money going after the gangs, they meet the Border Patrol, and 
then they come to you while their legal status is being 
determined.
    Now then this goes to this: So if we don't pass this bill 
before this August recess, what happens?

                       NEED FOR ADDITIONAL FUNDS

    Secretary Burwell. So for us, there are two things that I 
think are important in terms of the time sensitivity. If we 
continue on the current trajectory that we saw in May-June, 
what happened in May and June is the number of children that 
came through DHS exceeded the number of beds that we had 
available at HHS. And what that means is that those children, 
whenever that number exceeds, those children are at the border. 
And those children are in detention and holding pens until we 
can move them.
    And so the ability of HHS, so if we stay on the current 
trajectory--and we are actually doing pilots to try to speed 
our process. We are doing everything we can. There are three 
variables: the number of kids, the number of beds, speed with 
which HHS can move the children. We are working on that speed 
as much as we can, but we need to do this in a safe and secure 
way.
    And what it is about is in August, if we continue on the 
May-June trajectory, the ability for HHS to bring on beds so 
that we no longer have more coming in than I can process at HHS 
and our teams can on a daily basis, they will be backed up at 
the border.
    The other thing just for economic perspective----

                 EFFECTS ON BORDER WITHOUT SUPPLEMENTAL

    Chairwoman Mikulski. And then what happens to you at the 
border?
    Secretary Johnson. Senator, because of the recent spike in 
migration, we have had to surge within ICE transportation costs 
and the cost of building increased detention capability, most 
notably for the family units.
    To be honest, ICE had very, very few beds for family unit 
detention capability, and we have had to build more to deal 
with this, to send people back quicker.
    The Border Patrol has been working overtime, so we have 
incurred those overtime costs as well as simply the cost of 
caring for all the children at the border.
    And so as I said earlier, at the current burn rate, ICE is 
going to run out of money in mid-August, and we project that 
CBP is going to run out of money in mid-September. If there is 
no supplemental, we are going to have to go to some very 
dramatic, harsh form of reprogramming, which I am sure the 
committee is familiar with, away from some vital homeland 
security programs that I am sure that members of this committee 
care a lot about, or risk Antideficiency Act violations, which 
is intolerable to me. So that is the situation we face.
    Chairwoman Mikulski. So with my time expired, the fact is 
that the failure to act does not save money for the taxpayer. 
What it essentially does is back up the ability of these 
children to be in a safe and secure surrounding. They will be 
primarily at the border with Border Patrol agents who are law 
enforcement, dedicated law enforcement people, in situations 
that are in facilities that were never meant to house children. 
So they have overcrowding, poor sanitation, a variety of things 
there.
    So that would be a big chokepoint, and you have to start 
reprogramming money from other homeland security. Is that 
correct?
    Secretary Johnson. Yes, ma'am.
    Chairwoman Mikulski. Well, again, please go to page 2 of 
the testimony of Secretary Johnson. Thank you.
    I am going to turn to Senator Shelby, but before I do, I 
just want to say one thing. I have seen now in action the 
people caring for the children at Lackland, the faith-based 
organization under contract. I have seen what your Border 
Patrol people are doing. I get a sense of this. I just really 
want to thank all of the men and women who work for our 
government and those fantastic faith-based organizations along 
the border and others reaching out to you for the way they are 
really trying to meet this in a way that is humane, legal. But 
ultimately we need to prevent the way these children are being 
continually exploited by the traffickers.
    Senator Shelby.

           TRAFFICKING VICTIMS PROTECTION REAUTHORIZATION ACT

    Senator Shelby. Thank you.
    Secretary Johnson, is the Trafficking Victims Protection 
Reauthorization Act (TVPRA) of 2008, which you are very 
familiar with--I know it was a well-meaning piece of 
legislation, because we are against human trafficking for 
adults, children, everything like that--but is that part of the 
problem in detaining and processing these children now?
    We have heard reports that we probably need to change that 
law in some way, amend that law, as we talk about more money.
    Do you want to address that?
    Secretary Johnson. TVPRA, which became law in 2008, 
requires that when we identify a child as an unaccompanied 
child, I am required to give that child over to the Department 
of Health and Human Services (HHS), and HHS acts in the best 
interest of the child.
    We are talking about unaccompanied children who don't have 
with them an adult to make decisions on their behalf. So I 
believe that the intentions behind the law, the spirit of the 
law, reflect very worthwhile principles and reflect our 
American values, frankly.
    I do believe that--and this is not part of this particular 
request. I do believe that some type of added discretion on my 
part would be helpful to address this particular situation.
    And so right now, what we have in mind is treating 
unaccompanied migrants from the three Central American 
countries, which are what we call noncontiguous countries, as 
being from contiguous countries.
    Right now, we have the discretion to offer unaccompanied 
children from a contiguous country--i.e., Mexico--the ability 
to accept a voluntary return. And a lot of them actually do 
accept voluntary return.
    And so we want the flexibility in this current situation to 
have that discretion to offer someone from a Central American 
country.
    Senator Shelby. So if we amended the law to give you that 
discretion, you think that would help you to some degree?
    Secretary Johnson. Yes, sir.
    Senator Shelby. Okay.
    Thank you.
    Director Osuna, the administration announced on Wednesday 
that in immigration proceedings, unaccompanied alien children 
will now be given priority over adults. We have seen no 
explanation of how resources will be allocated to achieve this 
end. Just bear with me a minute.
    At the moment, it is my understanding--correct me if I am 
wrong--the docket for detained persons takes priority over 
other cases, but it is the docket for nondetained persons--
children, or whatever--where the unaccompanied alien children 
(UAC) children are placed.
    If you don't shift resources to where the problem is, how 
do you prioritize these cases? And I guess following up on 
this, how many children are being detained as opposed to 
nondetained status? Give us an idea there.
    Mr. Osuna. Sure, Senator. To answer your question about how 
to address this without more resources, we don't.
    The point of the setting of the new priorities that now 
include unaccompanied children is to be able then to shift 
immigration judge and immigration court resources away from the 
nondetained dockets, which are a big portion of the dockets, to 
the unaccompanied children.
    Now the unaccompanied children, for the most part, are not 
detained. The vast majority of them are actually released by 
HHS and put in the care of a custodian, often a family member.
    Senator Shelby. Is it most of the time a family member?
    Mr. Osuna. That is correct.

                        PLACEMENT WITH SPONSORS

    Secretary Burwell. Yes, about 55 percent are actually 
parents and getting us up to another 30 percent will be other 
family members, such as relatives, sisters, brothers, aunts, 
uncles.
    Senator Shelby. For people who are nondetained--in other 
words, they come in, we process them, we examine them and all 
this, and they are put out with their family or to a church or 
somebody who will take them that is responsible, what is the 
lag time to--say you did it today--until there is an 
adjudicated hearing on whether they will be allowed to stay or 
go home?
    Mr. Osuna. Are you talking just about for unaccompanied 
children?
    Senator Shelby. Yes.
    Mr. Osuna. Okay.
    Senator Shelby. Undetained children, and then detained.
    Mr. Osuna. Unaccompanied children for the most part are not 
detained, and so--I think what you are asking is the lag time 
between the time that it comes to the court system and the time 
that there is a hearing. That varies significantly from court 
to court.
    In some courts, it can take a few weeks. In some courts, it 
can take a long time, sometimes over a year.
    The point of setting these new priorities is to make sure 
that those cases are now heard much more promptly than they 
have been. They will go to the front of the line for 
adjudication.
    Senator Shelby. As we speak, what percentage of children 
that meet the adjudication process are sent home, and what 
percentage stay in the United States, currently?
    Mr. Osuna. I am not familiar with the numbers as to how 
many children are actually sent home. That is a DHS function.
    I can tell you that our immigration judges, their 
responsibility is to issue removal orders or to grant relief 
from removal, in some cases.

                        DEPORTATIONS, NUMBER OF

    But the actual numbers of how many are actually sent home, 
I would defer to Secretary Johnson.
    Senator Shelby. Secretary Johnson, do most of the children 
after adjudication stay in this country?
    Secretary Johnson. Up until the recent situation, the 
average pace at which unaccompanied children were deported was 
something like 1,800 year.
    Senator Shelby. And how many stayed? Thousands?
    Secretary Johnson. Eventually, if there is a final order of 
deportation, and they have gone through the process, they 
should be returned to their home countries.
    Senator Shelby. Should be.
    Secretary Johnson. We have done that at a rate of about 
1,800 per year. And part of this request is so that we can 
accelerate that process, so that more are returned, given the 
current situation.
    Senator Shelby. Thank you.
    Chairwoman Mikulski. Senator Tester.

               U.S. CUSTOMS AND BORDER PROTECTION FUNDING

    Senator Tester. Thank you, Madam Chair. And thank you all 
for being here.
    I will start with you, Jeh Johnson. $433 million is slated 
to go to Customs and Border Patrol, $364 million for overtime 
and new border agents.
    Where is the other $70 million going?
    Secretary Johnson. Good question.
    Senator Tester. You can get back to me on that. That is 
fine.
    Secretary Johnson. I am happy to do that.

                          BORDER PATROL AGENTS

    Senator Tester. Are these agents going to be permanent, the 
agents you are hiring with the additional $364 million?
    Secretary Johnson. It is, I believe, for overtime and 
related costs. In terms of actual numbers of hired personnel, I 
would have to get back to you on that number.
    Senator Tester. Okay, because if in fact we are able to get 
this situation solved, we need to visit about whether those 
agents need to be permanent or not.
    Secretary Johnson. Just so it is clear, a lot of that cost 
is embedded in simply caring for the kids, the Border Patrol 
caring for the kids.
    Senator Tester. Okay. I got you. But that requires bodies. 
And if it requires permanent bodies to care for the kids, are 
they going to be permanent?

             ADMINISTRATIVELY UNCONTROLLABLE OVERTIME BILL

    Inside baseball: administratively uncontrollable overtime 
(AUO).
    Secretary Johnson. Yes, sir.
    Senator Tester. If that bill were to pass, would that help 
this money go further?
    Secretary Johnson. If the AUO bill that I know you have 
sponsored, and there is a companion version in the House, were 
to pass, long term, we believe that overtime costs would go 
down. You would have a more stable environment. I believe it 
would contribute to this, yes.
    Senator Tester. It would contribute to make this money go 
further.
    Secretary Johnson. Yes, I believe that.
    Senator Tester. I might be working with you on this, Madam 
Chairman, later.
    Mr. Osuna, how many courts exist right now on the southern 
border?
    Mr. Osuna. Along the southern border, we have six, I think 
is what I had in the testimony, three nondetained and three 
detained.
    Senator Tester. You have six courts right now. How many 
additional courts will this supplemental be able to give you?
    Mr. Osuna. The supplemental will allow us to hire 
additional immigration judges. Now those immigration judges, 
because the situation is going to result in caseloads rising 
throughout the country, will be sent to various courts, some 
along the border, but many in courts far from the border.
    Senator Tester. Here's where I am getting to: How many 
additional kids will this allow you to process?
    Mr. Osuna. I don't have an answer for that, Senator, and 
this is why, because we expect that, certainly, a large number, 
perhaps the vast majority of individuals that DHS has 
apprehended and Justice will be placing will end up in our 
courts. Until we actually start seeing those cases, we don't 
have a good handle on the actual number of minors that will be 
coming through our courts. We know it will be substantial.

                    IMMIGRATION PROCEEDINGS CASELOAD

    Senator Tester. Look, I want to help you with this. But how 
can you come to us with the budget request if you don't know 
how many courts, or how it is going to speed up this process? I 
think every one of you talked about speeding up the process to 
make sure the kids who appropriately need to get back to their 
country do.
    So how can you give us a budget request if you don't know 
how it is going to speed the process up? I want to be helpful. 
I want to vote for this.
    Secretary Johnson. Senator, may I?
    Senator Tester. Sure.
    Secretary Johnson. The assumption underlying the request 
from DOJ is that we will be able to add an additional caseload 
of 55,000 to 75,000 cases per year, overall.
    Senator Tester. Okay. And right now, they are handling how 
many a year?
    Secretary Johnson. Right now, the pending caseload is 
275,000.
    Senator Tester. 275,000. Okay. Significant.
    How many kids are coming over the border every day?
    Secretary Johnson. These days, the total apprehension of 
the kids unaccompanied is about 250. It was higher. It is down 
to somewhere to between 200 to 250 per day.
    Senator Tester. Okay, so we will be able to make 
significant inroads into these kids, as far as moving them 
through the process, if in fact this money gets to the 
Department of Justice, correct?
    Secretary Johnson. Yes.
    Senator Tester. On the TV programs, I hear Senators and 
House Members talk about how when these kids are processed, 
they never end up back in court. Is that true? And does this 
money help that not occur?
    Mr. Osuna. Let me just correct the number. There are 
375,000 cases pending in our courts right now, Senator.
    There has been a lot of talk about the in absentia rate. 
The numbers that have been thrown about are actually not 
accurate. There are a significant number of unaccompanied 
juveniles, juveniles that don't end up in immigration court. 
The current rate is 46 percent in absentia rate.
    However, I should note that there are significant 
consequences for somebody who gets notice for a hearing before 
an immigration judge and doesn't show up. That immigration 
judge then has to issue an order of removal, an in absentia 
order of removal that is enforceable, whether that is an adult 
or a child.
    Senator Tester. Will any of these dollars help with the in 
absentia rate?
    Mr. Osuna. There are some dollars going to the LOPC 
program, the Legal Orientation Program for Custodians. That is 
a program that we have that has been very successful in cutting 
the in absentia rate by about 40 percent.
    Senator Tester. Okay, I want to thank you all for your 
testimony.
    Thank you very much, Madam Chair.
    Chairwoman Mikulski. You are exactly right, Senator Tester. 
And I think we have all just said that.
    How do they know what to ask for unless they can honestly 
say how many cases are coming? But if you are not talking to 
DHS--well, let's go to Senator Alexander. He has been waiting.
    Senator Alexander. Thank you, Madam Chairman.
    And I thank the witnesses for coming.
    I think we agree that this is an extraordinary problem and 
an extraordinary amount of money. But with all respect, it is 
an incomplete plan for dealing with the problem.
    And it is not a new problem. We have known about this for a 
couple years, all of us have known about it.
    But in our system of government, it is the President's job 
to lay out a specific plan for what we should do about it. It 
is our job, then, to say, no, we don't like that, we are going 
to change this, and respond to that.
    This is not a complete plan, to me. What are missing are 
three things. Number one, first, we need to secure the 320 
miles of border in the Rio Grande Valley, where a majority at 
least, maybe most of the children, are coming. This is an 
extraordinary, you say unprecedented, surge of illegal 
immigrants, unaccompanied children. We need an extraordinary 
response.
    The quickest way to deal with it and to send a message back 
to these three countries is that those children are coming 
home.
    Second, we need to make it as clear as we can as rapidly as 
we can that what will happen to these children if they come to 
our country is that they will be treated with respect and 
humanely, and sent home, taken home, as soon as we responsibly 
and safely can do it.
    And number three, we need to know from the President what 
changes he wants to make in the 2008 law that apparently is the 
source of a good deal of the problem.
    He said last Monday that he had some changes he wanted to 
make. We need to know what those are, if we are being asked to 
spend this kind of money.
    Let me go through those three things, real quickly.
    Number one, to secure the border. If we want an 
extraordinary response to an extraordinary problem, why don't 
we consider using the National Guard? President Obama has done 
that once. President Bush did it in 2006. He was reluctant to 
do it. I was one of four former governors who was in the Senate 
who urged him to do it. We had been Commanders in Chief of our 
local Guards. He did it.
    And in both cases, it had the desired effect, and the 
Government Accountability Office said it worked. If the 
President were to use the National Guard for this 300-plus 
miles of border, that would send a clear signal in those 
countries to those parents or those smugglers or whoever is 
responsible for this, that the children are coming home, and 
that the border is closed to them.
    That would be the first thing. That would be one thing we 
could do to make the extraordinary response meet the 
extraordinary problem.
    The second would be to make it clear that the children are 
coming home safely but as quickly as we possibly can.
    Then the third thing to do would be this law in 2008. None 
of us are for human trafficking, but the amendments in 2008 
seem to have created an unintended consequence that contributed 
in a dramatic way to the problem. And the President said that 
he wanted to make changes in the law, but now we haven't heard 
exactly what those changes are.
    We have heard from Mr. Johnson that one of those changes 
might be to give him more discretion, so that a child from one 
of those three countries could voluntarily be sent home, which 
apparently they can't today.

                           NATIONAL GUARD USE

    So let me start with this question. Secretary Johnson, if 
in the past President Bush and President Obama used the 
National Guard in a specific instance and used it effectively, 
why wouldn't that be a good tool, both to get the job done on 
that border and to send a clear message to those countries and 
the people of those countries that those children, if they come 
here, will be sent home as quickly and safely as we possibly 
can?
    Secretary Johnson. Senator Alexander, I know from my days 
as General Counsel of the Defense Department, any time you 
deploy an armed force, you should do so with a clear plan and a 
clear objective and clear rules of engagement.
    Unlike the situation we faced in 2006, 2007, this migration 
is all surging into one very specific area of the Rio Grande 
Valley. We know exactly where they are going. And unlike the 
previous rise in migration we faced in 2006, 2007, this 
population, for the most part, wants to be apprehended. They 
are not seeking to evade law enforcement or the National Guard.
    So simply building an added presence on the Southwest 
border on the Rio Grande itself will not necessarily stem this 
tide.
    Senator Alexander. By that logic, we should just open the 
border.
    Secretary Johnson. No, not at all, Senator. What I do 
believe we should do is consider all lawful options, all lawful 
and humanitarian options.
    I have continually asked my staff, for example, I want to 
hear every conceivable option.
    So as this thing evolves, is the National Guard a 
possibility? The National Guard in Title 32 status is hugely 
expensive for the Department of Defense. We have surged a lot 
of resources already. But I want to consider all lawful 
options.
    I would not take some use of the National Guard off the 
table for consideration as this situation evolves.
    But, Senator, I do agree with you that we need to turn this 
population around, and we are taking a number of steps to do 
that. We have dramatically reduced the repatriation removal 
time for the adults who are part of this population. We are 
building detention capability for the family units who are part 
of this population. And we are turning that around.
    I am going to New Mexico tomorrow to make a point of that, 
so that people see that they are coming back.
    And with regard to the unaccompanied children, you have 
heard from the Department of Justice that that process can take 
as long as over a year. We need to dramatically reduce that 
because we have to show that if you do not qualify for some 
form of humanitarian relief under our laws, you must be sent 
home.
    Senator Alexander. Madam Chairman, my time is up, but I 
hope somewhere in the discussion, Mr. Johnson, one of the 
witnesses will tell us exactly what the President wants us to 
do about changing the 2008 law, so the children can be sent 
home more quickly and as safely as possible.
    Thank you.
    Chairwoman Mikulski. About the National Guard, we have 
heard this also in other quarters. However, I would just bring 
out that the State Department--and this goes to where do you 
need to be muscular, and the deterrents--I believe it has to 
come more out of the State Department. And the fact that they 
only asked for $100 million to go after the traffickers and we 
also need Secretary Johnson using the authorities of the 
Department of Homeland Security working with our FBI to be 
going after the cartels, the drug smugglers, and so on, that 
are actually doing massive ad campaigns to recruit them.
    So having guys with guns at the border, I am not so sure to 
do, or going right to these host countries and having the 
deterrents----
    Senator Alexander. Well, in one sentence, Madam Chairman, 
what the Guard did under President Bush was not substitute for 
the Guards at the border. It took over some of the 
responsibilities and permitted the Customs people and other 
people to spend their time doing the things they were trained 
to do.
    Chairwoman Mikulski. Well, what I do want to say, Senator 
Alexander, a lot of us feel there has to be real deterrence and 
going after the really bad, despicable guys.
    So Senator Udall and then Senators Moran, Murray, and 
Collins.
    Senator Udall. Thank you very much. Thank you very much, 
Madam Chair. I very much appreciate the testimony of all of the 
witnesses.
    Secretary Johnson, thank you for your visiting Artesia. As 
you noted in your testimony, Artesia is the first facility you 
have stood up independent for women with children.

    DETENTION CENTER LOCATIONS: CONSULT WITH STATE, LOCAL OFFICIALS

    When you visit it, I would like you to think in terms of 
what are going to be the additional burdens on this small 
community. You will see a facility that is running a law 
enforcement facility on the same campus. It is a very small 
facility. They are now expecting and predicting 670 women and 
children in a very short period of time.
    I included in DHS appropriations markup last week added 
language directing DHS to consult transparently with State and 
local governments and avoid imposing costs on local communities 
for these types of temporary facilities.
    My first question is, prior to DHS making a decision to use 
FLETC, this training center, for family detention, did you 
consult with State and local officials?
    Secretary Johnson. I believe we did. That is a standing 
instruction of mine to my staff. Before we make a decision to 
go someplace for increased detention for processing, we should 
consult with the State and local government.
    Senator Udall. And is there a process to have an ongoing 
briefing with State and local officials in place for things 
that occur, changes in mission, and what happens at the 
facility?
    Secretary Johnson. Yes. I have personally spoken, for 
example, to the Mayor of McAllen, Texas, about the situation in 
the surrounding communities and McAllen. I have met with the 
Governor of Arizona when I went to Nogales. And I suspect that 
I will be meeting with officials in New Mexico tomorrow when I 
go there.
    If it is not on my agenda, I will build it into my agenda.
    Senator Udall. Good. I am sure that the Mayor of Artesia 
would very much like to meet with you and talk with you.
    His description was that he heard on one day that there was 
a rumor, and 2 days later, the facility was open. He had very 
little information, concrete information he could tell his 
constituents in the community.
    Now the communities with detention centers like Artesia are 
very concerned about incurring costs and strains on their 
infrastructure and other resources. In Artesia, for example, 
the mayor told my office that increased bus and vehicle traffic 
is creating traffic problems near the entrance of this law 
enforcement training center. But the city does not have the 
funds to install the necessary traffic signal. His police have 
had to respond to incidents at the detention center.
    I don't believe local communities should bear the costs of 
the crisis at our border. Is there any funding in the 
supplemental request to help offset any cost the new detention 
centers impose on State and local governments?
    Secretary Johnson. Not directly. I don't believe that there 
is.
    But I do agree that we should endeavor to minimize the 
burden on the surrounding communities and that we should be 
mindful of the burden that is being imposed in places like 
Texas, New Mexico, Arizona, Southern California. And so I want 
to work with local mayors and sheriffs, to better enable us to 
do that.

                 FINANCIAL IMPACT ON LOCAL COMMUNITIES

    Secretary Burwell. And I would just add with regard to the 
question in regard to funds in the supplemental to prevent or 
help with burden in local communities, as Mr. Shelby reflected, 
the cost is large. And the cost is large because we, the 
Federal Government, when the children are with HHS, take on the 
majority, the vast majority of anything that the children need, 
so that we are not burdening the community when we are there.
    So in that sense, I understand the number is very large. 
Part of the reason it is large is because we take care of the 
children from beginning to end.

   FEDERAL LAW ENFORCEMENT TRAINING CENTER: DETENTION CENTER FUNDING

    Senator Udall. But, Secretary Burwell, I think you used in 
your testimony, a statement, ``No additional burdens on a 
community.''
    And that is what I am asking for, Secretary Johnson, 
because I believe that if you don't have it in this 
supplemental, it is not going to happen.
    So I think you are in a position of really having an 
incomplete plan before us because you are going to rush to set 
up these facilities. You are not going to anticipate the needs, 
and there is going to be a real problem there.
    What is the cost of operating the family detention center 
at FLETC for a year? And, in the absence of a supplemental, 
where is that funding going to come from?
    Secretary Johnson. The cost of running the detention 
facility we have set up in Artesia, I don't have offhand. I can 
get you that. I would be glad to do so.
    [The information follows:]

    ICE estimates costs of $20.9 million in fiscal year 2014 which 
includes converting the facility as well as operations through 
September 30, 2014. In fiscal year 2015, ICE estimates costs of $54 
million for full year operations. In the absence of a supplemental, DHS 
requested a reprogramming on August 1, 2014, which has been approved by 
both the House and Senate Appropriations Committees.

    Senator Udall. That would be great.
    Secretary Johnson. Not doing anything, frankly, is not an 
option, because it would require us to simply run out of money, 
as I mentioned, in mid-August and make some dramatic 
reprogramming steps.
    Senator Udall. No. I understand that. You said that 
already.
    But where is the funding coming from right now to set up 
the facility that will house 607 women and children?
    Secretary Johnson. It is coming from our existing ICE 
budget.
    Senator Udall. Existing ICE budget. So it is being taken 
away from what?
    Secretary Johnson. It is being taken from other aspects of 
Immigration and Customs Enforcement.
    Senator Udall. Thank you.
    I am sorry I went over a little over, Madam Chairwoman.
    Chairwoman Mikulski. Thank you, Senator Udall.
    Senator Collins.

                 DEFERRED ACTION FOR CHILDHOOD ARRIVALS

    Senator Collins. Secretary Johnson, I think all of us can 
agree that we are facing a humanitarian crisis of the first 
magnitude. More money may well be needed to deal with the 
consequences of this crisis, but it does not address the causes 
of the problem, and that is what is troubling to me.
    It is contrary to the evidence to think that some 57,000 
children would undertake an extremely dangerous journey to 
reach our borders if their parents did not think that they 
would be allowed to stay here once they arrived.
    The administration has pointed to changes made in our 
immigration laws in 2008 as a partial explanation for the surge 
in the number of unaccompanied children. And I think many of us 
would agree that the law does, indeed, need to be revised. But 
it doesn't explain the surge.
    If you look at the chart that I have distributed, the surge 
in unaccompanied children did not begin following the passage 
of the 2008 law. In fact, the numbers actually declined between 
the fiscal year 2010 and fiscal year 2011. The wave of children 
arriving here clearly began in 2012. So we need to look at what 
happened that year.
    Well, on June 15, 2012, President Obama took unilateral 
action and announced his Deferred Action for Childhood Arrivals 
(DACA) policy. Now, let me make clear that I think the 
President's action was motivated by compassion. But it seems 
clear to me that it sent the wrong message to those parents in 
Central America. And it demonstrates what happens when the 
President unilaterally decides to issue an Executive order 
affecting immigration without securing the border.
    The number of children more than doubled between fiscal 
year 2011 and fiscal year 2013. Yet until just recently, the 
President did not even speak out to warn their parents and to 
tell them that the journey would be horrendously dangerous for 
their children, and that they would be sent home.
    We know that many of these children have been abused or 
harmed on their way here. And when the wave became evident 2 
years ago, the President took no action at that time to try to 
stem the tide.
    We know that it will take a long time before all of these 
children have hearings that could lead to their being sent 
home, if they show up at all for the adjudications.
    So my question is, what specifically is the administration 
doing to propose changes in the laws or regulations right now, 
so that these children can be safely and immediately put on 
planes and returned to their parents?
    And wouldn't such an action send the strongest possible 
message to the people of Central America that they should not 
allow their children to go with these smugglers and come here?
    Secretary Johnson. Senator, first of all, I know this from 
personal conversations with these kids--I have spoken with 
dozens of these kids, and I know from talking with Border 
Patrol officers who have spoken with these kids--the first 
thing they say when you ask them why did they come here, it has 
to do with the conditions in the three Central American 
countries.
    ``My mother told me that the gang was going to kill me'' or 
``My brother was killed.'' It is also initially that.
    Second, clearly, they know that if they come to the United 
States, our laws require certain things, that we transfer them 
to the Department of Health and Human Services. But it is also 
the case that the criminal smuggling organizations are creating 
considerable misinformation about the state of our laws, and so 
forth. In order to induce the family members to pay $3,000, 
$5,000, whatever it is, they tell them things like you will get 
a free pass, and it will expire at the end of June or the end 
of May.
    The fact is, and I have been saying this publicly now for 
weeks, and it is being repeated in Central America in the 
Spanish press, that the deferred action program that was 
established 2 years ago is for children who have been in this 
country for 7 years, since June 2007. So it is simply wrong to 
say that if you come here today, tomorrow, or yesterday, you 
are going to benefit from DACA. So we continue to say that. We 
continue to repeat that.
    And they are saying that and repeating that in the Central 
American countries. I said that yesterday in a press 
conference, I believe.
    But we are dealing with criminal smuggling organizations 
that, in order to induce payments of money, will put out 
considerable disinformation about this.
    Now, you have asked about changes in law. I believe, and I 
agree that people in Central America need to see illegal 
migrants coming back--the children, the children accompanied by 
their parents, and the unaccompanied adults. And we are doing 
that. We are already dramatically reducing the time it takes 
for that to happen, and so we are asking for the additional 
resources to my department, to the Department of Justice, to 
turn these people around quicker, including the children.
    So we are asking for that. And in terms of the change in 
law, as I said a moment ago, and this will be in a separate 
submission. We are asking for the ability to treat 
unaccompanied kids from Central American countries in the same 
way we would someone from a contiguous country, so that we have 
the ability to offer them voluntary return, which the kids from 
Mexico do accept.
    Chairwoman Mikulski. Senator Murray.
    Senator Murray. Well, first of all, thank you, Senator 
Mikulski, for holding this hearing today. I think everybody in 
this room, Republicans and Democrats, are at least in agreement 
that what we are seeing along the Nation's Southwest border is 
simply unacceptable.
    As some have mentioned, the numbers of young people and 
children crossing our borders, often by themselves and almost 
always with nothing beyond the clothes on their backs, is 
really staggering. And as everyone here knows, we are not just 
talking about a few individual cases. We are talking about tens 
of thousands of young, often unaccompanied minors entering the 
United States.
    And I want to be very clear about the circumstances that 
these children are facing, the circumstances that are causing 
them to cross a continent by foot and seek safety here in the 
United States. These are not people coming here to take jobs or 
get some kind of free ride. These are children, many of them 7 
or 8 years old. They are fleeing some terrible violence in 
their home countries.
    They are actually being sent here, often by desperate 
mothers and fathers who have had to look them in the eyes and 
literally tell them to run for their lives.
    And I just have to say, as a mother and grandmother, I just 
can't imagine what that would feel like if you were a parent 
saying that to your child.
    So I think we have to be clear about what this is. This is 
a refugee crisis that we are seeing along our southern border.
    And as Americans, we all kind of think about refugee crises 
as situations that happen far away to somebody else. But I 
think we need to open our eyes, that this is something 
happening in our country and it is happening right now.
    This doesn't only affect the Americans who live on our 
southern border. This affects every single American community.
    We have heard in my home State over the last few weeks in 
Washington that we are seeing some headlines and press reports 
that some of these children may be sent to facilities at Joint 
Base Lewis-McChord. It is just a few miles from downtown 
Seattle.
    So all of us, regardless of what State we are in, need to 
take this situation very seriously.
    Now, I am particularly concerned about the condition and 
care of the young women and girls who are being detained along 
our border. So many of them, as we know, face unbelievable 
hardship in their home countries, and I am hearing that many of 
them have endured physical abuse, sexual abuse, violence, human 
trafficking, and a lot of them have fled in hopes of avoiding 
those kinds of fates.
    So it is important that we talk about the resources the 
administration needs to have to fight organized crime on the 
border. Very important. But I am also focused myself on giving 
the administration the resources they need to protect these 
children and to treat them humanely while they are being 
detained.
    We were talking about things like food and water and 
diapers. But it also means we have to be prepared to protect 
these children and young people, particularly the young women 
and girls, from having to once again face that same kind of 
violence and abuse and human trafficking that they are actually 
running away from in their home countries.
    Some of these kids will be sent back to their home 
countries, but we can't ignore the legitimate cries for help 
from refugee children. We often ask our friends around the 
world to support refugees fleeing violence, and it is our turn 
in this country now, and I think we have to accept that as part 
of this.
    We focused on fighting organized crime on our border, 
reducing illegal immigration, but we cannot lose sight of our 
responsibility to provide these children with the most basic 
legal information and guidance. And we have to make sure that 
they have valid claims for asylum, and that someone is actually 
there to help them pursue that.
    More than a year ago now, we all know Republicans and 
Democrats here in the Senate voted to pass comprehensive 
immigration reform. I know that is not the focus of this 
hearing. But we have seen too many tragedies at our border and 
our communities, and it is a tragedy that the House has not 
taken this up, because that is one of the ways that we can fix 
this long-term, comprehensive strategy.
    And I thank my colleagues who have worked on that.

               DETENTION VERSUS ALTERNATIVES TO DETENTION

    But my question for the panel today is, why is the 
administration pursuing costly detention of families instead of 
relying on more cost-efficient and effective alternatives to 
detention?
    Secretary Johnson. Senator, I believe that in order to deal 
with the current situation, and I agree with the comments of 
many of the Senators here, we have to return people and we have 
to show others in Central America that we are returning people. 
That is how to deal with the existing situation.
    In order to do that and do that quickly, we are building 
detention capability for adults who bring their children here. 
We did not have much of that type of detention capability until 
very recently. And so we are turning the adults around faster, 
and we need to turn the adults with children around faster in 
order to send people home.
    Senator Murray. So it is a message, as well as anything 
else.
    Is the administration making sure that each of the children 
who are detained can pursue asylum and have legal 
representation from a qualified attorney, receiving fair 
hearings? Are we assured of that as well?
    Secretary Johnson. It is part of our standard procedure to 
make sure that people are informed of their rights in this type 
of situation.

                             LEGAL SERVICES

    Secretary Burwell. And with regard to when the children 
come to HHS, a number of things happen. First, the children are 
informed of their rights. They are informed of the immigration 
proceedings.
    For those children who are identified--and usually they are 
identified at DHS, if they have a different potential status 
than an unaccompanied child. But that is checked again. And if 
that happens in terms of the issue of asylum for the child, 
then appropriate steps are taken to connect that child with 
someone who can help them with the asylum process.
    In addition, with the children, we continue to try and in 
some cases--under 2,000 but over 1,000 cases--we actually 
connect them sometimes with pro bono and other legal services 
when there are extreme circumstances.
    As you pointed out, there are children who have extreme 
circumstances with regard to things that have happened to them 
along the way, and they need special types of help and support.
    Senator Murray. I don't want to lose sight of that in all 
of this. So I appreciate that.

                       HEALTH AND LEGAL SERVICES

    Secretary Burwell. Yes, and that is a part, as I mentioned, 
when we think about the numbers, 14 percent of the money that 
HHS has asked for is for health and legal services that are 
beyond the basic service that we provide for all children, 
because there are some children who have extreme needs, whether 
those are legal or health.
    Senator Murray. Thank you very much.
    Thank you, Madam Chair.
    Chairwoman Mikulski. I am going to turn to Senator Johanns.
    But just a comment to be made. I know that many Senators 
have had to leave because of their flights and they had to 
leave.
    I want to protect the rights of every single Senator, and 
if any Senator had to leave, I am going to make sure the record 
is open, that they may submit their questions in writing, and 
ask the Departments to respond in 2 weeks. It has been a long 
hearing, and I just want to make sure that everybody has the 
ability to do that.
    Senator Johanns.
    Senator Johanns. Thank you, Madam Chair. You are 
uncompromising in your fairness toward the members, and I 
appreciate that.
    Let me say to the witnesses, thanks for being here.
    This morning, I was driving into work and I was listening 
to NPR. You might be shocked by that, but I was listening to 
NPR.
    And this very well-spoken gentlemen, I wish I would have 
gotten his name, came on and talked about his travels through 
Central America very recently, his interviews with families he 
had talked to. It was very extensive and very informative.
    Basically, what he was saying, at the risk of paraphrasing 
his comments, is that the coyotes or the smugglers or the 
cartel or whatever it is, go to these families and promise 
everything. ``We will get your kids to the border. They will be 
received by the United States of America, the government. They 
will be taken into custody. They will be eventually reunited 
with family members. And the chances of ever being deported and 
sent back home are slim to none.''
    And then they rip the families off. They hit them for 
$3,000, $5,000, $7,000, not a small amount of money in that 
part of the world. And then all the way up to the border, they 
abuse these children, they starve these children, they rape 
these children. They take them through hell on Earth, all with 
the promise that here the United States Government will take 
care of them.
    I have listened carefully to your testimony today, and I 
believe you are proving their case. No reflection on you, Madam 
Secretary. You have to deal with the law that was given to you 
in 2008, December 23. I took the opportunity to review that 
law.
    But here is what is resulting: You tell me, Mr. Secretary, 
that 1,800 get deported. Those are pretty darn good odds. The 
chances are you are not going to get deported.
    Forty-six percent don't show up. Now, I appreciate your 
comments about, boy, if you don't show up, you are in really 
big trouble with us, because when we catch up with you, you are 
going home. Well, we have 12 million people here in the United 
States that have those circumstances.
    Madam Secretary, I read through the law. I took the time to 
look at the 2008 law. Look at what you do. And again, it is no 
reflection on the job you are doing. It is what you have to do 
under the law that Congress gave to you in December 2008.
    You are responsible for their care and custody. You have to 
do an immediate age determination. You have to establish 
policies and programs as to how you are going to care for these 
unaccompanied minors. You have to make sure that when you are 
ready for placements, that they are safe and secure placements.
    So in order to do that, you have to do, literally, 
assessments of the family, the home, the environment, to 
determine whether they are going to be safely placed. You have 
to make sure that there is access to ongoing information. You 
have to do legal orientation presentations. You have to give 
information about access to counsel. Child advocates can enter 
into this. And it just goes on and on and on.
    Now, I don't doubt that this was well-intentioned. I wasn't 
here at the time, but it strikes me as the kind of law that 
came along and people bought into it. I haven't checked the 
vote record on this, but I bet it passed with a bipartisan 
amount of support.
    But my question is, if the coyotes are promising these 
families that these kids are going to get to the United States, 
they are going to be received into custody, they are going to 
be cared for, isn't your testimony today establishing without a 
shadow of a doubt that that is in fact exactly precisely what 
you are going to do when those kids are in your custody?

                              TRAFFICKING

    Secretary Burwell. I think that the question of the 
overarching plan, which is something that has been raised, is 
an overreaching plan, and we are one piece of the plan. We are 
the part that when a child actually gets here, how we treat the 
child, and I think that is the reflection and a question about 
us and our Nation and our values.
    I think what we are saying, and what we are asking for in 
the supplemental is the support to make the coyotes' promise 
not true. And the way we do that is by speeding the time with 
which people go back.
    So the way we break the promise and the part of coyote lie 
that we need to do--you are right, the numbers are not high. 
And I think my colleague Secretary Johnson has said that is our 
objective. That 1,800 number, I think we all believe is not the 
right number to send the signal that it is appropriate to 
deter. Because what we want to do is make the coyotes' promise 
that they are living off of not correct.
    I am not sure that what we want to do as a Nation, when the 
child is here and in our care, 20 percent of these children 
this year are 11 or under. And so how one treats, how we 
believe we should treat--and I agree. I am glad you read the 
law and you could hear from our conversations in the back and 
forth the requirements in terms of treating the child 
appropriately, making sure they are safe, those are the 
responsibilities. But I think to get to the root of what you 
are appropriately reflecting in terms of these coyotes, the 
smugglers, these people who are taking many families down an 
inappropriate path is we have to make sure that we are sending 
a deterrent signal.
    Senator Johanns. I will wrap up, Madam Chair, because I am 
completely out of time on a complex issue. But having said 
that, I don't see anything in what you are requesting here that 
is going to impact the story that they are telling down there 
and what is causing these kids to come to United States. 
Because they are coming here believing that if they can just 
get here in custody, they are not going to go home.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Landrieu.
    Senator Landrieu. Madam Chair, thank you very much.
    Chairwoman Mikulski. We are going to going to turn to 
Senator Landrieu and then we will come to Senators Coons and 
Leahy.
    Senator Landrieu. Thank you, Madam Chair.
    I want to begin with the law, which is I think the 
appropriate place to begin, and follow up on some of the 
questions that have already been asked. Everybody has been 
referring to the 2008 law, which I have also reviewed. But I 
think we have to go back to the base law, which is the 1980 
Refugee Act, which establishes the basic right of refugees to 
come to this country. And it was ordered because of the fall of 
Vietnam, because of asylum-seekers in the late '70s. Refugees 
were in need of protection, resettlement, asylum, refugees from 
Vietnam, Jews from the former Soviet Union. There was a 
humanitarian crisis of Vietnamese boat people, et cetera. It 
was signed and enacted unanimously and signed into law in 1980.
    Senator Feinstein, who is here today, will recall because 
she introduced several pieces of legislation to build on this, 
her legislation was never passed standalone, but it was 
incorporated into the 2008 Trafficking Victims Protection 
Reauthorization Act.
    That act separated the refugee status for children away 
from adults, unaccompanied children, because of her concerns--
she can speak more eloquently to this than I can--about several 
incidents, but one, in particular, that was really gruesome 
were Chinese children who were shipped here in a container and 
some of them might have died on the way. She can explain other 
things about what was in her mind.
    So we have to go back a long way when we talk about this 
law--it wasn't 2008, it wasn't 2010, it is the asylum law--and 
figure out who we want to give asylum to and under what 
conditions, et cetera. That is number one.
    Number two, I want to help, but I also have strong feelings 
about right now, today, a lack of accountability as to what 
agency in front of us is ultimately in charge. Each of you has 
a part, but I want to support something where there is one 
agency in charge with some budgetary authority coordinating 
with others. Otherwise, it is going to be a disbursal of funds, 
no metrics, no overall accountability.
    And I think this is a really important issue to get correct 
for many reasons. One, we have to secure borders. Two, we have 
an obligation to the taxpayers to spend their money well. And 
three, we have lots of children that are depending on us to get 
this right, and families.
    We already have a plan, and this is for you, Mr. Shannon, 
because you have been very, very quiet. Not too many people 
have addressed their questions to you, but I have some 
questions for the State Department.
    I worked for several years with many Members, Republicans 
and Democrats, and the Government of the United States has a 
plan. It is called the United States Government Action Plan on 
Children in Adversity. Are you familiar with this plan?
    Ambassador Shannon. I am not familiar with it.
    Senator Landrieu. You might want to get a copy of it and 
read it. It is very on-point, because it is the State 
Department's plan.
    I am just going to read the first paragraph: The goal of 
the U.S. Government Action Plan on Children in Adversity, which 
these children clearly would be in adversity, is to achieve a 
world in which all children grow up with protective family care 
and free from deprivation, exploitation, and danger. This plan 
is grounded in evidence that shows a promising future belongs 
to those nations that invest wisely in their children, while 
failure to do so undermines social and economic progress. Child 
development is a cornerstone for all development and is central 
to U.S. and diplomatic efforts. I want to underscore that: 
``Diplomatic efforts.'' The plan seeks to integrate 
internationally recognized, evidence-based, good practices into 
all of its international assistance initiatives with the best 
interests of the child.
    And I am proud to say that with my help and others, 
particularly on both the Republican and Democratic side, we 
underscored the importance in this plan of children being in 
families, because families are the basic institution of all 
governments and societies.
    So, Madam Chair, in my time, I just want to point out to 
the committee that there are several laws that need to be 
reviewed. There is a plan that the State Department already 
has, which the gentleman who is in charge and testifying here 
is unaware of. They may want to read that.
    There are a couple of the things happening in the State 
Department that might be well funded to help their part of 
this.
    And in closing, because my time is short, to the Justice 
Department, I want to make mention that, as chair of Homeland 
Security, I am fairly clear about some of these numbers. You 
have a backlog of 375,000 kids. The average to deal with them 
right now is from 3 to 5 years.
    So that is what Mr. Tom Homan, who is the head--this is 
Homeland Security, Secretary Johnson--Tom Homan testified to 
our committee of a backlog of over 300,000, 3 to 5 years to 
adjudicate.
    So we have to, A, make sure we are talking about the right 
amount of money, right performance standards, right 
accountability. I am willing to work with you all on it, but I 
still have quite a few questions.
    Thank you.
    Chairwoman Mikulski. Senator Cochran.

                JUSTIFICATION FOR EMERGENCY SUPPLEMENTAL

    Senator Cochran. Thank you, Madam Chairman.
    Secretary Johnson, let me direct my question to you.
    The number of unaccompanied children crossing the Southwest 
border into the United States is expected to increase by 2,000 
percent. Yet the administration did not request any increase in 
funding for any of the agencies responsible for addressing this 
problem, in the fiscal year 2015 budget despite the fact that 
the administration was aware of these worsening conditions at 
the time.
    So given these facts, how do you justify this request as an 
unforeseen emergency supplemental requirement?
    Secretary Johnson. Senator, I would say this, we have very 
definitely over the last 2 years seen a rise in illegal 
migration by unaccompanied children. Up to now, the way we have 
dealt with that is work with the Government of Mexico on a plan 
for their southern border. We have added additional resources, 
some with the support of this Congress, to the Southwest 
border. We have worked with the Government of Guatemala on a 
task force because there we have known about this issue now for 
some time.
    It really spiked rather dramatically beginning in January 
and then most notably in the period of about March-April. That 
is when it really spiked. I saw it for myself, when I went to 
McAllen, Texas, in May.
    But it is the case that it has been rising, and we have 
attempted to deal with it in a variety of ways that have been 
incorporated in prior submissions.
    Senator Cochran. What is the outlook in terms of improving 
either the capacity to deal with the increase in numbers, or in 
working with local governments to try to establish some 
alternative to the U.S. as a safe haven for these migrants?
    Secretary Johnson. The assumption in this supplemental 
request is that there will be approximately 90,000 
unaccompanied children crossing the border in fiscal year 2014 
and 145,000 in fiscal year 2015. I believe that we will address 
this tide. I also believe that it is crucial that we have 
transfer authority in case we are more successful than what is 
implicit in the assumption to devote to things like increased 
detention capabilities, so that we can effectively turn people 
around. That is part of this request.
    What is also part of this request is money to support 
repatriation and reintegration in Central America, so that we 
can return people quicker. You see that reflected in the State 
Department submission, and I believe in my own submission from 
DHS, sir.
    Senator Cochran. Thank you.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Coons.
    Senator Coons. Thank you, Madam Chair and Vice Chair 
Shelby. Thank you for chairing this important hearing and for 
your personal engagement in traveling to Texas and to visit 
with those who are serving our country and to hear the stories 
from individuals, children, and adults who are part of this 
extraordinary humanitarian and refugee crisis on our southern 
border.
    I think the evidence is clear that the children who we are 
seeing, and who are being interdicted at our southern border at 
record numbers are fleeing dramatically increased levels of 
violence in three Central American countries--Guatemala, El 
Salvador, and Honduras.
    And if this increase in refugees coming to the United 
States was caused by some change in policy, we would see a 
comparable flood of refugees from other countries throughout 
Central America, but we don't. It is just these three 
countries. And it is because of conditions in those countries, 
as your testimony has suggested.
    So it is my hope that a significant share of the investment 
of the action that will be taken as a result of this emergency 
supplemental will focus on those countries.
    As a member of the Foreign Relations Committee, I was 
pleased to see Secretary Kerry and Vice President Biden 
personally engage in making visits with the leaders of these 
countries, and I would like to hear a little bit more about the 
intended increased investment in the three countries of focus.
    And as a Judiciary Committee member, I also just want to 
comment that I am pleased this requests additional badly needed 
resources for immigration judges, for an expansion of the legal 
orientation program, for counsel for minors, because while we 
know we have a significant backlog, we have significant unmet 
detention costs and humanitarian costs, I think we need to act 
now to fix our most urgent problems rather than removing the 
basic due process protections embedded in the TVPRA, a law that 
was adopted unanimously by Congress and signed into law by 
President Bush.
    So thank you to our four witnesses for being here, and I 
look forward to working with you.
    First, Ambassador Shannon, if you could, could you just 
give us more details about the $300 million State Department 
request and what your plans are for in-country processing in 
these three countries for a comprehensive approach? What is the 
baseline funding requested in the State foreign ops 
appropriation, and why is it not greater?
    And then secondly, if we can, if both you and Secretary 
Johnson would speak to the media campaigns. It is a very modest 
amount of money. In my view, perhaps more is required, to 
ensure that parents understand that their children are most 
likely not going to be granted the opportunity to stay in the 
United States. Only those few who are genuine refugees will 
have a chance for asylum. A majority will be deported back to 
the countries of origin.
    Ambassador Shannon.
    Ambassador Shannon. Thank you very much, Senator. I 
appreciate the questions and I appreciate the opportunity to 
respond.
    Let me start with the public messaging campaign, because 
that has obviously been a focus of the President, Vice 
President, Secretary Kerry, Secretary Johnson, Secretary 
Burwell, and our embassies in Central America, as we attempt to 
deal with the misinformation presented by the human smuggling 
networks, but also to start a larger debate about migration in 
the region, because, as noted, this is an unprecedented 
phenomenon in terms of the composition of the migrants. To have 
children leaving in these numbers, we have never seen before.
    And as we have dealt with our public messaging, we focused 
first on the danger of the journey. Secondly, on, as Secretary 
Johnson noted, that there is no pass to get in, that one does 
go into deportation proceedings, independent of the outcome of 
those proceedings, and that within the supplemental, we are 
making a request for money that is designed to accelerate those 
proceedings and ensure that there is timely handling of these 
cases, especially of children who do not have international 
protection needs.
    However, that said, it is important to know that our public 
messaging campaign is not just our campaign. It is also a 
campaign that the Government of Mexico and the Governments of 
Guatemala, Honduras, and El Salvador have joined.
    In fact, the first ladies of those countries have visited 
our Southwest border, have met with their citizens that have 
come across the border, especially the children, have used 
those opportunities to communicate directly back to their 
countries and especially back to mothers and fathers in their 
countries but also in the migrant communities that exist here 
in the United States, to highlight the dangers and to highlight 
the misinformation that the smugglers are providing.
    We are already spending about $200 million in this public 
messaging campaign that Vice President Biden announced during 
his trip to Guatemala several weeks ago. And within this 
supplemental request, we are asking for $5 million for public 
diplomacy.
    Part of this is for public service announcements and 
additional public engagement. But a big hunk of it is actually 
going to be focused on the community of return migrants, so 
that they in their own communities can begin to talk about what 
happens with them on their journeys.

                  PUBLIC MESSAGING IN CENTRAL AMERICA

    Senator Coons. Ambassador, I am out of time. If you had a 
brief response about if we are doing enough in these three 
countries to bring stability and security?
    Ambassador Shannon. We need to do much more, obviously. I 
mean, we have through our Central America and regional security 
initiative and through our bilateral assistance addressed some 
issues related to violence and economic development and job 
creation, but the $300 million will allow us to focus on a few 
new areas, but also accelerate work that we are doing. But this 
will be a down payment.
    Secretary Johnson. Madam Chair, may I add to that, please?
    Chairwoman Mikulski. Yes.
    Secretary Johnson. Senator, public messaging is critical 
here, for the reasons Ambassador Shannon said.
    When I was in Guatemala 2 days ago, it was a rather awkward 
moment, frankly, standing next to the president of that 
country, telling his citizens ``don't come to our country, 
because if you do, we will send you back, and it is dangerous 
to do this.'' But the public messaging is critical.
    Ultimately, I believe that, in addition to the public 
messaging, the population in Central America and the parents up 
here who are thinking about sending their kids need to see that 
we are sending people back.
    Senator Coons. Thank you very much for your testimony.
    Chairwoman Mikulski. Senator Hoeven and then Senator Leahy.

                   BORDER SECURITY: MEXICO ASSISTANCE

    Senator Hoeven. Thank you, Madam Chairman.
    I would like to ask Secretary Johnson and also Mr. Shannon, 
is Mexico helping stem this flow and secure the border? If they 
are helping, what are they doing? If they are not, why not? 
What are we doing to get them to engage to help stop this flow 
of illegal aliens from Central America?
    Secretary Johnson. Senator, let me take the first crack at 
that. This has been the subject of conversations at the highest 
level of both governments, President to President, me to my 
counterpart, as recently as yesterday when we were in 
Guatemala. And I believe that the Mexicans will step up and 
assist us in the security of their southern border.
    They announced on Monday a plan for added security on their 
southern border to deal with the migration and to put in place 
a guest worker program for Guatemalans who come into the 
southern part of the region. But a component of that will also 
be border security.
    And I will defer to Ambassador Shannon.
    Ambassador Shannon. Well, thank you very much, Senator. As 
Secretary Johnson noted, the Mexican President along with the 
President of Guatemala announced a Mexican southern border 
initiative, which is focused on the border between Mexico and 
Guatemala, which all the migrants have to cross. And that is 
really the first point at which they can be interdicted in a 
meaningful way.
    And what the Mexicans have done is effectively create a 
three-tiered layer of interception and interdiction, where they 
will be looking at documents and border crossing cards as 
people move across that border, and attempting to address the 
human smuggling networks and routes that move up the coast, 
both by bus and by train in an effort to stop these smugglers 
and to turn especially the children around.
    Last year, Mexico removed from country in expeditious 
fashion over 8,000 unaccompanied children. And they do 
interdict, not at the rate that we would like to see, largely 
because of resources and because of the vast nature of the 
terrain they are working across, but they understand that this 
is a problem of monumental proportion.
    And what they don't want is for these children to be caught 
somewhere between our Southwest border and their southern 
border, especially to have those children grouped in the states 
of Tamaulipas and Michoacan, where they would be subject to 
criminal gangs that operate in that part of Mexico.
    Mexico also along our frontier has built a considerable 
consular network, which has actually facilitated our ability to 
remove expeditiously unaccompanied children from Mexico, 
because they can confirm their nationality and ensure they have 
travel documents and remove them from the country in quick 
fashion.
    And also, the Mexicans have been working with the Central 
Americans to highlight the important nature of this challenge 
and the importance of having a regional approach.
    So the engagement with Mexico has been positive, and I 
think it is going to bear fruit.
    Senator Hoeven. When will this plan be implemented? How are 
you going to measure it? What access do you have to actually 
get some metrics to see if they are going to stop the flow?
    Ambassador Shannon. The plan was announced on Monday, and 
it is being implemented as we speak.
    We are spending $86 million of merit initiative money to 
work with Mexican officials in enhancing these border controls, 
especially on Customs and also interdiction along rivers 
between Guatemala and Mexico. And we are working with the 
Guatemalans on their side of the border, helping them establish 
an interagency task force that also controls the rivers, the 
mountains, and some of the key areas that they are moving 
migrants across.
    And we are going to judge our metrics in terms of who is 
being returned and who is appearing on our Southwest border.
    But we will be following this very closely. In fact, 
Secretary Johnson and I were just there yesterday.

                      REMOVAL PROCESS, EXPEDITING

    Senator Hoeven. Secretary Johnson, isn't the most effective 
deterrent for young people leaving Central America coming to 
our country actually having the people in those countries--
Honduras, Guatemala, and El Salvador--seeing those young people 
returned? Isn't that the most effective deterrent versus an 
advertising campaign?
    And how can you assure us that these funds will be used to 
accomplish that, to secure the border and return these young 
people to their home country?
    Secretary Johnson. I agree that they need to see people 
coming back. They need to see that they wasted their money when 
they gave the smuggling organizations whatever it is, $3,000, 
$4,000, $5,000. And a large part of this supplemental request 
goes to expediting and accelerating the removal process, and 
building increased detention capability. That is what a lot of 
this is about, because I agree, we need to----
    Senator Hoeven. Can you do it without repeal of the 2008 
law?
    Secretary Johnson. I believe we can, yes, sir. I believe 
the 2008 law reflects fundamental values and commitments of 
this country that we should continue to adhere to. But I also 
believe that through increased detention capability, added 
resources by my Department and the Department of Justice, we 
can and we should turn people around quicker and send them home 
quicker.
    Senator Hoeven. So you can ensure that you can enforce the 
border and return people expeditiously even with the 2008 law 
in place?
    Secretary Johnson. I believe that what we have requested, 
which goes in very large measure to detention and removal 
capability, will get at this problem.
    Senator Hoeven. Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Leahy.
    Senator Leahy. I am glad to hear that, Secretary Johnson. I 
agreed with President Bush when he signed the 2008 law. I think 
it speaks to our moral values as a country. Just as we don't 
tell Jordan, ``Because they are being overwhelmed with refugees 
to send them back to Syria to be killed.'' We have to set an 
example ourselves, and following our law is a good way to 
start.
    On the way over, I was stopped by somebody in the press who 
said he heard from a Republican Member of the House that we are 
not doing enough and we should be changing our immigration 
laws. I reminded him that we came together, Republicans and 
Democrats, a year ago. And after weeks of working in the 
Judiciary Committee on markups into the evening, and then a 
long debate on the floor and many amendments, we passed an 
immigration bill, with both Republicans and Democrats voting 
for it.
    The Republican leadership in the House, I don't mean to 
sound partisan, but I am tired of the sniping that we don't 
have a better immigration law. They won't bring up anything. It 
is a lot easier to snipe than actually have to vote. You have 
to vote yes, or you have to vote no. You are on record. It is 
much easier to complain that it is somebody else's problem. 
Well, they get paid the same as I do. They ought to pass a 
bill.
    You said in your testimony our border is not open to 
illegal immigration. I agree with you.
    And I don't believe that all these children qualify for 
immigration protection. But some do, and our laws, and 
international law, protects them.
    The United Nations High Commissioner for Human Rights has 
found that more than 50 percent of these children have been 
forcibly displaced from their home countries, fleeing gang 
violence, rape, domestic violence, and human trafficking.
    The distinguished senior Senator from California worked 
hard on the Trafficking Victims Protection Reauthorization Act, 
which says that the children arriving from Guatemala and El 
Salvador and Honduras, kids who are fleeing extreme violence, 
violence that is killing 7-year-old children as the New York 
Times reported today, should be interviewed by child welfare 
specialists and have an opportunity to tell their story to a 
judge.
    That is how we identify victims of trafficking and sexual 
violence and persecution.
    I just want you to know, I am willing to help. Secretary 
Johnson, 2 or 3 hours before the Vice President arrived in 
Guatemala, where he wanted to announce some money, they were 
calling me to see if we could reprogram the money.
    We may want to plan a bit further ahead than that. But I 
can assure you that I will fight tooth and nail changes in the 
Trafficking Victims Protection Reauthorization Act.
    We have to do the right thing. We will help you.
    But when you have 8- or 9-year-old girls who are being 
raped by gangs and sent here by their parents to escape that 
kind of violence, I am not sure Americans all really feel that 
we should immediately send them back.
    We routinely ask other countries to support refugees 
fleeing violence. Let's uphold our own law and tell us 
specifically how can we do that, and then we will look for the 
funding. We need a long-range plan.
    In the meantime, I hope the other body will pass an 
immigration bill.
    Any of you want to respond?
    Secretary Johnson. I do, Senator.
    Senator Leahy. Just asking.
    Secretary Johnson. In my 27 seconds, I have a letter 
written by a number of Senators, including Senators on this 
committee. And there is a sentence in the first paragraph that 
I absolutely agree with. ``We strongly believe that in 
responding to this humanitarian crisis, we must not set aside 
our fundamental commitment as a nation.''
    That statement is the bedrock of my public service, whether 
I am Secretary of Homeland Security or General Counsel of the 
Defense Department.
    In dealing with this or responding to a terrorist attack, 
we should not jettison the law. We should not bend the law. And 
we should not set aside our values. And it is in times like 
this, when adherence to our laws and principles, in my view, is 
most important.
    Senator Leahy. I am very familiar with that letter, as you 
know.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Boozman.
    Senator Boozman. Thank you, Madam Chair.
    And thank you all for being here.
    I will be honest with you, I really feel like you are going 
to have a lot of problems with the proposal you are giving us, 
because it is not balanced. And I think you have heard that 
from both sides today in the sense there has been real concern 
over the cartels advertising falsely to come up, and if you get 
here, you are going to get amnesty. Those kinds of things.
    The other thing is in regard to the ability to 
administratively deal with the young people, the people, in 
general, that are here.
    You mentioned, Mr. Osuna, that you had 1,800, 2,000 people 
that you sent back last year. How many administrative judges 
did you have to do that?
    Mr. Osuna. We have 243 immigration judges.
    Senator Boozman. How many additional are you asking for?
    Mr. Osuna. So the supplemental will add an additional 25 
immigration judge teams, which, when added to another 
regulatory initiative that we have going, could take us up to 
about 40 judges.
    Senator Boozman. An additional 40.
    Mr. Osuna. From 243.
    Senator Boozman. So 243, so 283. Then you have a 375,000 
backlog.
    Mr. Osuna. Let me add that we are also in the process of 
hiring through fiscal year 2014 appropriations.
    Senator Boozman. But again, we are talking about 2,000 
versus 375,000. If you multiplied your judges by 10, you would 
still be in trouble.
    Mr. Osuna. There is no question, Senator, that there are a 
large number of cases that are not in the four priorities that 
I mentioned in the beginning that are going to be lasting for a 
long time.
    Senator Boozman. What about the people who have been in 
detention already? Are they at the back of the line? Are we 
going to do the new people first? Are you going to go back and 
do these 375,000?
    Mr. Osuna. The folks who are detained right now are 
actually at the top of our priority list, currently, for 
obvious reasons. They are detained.
    What we are doing with the resetting of priorities is we 
are adding the recent border crossing cases to that priority. 
And what that, of course, is going to mean are big consequences 
for the other largest portion of our caseload, which is the 
nondetained.
    Senator Boozman. Again, I am not the sharpest guy in the 
world, but that doesn't make sense to me, in the sense of 
increasing by 40 administrative judges, working through a 
backlog of 375,000, plus the additions that we are talking 
about coming if we don't develop a plan.
    My understanding is Fort Sill has 1,200 kids out there. How 
long are they going to be out there?

                           FORT SILL FACILITY

    Secretary Burwell. In terms of the children and how long, 
Fort Sill is one of our temporary facilities. And part of the 
reason that we need the money and we need the money soon is 
because permanent facilities are much cheaper.
    In terms of what we do is we contract. And when we can use 
the permanent facilities--so you get a sense of the range of 
what a bed can cost, a bed can cost between $250, up to $1,000. 
Our ability to plan and go into grant agreements with people 
over an extended period of time affords us the opportunity to 
do this in a much more cost-effective fashion. We are hopeful--
--
    Senator Boozman. So how long do you think that they will be 
housed there?

                             LENGTH OF STAY

    Secretary Burwell. Right now, with the Department of 
Defense, we have 120 days. We have renewed that for additional 
days. If we can get the money funding----
    Senator Boozman. How do you educate them? How do you 
provide health care, the basic things for all these facilities?

                            SHELTER SERVICES

    Secretary Burwell. Through grantees that are on the 
facilities in Fort Sill, in the facilities in Lackland. These 
are often religious organizations that do child welfare 
services. They are licensed organizations that provide the 
suite of services and enter into grant agreements and agree to 
provide the care.
    Senator Boozman. What I would like, Madam Chair, is, again, 
not pie-in-the-sky. Like I say, when you look at it logically, 
there is no way we can adjudicate these people. I am very 
concerned about that.
    I am also very concerned about how they are being housed, 
and I hope it is not pie-in-the-sky like the adjudication 
process is, because when you are talking about keeping people 
for a long time, it sounds like we possibly are going to be 
keeping some people for a long time.
    As far as the education process, the health care process, 
that has to get worked out. I have to see it on paper, so that 
we truly can provide the money that it is going to take.
    But again, the biggest thing is, the biggest deterrent is 
making it such that they realize that if they come to this 
country, they are going to go back.

                             LENGTH OF STAY

    Secretary Burwell. Madam Chair, if I might clarify that the 
children in our care, in 2011, as I mentioned earlier, it was 
about 75 days that it took for placement of a child with a 
sponsor that we believed was safe, appropriate, and informed of 
the immigration process. We have cut that down to 35 days.
    Several weeks ago, we had started a pilot for the group of 
children that we think we can place most quickly to reduce the 
time.
    As I mentioned, the three variables that are about cost for 
us at HHS are, number one, the number of children that are 
coming across through the border; number two, the number of 
beds we have and the type of those beds in terms of what we 
have to pay for them; and number three is the speed with which 
we can appropriately place. And we will work on all three of 
those levers.
    Senator Boozman. And very quickly, because the chairman is 
going to gavel me, but you don't have any problems with 
Congressmen showing up and looking at facilities in their 
districts or their States unannounced? There have been some 
reports that has been a problem.

                          CONGRESSIONAL VISITS

    Secretary Burwell. With regard to the question of visiting 
the facilities, we welcome Members of Congress to visit our 
facilities. And I think I speak on behalf of my colleague in 
terms of both sets of facilities.
    What we are responsible for, though, is to make sure that 
we can appropriately handle guests when they come. And that has 
to do with both making sure that we can provide the information 
that you as Members need in terms of the types of research and 
information you need and protecting the children.
    So the one thing we do ask, is we do ask that there is 
scheduling.
    Right now, since have we opened the temporary facilities, 
of which you were referring to one of them, there have been 
over nine visits by elected officials and over 90 elected 
officials have come through. We want to schedule those quickly 
and appropriately--and the scheduling is simply a matter of our 
ability to make sure that we are managing the work that the 
people are doing on the ground.
    We welcome it. The scheduling is a part of trying to be 
respectful, so that we do the appropriate things for Members 
who come to see as well as respecting the children as well as 
respecting the Border agents and grantees who are working to 
serve those children.
    So we are sorry if there are misunderstandings or miscom-
munication. We do schedule. And those are the reasons we do.
    Let me be clear: We welcome Members to come.
    Secretary Johnson. I couldn't say it any better.
    Chairwoman Mikulski. We are now going to turn to Senator 
Feinstein. But I want to respond to a question from Senator 
Boozman. You asked certain questions about the immigration 
judges.
    Sir, I want to acknowledge the validity of your questions, 
and I want to point out where we are here, which is why Senator 
Shelby and I are passionate about a regular order.
    This is a supplemental to the fiscal year 2014 
appropriations. This is not for fiscal year 2015. This is a 
supplemental for fiscal year 2014. In other words, to get us to 
October 1. Am I correct in that?

                        HHS SUPPLEMENTAL REQUEST

    Secretary Burwell. Some of the funding, and I think in 
terms of how we have written the supplemental, would be funding 
that would be paid out in 2015 and it would be above the 
current levels in terms of what the President's budget 
proposed.
    And the reason is, if we bring on a contracted bed----
    Chairwoman Mikulski. But isn't that like if you do a 
contract with the Catholic charities or the Baptist charities 
or so on?
    Secretary Burwell. It is outlays versus obligations, in 
terms of if we enter a grant agreement with someone, and we 
enter a grant agreement 2 weeks before October 1, the idea that 
we will have to take those beds down.
    So at current levels, so you have a sense, we would have to 
take off about 1,600 beds, if we were at the 2015 level.
    Chairwoman Mikulski. But by and large, this is for fiscal 
year 2014.
    I am going to turn to Senator Feinstein. But remember this, 
we have to pass our appropriations for fiscal year 2015. If you 
want more immigration judges, we have to pass the CJS bill. 
That is where the immigration judges are. And that is why we 
would really urge, if we could get our bills back on the floor, 
and for anybody who has other amendments, leave us alone. Let 
us get our bills done. We are ready to move on homeland 
security. Foreign ops is already to go.
    So we have the fiscal infrastructure to do fiscal year 
2015. Regular order. No poison pill amendments. Let us come to 
the floor.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Madam Chairman. I 
listened to your words early on. I want you to know that I am 
fully supportive of this supplemental, and I agree with what 
you have said.
    I would just like our distinguished heads and secretaries 
to know I kind of, in the Senate at least, began this effort 
legislatively back in 2002. And I want to tell you what 
happened.
    I was home. I turned on the TV, and what did I see? I saw a 
15-year-old Chinese youngster shackled, handcuffed, and tears 
rolling down her face in front of an immigration judge. She had 
no interpreter, no counsel. She had been held in a jail cell 
for 8 months and was detained another 4 months.
    She was one of the survivors from a container of Chinese 
who came to this country, one of the very few. And I believe 
her parents died coming across the ocean.
    And I thought at the time, I am going to take a look at the 
law and see what we can do. So I introduced this unaccompanied 
minor bill.
    The purpose is pretty much as Secretary Johnson has 
elucidated, and that is to see that unaccompanied youngsters 
who came from countries that were far away, through no 
initiative of their own, for the most part, really would have a 
process that was somewhat different. They would be transferred 
into HHS and they would be able to at least have help in terms 
of pro bono counsel, in terms of an advocate, in terms of 
research as to whether there was a place to bring them back to 
their country or whether there was a place for them here.
    Now the numbers of people at that time in that year was 
about 5,000. Now we have 60,000.
    I just want to thank you both. I have had my staff go to 
all the facilities that are starting up in California, in 
Arizona, and they come and tell me that they are really well-
run, and that people are moving quickly, alertly, whether it is 
Customs, whether it is Border Patrol, whether it is ICE, any 
other staff. And I am really grateful for that.
    You have moved, Secretary Johnson, I really respect you. 
You are a man of your word. You do what you say you are going 
to do. And I find you a very impressive Secretary of Homeland 
Security.
    And, Madam Secretary, I have known you, but it is pretty 
clear from your comprehensive discourse here today that you 
really, too, know what you were doing.
    From 2002, we were not able to move the bill through and we 
worked with large numbers of groups, church groups, other 
groups. And I think the bill grew somewhat and then finally it 
was included in this trafficking bill in 2008 and actually 
signed by President Bush at that time.
    To Secretary Johnson, who said he thought he might need 
added discretion, I would like to refer you to section 
235(b)(3), which says the following: Except in the case of 
exceptional circumstances, any department or agency of the 
Federal Government that has an unaccompanied alien child in 
custody shall transfer the custody of such child to the 
Secretary of HHS not later than 72 hours after determining that 
such child is an unaccompanied alien child.
    Now, what this does is trigger a number of other 
provisions. But what I would say is that the exception is the 
case of exceptional circumstances. And I would urge HHS and DHS 
to sit down and set the exceptional circumstances. It may be 
the number of children coming through in a week or a month, 
however you see it, and how the process might be modified to 
give you more time.
    I agree very much with what you said, Secretary Johnson, 
about the values of this country. And I think if people see the 
children, if they know the growth of crime, and particularly in 
Honduras, which today is reportedly the murder capital of the 
world, the fear that people have.
    Now I don't think a mother in this country necessarily acts 
the same way as a mother in Honduras, Guatemala, or any other 
place, because their options are so limited.
    So I hope that this exception is enough to give you what 
you need, Mr. Secretary, in terms of added discretion.
    I just wanted to take that opportunity to say this. This is 
really hard, and from 5,000, we have gone now to 60,000. And I 
offer to work with you.
    I hope the bill does not need amending, because it took 6 
years to get where we are, but I thank you for your good work, 
and I wanted an opportunity to say that.
    Thank you, Madam Chairman.
    Chairwoman Mikulski. Excellent.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madam Chairman.
    And thank you each for your testimony here today. I have to 
tell you, I have been looking at the handout that Senator 
Collins had presented in terms of the numbers that we have seen 
over the years since 2009, and the very dramatic rise beginning 
in 2012. And I come back to the fact, as the Chairman has 
noted, that we are here today, you are here today presenting 
this as an emergency supplemental.
    This is a crisis. This is a humanitarian crisis. And I 
think this pulls at the heartstrings of all of us as we 
recognize that these statistics, these are not numbers, these 
are lives, and these are children's lives.
    But I find it just very difficult and very troubling to 
think that we are just now trying to get our hands around this. 
And we have seen these numbers grow from 24,000 in 2012, to 
38,000 in 2013, to 52,000 in 2014, and actually now 57,000.
    And so I am frustrated and I am concerned, as I am sure 
that all of you are. But I just can't understand why we have 
not had you before us prior to this time, why it is now part of 
an emergency supplemental request. And to hear testimony from 
both secretaries about the very immediate need to act before 
August or the consequences in terms of how these children will 
be cared for when they are here in this country are quite dire, 
as you stated.
    So, Secretary Johnson, you have said that doing nothing is 
not an option. And you have outlined some of the things that 
you have done within your department to reduce the transfer 
time, some additional detention facilities being built. But it, 
certainly, is not translating in terms of what we are seeing in 
the numbers coming.
    And so the proposal that what we do is we build out more 
permanent detention facilities, more permanent beds because, 
somehow or other, those are less expensive than temporary 
facilities, I want to believe you, Secretary Johnson and 
Secretary Burwell. You have all said we need to stem the tide. 
Well, we all want to stem the tide and that is what we are 
trying to drill down on, how do we reduce these numbers, how do 
we reduce these bar charts that are real-life children.
    And if we are successful in what we are doing, we are now 
going to have detention facilities that we have put in place in 
New Mexico and around the southern border that we need to gear 
up quite dramatically.
    And if you do what you are hoping and we fund what you are 
hoping for, we have now in place facilities that would 
seemingly no longer be necessary if we have done what we all 
hoped we would do before this became a crisis.
    So I am trying to reconcile what is being asked for here in 
this emergency supplemental. And as much as I can lament about 
we shouldn't be where we are, we are where we are. And that is 
a shame.
    But I guess my question to you, Ms. Burwell, is, do we 
truly understand what the strategy and plan is going forward 
beyond August? We haven't seen legislation from the 
administration. We are making the assumption that the numbers 
are going to continue to grow, and that is why we are going to 
need the request you have within your budget. But if we are 
doing what we are all talking about doing, which is to reduce 
the times and to have a process that is greater, better 
expedited, is this the right answer?

                            FUTURE PLANNING

    Secretary Burwell. So I think there are two things, and one 
is at the beginning of your comments with regard to the 
numbers. The chart that Senator Collins handed out, I think an 
important thing we need to distinguish is that it includes the 
Mexican numbers.
    Because there is a different process and procedure for the 
Mexican numbers, the vast majority of those never----
    Senator Murkowski. But in fairness, the Mexico numbers are 
actually going down.
    Secretary Burwell. Right. So if we take those numbers out, 
and then we look at the actual numbers that we have received as 
unaccompanied children, from the year 2011 to 2013, 6,500 to 
13,600. That is a 108-percent increase. The increase from 2012 
to 2013 was about to 25,000. That is an 81 percent increase.
    Let's just say we all thought, at a minimum, it would be a 
90 percent increase. Let's just take the average of the 2 years 
of increases, and we are working off a higher base. So anytime 
you are going to say there is a 100-percent increase off of 
24,000, you are estimating something big.
    What this Congress and the administration funded in the 
fiscal year 2014 appropriations was enough money for 54,000. 
The secretarial transfer that the Secretary before me did was 
$44 million. That got us to a place where we would have had 
60,000.
    So last year we had about 25,000. We had planned for 
60,000. That was a worst-case scenario. That was far greater 
than the increases we had seen in percentage terms off of a 
larger base.
    What we are seeing now are numbers, as has been reflected 
in everyone's comments, that are far beyond. So the planning 
element, I think in terms of the question of why we are here.
    With regard to your second question, which I think is a 
very fair one, it is related to how we make sure that we stay 
in front. We are extremely hopeful that you are correct, that 
the plan we are putting in place will not lead to the numbers--
--
    Senator Murkowski. I think we need to have more than just a 
hope, a hoped-for policy.
    Secretary Burwell. And part of what we have asked for in 
the supplemental is the ability to have transfer authority. If 
the needs aren't there, and we are trying to plan ahead so we 
don't have the backup at the border, and if the needs are not 
there, HHS, as the Secretary mentioned in his opening comments, 
we are very willing and happy to transfer any funds that are 
not needed to the other departments. The transfer would occur 
to any of the departments, most likely to HHS, but could occur 
to any. And we think that is an important part of trying to 
balance the planning ahead with what you are rightfully 
pointing to. We need these numbers to come down.
    So we are trying to balance that need for what you said in 
your earlier comments--did you not plan for the worst?--making 
sure that we do that, and at the same time create a space for 
the success we hope we have.
    Senator Murkowski. Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Reed.
    Senator Reed. Thank you very much, Madam Chairwoman
    Ambassador Shannon, in your remarks, you said that part of 
this strategy is to attack criminal gang structures. That 
implies someone is responsible to coordinate that effort. That 
would also imply, I think, intelligence operations and criminal 
prosecutions. So can you give us sort of an outline of the 
plan? Who is in charge? And what intelligence assets you need? 
And are they reflected in this budget? Or where are they coming 
from?
    Ambassador Shannon. In the supplemental request, we have 
asked for $100 million for security, which would augment 
activities we are already undertaking under the Central 
American Regional Security Initiative.
    Some of that has to do with law enforcement capacity 
training. Some of it has to do with community policing in order 
to address the structure of gangs in communities and to work in 
communities to find alternatives to gangs, especially for at-
risk youth.
    There is no specific money aimed at intelligence activities 
related to gangs, and most of the work around immigration 
security-related issues would be done by ICE and by our CBP 
operations here.
    However, we do have intelligence activities that are 
focusing on that, that I cannot discuss in this environment. 
But most of the activities focused on breaking down the 
smuggling networks, and working with the local police and local 
authorities, would fall within the range of Homeland Security.
    We are, however, working through the Judiciary to enhance 
the Judiciary, and especially to improve their ability to 
prosecute these cases.

                            SMUGGLING RINGS

    Senator Reed. Secretary Johnson, if Homeland Security has 
the responsibility for identifying and targeting the smuggling 
rings and disrupting those rings, do you have the resources to 
do that?
    It seems to me that what the Ambassador is saying is that 
there is money here to go in and try to do antigang activity as 
much as we do in major urban centers in the United States, 
which is important. But these children are getting here because 
this is a business. These are pretty hard-nosed people. We have 
to put them out of business, to be blunt.
    Does this plan or these funds or your efforts in Homeland 
Security specifically go after these people?
    Secretary Johnson. Part of our request will go to not only 
working with the Central American governments on the law 
enforcement effort there, but our own Homeland Security 
Investigations (HSI)-DOJ efforts, which is something we have 
already begun.
    In the month of May, we made 163 arrests of those attached 
to smuggling organizations. And I am actively working with DOJ 
right now to get at the money flow, the interdiction of money 
from the United States.
    And, Senator, to simply underscore your point, I want to 
read briefly from my operations report that I got this morning, 
which is unclassified. HSI McAllen special agents reported the 
rescue of a Honduran national who was reportedly held against 
her will and threatened by human smugglers in the arrest of two 
citizens of Mexico for violating the alien smuggling statute. 
The relative reported that the smugglers demanded $2,000 for 
the release of the victim. The smugglers stated to the relative 
that if they did not pay the money, they would decapitate the 
victim or sell her to a brothel cantina.
    Those are the kinds of groups we are dealing with. So I 
think it is crucial, as part of this effort, to not only return 
people and build detention capacity, but to get at these 
smuggling organizations.
    And I think I can, and I think we should.

                         HUMANITARIAN TREATMENT

    Senator Reed. Well, I think in terms of priority, that has 
to be at the same level as the humanitarian treatment of these 
children.
    Let me raise a final question, which is that in some 
respects, these are unavoidable costs, because what we are 
talking about is creating a standard from which we are 
maintaining these young people. We can't, for many reasons, our 
basic values as a Nation, allow a facility suitable for 12 
children to be inhabited by 100 children. So these costs are 
unavoidable.
    Secretary Johnson, I think what happens then, if we don't 
do this, then you are going to have to find some monies from 
Transportation Security Administration (TSA), from 
cybersecurity efforts, from a host of different functions, 
because, again, we have a problem now. We will have a much 
greater problem, if we are seen as basically mistreating these 
children who are in the custody of the United States. Is that 
fair?
    Secretary Johnson. Senator, that is a very fair statement. 
Yes, sir.
    Senator Reed. Thank you.
    Chairwoman Mikulski. Senator Graham.
    Senator Graham. Thank you, Madam Chairman.
    Madam Secretary, if one of these children are placed with a 
relative in the United States, do we check the legal status of 
that relative?

                           IMMIGRATION STATUS

    Secretary Burwell. In terms of legal status with regard to 
the immigration status, that is not something we do with regard 
to legal status that is relevant to what we believe is the 
safety of the child. And there are a number of conditions that 
we are guided to with regard to----
    Senator Graham. So are we in fact turning children over to 
people who are here illegally?
    Secretary Burwell. We do not know the answer to that 
question, but we can assume.

                           IMMIGRATION REFORM

    Senator Graham. I think we should know the answer to that, 
because the likelihood of them showing up for a hearing is 
zero.
    If the person who is taking care of them is illegal, I 
doubt if they are going to bring them to a deportation hearing 
or any other kind of hearing. So I would like to see that 
changed in our law.
    Mr. Secretary, is this problem a result of failing to pass 
comprehensive immigration reform or is it something else?
    Secretary Johnson. Senator Graham, if I may, to your prior 
question also, before I answer this one, I do not think that 
removal of the parent who probably has been in the interior for 
years is the answer to dealing with this current situation.
    Senator Graham. Mr. Secretary, it is all about signals 
here. You are right. You are trying to say we are going to tell 
people back in these countries stop this, and the best way to 
stop this is to send the kids back. I don't think you are--you 
are reinforcing another bad problem when you don't check the 
legal status of the person.
    There is zero hope they are ever going to get into the 
legal system, because the person you turned the child over to 
is illegal themselves, and you are just compounding the 
problem.
    I am pretty far out there on reforming immigration, but I 
think you are reinforcing bad behavior.
    Now, to my point, is this problem a result of the failure 
to pass immigration reform or is it something else?
    Secretary Johnson. I believe it is essentially three 
things: The conditions in the Central American countries.
    Senator Graham. Which has nothing to do with immigration 
reform.
    Secretary Johnson. The reality of how we treat these kids, 
pursuant to the 2008 law.
    Senator Graham. Which has nothing to do with immigration 
reform.
    Secretary Johnson. And the misinformation that is being put 
out there by the smuggling organizations about the current 
state of legal----
    Senator Graham. I agree with you on all three. And it has 
the zero to do with----
    Secretary Johnson. Senator, if I may----
    Senator Graham. I want to pass immigration reform, but I 
want to stop this narrative that if we passed some law, we 
wouldn't have this problem.
    Secretary Johnson. Senator, I do believe----
    Senator Graham. I couldn't disagree with you more, Madam 
Chairman. I think this is the result of somebody in these 
countries believing that if you can get here, you can stay. And 
I don't know what is driving this, but Senator Coons made a 
good point. They are all coming from three countries.
    Those three countries have crime problems, but most of 
these are kids. So there is this idea that a kid gets a better 
deal in America than somebody else. And I think it goes back to 
the 2012 change by the President, but there is no use debating 
this. Let's look forward.
    Knowing what we know today, would we write the 2008 law the 
same? Knowing what we know today, the problem we have in front 
of us, would we write the 2008 law exactly like we did?
    Secretary Johnson. Senator, I can't----
    Senator Graham. How can you say yes, we would? Clearly, we 
wouldn't.
    Senator Feinstein is one of the world's best Senators and 
nicest people. What she addressed was a real problem. She is 
talking about A, and we are dealing with B.
    This 2008 law never envisioned this problem. It envisioned 
the Chinese girl and other people who were being sexually 
exploited.
    I understand not wanting to throw somebody back into the 
hell they came from. But we are now being overrun by folks. It 
is hell to get here.
    And I agree with you, to stop it, you have to let somebody 
down there know, stop doing it. If we don't change the 2008 
law, then we are never going to get a handle on this problem 
because the 2008 law had nothing to do with this problem.
    So I think we should adjust our laws to meet the needs in 
front of us, so I am very disappointed to hear that the 
administration believes, after everything we have been dealing 
with the last 2 years, there is no reason to change law. I just 
find that almost impossible to understand.

                        VOLUNTARY RETURN: MEXICO

    But let's get to this point about Mexico. The difference 
between Mexico and these three countries is substantively 
different, right? The time to get somebody back to Mexico is 
because it is contiguous and is different. Is that correct?
    Secretary Johnson. Yes. Plus we have the legal authority 
now to offer an unaccompanied child voluntary return to Mexico.
    Senator Graham. Right. So there is a screening process when 
you turn somebody over to Mexico. We don't just throw them over 
the border. We look and see if they apply for refugee or asylum 
status, right?
    Secretary Johnson. That is correct, sir.
    Senator Graham. So I think you are onto something, of 
trying to create similar conditions for these countries as to 
Mexico.
    In that regard, I think you are pursuing a good solution.
    Secretary Johnson. Yes. That is what I said earlier.
    Senator Graham. Yes. Fundamentally, we have to change this 
law. We are nuts if we don't.
    And as to Senator Reed's problems, we are nuts if we don't 
go after these groups. We need to make their life hell. We need 
to get the Mexicans and every other group to form a task force 
and hunt these guys down and put them in jail. It should be 
like a military operation, because it is a national security, 
humanitarian threat that I haven't seen in a very long time.
    And I think our response, our sense of urgency, is woefully 
inadequate. And it is not just a money problem. It is a will 
problem.
    We need to have the will to do something about this 
stronger than those who are abusing the law and abusing these 
children.
    Thank you.
    Chairwoman Mikulski. I am going to turn to Senator Shaheen.
    I understand Secretary Johnson has to step out to take a 
quick phone call. Why don't you do that and come back and join 
us, okay?
    Senator.
    Senator Shaheen. Thank you, Madam Chair. And let me thank 
my colleague, Senator Durbin, for being willing to let me go 
ahead of him. I very much appreciate that.
    I want to follow up on what Senator Graham was pursuing 
about what is happening in those three countries in Central 
America.
    And I wonder, Counselor Shannon, if perhaps you could talk 
a little bit about what has changed in the last 3 years or 2 
years in those countries to encourage this influx of children 
and families? And also whether we are seeing that same kind of 
influx into other neighboring countries from Honduras, 
Guatemala, and El Salvador?
    Ambassador Shannon. Senator, thank you very much for the 
question.
    We have not seen the same flows from other Central American 
countries. In other words, Costa Rica, Nicaragua, and Panama, 
and Belize are not sending people to the United States the way 
Honduras, Guatemala, and El Salvador are.
    Senator Shaheen. Maybe I wasn't clear in my question. I 
appreciate that. What I am asking is, are we seeing people from 
those three countries going into neighboring countries close to 
them at the same rate, or in similar rates?
    Ambassador Shannon. We are seeing that. As I noted in the 
testimony, the U.N. High Commission on Refugees notes that 
asylum requests in surrounding countries are up 400 percent. 
And what I noted is that it is not obviously at the same rate 
or the same number. In fact, the numbers are quite small in 
comparison. But they are much, much higher than historically 
they have been.
    And that indicates that there are groups of children who 
are fleeing. And when they determine that they cannot flee to 
the United States, either because they don't have the money or 
they are not prepared to take the risks, but that they must 
flee, they go to the nearest place possible.
    So from our point of view, although the vast majority of 
these children are moving toward the United States, this is a 
regional problem. And for that reason, it needs to be addressed 
regionally.
    And as Senator Landrieu noted, it is a problem related to 
children, and it is a problem related to what happens to 
children when they are caught in environments in which the 
breakdown of state authority and the presence of gangs in 
communities and controlling the communities puts these children 
at risk.
    Now, in terms of what has happened over the last 3 years, 
it is going to take sociologists I think a long time to dig 
through that data. But I think what is evident is that as 
Mexico has become more successful in its activities through the 
Merida Initiative in combating drug trafficking and drug 
cartels, and as Colombia has become more effective in attacking 
the FARC and changing the nature of drug trafficking out of 
Colombia, the burden has fallen largely on Central America. And 
it has largely fallen in the three countries that offer easy 
jumping-off points into Mexico and into the drug-trafficking 
routes that lead to the United States.
    But in the process of Mexican cartels moving into Honduras 
and Guatemala, and looking for ways to facilitate the movement 
of drugs through the region, they have obviously built 
relationships with gangs. And this has provided gangs with 
levels of wealth and weapons and communications equipment that 
historically they have not had and has allowed them basically 
to take over and control parts of communities, which puts at 
risk teenagers.
    And what we are seeing in the groups that are leaving these 
three countries and moving northward is that 75 percent of them 
are between the ages of 14 and 17, which means they are in 
recruitment age, both males and females.
    Senator Shaheen. Thank you. I am going to cut you off at 
that point. I am sorry to do that, but I have a question for 
Secretary Burwell that I would also like to have answered.
    One of the things that I am hearing from organizations in 
New Hampshire is concern about the movement of money out of the 
Office of Refugee Resettlement and concern that if this 
appropriation goes through, that money might not be replaced 
and the services offered through that office might not be 
available. That is a concern that if we are hearing about 
refugees in New Hampshire. So can you speak to that?

                             REPROGRAMMING

    Secretary Burwell. Because we actually take the concerns 
that it sounds like folks at home are articulating, that is why 
we actually asked for the backfill for the $94 million.
    I think you all know we sent reprogramming up to the Hill, 
and we have started in on that reprogramming.
    Those funds that we have taken out of the Office of Refugee 
Resettlement, to have a sense of what those funds do, a number 
of those funds go to schools that are impacted by high refugee 
populations. A number of those funds go actually to affect 
Haitian and Cuban refugees. That affects Florida 
disproportionately. And a third category of that money is money 
that is sometimes going to States to help where there are 
disproportionate numbers of refugees in what is our other 
refugee program.
    We had to make choices in order to continue on a path of 
making sure we can move children from the border and from DHS 
to HHS. They were difficult choices, and choices that we hope 
in the supplemental can be taken care of.
    Senator Shaheen. Thank you. Thank you all very much for 
your efforts to address this crisis.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Durbin.
    Senator Durbin. Thank you, Madam Chair.
    Each year, under Presidents Republican and Democrat, the 
United States of America issues a report card on human rights 
to the world, where we grade other nations as to their record 
on human rights. That is pretty bold of us, isn't it, to hold 
ourselves out in judgment of other nations? And one of the 
things we ask is how those nations treat refugees and children.
    We don't have a very long record when it comes to refugees 
in this country, primarily because of location. Haitians, 
Cubans, Vietnamese, Hmongs. We have had some, but certainly, 
when you look at the state of the world with 2.3 million 
refugees coming out of Syria and fewer than 200 coming to the 
United States, we are kind of on the periphery of this issue 
until now.
    Now we get to face it in our backyard, our border.

                               DISCRETION

    I just got a report about two children that came from The 
Young Center for Immigrant Children's Rights at the University 
of Chicago Law School. Samuel and Emily are siblings, 
amazingly, ages 3 and 6--3 and 6. They got here from Honduras. 
I don't know how.
    When they initially arrived in the United States, they were 
very quiet and didn't open up. They were clearly victims of 
trauma. After 2 months of care and custody of these 3- and 6-
year-old children by HHS, Emily revealed that both children had 
been raped by members of a local drug cartel.
    I think about those children when I think about this 
debate. Are they the exception? God, I pray they are. But I am 
afraid there are many more with similar stories.
    So, Mr. Secretary, Secretary Johnson, I think you are a 
good person. I even have evidence you are a good father, 
because I got to meet your son. And I know you are a good 
lawyer.
    When you ask for added discretion, so that we can 
voluntarily deport some of these children, I think about these 
two. Where I grew up in downstate Illinois, you wouldn't enter 
a courtroom with a 3-year-old or 6-year-old without someone 
standing next to them, representing them, explaining to them, 
trying to speak up for their rights.
    And I worry about what we are asking for here. And here's 
why I worry. Let's get right down to dollars. There is a 
request for $15 million in this multibillion-dollar 
appropriation request for direct legal representation to 
contract with lawyers to represent approximately 10,000 
children--10,000 children in immigration proceedings. I think 
we are dealing with 50,000 to 90,000 new children this year.
    It strikes me that this number is grossly inadequate to 
make sure these children have someone standing next to them, to 
protect them, maybe to explain this to them. That is the first 
thing that crosses my mind.
    The second thing is, what are we returning them to? 
Honduras, the murder capital of the world, where it is not safe 
to even have your children outside of your home, where garbage 
is piled in the street so the poorest can go through it and 
maybe find something to eat because that is all they have.
    What kind of social service agencies are we referring these 
kids to when we return them to Honduras?
    Beds. I get it. I want these kids to be in the safest, 
cleanest place possible. I couldn't live with it any other way. 
But as I understand it, 85 percent of these children are 
reunited with family, 55 percent with parents, 30 percent with 
relatives. So when we are talking about beds it sounds like, 
for the most part, at least 85 percent of it is for temporary 
beds. I assume that is what we are discussing.
    Finally, before I ask you to comment on this, I authored 
the DREAM Act. I am proud of it. We passed it in the House and 
Senate. We can't beat the Republican filibuster in the Senate, 
except for the comprehensive immigration bill.
    I asked this President, my friend, to sign DACA. He did, 
and I am proud that he did. And I am not going to stand here 
and let people blame those two actions on what we are facing 
today, because during the same period of time there was a 700 
percent increase in children fleeing from the three primary 
countries to neighboring countries, not the United States.
    It had nothing to do, as you said, Mr. Secretary, with 
DACA, which sets a 2007 target. DACA eligibility doesn't extend 
any later than that.
    So I would appreciate it if you could respond to this in 
the time remaining.
    Secretary Johnson. Senator, the only thing I will say is a 
request for discretion as long as I am Secretary means a 
request for the ability to do the right thing. That is how I 
see it. I have met with enough of these kids now, including a 
15-year-old in Nogales 2 weeks ago who was 3 months pregnant, 
to have a real sense for what these kids go through.
    We have heard about how before they leave Central America, 
some of these kids parents will actually give them birth 
control, in case they are raped along the way. And so whatever 
we do, whatever discretion I am given to address the situation 
will be the discretion to do what I believe is the right thing 
for the country and for these kids.
    Senator Durbin. There is not enough money being requested 
to provide the kind of representation and advocacy necessary to 
protect these kids. It is not even close--10,000 out of 90,000. 
And I would like to hear Secretary Burwell's thoughts.

                             LEGAL SERVICES

    Secretary Burwell. There are different portions in terms of 
sometimes it is provided by Justice and sometimes by DHS. We do 
provide the counsel that I described in the initial stages. And 
then for the extreme circumstances, such as that that you 
described, HHS does provide counsel and we try to connect with 
pro bono counsel.
    You are right that we do not have the resources to provide 
counsel for all the children that pass through and go to 
sponsors. But there are a group that we do that for.
    Chairwoman Mikulski. Senator Harkin.
    Senator Harkin. Thank you, Madam Chair.
    First of all, I just want to associate myself with 
everything that Senator Durbin just said. He hit the nail on 
the head.
    I also want to thank all of you for the work you do.
    As we hear more and more about the situation with these 
young people coming across the border, you know what my ears 
are hearing? Round them up and ship them back. It sounds like 
we are doing dealing with cattle or some kind of livestock. 
Just round them up and ship them back.
    Senator Murkowski had it right. This is a humanitarian 
crisis.
    Again, Senator Durbin talked about a couple cases. I 
suggest anybody who wants to know what is behind all this, read 
Enrique's Journey. It is a great book. Read it.
    Now I have a problem with the administration, this 
administration. On the one hand, they say we want to send kids 
back as soon as possible. Then they turn around and say, well, 
but these kids are escaping violence and drugs and sexual abuse 
and gangs. How do you reconcile those two?
    Ship them back as soon as possible, and they are escaping 
violence and drugs. That doesn't sound to me like those two 
statements are compatible. How do they exist side-by-side?
    The focus, our focus, ought to be simply on making sure 
these kids are, first, safe, that they are fed, that they are 
clothed, that they are sheltered, and they get not only good 
health services, but mental health services, and under the law 
that they have every meaningful--that is the key word--
meaningful opportunity to apply for asylum.
    Are we a country of laws? That is what the law says.
    Now, there are some that want to modify this law. And I 
hear voices from this administration who want to modify this 
law.
    Now, Secretary Johnson, I have no doubt that you are a good 
and decent and honorable person. I think you do a great job. 
But you want flexibility. There is danger in flexibility, not 
just because of you but because of everybody that works under 
you and the Border Patrol.
    A lot of these kids who come over there and they see 
someone in uniform, it is a flashback to what they just came 
from, where the people in uniform may have been beating them up 
and on the side of the druglords. Are they going to open up 
about who they are and what they are?
    That is why we have a law that says you have to transfer 
them within 72 hours to HHS.
    Now, HHS is supposed to provide all of these things for 
these kids, shelter, clothing, meaningful counsel. People to 
stand alongside of them, so that they can tell their story, so 
they can apply meaningfully for asylum.
    You can't do that with the Border Patrol. I am sorry, you 
just can't do it. And you can't do it just as somebody comes 
across the border. They need to be taken in, as they said, and 
given these protections under our laws, under international 
law--under international law.
    Some people want to modify the law to let DHS ship them 
back right away. I hear this from the administration.
    And you may say, Secretary Johnson, that you are going to 
be very careful on this. That is why we have laws. That is why 
we set it up this way. I don't know who's coming after you, or 
how long you are going to be there. And I don't know all the 
people who work underneath you and how good they are.
    They may have in their head the best thing is round them up 
and ship them back.
    I rely upon Health and Human Services to make sure these 
kids are protected and that they have their full legal rights 
in this country.
    They are supposed to be transferred within 72 hours. Now it 
is what? Six or 7 days before they get transferred, that they 
are held. And now, HHS, they don't have the wherewithal to do 
it, to take care of these kids, the mental health providers, 
social workers, child advocates who can look after not rounding 
them up and shipping them back, but the best interest of the 
child when they arrive here, and protecting their rights under 
U.S. and international law.
    So we have a situation where I am sorry I have to disagree 
with this administration. This administration should be saying 
we should follow the law. These kids need to be protected. They 
need to have HHS protect them and care for them and give them 
every meaningful right to apply for asylum.
    Now the problem is HHS doesn't have the money to do it. 
They should do it, but they don't have the money to do that. 
That is what this supplemental is about, to allow HHS to follow 
the law, which they aren't right now. But they can't. They 
can't follow the law because they don't have the money to do 
it. They can't transfer them within 72 hours, my fellow 
Senators, because they don't have the money to do it.
    So that is why this supplemental, Madam Chair, as you said, 
is so critical.
    We can't turn our backs on these kids. We can't hold 
ourselves up, as Senator Durbin said, as some paradigm of human 
rights protections in the United States and then say round them 
up and ship them back.
    Should they say that to the Syrians who are escaping or 
other refugees around the world? Round them up and ship them 
back. We are better than that.
    And I have to disagree with my friend from South Carolina. 
We are not being overrun by these kids. We are a country of 300 
million people. We are talking about what, 50,000, 60,000, 
90,000 at the most? That is overrunning America? Nonsense.
    We can deal with this. Now, lest anyone think now, Harkin, 
you want to just let them keep coming. No. Look, we have to 
work with these other countries. We have to do things in those 
other countries.
    It is a complex issue, as some of you have stated. It is 
not going to be solved overnight. It is not going to be solved 
with SOUTHCOM and a few military people. It is not going to be 
solved with that. It is going to be solved over a longer period 
of time.
    But in the meantime, the single the most important thing is 
to take care of these kids to make sure they are safe, they are 
housed, they are sheltered, they are clothed, they are fed, and 
they have legal protection, and they can apply for asylum 
meaningfully, not with the Border Patrol, not as soon as they 
come across the border--I read your testimony--but after they 
had due process and where HHS can take them in and provide them 
with the kind of shelter and support that they need.
    Now after that, we can talk about returning them, but not 
until they have had adequate counsel, advocates for them to 
stand by their side, to let them know what their legal rights 
are in this country.
    So I hate to be so emotional about it, but when I hear this 
coming from the administration--ship them back, we have to do 
something as soon as possible. But they are fleeing violence 
and drugs and gangs. No. They are fleeing violence, drugs, and 
gangs and all kinds of things, yes.
    I disagree with my friend from South Carolina also that you 
are reinforcing bad habits with bad habits. I have never 
considered a bad habit for any human being to leave a bad 
situation where they are being killed, beat up, sexually 
violated, denied their basic human rights, denied the 
opportunity to live a life and they want to seek it someplace 
else.
    That is not a bad habit. That is sort of in the human 
spirit that I thought we liked to extol in this country.
    So I guess I have run out of time, I have used up my time. 
And so, therefore, I guess I don't have a question. But I hope 
I have made my point.
    Chairwoman Mikulski. Senator, you can also submit questions 
for the record. And thank you for your statement.
    Senator Shelby.

                    NUMBER OF UNACCOMPANIED CHILDREN

    Senator Shelby. Mr. Secretary, I have been told that there 
are currently on 162,000 children with Homeland Security. Is 
that number about right or wrong?
    In other words, in this country who have come in over the 
years that are still pending?
    Secretary Johnson. I don't know whether that number is 
accurate.
    Senator Shelby. Can you furnish the number for the record? 
Check it out?
    Secretary Johnson. Yes.
    [The information follows:]

    As of July 10, ICE has transported 44,549 UAC in fiscal year 2014.

    Senator Shelby. It is a lot of children, isn't it?
    Secretary Johnson. 162,000 people is, in my book, a lot of 
people. Keep in mind that of that population, assuming that 
number is accurate, of that population, a lot of them may have 
turned 18 by now.
    Senator Shelby. And you have only sent home, is it 1,800 
period, or is it 1,800 a year?
    Secretary Johnson. About 1,800 per year.
    Senator Shelby. That you have adjudicated and sent home.
    Secretary Johnson. Yes. But up until this recent situation, 
yes.

             REPATRIATION, RETURN OF UNACCOMPANIED CHILDREN

    Senator Shelby. Suppose at the rate they are going with 
52,000 people, children, detained, came in and were apprehended 
in the country, if this number continues to grow, there could 
be hundreds of thousands of children coming here, could it not?
    Secretary Johnson. Yes, which is why we believe we need to 
add resources to the process of repatriation and return for 
UACs, while preserving the ability to make a claim for 
humanitarian relief.

                   BORDER SECURITY: RIO GRANDE VALLEY

    Senator Shelby. Along the border with Texas, the Rio 
Grande, mainly, area, do they just walk across the border? Is 
the border unprotected? There is no fence there or anything? Or 
do they just come up and say take me into custody?
    Secretary Johnson. The Rio Grande Valley sector is bordered 
by the Rio Grande River, and it is a windy river.
    Senator Shelby. Absolutely. It is 360 miles long or 
something.
    Secretary Johnson. And they swim across; they walk across. 
And if you look at a map that the Border Patrol will show you, 
it is tending to concentrate in one particular area.
    Senator Shelby. So even if we gave the money that has been 
requested here, $3.7 billion, it doesn't solve the problem in 
any way. It helps you deal with the current problem. It doesn't 
solve the problem, does it?
    Secretary Johnson. In my judgment, it will definitely stem 
the tide if we provide this funding.
    Senator Shelby. Senator Graham asked the question, I didn't 
hear a clear answer to it, maybe you don't know, but these 
children, most of them who are trying to come to this country, 
do they have parents or uncles or aunts in this country 
already, legal or illegal? Do you know?

                        PLACEMENT WITH SPONSORS

    Secretary Burwell. Yes, when we place the children, the 
majority of the children are placed with relatives.
    Senator Shelby. So they know who their relatives are, where 
they are, and so forth?
    Secretary Burwell. The children, in some cases, know. In 
other cases, as part of the HHS process, we learn and make that 
determination through questions and an interview process in 
terms of trying to understand the child.
    Senator Shelby. Now if people are here legally, they come 
as immigrants legally, and their children are where they came 
from, the country of origin, can't they go through the legal 
process and bring their children to this country? Isn't there a 
legal process for that?

                          IMMIGRATION PROCESS

    Secretary Burwell. I would defer to my colleague from 
Justice on the process.
    Mr. Osuna. It depends on their current status. If they are 
here illegally, Senator----
    Senator Shelby. If they are here legally and they wanted to 
bring their children that are, say, in Central America 
somewhere.
    Mr. Osuna. There is one category for lawful permanent 
residents who can petition for their family members. That would 
be the only category that is currently available, I believe, 
for them to bring the relatives over.
    Senator Shelby. Well, I know money, it is a humanitarian 
problem, but it is an immigration problem, a big one for this 
country.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Well, that concludes the number of 
Senators who wanted to ask questions or make statements and ask 
questions.
    I think this has been an excellent hearing. The fact that 
25 Senators came from this committee to participate, and the 
other five had commitments for which they will submit 
questions.
    We also want to thank the witnesses for their 
straightforward, candid commentary, but also for the work that 
they do every day.
    In addition to dealing with this situation, they also have 
other pretty significant responsibilities. And we know they are 
working 36-hour days and 10-day workweeks. And I think it is 
pretty impressive.
    And also, to the men and women who work under those 
agencies, it is pretty impressive when you meet the Border 
Patrol agents and also the response of particularly our local 
faith-based organizations. To me, it was very heartening and 
touching to see the way the Baptist child welfare agency was 
running the Lackland facility. It was A-plus in terms of any 
standard of child welfare. What was particularly interesting to 
me was the Catholic Charities in Oklahoma had come to Lackland 
to work with the Baptists to learn what was the most effective 
way to deal with this.
    So I think we are doing a lot. But the question is, what is 
it really we are going to do? There is the urgent supplemental 
that meets the needs of today. Every single colleague has said, 
we do need to look at the long-range implications of this.
    Some talk about a more military interventionist strategy. 
Some talk about changing the law on refugees. These are not 
necessarily my personal direction, because when you are talking 
to the children, you find out why would a mother making minimum 
wage somewhere scrape together $3,000--you can imagine what it 
took to save that amount of money--to send it to essentially a 
scoundrel to bring her daughter or son across the border, and 
to know the treacherous, dangerous journey that they are going 
to do. You would only risk that, the danger so severe--we all 
heard these stories that are so wrenching that we don't even 
want to repeat some of them in public because of their 
poignancy.
    The fact is that it is because in Guatemala, Honduras, and 
El Salvador, the violence is so bad that the violence of the 
journey is less, and a risk that they will take.
    And then to say we are going to send them back. Send them 
back to what? The gangs that tried to recruit a little girl and 
threatened the family that if the two young girls didn't join 
the gang, they would be killed, mutilated, or turned into 
something called queens. I won't even talk here about what that 
means. I could not bring myself to describe it.
    So what are we going to send them back to? It is not like 
Juan Valdez is going to greet them at the airport with roses. I 
think we have to get a real strategy here to know why they 
left.
    Now I have said repeatedly, and I will say this again, that 
I have felt over the last decade we have fought four wars. We 
fought one in Afghanistan because of an attack on us. We fought 
one in Iraq that members voted for; I did not. Then we fought 
the cyberwar, which continues to be a significant threat. And I 
don't minimize the threat of terrorism. Then I talked about the 
war at the border, but I was worried about drug dealers. I 
wasn't worried about children.
    But the children are coming because of the drug dealers. So 
sure, we can talk about root cause in poverty. I don't minimize 
that. But we have to really now, I think we have to really 
focus on our hemisphere. I believe we have had 3 decades of 
uneven policy in terms of looking at our own hemisphere and in 
Central America.
    Senator Harkin knows about it, and Senator Shelby. We come 
from a background that heard about the nuns who were assaulted, 
the Maryknoll nuns, the assassination of Oscar Romero, war 
after war, brutality after brutality. And then, just when we 
are ready to deal with it, some other thing turns our head, and 
we are off running, putting on flak jackets, visiting some new 
issue.
    So I think we need to, in addition to all the other wars we 
have to fight, or bring to a closure, and they are significant, 
you know, as Mr. Homeland Security, that there are a lot of 
threats to this country. But I believe the threats of the 
children, the children are not threats. The children are coming 
because of the threat to the children.
    And I think we need to meet the urgent needs here. We have 
to then really focus on our hemisphere, and have a focused way 
that deals with the crime, deals with corruption, deals with 
exactly where a mother will risk sending her daughter on a 
perilous journey because it is less violent than what she would 
find staying at home with her grandmother.

                     ADDITIONAL COMMITTEE QUESTIONS

    So we have a lot of work to do. The record will be open for 
2 weeks. I invite any nonprofit to submit testimony.
    [The following questions were not asked at the hearing, but 
were submitted to the various Departments for response 
subsequent to the hearing:]
            Questions Submitted to Secretary Sylvia Burwell
         Questions Submitted by Chairwoman Barbara A. Mikulski
               challenges to increasing shelter capacity
    Question. One of the basic challenges for expanding capacity is 
simply HHS finding service providers who are able to do this kind of 
work. Shelters must meet state licensing standards and local zoning 
requirements. This has been a challenge in some cases, particularly as 
they ramp up and seek new facilities.
    Finding shelters has also become more of a problem given the more 
intense focus on the unaccompanied children issue. Some organizations 
wishing to expand shelters and provide care for these children are 
confronting opposition from local communities, even if they had 
operated shelters in the community for years.
    Funding uncertainty has also been an issue. HHS has not been able 
to guarantee potential grantees that funding will be available for more 
than short periods of time.
    HHS provides shelter and care for unaccompanied children through a 
network of grantees across the country. Can you talk a little about the 
challenges HHS has faced in expanding capacity to house children?
    Answer. The number of unaccompanied children arriving at the border 
has steadily increased since fiscal year 2011, approximately doubling 
year over year, and more than doubling this year. In response, the HHS 
Office of Refugee Resettlement (ORR) increased shelter capacity and 
prepared for increased arrivals. However, in May and June of 2014, HHS/
ORR experienced a sudden increase in the numbers of unaccompanied 
children, which exceeded expectations. The number of children referred 
to HHS in May 2014 was more than three times the number referred in May 
2013 and the number referred in June 2014 was more than four times the 
number in June 2013. This presented the challenge of needing additional 
capacity in a short period of time.
    In response, HHS/ORR worked with the Department of Defense (DOD) to 
add temporary capacity at three DOD installations, while continuing to 
work on expansion of capacity within the HHS/ORR traditional grantee 
network. New providers were found through outreach to national child 
welfare networks, states, and HHS Administration for Children and 
Families (ACF) regional administrators. These providers were brought on 
board through the Urgent and Compelling grant process. Additional non-
DOD facilities for temporary shelters were sought during May and early 
June, but no additional temporary shelters were opened. In some cases, 
community opposition to facilities made them untenable.
    In addition, since HHS/ORR's standard capacity under law must be 
State licensed, grantee organizations must work with a variety of state 
licensing agencies, zoning agencies, and health and safety agencies 
within a state before a new grantee can begin operations or before an 
existing grantee expands its capacity. This process can take as long as 
120 days.
    Question. What has been the impact of funding uncertainties on HHS 
being able to expand capacity?
    Answer. HHS is unable to enter into negotiations with grantees for 
the provision of services (such as shelter for unaccompanied children) 
without having funds available to pay for these services. While the 
final fiscal year 2014 appropriation provided a $492 million increase 
for the unaccompanied children program (total of $868 million), these 
additional funds were not available until January 2014. As a result, 
the negotiation and licensing process for many of the new beds was 
postponed, and HHS/ORR had brought fewer than 1,000 new beds on line by 
May when the sudden increase in unaccompanied child arrivals began. Had 
the full $868 million been available at the beginning of fiscal year 
2014, additional beds would have been available in May, so that HHS 
could have more rapidly placed children referred from the Customs and 
Border Patrol (CBP) and would have been able to avoid or reduce usage 
of the more expensive temporary beds on DOD facilities.
              ensuring adequate access to social services
    Question. The Trafficking Victims Protection Reauthorization Act of 
2008, Homeland Security Act of 2002, and the Flores Settlement 
Agreement all prescribe certain protections for unaccompanied children. 
These protections are based on the recognition that unaccompanied 
children represent a particularly vulnerable population.
    As the number of children has dramatically increased it has put 
stress on all aspects of the system, including children's access to a 
variety of critical services. The Administration has said that they are 
considering policy changes to make it easier to return children from 
Central America to their home country. Many of these children are 
fleeing very dangerous situations in their home countries, many were 
abused by smugglers or traffickers, and some may be eligible for relief 
under U.S. immigration law.
    Children who have suffered abuse often have difficulty disclosing 
that to police officers or immediately to other strangers. They are 
more likely to talk to social workers, legal counsel, and other 
advocates. These professionals, and the protections afforded to 
children under current law, help protect the best interest of children.
    Many children transferred to HHS care are victims of abuse or 
trafficking and may be eligible for asylum. What role do legal 
representatives, mental health providers, social workers, or other 
child advocates play in looking after the best interests of the child?
    Answer. Unaccompanied children generally leave their home countries 
to escape violence, trafficking, persecution, poverty, a lack of 
protection by local authorities, or to reunify with families. To help 
ensure the best interests of the child are met, ORR provides certain 
legal services to unaccompanied children in HHS custody through a 
contract with the Vera Institute of Justice. These include a ``know 
your rights'' presentation, legal screening, and legal representation 
in limited circumstances. Legal screening is provided by an attorney, 
paralegal, or Board of Immigration Appeals (BIA) accredited 
representative who determines whether the child is potentially eligible 
for legal relief. The contractor also tries to identify and coordinate 
pro bono legal representation, including after children are released to 
sponsors. A list of free legal services available near the shelter's 
location and near the home of the sponsor is provided.
    Specific to trafficking, ORR grantees are trained to use ORR 
assessments to screen every child in our care for possible trafficking 
concerns. If a child is assessed as being a possible trafficking 
victim, grantee staff works with ORR employees to ensure that the child 
is screened by an attorney and referred to ORR's Anti-Trafficking In 
Persons Division.
    Each child is individually assessed by a clinician and case 
manager. Clinicians conduct individual and group counseling sessions on 
a weekly basis for all children, and case managers meet with the child 
regarding the progress of the child's family reunification case on a 
weekly basis. The clinician's assessment includes screening for 
possible trafficking concerns and assessing the child's current and 
past medical and mental health status. If a particular concern is 
identified, further psychological assessments may be ordered, home 
studies may be conducted, and further counseling is provided until the 
child is released. If a child is assessed as being a possible 
trafficking victim through this process, grantee staff again work with 
ORR employees to ensure that the child is screened by an attorney and 
referred to ORR's Anti-Trafficking In Persons Division.
    Trafficking victims and other children with special needs may also 
be appointed a child advocate in certain locations. Child advocates 
identify and advocate for the best interests of the child regarding any 
decision made for the child, whether by ORR, an attorney, or the 
immigration court. Child advocates also create a report about the best 
interests of the child and provide the report to ORR to assist in 
making release and other decisions and recommendations.
    Question. As the number of children coming to the U.S. has 
dramatically increased, what is the Administration doing to ensure that 
children have access to these critical services?
    Answer. The Unaccompanied Children program provides food and 
shelter, as well as individual case management, screening by 
professionals for mental health issues, access to mental healthcare 
when needed, and access to legal services. HHS has continued to provide 
this same set of services in all of its shelters, including the 
temporary shelters operating on DOD bases.
    Question. We urge other governments, whether Jordan, Lebanon, or 
countries in Africa to provide a safe haven to millions of refugees 
fleeing violence. What is different here? Are we asking those countries 
to adopt a standard that we unwilling to apply to ourselves?
    What does international law say about deporting people who are 
fleeing violence and may have legitimate claims as refugees, and what 
are you doing to ensure the law is respected?
    Answer. By law, HHS is required to accept unaccompanied children 
under the age of 18 (except those from Canada and Mexico) who are 
apprehended by CBP into its care and custody while they await 
immigration proceedings. HHS does not determine which individuals are 
allowed to come to the U.S. as refugees or which unaccompanied children 
are granted immigration relief. For answers to these types of 
questions, including questions of international law, I respectfully 
refer you to the Departments of Justice, Homeland Security, and State.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                           hhs reprogramming
    Question. Prior to the Administration's request for emergency 
supplemental funding, HHS reprogrammed funds previously intended for 
refugee resettlement programs in states including Vermont, which 
provide essential services to refugees from places like the Sudan and 
Somalia, in order to put more funds towards the UAC program. These 
state programs already receive extremely limited funding and the 
reprogramming of what is a significant portion of their funding would 
be devastating. In Vermont, this cut in funding will force refugee 
resettlement programs to turn away refugees fleeing persecution. This 
seems like a classic case of robbing Peter to pay Paul.
    Does this supplemental request include funds to make those programs 
whole and ensure that deserving refugees in Vermont, Oregon, Maryland 
and states around the country don't bear the burden of this 
humanitarian crisis on the Southwest border?
    Answer. At the time the supplemental request was submitted, our 
cost projections--based on the number of children arriving at the 
time--indicated that it could be necessary to reprogram up to $94 
million from refugee services to the Unaccompanied Children (UC) 
program. The emergency supplemental request includes funding to 
backfill the $94 million reprogramming from refugee programs within the 
``Refugee and Entrant Assistance'' account. Since the date of the 
hearing, the number of arrivals has dropped significantly and we were 
able to suspend operations at the temporary shelters operating at DOD 
facilities. The resulting cost savings have allowed us to release some 
of these refugee funds for refugee services.
    The Administration's coordinated efforts to address the 
humanitarian situation at the southwest border has contributed to 
slowing the pace of unaccompanied children arriving. Without additional 
funding, HHS will not be able to maintain its year-end standard shelter 
capacity and needed surge capacity if the facts on the ground change 
quickly. A lack of adequate funding undermines HHS's ability to 
prudently plan for these contingencies and to secure the most 
efficient, lower cost, longer-term solution.
    Question. How are you going to prevent a gap in funding for our 
other state refugee resettlement programs?
    Answer. If refugee funds are needed for the unaccompanied children 
program (either in fiscal year 2014 or because fiscal year 2015 funding 
is inadequate), then States and non-profit organizations may have to 
reduce services in the coming year. We will continue to work diligently 
with the Congress to secure stable funding sufficient to meet our 
commitments to all the populations we serve. Adequate fiscal year 2015 
funding for all programs within the Office of Refugee Resettlement is 
critical to ensuring that HHS has the resources it needs to care for 
unaccompanied children who come into our custody and to help refugees 
succeed in the United States.
                legal counsel for unaccompanied children
    Question. Providing legal counsel for unaccompanied children is a 
critical element in ensuring that they are receiving appropriate 
screening to determine if they are the victim of human trafficking or 
persecution or have other claims to immigration relief. How will the 
Department of Health and Human Services ensure that attorneys have 
access to the detention facilities where these children are being 
detained? What will the process be for providing lawyers access to 
these children?
    Answer. HHS/ORR contracts with the Vera Institute of Justice to 
carry out the Legal Access Project, which provides presentations to the 
unaccompanied children in HHS shelters (either video or in person, 
depending on location), explaining their rights as part of the 
immigration legal process. There is also screening to determine whether 
a child may be eligible for any type of immigration relief. The 
contractor also tries to identify and coordinate pro bono legal 
representation, including after children are released to sponsors. A 
list is provided of free legal services available near the shelter's 
location and, again, near the home of the sponsor. Some children 
receive direct legal services through the project. In the last 3 years 
of the contract, the number of children receiving direct legal counsel 
increased from 2 percent to five percent.
    The amount of the contract is based on an estimate of the number of 
children in care for the year. In fiscal year 2013, the contract was 
for $13 million, and most of the funding went to 22 subcontractors to 
cover presentations to children in shelters. Approximately $2 million 
was spent for the Vera Institute to provide direct legal representation 
to unaccompanied children.
                       identification of parents
    Question. The Office of Refugee Resettlement (ORR) has stated that 
they fingerprint any sponsor a child is released to with the exception 
of the child's parent. How does ORR verify parentage in those 
situations?
    Answer. In accordance with Trafficking Victims Protection 
Reauthorization Act of 2008, HHS requires verification of a sponsor's 
identity and relationship, if any, to a child before releasing a child 
to a sponsor. To meet this requirement, HHS requires care providers to 
complete and document a thorough assessment of the child's past and 
present family relationships, and relationships to non-related 
potential sponsors. HHS care providers evaluate the nature and extent 
of the sponsor's previous and current relationship with the child and 
the child's family, as well as the sponsor's motivation for wanting to 
sponsor the child. If the child is not being released to his parent or 
legal guardian, the care provider considers the child's parent or legal 
guardian's perspective on the child's potential release to a particular 
sponsor. To verify the relationship between parent and child, HHS uses 
several methods, including an interview with both the child and the 
sponsor, and authentication of legal documents. The primary method of 
verifying the relationship between parent and child are through the 
child's birth certificate and the sponsor's, which are then verified by 
consulate staff of the child and parent's home country for 
authentication.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Each day, 691 new children enter the foster care system 
because of abuse or neglect. Each week, 4,852 children find themselves 
on the beginning of their journey through ``the system.'' Over 79,000 
children will call this system home for more than 3 years and more than 
23,400 young adults will ``age out'' of the system without a safe, 
permanent family. Of those that age out, studies indicate that over 
half experience homelessness and that nearly 30 percent are 
incarcerated. The U.S. domestic child welfare system is chock-full of 
problems, yet this humanitarian crisis along the Southwestern border is 
estimated to bring as many as 9,000 unaccompanied minors into foster 
care this year.
    Can our domestic child welfare system effectively manage this 
burden? How will supplemental funds for HHS be directed towards 
improving outcomes for unaccompanied minors who enter our foster care 
system?
    Answer. There is little interaction between unaccompanied children 
and the traditional state foster care system, while in HHS care.
    In cases where an immigration status is granted, or the child 
receives a letter of eligibility from HHS as a victim of trafficking, 
the child may be eligible to apply for placement into the HHS 
Unaccompanied Refugee Minor (URM) foster care program. HHS provides 
grants to 15 states which serve approximately 1,600 URM children and 
youth in foster care, the full cost of which is supported with HHS 
funds. The URM program traditionally has served unaccompanied refugee 
children who are identified in countries of first asylum as requiring 
foster care upon their arrival in this country. HHS works with two 
national voluntary agencies, the United States Conference of Catholic 
Bishops and the Lutheran Immigration and Refugee Service to identify 
placement in affiliated agencies under contract with state refugee 
coordinator offices. While most children in the URM program are placed 
in licensed foster homes, other licensed care settings are utilized 
according to children's individual needs, such as therapeutic foster 
care, group homes, independent living, or residential treatment 
centers.
    Any allegations of abuse after a child is released from HHS care is 
reported through the state's child welfare system which in turn 
investigates the allegations. A child that is found to be abused or at 
risk of abuse by a sponsor could be placed in state foster care.
    Question. Does DHS have any measures in places to track 
unaccompanied children after they are placed in the custody of HHS or a 
guardian designated by that Department?
    Answer. The Department of Homeland Security (DHS) is required to 
refer and transport unaccompanied children to HHS/ORR care within 72 
hours of a child's identification as an unaccompanied child, absent 
exceptional circumstances.
    HHS/ORR provides DHS with the addresses of sponsors, typically 
parents or other family members, to whom unaccompanied children are 
released.
    After release HHS no longer retains legal custody of the children 
and does not track whether a child remains with the sponsor. Sponsors, 
prior to taking custody of the children, agree to bring children to 
court proceedings and to notify DHS and the immigration court of any 
change in the child's address. To ensure the safety of the children, 
HHS carefully screens the children for signs of trafficking and 
smuggling in order to prevent the child's release to a sponsor who 
smuggled or trafficked the child, and potential sponsors are required 
to undergo background checks and complete an assessment process that 
identifies risk factors and other potential safety concerns.
    Question. How do your Departments work together to help ensure that 
these children do not end up in the hands of predators or sex 
offenders?
    Answer. HHS does not release children to sponsors who have been 
convicted of (including a plea of no contest to) a felony or 
misdemeanor involving child abuse or neglect; spousal abuse; a crime 
against a child or children (including child pornography); or a crime 
involving violence, including rape, sexual abuse, or homicide. HHS will 
not release a child to a sponsor who has been convicted within the last 
5 years of a felony involving physical assault, battery, or drug 
related offenses. Similarly HHS will not release a child to sponsors 
with pending criminal charges that compromise the sponsor's ability to 
ensure the safety and wellbeing of the child.
    HHS may require a home study be conducted by a child welfare expert 
prior to release of the child to a sponsor that has prior convictions 
for offenses that do not automatically bar them from serving as a 
sponsor.
    Question. If the child does not show up for their immigration court 
proceedings, do DHS officials check up on them to make sure that they 
are safe?
    Answer. Sponsors are given information about their responsibilities 
vis-a-vis the child including the requirement that the child attend all 
immigration hearings to which they are a party. After a child is 
released from HHS/ORR custody, HHS does not track the child's legal 
case. For information related to these children's court appearances you 
should contact the Executive Office for Immigration Review (EOIR), 
which operates the immigration court system.
    Question. Do DHS and HHS share any information about the child's 
guardian or whereabouts after they are released from HHS custody?''
    Answer. As part of the process of placing a child with a sponsor, , 
HHS notifies potential sponsors of their responsibility for ensuring 
the minor appears at all proceedings related to his immigration case. 
HHS also informs sponsors of their responsibility to notify DHS within 
ten days and EOIR within five days of address changes.
    HHS provides notification to DHS of the name and address of the 
sponsor both prior to and after the child is released to the sponsor. 
Additionally, HHS staff coordinates with EOIR staff and provides them 
with the current address of the sponsor at the time a child is placed 
with that sponsor.
    Question. We are being asked to consider an emergency supplemental 
appropriations bill worth $3.7 billion. Clear lines of authority and 
responsibility need to be established and accountability for the money 
must be a priority. We need to identify who is in charge of fixing the 
deep-rooted, systemic problem, what the plan is, and who is going to be 
held responsible for delivering results.
    Who is accountable in each of your departments or component 
agencies and how are they part of a coordinated whole-of-government 
approach?
    Answer. The Office of Refugee Resettlement (ORR), led by Director 
Eskinder Negash, is the office within HHS's Administration for Children 
and Families (ACF), led by Acting Assistant Secretary Mark Greenberg, 
which has the responsibility for the care of unaccompanied children 
until they may be released to an appropriate sponsor. HHS 
responsibility for unaccompanied children is in accordance with the 
Homeland Security Act of 2002 Sec. 462, TVPRA of 2008 Sec. 235, the 
Flores Settlement Agreement, the Perez-Olano Settlement Agreement, and 
the Violence Against Women Reauthorization Act of 2013. This office 
works in coordination with others across HHS as well as with partners 
in the other Federal agencies, such as the Departments of Homeland 
Security, Justice, and State.
    Question. What are the specific goals of each of your departments? 
What are the metrics and the benchmarks of success or failure in 
addressing this emergency situation, for the remainder of fiscal year 
2014, for fiscal year 2015, and beyond?
    Answer. The goal for HHS/ORR with regard to unaccompanied children 
is that while the children are in our care, we ensure that they receive 
care that is in the best interests of the child and in accordance with 
all applicable laws. This includes ensuring that children receive 
needed medical attention and are screened by professionals for 
trafficking and mental health issues. In addition, we work to place 
children with appropriate sponsors, generally parents or other family 
members, who can safely care for them while their immigration case is 
processed. We also work with our Federal partners to ensure the timely 
and safe transition of children from DHS custody to HHS care. Some of 
the indicators we follow include tracking timeliness in placing 
children in available shelters to minimize the amount of time spent in 
CBP facilities, the number of children released to appropriate sponsors 
to expedite the process and minimize length of stay, and overall 
capacity to ensure we are prepared for any future influx.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
    Question. The President's Budget was released in March. It is hard 
for me to believe that the Administration did not know that the influx 
of unaccompanied children was occurring at a pace that might outpace 
resources. Why was the influx of unaccompanied children not flagged as 
a priority in the Department of Health and Human Services' (HHS), 
Department of Homeland Security (DHS), and the State for Foreign 
Operations funding request? How is the Administration going to ensure 
that the OMB can be agile in their requests and give Congress time to 
ensure oversight for crisis's build over time like this one?
    Answer. At the time that the fiscal year 2015 budget was put 
together, we did not have sufficient data to estimate the amount of 
funding that would be needed in fiscal year 2015 with any degree of 
certainty. Moreover, we had just created an interagency work group to 
examine this issue to see if unaccompanied children could be served 
more efficiently.
    The number of unaccompanied children arriving at the border has 
steadily increased since fiscal year 2011, approximately doubling year 
over year and more than doubling this year. In response, the HHS Office 
of Refugee Resettlement (ORR) increased shelter capacity and prepared 
for increased arrivals. However, in May and June of 2014, HHS/ORR 
experienced a sudden increase in the numbers of unaccompanied children, 
which exceeded expectations. The number of children referred to HHS in 
May 2014 was more than three times the number referred in May 2013 and 
the number referred in June 2014 was more than four times the number in 
June 2013. This presented the challenge of needing additional capacity 
in a short period of time.
    At the time the budget was released, we said that as additional 
information became available we would provide revised cost estimates to 
the Appropriations Committees. Revised estimates were provided through 
a May 30th letter to the heads of the Appropriations Committees.
    Question. On May 12th, Secretary Johnson declared the influx of 
unaccompanied children a Level IV condition of readiness within the 
Department of Homeland Security, which meant that the capacity of the 
Customs and Border Protection and the Immigration and Customs 
Enforcement were at full capacity. Has HHS issued a similar 
declaration? If not, please explain.
    Answer. The Secretary of HHS does not have this type of emergency 
designation structure, but Secretaries Sebelius and Burwell have 
maximized their authorities to respond to this crisis. These actions 
include, transferring the maximum amount of funding possible ($44 
million) into the refugee appropriation to provide additional resources 
to the unaccompanied children program, notifying Congress of our intent 
to reprogram resources within the refugee appropriation to the 
unaccompanied children program, and providing Commissioned Corps 
Officers and resources to assist Customs and Border Patrol in providing 
medical care to children in their facilities and to provide mission 
support to various parts of HHS engaged in the response. HHS drew staff 
from throughout the Department to staff the Unified Coordination Group 
(UCG) led by FEMA.
    Question. In many instances Licensed Faith Organizations are 
helping HHS care for the unaccompanied children. Will the Department 
report back to this Committee what lessons they are learning from the 
Faith Organizations and how lessons learned can help HHS prepare for 
any future, similar crisis?
    Answer. Services are provided through licensed grantees, generally 
nonprofit organizations, many of which are faith based organizations. 
HHS/ORR has field specialists and project officers who work closely 
with grantees, and we are communicating with grantees regularly, 
including on-site visits. We seek their input on issues ranging from 
mechanisms for improving intake processes, to ensuring children are 
well cared for while in HHS care, and improving the process of vetting 
and releasing children to appropriate sponsors. Over the past year, we 
have worked with grantees to develop ways to reduce the length of time 
children remain in HHS care while ensuring the safety of the children. 
Input from grantees has helped us reduce the average length of stay by 
half since fiscal year 2011, and we will use their experience and 
lessons learned as we prepare for the future.
    Question. There have been reports that ICE and CBP have taken 
biometric identification from some of the unaccompanied minors near the 
border. Because most of these minors lack proper identification 
biometrics appears to be a reliable way to ensure these minors are 
accounted for as they pass through several agencies (DHS, HHS, DOJ), 
family members in the U.S., and even as they are sent back to their 
home countries. Furthermore, it is important that our agencies are able 
to protect these children's identities. Are DHS and HHS properly 
leveraging the biometrics captured, is there inter-agency cooperation? 
Please describe the current or planned system to accurately account for 
these minors as they stay in the U.S. and as they leave.
    Answer. HHS does not take biometric identification (e.g. 
fingerprints) from unaccompanied children, but we have a robust system 
for ensuring that children are released to appropriate sponsors who can 
safely care for them while their immigration case is processed. HHS 
does carefully screen the children for signs of trafficking and 
smuggling, and potential sponsors are required to undergo background 
checks and complete an assessment process that identifies risk factors 
and other potential safety concerns. A fingerprint background check is 
required if any risk factors are raised, if there is any concern for 
the child's safety, or if the sponsor is not the child's parent or 
legal guardian. HHS also receives a copy of the child's birth 
certificate and the sponsor's, which are then verified by consulate 
staff of the child and parent's home country for authentication.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                      failure to budget in advance
    Question. The number of Unaccompanied Alien Children entering the 
United States illegally has increased almost every year since 2004. 
Yet, when the number of unaccompanied alien children was projected to 
double in fiscal year 2015, a projection established before the budget 
request's submission, the Department chose not to include an increase 
in the President's request.
    Why did the Administration ignore this issue in their fiscal year 
2015 budget request?
    Answer. At the time that the fiscal year 2015 budget was put 
together, we did not have sufficient data to estimate the amount of 
funding that would be needed in fiscal year 2015 with any degree of 
certainty. Additionally, we had just created an interagency work group 
to examine this issue to see if unaccompanied children could be served 
more efficiently. At the time the budget was released, we said that as 
additional information became available we would provide revised cost 
estimates to the Appropriations Committees. Revised estimates were 
provided through a May 30th letter to the heads of the Appropriations 
Committees.
    The number of unaccompanied children arriving at the border has 
steadily increased since fiscal year 2011, approximately doubling year 
over year and more than doubling this year. In response, the HHS Office 
of Refugee Resettlement (ORR) increased shelter capacity and prepared 
for increased arrivals. However, in May and June of 2014, HHS/ORR 
experienced a sudden increase in the numbers of unaccompanied children, 
which exceeded expectations. The number of children referred to HHS in 
May 2014 was more than three times the number referred in May 2013 and 
the number referred in June 2014 was more than four times the number in 
June 2013. This presented the challenge of needing additional capacity 
in a short period of time.
    At the time the budget was released, we said that as additional 
information became available we would provide revised cost estimates to 
the Appropriations Committees. Revised estimates were provided through 
a May 30th letter to the heads of the Appropriations Committees.
                        fiscal year 2014 funding
    Question. The $1.8 billion requested in the supplemental is not 
limited to fiscal year 2014 needs. With multi-year authorities 
requested in the supplemental, the Department apparently intends to 
rely significantly on the supplemental funding in fiscal year 2015 
instead of base funding.
    How much money does the Department specifically need to meet 
custody costs through the end of the current fiscal year?
    Answer. The request for emergency supplemental appropriations is 
based on the assumption of up to 90,000 unaccompanied children in 
fiscal year 2014 and 145,000 unaccompanied children in fiscal year 2015 
coming into HHS care. As you know, this humanitarian situation is very 
fluid, and the requested funding will allow HHS to effectively plan to 
follow the law and care for unaccompanied children in the most cost 
effective way possible. On May 30, the Administration estimated HHS 
would need $2.28 billion to serve 145,000 unaccompanied child arrivals 
in fiscal year 2015.
    Since the date of the hearing, the number of unaccompanied children 
referred to HHS fell considerably. In July, 5,305 children came into 
HHS custody, compared to 9,431 in May and 10,197 in June. The reduction 
in arrivals coupled with increased shelter capacity and discharges from 
our care allowed us to eliminate the backlog of children who are in 
Border Patrol custody for more than 72 hours. . Without supplemental 
funding HHS could face three challenges:
  --First, we will be unable to maintain the number of beds we will 
        have in place at the end of fiscal year 2014. Additional 
        funding sooner rather than later enhances our ability to plan 
        and to secure lower cost, longer-term solutions, including 
        surge capacity that we can utilize in the future should we 
        again face a significant increase in the number of children 
        arriving.
  --Second, there remains uncertainty about the number of children we 
        will need to house over the coming months. Additional funding 
        is critical for fiscal year 2015 to be in a position to plan 
        prudently.
  --Third, without additional resources, we may need to use funds that 
        would otherwise be provided to states and communities to help 
        refugees who we have brought to the United States integrate 
        into their new communities. Additional funding is critical for 
        HHS/ORR to be in a position to plan prudently and secure lower 
        cost, longer-term solutions in fiscal year 2015.
    Question. We understanding that the timing can fluctuate based on 
factors such as the availability of additional beds for unaccompanied 
alien children, but when does the Department estimate it will run out 
of money in fiscal year 2014?
    Answer. The request for emergency supplemental appropriations is 
based on the assumption of up to 90,000 unaccompanied children in 
fiscal year 2014 and 145,000 unaccompanied children in fiscal year 2015 
coming into HHS care. As you know, this humanitarian situation is very 
fluid, and the requested funding will allow HHS to effectively plan to 
follow the law and care for unaccompanied children in the most cost 
effective way possible. Additional funding sooner rather than later 
enhances our ability to plan and to secure lower cost, longer-term 
solutions, including surge capacity that we can utilize in the future 
should we again face a significant increase in the number of children 
arriving.
                            budget estimates
    Question. On May 30th, the Office of Management and Budget notified 
Congress that HHS' Unaccompanied Alien Children program would need 
$2.28 billion in fiscal year 2015 based on an estimate of 145,000 
children. The Department of Health and Human Services' estimates for 
illegal crossings in fiscal year 2014 have fluctuated greatly, however, 
from 26,000 at the beginning of the fiscal year, to a revised estimate 
of 70,000 children this week.
    How was the $2.28 billion for the fiscal year 2015 request 
developed and are you still estimating 145,000 unaccompanied alien 
children?
    Answer. The $2.28 billion estimate was made by multiplying 145,000 
unaccompanied children by an average cost of $15,665, including shelter 
care and post-release services. This average cost assumes that all 
unaccompanied children can be served in standard shelter beds which are 
significantly cheaper than the temporary beds which were needed to 
accommodate the sudden influx of children arriving in May and June. The 
145,000 arrival assumption was made by looking at monthly arrivals for 
the first 8 months of fiscal year 2014, comparing the number of 
arrivals each month with the number of arrivals for the same month in 
the previous year (e.g., 6,427 unaccompanied children arrived in April 
2014, an increase of 121 percent over the number of arrivals in April 
2013) and projecting forward based on the average month to month 
percent increase.
    As recent experience has demonstrated, it is very difficult to 
estimate the number of children who will arrive. That is why HHS plans 
to develop a stock of standard shelter capacity as well as surge 
capacity that can be utilized if the number of children arriving 
increases.
    Question. How many of these children will be transferred into HHS 
custody?
    Answer. The 145,000 estimate is for children in HHS custody only.
                  selection of uac housing facilities
    Question. Individual communities have concerns about the processes 
in place for acquiring new facilities to house Unaccompanied Alien 
Children (UAC). The Center for Domestic Preparedness in Anniston, 
Alabama was selected as a potential UAC housing facility. On July 2nd, 
after concerns about this choice were expressed, as it would have 
transported these children more than 900 miles away from our southern 
border to a facility ill-equipped to house them, Anniston was removed 
from the potential site list.
    What are the processes in place at HHS for identifying potential 
UAC facilities? Specifically, how are community concerns addressed?
    Answer. There are many factors that HHS considers when assessing 
whether a facility could serve as a temporary shelter. This includes 
the amount and configuration of the space; the availability of services 
such as food, HVAC, showers, and bathrooms; accessibility to an airport 
to facilitate the release of children to their sponsors and 
transportation of children from CBP facilities to the shelter; 
availability of grantees to staff the shelter; the safety and security 
of the facility; and local community support.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    Question. The fiscal year 2015 Senate Labor/HHS appropriations bill 
provided $1.94 billion for the funding for the Unaccompanied Alien 
Children Program, $340 million below the $2.28 billion the Office of 
Management and Budget requested in a letter to the Committee on May 
30th. While the Department may need additional funding by the end of 
the current fiscal year, it appears that this supplemental request also 
attempts to make up for the difference between what the Senate provided 
in fiscal year 2015 and what OMB requested outside the budget request. 
If funding was necessary in fiscal year 2015, why didn't the Department 
request it in the budget?
    Answer. At the time that the fiscal year 2015 budget was put 
together, we did not have sufficient data to estimate the amount of 
funding that would be needed in fiscal year 2015 with any degree of 
certainty. Additionally, we had just created an interagency working 
group to examine this issue to see if unaccompanied children could be 
served more efficiently. At the time the budget was released, we said 
that as additional information became available we would provide 
revised cost estimates to the Appropriations Committees. Revised 
estimates were provided through a May 30 letter to the heads of the 
Appropriations Committees.
    Question. The Supplemental requests $1.8 billion for the 
Unaccompanied Alien Children program, even though the Department needs 
approximately $400 million to run the program through the end of the 
fiscal year. Why are you asking for additional funds for fiscal year 
2015 when Congress has not yet appropriated fiscal year 2015 funds? Is 
this simply a way to avoid the budget caps?
    Answer. The request for emergency supplemental appropriations is 
based on the assumption of up to 90,000 unaccompanied children in 
fiscal year 2014 and 145,000 unaccompanied children in fiscal year 2015 
coming into HHS care. As you know, this humanitarian situation is 
fluid, and the requested funding will allow HHS to effectively plan to 
follow the law and care for unaccompanied children in the most cost 
effective way possible. On May 30th, the Administration estimated HHS 
would need $2.28 billion to serve 145,000 unaccompanied child arrivals 
in fiscal year 2015. This estimate assumed that none of the more 
expensive temporary beds HHS is currently using would be needed in 
fiscal year 2015.
    Since the date of the hearing, the number of unaccompanied children 
referred to HHS fell considerably. In July, 5,305 children came into 
HHS custody, compared to 9,431 in May and 10,197 in June. This 
reduction in arrivals coupled with increased shelter capacity and 
discharges from our care allowed us to eliminate the backlog of 
children who are in Border Patrol custody for more than 72 hours.
    Without supplemental funding HHS could face three challenges:
  --First, we will be unable to maintain the number of beds will have 
        in place at the end of fiscal year 2014. Additional funding 
        sooner rather than later enhances our ability to plan and to 
        secure lower cost, longer-term solutions, including surge 
        capacity that we can utilize in the future should we again face 
        a significant increase in the number of children arriving.
  --Second, there remains uncertainty about the number of children we 
        will need to house over the coming months. Additional funding 
        is critical for fiscal year 2015 to be in a position to plan 
        prudently.
  --Third, without additional resources, we may need to use funds that 
        would otherwise be provided to states and communities to help 
        refugees who we have brought to the United States integrate 
        into their new communities. Additional funding is critical for 
        HHS/ORR to be in a position to plan prudently and secure lower 
        cost, longer-term solutions in fiscal year 2015.
    Question. How much funding is needed for the remainder of fiscal 
year 2014?
    Answer. The request for emergency supplemental appropriations is 
based on the assumption of up to 90,000 unaccompanied children in 
fiscal year 2014 and 145,000 unaccompanied children in fiscal year 2015 
coming into HHS care. As you know, this humanitarian situation is very 
fluid, and while the situation has recently eased the requested funding 
will allow HHS to effectively plan to follow the law and care for 
unaccompanied children in the most cost effective way possible.
    Question. Madam Secretary, if a parent or guardian of an 
unaccompanied child is identified in the U.S., do you check the 
immigration status of the parent or guardian, and at what stage of the 
process do you perform this check? If not, why not?
    Answer. HHS does not inquire about potential sponsor's immigration 
status. Our focus is on ensuring the safety and security of the 
children and to place them in the least restrictive setting that is in 
the best interest of the child, in accordance with the Trafficking 
Victims Protection Reauthorization Act of 2008.
                                 ______
                                 
               Question Submitted by Senator John Boozman
    Question. As a member of the medical community, I'm concerned with 
the health issues I'm hearing about at the border--TB, H1N1, 
meningitis, scabies. I understand that in many instances, the 
situations these children were in prior to the horrific travel north, 
many have been less than desirable, but after that journey, they may be 
even worse off. What's being seen on the border in terms of sickness 
and disease and how is it being addressed? Given what you are seeing, 
how much do you estimate will be spent on medical expenses of the new 
arrivals and how much has already been spent?
    Answer. The safety of the children we care for in this program, and 
the safety of the American public, are our foremost concern. The 
Centers for Disease Control and Prevention (CDC) believes that the 
children arriving at the U.S. border pose little risk of spreading 
infectious diseases to the public. When children come into the HHS/ORR 
program, they are given a well-child exam, which includes the 
Administration of appropriate childhood vaccinations to protect against 
communicable diseases such as varicella, measles, mumps, rubella, 
meningococcal disease, and pertussis. They are also screened for 
tuberculosis, and receive a thorough mental health exam.
    It is common for children coming from border patrol to have issues 
such as small scratches, lice and sometimes scabies. These are treated 
on a normal basis at our facilities.
    When children are determined to be infectious with a communicable 
disease of public health concern while at the Border Patrol station, 
HHS/ORR will locate a program that is able to properly isolate them. 
Following established infectious disease protocols, children who are 
identified as exposed to communicable diseases of public health concern 
may be treated prophylactically to halt the course of the disease, 
tested to determine immunity to the disease, and/or placed in programs 
that have the capacity to quarantine.
    HHS provided medical support at the CBP detention facility in 
Nogales, Arizona. This allowed us to provide vaccinations and medical 
screening to children before they were placed in HHS shelters, speeding 
both medical treatment and the time it took to release a child to a 
sponsor.
    The HHS portion of the emergency supplemental request includes $6 
million for medical support.
                                 ______
                                 
              Questions Submitted to Secretary Jeh Johnson
         Questions Submitted by Chairwoman Barbara A. Mikulski
                      adhering to the 72-hour rule
    Question. Currently, how long are these children in DHS custody 
beyond 72 hours?
    Answer. The Department of Homeland Security makes every effort to 
transfer those unaccompanied children who do not voluntarily return to 
Mexico or Canada and children from all other countries within 72 hours 
of determining that they are unaccompanied, as required by Section 235 
of the TVPRA (8 USC 1232) to HHS. Accordingly, subsequent to 
apprehension and processing by CBP, those unaccompanied children who do 
not qualify for voluntary return are required to be placed with HHS 
within the prescribed timeframe. During the migration surge, HHS was 
not able to accept the number of children in CBP custody. This led to 
children remaining in DHS custody well beyond the allowed time and well 
beyond CBPs capacity to hold them.
    Question. What impact is this having on the children?
    Answer. DHS is committed to providing unaccompanied children with 
the best accommodations possible. Under existing legal authority, both 
DHS and HHS are ensuring the welfare of unaccompanied children in their 
respective custody, including that the children's nutritional and 
hygienic needs are met while in our custody; that children are provided 
regular meals and access to drinks and snacks throughout the day; that 
they receive constant supervision; and that children who exhibit signs 
of illness or disease are given proper medical care.
    Question. And what impact is having these children in your work 
areas having on your agency's morale and your agents' ability to 
perform their regular duties?
    Answer. The detention and processing of these unaccompanied 
children requires a significant amount of personnel, some of whom are 
being diverted away from their regular duties. The Border Patrol has 
detailed 265 agents to the Rio Grande Valley to augment operations. 
Enforcement operations geared toward South Texas Campaign targets have 
increased as well. Regarding morale, the Border Patrol has a dynamic 
and resilient workforce and recognizes the impact that a change in 
responsibilities and/or an increased workload has on its personnel. 
Agents are encouraged to take advantage of the variety of assistance 
programs made available through CBP such as the Employee Assistance 
Program, Peer Support or Chaplaincy.
                  detaining and removing family units
    Question. As word spreads that DHS is detaining more family units, 
does the Administration believe more women and children will decide not 
to make the dangerous journey to our borders?
    Answer. As I have stated, our message continues to be clear--our 
border is not open to illegal migration. Unless they qualify for some 
form of humanitarian relief, individuals migrating illegally will be 
sent back to their home countries consistent with our laws and values. 
DHS is committed to fair, smart, and effective enforcement of this 
nation's immigration laws. As part of our enforcement strategy, DHS has 
increased the available facilities to house and expeditiously remove 
adults with children, while still providing them with full access to 
make protection claims under current U.S. law.
    Traditionally, DHS has maintained very little detention space for 
adults traveling with children. Consistent with the President's 
emergency request for supplemental funding, DHS has sought to 
significantly increase that capacity. In the last 2 months, DHS has 
opened an additional family residential facility in Artesia, New 
Mexico, and Karnes County, Texas, and removals from both areas have 
already begun. DHS will seek to acquire additional facilities for this 
purpose, but lack of supplemental funding will make this more 
difficult. DOJ is temporarily reassigning immigration judges to handle 
the additional caseload. These immigration judges will adjudicate these 
cases as quickly as possible, consistent with all existing legal and 
procedural standards, including those for asylum applicants.
    Additionally, we have re-initiated and intensified our public 
affairs campaigns in Spanish, with radio, print, and TV spots, to 
communicate the dangers of sending unaccompanied children on the long 
journey from Central America to the United States, and of putting 
children into the hands of criminal smuggling organizations. CBP has 
developed and launched the Dangers Awareness Campaign to communicate 
these dangers to children and their families who are considering the 
journey and is working with stakeholders in Central America and the 
United States to encourage the use of Dangers Awareness Campaign 
materials. I have personally appealed through an open letter to the 
parents of those who are sending their children from Central America to 
the United States, distributed broadly in Spanish and English, to 
highlight the dangers of the journey, and to emphasize there are no 
free passes or ``permisos'' at the other end.
    These measures will increase the safe and prompt removal of those 
apprehended crossing our border, and will also send the message to 
Central America that our borders are not open to illegal migration.
    Since DHS announced plans to add additional detention capacity to 
detain and remove adults with children, the number of apprehensions of 
family units has decreased dramatically. Although there is no one 
factor that can be attributed to this decrease, and seasonal migration 
trends are almost certainly at play, DHS is confident that its 
comprehensive and sustained response to the challenge is making a 
difference. In order to continue the good work already done, it is 
important that Congress act to pass the President's request for 
supplemental funding to support our efforts.
    Question. How many families per month is DHS currently repatriating 
to their home countries?
    Answer. The number of aliens identified as being members of family 
units who are removed fluctuates based on a number of factors. From 
October 2013 through September 6, 2014, ICE has removed 714 individuals 
that U.S. Customs and Border Protection's Border Patrol apprehended and 
identified as being members of family units. Please see the chart below 
for a monthly breakout of the total.

   FISCAL YEAR 2014 THROUGH SEPTEMBER 6, 2014, ICE REMOVALS OF BORDER
                PATROL-IDENTIFIED MEMBERS OF FAMILY UNITS
------------------------------------------------------------------------
                     Month                                Total
------------------------------------------------------------------------
Oct-13.........................................                       48
Nov-13.........................................                       43
Dec-13.........................................                       31
Jan-14.........................................                       29
Feb-14.........................................                       29
Mar-14.........................................                       39
Apr-14.........................................                       47
May-14.........................................                       31
Jun-14.........................................                       23
Jul-14.........................................                      230
Aug-14.........................................                      130
Sept-14 (through 9/6/14).......................                       34
                                                ------------------------
      Total....................................                      714
------------------------------------------------------------------------
Data notes:
 
ICE Data
 
--Fiscal year 2014 data is updated through 9/6/2014 (ICE Integrated
  Decision Support v1.16 run date 9/8/2014; ENFORCE Integrated Database
  as of 9/6/2014).
--U.S. Marshals Service Prisoners have been excluded.
--Includes Removals from the detained and non-detained dockets.
--Removals include Returns. Returns include Voluntary Returns, Voluntary
  Departures and Withdrawals under Docket Control.
--Removal counts exclude lag removals (removals from previous fiscal
  years whose cases were not closed in the system of record until this
  fiscal year).

    Question. How will increased repatriations deter additional family 
units from making the treacherous and fruitless journey to our border?
    Answer. As I have stated, our message continues to be clear--our 
border is not open to illegal migration. Unless they qualify for some 
form of humanitarian relief, individuals migrating illegally will be 
sent back to their home countries consistent with our laws and values.
    Some migrants in DHS custody have stated that they were told or 
believed that family units, upon entry into the United States, would be 
provided a permit to stay legally in the United States. Removal of 
family units--alongside efforts to counter misinformation--make the 
point powerfully to migrating communities that illegally entering the 
United States will likely result in enforcement and removal action, not 
legal status or an ability to remain.
    Additionally, we have re-initiated and intensified our public 
affairs campaigns in Spanish, with radio, print, and TV spots, to 
communicate the dangers of sending unaccompanied children on the long 
journey from Central America to the United States, and of putting 
children into the hands of criminal smuggling organizations. CBP has 
developed and launched the Dangers Awareness Campaign to communicate 
these dangers to children and their families who are considering the 
journey and is working with stakeholders in Central America and the 
United States to encourage the use of Dangers Awareness Campaign 
materials. I have personally appealed through an open letter to the 
parents of those who are sending their children from Central America to 
the United States, distributed broadly in Spanish and English, to 
highlight the dangers of the journey, and to emphasize there are no 
free passes or ``permisos'' at the other end.
    These measures will increase the safe and prompt removal of those 
apprehended crossing our border, and also sends the message to Central 
America that our borders are not open to illegal migration.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                 demographics of unaccompanied children
    Question. What are the major demographics of the children you see 
coming across--especially in the Rio Grande Valley? Can you confirm 
that the percentage of girls in fiscal year 2014 is now some 40 
percent, up from just 23 percent 2 years ago?
    Answer. In fiscal year (FY) 2012, 15.9 percent of the nationwide 
apprehensions of Unaccompanied Alien Children (UAC) were females. In 
fiscal year 2014 (as of July 10, 2014), 29.1 percent of the nationwide 
apprehensions of UAC are females.
    Question. Can you provide me with detailed data on the number of 
boys vs. girls you see coming across the border, divided by age group 
(0-5, 6-10, 11-15, and 16+) and country of origin?
    Answer. Please note this information is specific to the Rio Grande 
Valley area only.

                              USBP RIO GRANDE VALLEY SECTORP UNACCOMPANIED CHILDREN APPREHENSIONS BY CITIZENS, GENDER, AGE
                                                                 FY 2014 TD THROUGH JUNE
                                    Data includes Deportable Aliens OnlyP Data Source: EID (Unofficial) as of 7/25/14
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                           Female                                    Male
                         Citizenship                          -------------------------------  Female ---------------------------------   Male    Total
                                                                0-5    6-10    11-15    16+    Total    0-5    6-10    11-15     16+     Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
Albania......................................................  .....  ......       1       3        4  .....  ......        3       13       16       20
Argentina....................................................  .....  ......  ......       1        1  .....  ......  .......  .......        0        1
Bangladesh...................................................  .....  ......  ......  ......        0  .....  ......        1        2        3        3
Belize.......................................................      1  ......       6  ......        7  .....       1        4        1        6       13
China, Peoples Republic of...................................  .....  ......       1      27       28  .....  ......  .......       33       33       61
Colombia.....................................................  .....  ......  ......  ......        0  .....  ......  .......        1        1        1
Costa Rica...................................................  .....  ......       1  ......        1  .....  ......        3  .......        3        4
Dominican Republic...........................................  .....  ......       1  ......        1  .....  ......        3  .......        3        4
Ecuador......................................................      1      16      66      63      146  .....      19       95      150      264      410
El Salvador..................................................    119     637   2,183   1,866    4,805    114     706    2,929    3,707    7,456   12,261
Guatemala....................................................     68     260   1,111   1,095    2,534     57     308    2,269    4,594    7,228    9,762
Honduras.....................................................    214     841   2,629   2,013    5,697    244     991    3,232    3,539    8,006   13,703
India........................................................  .....  ......  ......  ......        0  .....  ......  .......        2        2        2
Mexico.......................................................      6      24     153     247      430     12      95    2,123    3,066    5,296    5,726
Nepal........................................................  .....  ......  ......  ......        0  .....  ......  .......        1        1        1
Nicaragua....................................................  .....      10      23      27       60  .....       9       38       48       95      155
Peru.........................................................  .....       1       4       5       10  .....       4        6       10       20       30
Romania......................................................  .....  ......  ......  ......        0  .....  ......  .......        1        1        1
Syria........................................................  .....  ......  ......  ......        0  .....  ......  .......        1        1        1
                                                              ------------------------------------------------------------------------------------------
      Total..................................................    409   1,789   6,179   5,347   13,724    427   2,133   10,703   15,170   28,433   42,157
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. What is the numeric break-down in fiscal year 2014 of 
unaccompanied children, as compared to single adults and to families, 
in aggregate and by country of origin? (Please report number of 
individuals in each category.)
    Answer.

                    U.S. BORDER PATROL RIO GRANDE VALLEY SECTOR APPREHENSIONS BY DEMOGRAPHIC
                                             FY 2014 TD THROUGH JUNE
Data includes Deportable Aliens Only Data Source: Enforcement Integrated Database (EID) (Unofficial) as of 7/25/
                                                       14
----------------------------------------------------------------------------------------------------------------
                                                                              Single
                         Citizenship                             FMUA*        Adults         UC         Total
----------------------------------------------------------------------------------------------------------------
ALBANIA.....................................................           52          229           20          301
ARGENTINA...................................................            2            8            1           11
AUSTRALIA...................................................  ...........            1  ...........            1
AUSTRIA.....................................................  ...........            1  ...........            1
BAHAMAS.....................................................  ...........            1  ...........            1
BANGLADESH..................................................  ...........          228            3          231
BELIZE......................................................           11           15           13           39
BENIN.......................................................  ...........            1  ...........            1
BOLIVIA.....................................................  ...........           18  ...........           18
BRAZIL......................................................           58          105  ...........          163
CANADA......................................................            1  ...........  ...........            1
CHILE.......................................................  ...........            3  ...........            3
CHINA, PEOPLES REPUBLIC OF..................................            2          885           61          948
COLOMBIA....................................................            9           90            1          100
COSTA RICA..................................................            6           60            4           70
CUBA........................................................  ...........           46  ...........           46
DOMINICAN REPUBLIC..........................................  ...........          171            2          173
ECUADOR.....................................................          107        2,091          410        2,608
EGYPT.......................................................  ...........            1  ...........            1
EL SALVADOR.................................................        9,535       21,947       12,261       43,743
EQUATORIAL GUINEA...........................................  ...........            1  ...........            1
ERITREA.....................................................  ...........            5  ...........            5
ETHIOPIA....................................................  ...........            1  ...........            1
FRANCE......................................................  ...........            1  ...........            1
GEORGIA.....................................................  ...........            3  ...........            3
GHANA.......................................................  ...........            1  ...........            1
GREECE......................................................  ...........            1  ...........            1
GUATEMALA...................................................        6,175       28,809        9,762       44,746
GUYANA......................................................  ...........            1  ...........            1
HAITI.......................................................  ...........            1  ...........            1
HONDURAS....................................................       24,744       20,904       13,703       59,351
HUNGARY.....................................................  ...........            1  ...........            1
INDIA.......................................................  ...........          163            2          165
INDONESIA...................................................  ...........            2  ...........            2
IRAN........................................................  ...........            1  ...........            1
JAMAICA.....................................................  ...........            5  ...........            5
MACEDONIA...................................................  ...........            1  ...........            1
MEXICO......................................................        1,405       40,197        5,726       47,328
NEPAL.......................................................            2          314            1          317
NICARAGUA...................................................           88          707          155          950
NIGER.......................................................  ...........            1  ...........            1
PAKISTAN....................................................  ...........            8  ...........            8
PANAMA......................................................  ...........            5  ...........            5
PARAGUAY....................................................  ...........            2  ...........            2
PERU........................................................           95          269           30          394
PHILIPPINES.................................................  ...........            2  ...........            2
POLAND......................................................  ...........            2  ...........            2
ROMANIA.....................................................           66           24            1           91
RUSSIA......................................................  ...........            3  ...........            3
SOUTH AFRICA................................................  ...........            1  ...........            1
SOUTH KOREA.................................................  ...........            1  ...........            1
SPAIN.......................................................            3            2  ...........            5
SRI LANKA...................................................            2           40  ...........           42
SYRIA.......................................................  ...........            3            1            4
TAJIKISTAN..................................................  ...........            1  ...........            1
TRINIDAD AND TOBAGO.........................................  ...........            1  ...........            1
TURKEY......................................................  ...........           22  ...........           22
UKRAINE.....................................................  ...........            1  ...........            1
UNITED KINGDOM..............................................  ...........            1  ...........            1
UNKNOWN.....................................................            1            1  ...........            2
URUGUAY.....................................................  ...........            2  ...........            2
VENEZUELA...................................................  ...........            5  ...........            5
VIETNAM.....................................................  ...........            3  ...........            3
                                                             ---------------------------------------------------
      Total.................................................       42,364      117,420       42,157      201,941
----------------------------------------------------------------------------------------------------------------
*Family Unit (FMUA) subject apprehensions include all USBP apprehensions of adults (18 years old and over) with
  a FMUA classification, and all accompanied children (0-17 years old).

                          refugee act of 1980
    Question. For unaccompanied children taken into custody by CBP as 
illegal entrants, who conducts the ``credible fear'' screening for 
these children and at what point in the process?
    Answer. CBP officers and agents conduct screenings on unaccompanied 
children in accordance with the William Wilberforce Trafficking Victims 
Protection Reauthorization Act of 2008 (TVPRA). The screening occurs 
during the routine processing at CBP facilities.
    Question. How are they given special consideration given their 
minor status?
    Answer. Consistent with the TVPRA and the Flores Settlement 
Agreement, CBP trains its officers on the policies, procedures, and 
responsibilities which they are expected to follow with juveniles, from 
initial encounter through release or removal. CBP continues to ensure 
the needs of the children are being met, including that they receive 
the necessary food and shelter, and that they receive priority 
processing before adults are processed. All unaccompanied children are 
separated from unrelated adults, are held in the least restrictive 
setting available, and are monitored closely.
    Question. How does the process differ for Mexican children, who may 
be put into the expedited removal process, versus children from ``non-
contiguous'' countries?
    Answer. When DHS seeks the removal of an unaccompanied child, the 
Trafficking Victims Protection Reauthorization Act requires that DHS 
place the child in removal proceedings under section 240 of the 
Immigration and Nationality Act, with the exception of unaccompanied 
children who are from contiguous countries. Children from Mexico and 
Canada may be permitted to withdraw their applications for admission in 
certain circumstances, if CBP determines the unaccompanied children 
meets the following criteria:
    1. No fear of return;
    2. Not a victim of trafficking and there is no credible evidence of 
trafficking risk; and,
    3. Has the ability to make an independent decision (generally, over 
the age of 14).
    If the child meets the requirements and is offered a withdrawal, 
then the return is conducted in accordance with contiguous country 
agreements regarding the method of repatriation. If CBP cannot make 
such a determination, then the child must be transferred to the 
Department of Health and Human Services (HHS).
    Except in the case of exceptional circumstances, DHS is required to 
transfer unaccompanied children from non-contiguous countries or those 
from Mexico or Canada who do not voluntarily return to their home 
country, to HHS within 72 hours of determining that the child is an 
unaccompanied child. In emergency circumstances, such as in the case of 
the recent influx of unaccompanied children, CBP makes every effort to 
transfer the children to HHS custody as soon as possible. HHS is 
responsible for the care and custody of unaccompanied children while 
they are in Federal custody based on their immigration status.
    Question. Are the credible fear screeners specially trained to 
identify possible asylum claims or evidence of trafficking when 
interviewing traumatized children?
    Answer. All new CBP officers and agents are provided instruction 
during basic training on the screening, arrest and detention, search, 
care and treatment, placement, custody and consent requirements, and 
rights of juveniles. CBP Officers and Border Patrol agents are trained 
to recognize children who may be victims of trafficking or at risk of 
being trafficked. Indicators may be identified through questioning, as 
well as verbal and non-verbal cues. These screenings are an essential 
step in protecting children from being exploited by human traffickers 
and to ensure we do not further their exploitation.
    Additionally, incumbent CBP officers and agents are required, 
annually, to take the on-line CBP course Human Trafficking Awareness 
and Unaccompanied Children, pursuant to applicable law. CBP is also in 
the process of working with civil society partners to develop a video-
based course to provide CBP officers and agents enhanced instruction on 
interacting with children. The goal of this video course is to increase 
the capacity of agents and officers to speak with and screen children 
so that they may better determine if the children display abuse or 
human trafficking indicators. This training will also build awareness 
about the conditions from which children may be escaping, and will 
include information about age appropriate reactions to trauma and 
exploitations children may have faced during their journey.
    Question. What percentages of UACs by country of origin are 
currently being found to express a credible fear of persecution if 
returned to their country of origin? Further, what percentages are 
being granted permanent asylum once that process unfolds?
    Answer. As required by the TVPRA, unaccompanied children from 
contiguous countries are screened to determine whether they fear a 
return to their home country for any reason, and to determine if they 
should be permitted to withdraw their applications for admission. 
Unaccompanied children from non-contiguous countries, as well as those 
from contiguous countries who do not withdraw their applications for 
admission, are generally placed into removal proceedings before an 
immigration judge. While the immigration judge has jurisdiction over 
the removal proceedings, United States Citizenship and Immigration 
Services (USCIS) has initial jurisdiction over asylum claims filed by 
unaccompanied children pursuant to the TVPRA. Thus, although these 
unaccompanied children are in removal proceedings, any application for 
asylum must be filed with USCIS and not with the Immigration Court.
    Only a small percentage of unaccompanied children apprehended by 
CBP have applied for asylum, and those who do have historically 
represented a small percentage of the total asylum applications filed 
with USCIS in any given year. In fiscal year 2013 and fiscal year 2014 
through June 30, 2.5 percent of unaccompanied children apprehended by 
CBP subsequently applied for asylum. As of June 30, 2014, a total of 
1,532 unaccompanied children have applied for asylum with USCIS in 
fiscal year 2014. This is approximately 4 percent of the total number 
of asylum applications received by USCIS in fiscal year 2014 through 
June 30.
    Below are the approval rates by year for unaccompanied children 
asylum cases decided by USCIS under the TVPRA initial jurisdiction 
provision, since the TVPRA was enacted. These approval rates do not 
include unaccompanied children asylum cases decided by the Immigration 
Courts, in cases in which USCIS did not grant asylum, but instead 
referred the case back to the Immigration Courts for adjudication. We 
defer to the Department of Justice Executive Office for Immigration 
Review with respect to that information.

------------------------------------------------------------------------
                      Year                        TVPRA UC Approval Rate
------------------------------------------------------------------------
Fiscal year 2009 \1\...........................                     6.3%
Fiscal year 2010...............................                    42.1%
Fiscal year 2011...............................                    38.1%
Fiscal year 2012...............................                    44.2%
Fiscal year 2013...............................                    35.0%
Fiscal year 2014 Q3............................                    64.7%
------------------------------------------------------------------------
\1\ The initial jurisdiction procedures under the TVPRA were implemented
  at the beginning of the 3rd quarter of fiscal year 2009 on March 23,
  2009, the effective date of the TVPRA.

               post-katrina emergency reform act of 2006
    Question. Do you have or will you have budgetary authority in the 
$3.7 billion request to solve this issue or responsibility for the 
planning and success of the interagency response?
    Answer. The President's Emergency Supplemental Request for 
Unaccompanied Children and Related Matters did not include a request 
for the Federal Emergency Management Agency (FEMA). FEMA's 
responsibility is in the coordination and support of our Federal 
partners. FEMA is using existing funds and authorities to coordinate 
the actions of the Unified Coordination Group which was established to 
support our Federal partners in those coordination efforts. The 
President's directive creating the UCG does not obligate any agency to 
reimburse another agency for the resources used to address the UAC 
humanitarian situation.
    Question. I want you to succeed in ensuring that our response to 
this emergency is coordinated in the most humane way possible. However, 
I think it is important to have a person representing the 
Administration who is responsible for the planning, implementation, 
budgetary outlays and ultimate success or failure of our response to 
this stated crisis?
    Answer. FEMA is currently supporting the Federal response as 
defined by the Presidential Memorandum--Response to the Influx of 
Unaccompanied Children across the Southwest Border from June 2, 2014.
    The Presidential Memorandum identified the current situation as an 
``urgent humanitarian situation'' requiring a unified and coordinated 
Federal response. The document directs the Secretary of Homeland 
Security to establish an interagency Unified Coordination Group to 
ensure unity of effort across the executive branch in response to the 
humanitarian aspects of the situation, consistent with the Homeland 
Security Act of 2002 and Homeland Security Presidential Directive-5 
(Management of Domestic Incidents), including the coordination with 
state, local, and other nonFederal entities.
    Secretary Johnson has directed the FEMA Administrator, subject to 
his oversight, direction, and guidance, to serve as the Federal 
Coordinating Official (FCO) for the U.S. Government-wide response.
    The President's June memorandum requires all departments and 
agencies to provide full and prompt cooperation, resources, and 
support, as appropriate and consistent with their own responsibilities 
for addressing this situation under existing authorities and in 
compliance with statutory requirements. The FEMA Administrator, 
operating as the FCO, executes these responsibilities consistent with 
all applicable laws and regulations, including legal requirements 
governing the appropriate care and custody of unaccompanied children.
    Using authorities under the National Response Framework through 
interagency agreements, FEMA has been able to coordinate across the 
Federal agencies' existing authorities and existing funding, to build 
the overall capability needed to address the humanitarian needs of 
unaccompanied children.
                             accountability
    Question. We are being asked to consider an emergency supplemental 
appropriations bill worth $3.7 billion. Clear lines of authority and 
responsibility need to be established and accountability for the money 
must be a priority. We need to identify who is in charge of fixing the 
deep-rooted, systemic problem, what the plan is, and who is going to be 
held responsible for delivering results.
    Who is accountable in each of your departments or component 
agencies and how are they part of a coordinated whole-of-government 
approach?
    Answer. On my and others' recommendation, in June the President 
directed an inter-agency Unified Coordination Group be created to 
address the situation, pursuant to the Homeland Security Act of 2002 
and other authorities. I appointed FEMA Administrator Craig Fugate as 
the Federal Coordinating Official. In this role, Administrator Fugate, 
subject to my oversight, direction and guidance, leads and coordinates 
Federal response efforts to ensure that Federal agencies are unified in 
providing relief to the affected children. U.S. Customs and Border 
Protection maintains primary responsibility for border security 
operations at and between ports-of-entry and, working with U.S. 
Immigration and Customs Enforcement, provides for the proper care of 
unaccompanied children when they are temporarily in DHS custody. DHS 
will continue to coordinate closely with the HHS, State, Defense, 
Justice, the General Services Administration and other agencies, to 
ensure a coordinated and rapid government-wide response in the short-
term and to undertake broader, longer-term reforms to address the root 
cause behind these recent migration trends. We also continue to work 
closely with the governments of Mexico, Guatemala, Honduras and El 
Salvador.
    Question. What are the specific goals of each of your departments? 
What are the metrics and the benchmarks of success or failure in 
addressing this emergency situation, for the remainder of fiscal year 
2014, for fiscal year 2015, and beyond?
    Answer. With respect to unaccompanied children, consistent with 
legal requirements, the goal of the Department of Homeland Security 
(DHS) is to process, refer, and transfer unaccompanied children to the 
U.S. Department of Health and Human Services (HHS) for placement as 
soon as HHS has bed space available, and within 72 hours after the 
child has been identified as an unaccompanied child. CBP processes 
unaccompanied children after apprehension at the border, and contacts 
HHS so that HHS can locate available space at one of its facilities. 
Once HHS has identified the appropriate bed space, DHS will transport 
the child to the facility, as the law requires. DHS is required by law 
to transfer unaccompanied children to the custody of HHS within 72 
hours after determining that such child is unaccompanied, except in the 
case of ``exceptional circumstances.''
    The metric DHS will use and provide to Congress to benchmark this 
goal will be the speed by which DHS processes and transfers 
unaccompanied children out of DHS custody and into an HHS designated 
location. In many cases, delays in transferring unaccompanied children 
out of CBP short-term holding facilities will be due to lack of HHS 
capacity to receive these children in HHS shelters. In the case of any 
exceptional circumstances, such as any surges experienced during the 
remainder of fiscal year 2014, as well as for fiscal year 2015 and 
beyond, DHS will closely monitor the number of children held beyond 72 
hours, and, for children held beyond 72 hours, the average length of 
time in CBP custody.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                             budget request
    Question. The President's Budget was released in March. It is hard 
for me to believe that the Administration did not know that the influx 
of unaccompanied children was occurring at a pace that might outpace 
resources. Why was the influx of unaccompanied children not flagged as 
a priority in the Department of Health and Human Services' (HHS), 
Department of Homeland Security (DHS), and the State for Foreign 
Operations funding request? How is the Administration going to ensure 
that the OMB can be agile in their requests and give Congress time to 
ensure oversight for crisis's build over time like this one?
    Answer. The issue of unaccompanied children has always been a high 
priority for the Administration. Personally, I have been fully immersed 
and engaged in this issue since coming into office. I have been 
increasingly concerned about the substantial increase in the numbers of 
unaccompanied children and adults with children that DHS personnel are 
apprehending at the border, particularly in the Rio Grande Valley. 
These are some of the most vulnerable individuals we encounter. On 
numerous trips to the region, I have seen the children there first 
hand--a significant number of whom were under twelve years old.
    The President's fiscal year (FY) 2015 Budget was transmitted to 
Congress in March 2014. Officials from DHS and HHS coordinate regularly 
on the issue of unaccompanied children. Both DHS and HHS were aware of 
the rising trend in apprehensions of unaccompanied children and the 
fiscal year 2015 Budget was based upon the data on apprehensions of 
unaccompanied children that was available at that time. In fiscal year 
2013, CBP apprehended more than 24,000 unaccompanied children at the 
border. In just the first 9 months of fiscal year 2014, that number has 
doubled to more than 57,000. Officials from DHS and HHS coordinate 
regularly on the issue of unaccompanied children. Both DHS and HHS were 
aware of the rising trend in apprehensions of unaccompanied children 
and the fiscal year 2015 Budget was based upon the data on 
apprehensions of unaccompanied children that was available at that 
time.
    This dramatic increase in apprehensions and activities associated 
with unaccompanied children and adults with children, the resources 
necessary to appropriately address this issue are simply not available 
within the current fiscal year 2014 budget or the proposed fiscal year 
2015 budget. To effectively address this emerging crisis, the President 
requested an emergency supplemental appropriation of $3.7 billion to 
support detention and removal facilities and processes appropriate for 
children and adults with children, as well as increased activities to 
disrupt human smuggling activities that bring these individuals across 
U.S. borders.
    The Administration has a long record of working closely with 
Congress to ensure that all parties are aware of developments like this 
one and have provided Congressional staff with regular briefings on 
this issue. The Administration is committed to working closely with 
Congress to ensure that there is sufficient time for the necessary 
oversight mechanisms to be in place to ensure their successful 
implementation.
              effect on u.s. customs and border protection
    Question. According to news reports, the influx of unaccompanied 
children has preoccupied CBP officials and resulted in the CBP missing 
opportunities to apprehend other threats. Please explain the severity 
of this problem. Presently, how is CBP working to resolve this issue?
    Answer. While the recent influx of unaccompanied children has 
challenged enforcement capabilities, the Border Patrol has no 
quantifiable evidence that its border security mission has been 
negatively impacted. As mentioned previously, the Border Patrol has 265 
detailed agents to the Rio Grande Valley to augment operations, 
offsetting any negative impacts.
               working with border authorities in mexico
    Question. How exactly is DHS working with the border authorities in 
Mexico to help with the influx of unaccompanied children?
    Answer. CBP has several capacity building efforts, both ongoing and 
planned, to enhance the border security capabilities of Mexico. CBP and 
the Government of Mexico (GoM) deployed assets to high trafficked areas 
along the shared border in an effort to deter Transnational Criminal 
Organization (TCO) activities under the auspice of the Cross Border 
Coordination Initiative (CBCI). CBCI provides an operational framework 
to enhance public safety and degrade and disrupt the ability of 
criminal organizations to engage in the smuggling of illegal drugs, 
currency, weapons, ammunition and people.
    CBP is working with GoM to assist in the training of approximately 
400 Gendarmerie officers who will be used to enhance efforts along 
their northern border as well as the targeting of TCO activities along 
their southern border. Mexico's Gendarmerie is a special unit of 
Policia Federal who will be used to address public safety concerns 
throughout Mexico.
    CBP is also partnering with GoM in the Operation against Smugglers 
Initiative on Safety and Security (OASISS) program. OASISS is a bi-
national prosecutorial program with Mexico's Attorney General that is 
focused on combating human smuggling across the Southwest Border by 
identifying and prosecuting Mexican nationals in Mexican courts who 
were arrested for alien smuggling in the United States.
                        biometric identification
    Question. There have been reports that ICE and CBP have taken 
biometric identification from some of the unaccompanied minors near the 
border. Because most of these minors lack proper identification 
biometrics appears to be a reliable way to ensure these minors are 
accounted for as they pass through several agencies (DHS, HHS, DOJ), 
family members in the U.S., and even as they are sent back to their 
home countries. Furthermore, it is important that our agencies are able 
to protect these children's identities. Are DHS and HHS properly 
leveraging the biometrics captured, is there inter-agency cooperation? 
Please describe the current or planned system to accurately account for 
these minors as they stay in the U.S. and as they leave.
    Answer. CBP collects biometric information for all inadmissible 
applicants in accordance with the applicable regulation, 8 CFR 236.5. 
The regulation states biometrics are collected for inadmissible 
applicants, including unaccompanied children that are age 14 and older. 
CBP collects biometric information for immigrants over age 14, 
including fingerprints and photographs, in accordance with 8 CFR 
264.1(g); and, CBP collects biometric information for most nonimmigrant 
visitors between the age of 14 and 79, in accordance with 8 CFR 
235.1(f). The biometric data that is collected for inadmissible 
applicants is stored in the DHS ``IDENT'' data systems.
    If unaccompanied children are under the age of 14, CBP photographs 
the unaccompanied children and generates an A-number on their behalf. 
A-numbers are unique personal identifiers used to create individual 
immigrant files known as A-files. The A-file contains all personal 
immigration and naturalization records. If an unaccompanied child is 
allowed to remain in the United States, biometrics would be collected 
when the person turns age 14 (within 30 days of the 14th birthday), in 
accordance with 8 CFR 264.1(g).
    CBP places all unaccompanied children whom CBP seeks to remove into 
removal proceedings before an Immigration Judge from the U.S. 
Department of Justice. CBP makes every effort to transfer unaccompanied 
children who do not voluntarily return to Mexico or Canada to HHS 
within 72 hours of determining that they are unaccompanied children. 
HHS is responsible for the care and custody of unaccompanied children 
while they are in Federal custody based on their immigration status. 
While HHS and DHS work together closely, there is no automated system 
that links the biometric identification between CBP and HHS.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
              circumstances, reasons that led to migration
    Question. Is CBP tracking the circumstances and reasons that have 
led to the migrant children to the United States when they are 
apprehended at the border?
    Answer. U.S. Customs and Border Protection (CBP) is identifying 
data and collaborating with other immigration, law enforcement, and 
border security agencies to monitor, identify, and review critical 
issues dealing with migration surges along the southwest border.
    CBP and the immigration enforcement community are assessing the 
data that we and other agencies currently have to identify the root 
causes in an effort to develop a forward looking solution. There is 
currently a whole of government approach to this problem which is 
focused on identifying and collecting the required information that 
would enable us to better understand the root causes and develop 
operational responses to help mitigate.
    Question. If we aren't collecting data to identify the root causes 
of this problem, how can we put together a forward-looking solution?
    Answer. CBP is identifying data and collaborating with other 
immigration, law enforcement, and border security agencies to monitor, 
identify, and review critical issues dealing with migration surges 
along the southwest border.
    DHS, through its CBP, ICE, and I&A components, is working 
diligently to understand the range of reasons for this surge in illegal 
migration. This work includes interviews and debriefs with migrants in 
our custody, intelligence gathering and analysis, working with our 
partners in Mexico and Central America, and robust smuggling 
investigations. These actions will enable us to have a meaningful 
impact on the surge and reduce the flow of illegal migration, in 
addition to informing many of the reasons for this surge.
                     securing the southwest border
    Question. What is DHS doing to make sure we not only secure our 
southwestern border but also ensure that Mexico secures its own 
southern border, to help manage the flow of people before it reaches 
us?
    Answer. DHS continues to have a productive and mutually-beneficial 
relationship with our counterparts in the Government of Mexico based on 
the doctrines of co-responsibility of our shared border and co-
management of migration issues. The core of DHS interest lies in 
improving joint border management, which includes everything from 
investigations to disaster response, admissibility determinations to 
joint operations, and appropriate information sharing to the 
repatriation of Mexican nationals. The majority of DHS programmatic 
efforts with Mexico are focused on expediting the legitimate flow of 
goods and people and interdicting and preventing the illicit flows of 
people, weapons, drugs, and currency.
    Mexican President Enrique Pea Nieto formally announced Mexico's 
southern border strategy on July 6, 2014, at an event which included 
Guatemalan President Otto Perez Molina. As part of this new strategy, 
DHS will engage with the Government of Mexico, as requested, to provide 
training and technical assistance to improve security and manage the 
flow of goods and people through southern Mexico. Further, DHS will 
work with the Government of Mexico to take a coordinated approach to 
engagement with the Government of Guatemala, as well as other Central 
American governments whose citizens are also entering the U.S. 
illegally and therefore impacting the migration surge.
    Additionally, I signed a Memorandum of Cooperation and Bilateral 
Strategic Plan with my Guatemalan counterpart during a visit to 
Guatemala on July 9, 2014. These agreements will formalize our 
partnership and ensure a coordinated, strategic, approach to issues 
concerning border security, immigration management, and information 
sharing. Of note, the strategic plan includes the goal of continued 
engagement between U.S. Customs and Border Protection, Office of Border 
Patrol and their Guatemalan counterparts to build capacity to patrol 
and manage Guatemala's borders.
    By promoting the idea of co-management and co-responsibility for 
border security and immigration, we can effectively engage our partners 
in Mexico and Central America to address the illicit flows of goods and 
people through the region.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                       alternatives to detention
    Question. The Administration has requested $879 million for ICE for 
a combination of detention and alternatives-to-detention (ATD) 
programs. How much of the funds would be spent on detention and how 
much would be spent on ATD?
    Answer. The Administration request includes $731.3 million for 
detention and $32.7 million for the Alternatives to Detention program. 
The remainder of the $879 million is for the prosecution and removal 
costs associated with these populations.
                       legal orientation program
    Question. The Administration's emergency supplemental request 
includes $15 million for legal representation for unaccompanied minors 
and $2 million for expansion of the Legal Orientation Program. Please 
explain why it is important for children who may have asylum or human 
trafficking claims to be represented by counsel in a removal 
proceeding.
    Answer. We respectfully refer you to the Department of Justice's 
Executive Office for Immigration Review, which oversees the Legal 
Orientation Program.
    Question. Removal proceedings are adversarial; an asylum case can 
include cross-examination of witnesses before a judge. How does DHS 
ensure that a child has a full and fair opportunity to present a legal 
argument in this setting?
    Answer. We respectfully refer you to the Department of Justice's 
Executive Office for Immigration Review.
                            asylum officers
    Question. Does the Administration's emergency supplemental request 
include funds for hiring more asylum officers to promptly adjudicate 
asylum applications? If so, please provide some detail on that aspect 
of the request and how an increased number of asylum officers might 
impact detention costs.
    Answer. No, the Administration's emergency supplemental request 
does not include funds for hiring more asylum officers. Consistently, 
only a very small percentage of unaccompanied children have applied for 
asylum. In fiscal year 2013 and fiscal year 2014 through June 30, only 
2 percent of unaccompanied children apprehended by CBP subsequently 
applied for asylum. Likewise, unaccompanied children apprehended at the 
border who subsequently file for asylum represent only a very small 
percentage of the total asylum applications filed with the United 
States Citizenship and Immigration Services (USCIS) in any given year. 
As of June 30, 2014, a total of 1,532 unaccompanied children have 
applied for asylum with USCIS in fiscal year 2014. This is 
approximately 4 percent of the total number of asylum applications 
received by USCIS in fiscal year 2014 through June 30.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                     illegal migration by families
    Question. How will this action actually deter families from making 
the dangerous journey?
    Answer. From past experience, we know that detention and rapid 
removal, following all appropriate due process, is an important 
deterrent to illegal crossing. For example, in 2005, after noting a 
significant increase in illegal crossings of Brazilian nationals, U.S. 
Immigration and Customs Enforcement (ICE) prioritized its bed space for 
detaining and removing all Brazilians apprehended while trying to 
illegally cross the border. The approach yielded results. After 60 
days, attempted illegal crossings by Brazilians were down 90 percent.
    As a result, DHS is building additional detention capacity for 
family units that cross the border illegally in the Rio Grande Valley. 
For this purpose, DHS has established a temporary facility for family 
units on the Federal Law Enforcement Training Center's campus at 
Artesia, New Mexico, and modified an existing ICE facility in Karnes, 
Texas. The establishment of this temporary facility and the 
modification of the Karnes Family Residential Center will help ICE to 
increase its capacity to house and expedite the removal of such 
families in a manner that complies with Federal law. Artesia and Karnes 
are two of several facilities that DHS expects to use to increase our 
capacity to hold and expedite the removal of the increasing number of 
family units illegally crossing the southwest border. DHS is ensuring 
that, after apprehension, families are housed in facilities that 
adequately provide for their safety, security, and medical needs and 
that necessary due process needs are met.
    Question. Will DHS be able to work with DOJ to remove these 
individuals?
    Answer. The Department of Homeland Security has been working 
closely with the U.S. Department of Justice (DOJ) to ensure that 
proceedings before DOJ's Executive Office for Immigration Review with 
regard to these individuals are completed in a timely manner. DOJ is 
temporarily reassigning immigration judges to handle the additional 
caseload. These immigration judges will adjudicate these cases as 
quickly as possible, consistent with all existing legal and procedural 
standards, including those for asylum applicants. We expect additional 
family unit removals to Honduras, Guatemala, and El Salvador to 
continue after full and appropriate due process and other protections 
are afforded.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
                    tracking unaccompanied children
    Question. Secretary Johnson, if an Unaccompanied Alien Child (UAC) 
is transferred into the custody of a parent or guardian, what are the 
steps in place to ensure that the child appears at their immigration 
hearing? Does the Department of Homeland Security track UACs once they 
are released from HHS custody?
    Answer. Pursuant to the Trafficking Victims Protection 
Reauthorization Act of 2008, with the exception of certain 
unaccompanied children from contiguous countries whom the Department of 
Homeland Security may permit to withdraw their applications for 
admission and return to their home country, unaccompanied children 
apprehended at the border are generally placed in removal proceedings 
under section 240 of the Immigration and Nationality Act. Like all 
other individuals on ICE's non-detained docket, unaccompanied children 
ultimately released to the custody of a parent or guardian are subject 
to supervision requirements as determined by their local ICE 
Enforcement and Removal Operations (ERO) Field Office until their case 
comes to a final resolution.
    As with adults, unaccompanied children who do not appear for their 
immigration court proceedings may be ordered removed in absentia by an 
immigration judge. Upon receipt of notification that an unaccompanied 
child has been ordered removed by an immigration judge, ICE ERO will 
take appropriate enforcement action based on its national security, 
public safety, and border security priorities.
    Question. What percentage of UACs does not appear at their 
immigration hearing?
    Answer. DHS is responsible for continued immigration case 
management, while the Department of Justice's Executive Office for 
Immigration Review (EOIR) is responsible for scheduling immigration 
hearings before an immigration judge.
    DHS does not record or statistically report on the number of 
unaccompanied children who have been issued a Notice to Appear and who 
have absconded from their immigration court proceedings, and defers to 
the EOIR with respect to this information.
    Question. What is DHS's process for handling UACs that do not 
appear at their hearing?
    Answer. Under section 240(b)(5)(A) of the Immigration and 
Nationality Act (``Act''), an immigration court shall order removed in 
absentia any alien who fails to appear at his or her removal hearing if 
DHS establishes by clear, convincing, and unequivocal evidence that 
written notice of the hearing was provided to the alien and that the 
alien is removable. Generally, the written notice is considered 
sufficient if it was sent to the most recent address provided. However, 
a removal order entered in absentia may be rescinded by the immigration 
court if the alien can establish either (1) that, within 180 days of 
the order, he or she was unable to appear because of exceptional 
circumstances or (2) that he or she did not receive written notice of 
the removal proceeding and cannot be constructively charged with having 
received notice of the proceeding. 8 U.S.C. Sec. 1229a(b)(5); 8 CFR 
Sec. 1003.23(b)(4)(iii)(A). DHS has the discretion to join or oppose 
these motions to reopen as appropriate.
    As noted above, upon receipt of notification that an unaccompanied 
child has been ordered removed by an immigration judge, ICE ERO will 
take appropriate enforcement action based on its national security, 
public safety, and border security priorities.
    Question. How many of these fugitive UACs are actually subsequently 
removed by DHS?
    Answer. Of the 1,695 unaccompanied children removed in fiscal year 
(FY) 2011, 82 were fugitives; of the 1,809 unaccompanied children 
removed in fiscal year 2012, 91 were fugitives; and of the 1,868 
unaccompanied children removed in fiscal year 2013, 108 were fugitives.
                 stemming the flow of border crossings
    Question. What specific actions have you taken to stem the tide of 
UACs crossing the border?
    Answer. To stem the tide of undocumented children and families 
seeking to enter the United States, we have been in contact with senior 
government officials of Guatemala, El Salvador, Honduras, and Mexico to 
address our shared border security interests, the underlying conditions 
in Central America that are promoting this mass migration, and how we 
can work together to assure faster, secure removal and repatriation. I 
traveled to Guatemala on July 8th and 9th, where I met with the 
President of Guatemala and senior government officials from Mexico to 
discuss a range of further steps to improve the regional response to 
this migration.
    DHS, together with DOJ, has added personnel and resources to the 
investigation, prosecution, and dismantling of the smuggling 
organizations that are facilitating border crossings into the Rio 
Grande Valley. In May, ICE concluded a month-long, targeted enforcement 
operation that focused on the logistics networks of human smuggling 
organizations along the southwest border, with operations in El Paso, 
Houston, Phoenix, San Antonio, and San Diego that resulted in 163 
arrests of smugglers. Building on these efforts, on June 23rd, DHS 
surged approximately 60 ICE Homeland Security Investigations (HSI) 
criminal investigators, intelligence analysts, and support staff to the 
Rio Grande Valley as part of efforts to target and dismantle human 
smuggling operations across the southwest border. ICE will continue to 
vigorously pursue and dismantle these alien smuggling organizations by 
all investigative means to include the financial structure of these 
criminal organizations. These organizations not only facilitate illegal 
migration across our border, they traumatize and exploit the children 
who are objects of their smuggling operation.
    We have re-initiated and intensified our public affairs campaigns 
in Spanish, with radio, print, and TV spots, to communicate the dangers 
of sending unaccompanied children on the long journey from Central 
America to the United States, and of putting children into the hands of 
criminal smuggling organizations. CBP has developed and launched the 
Dangers Awareness Campaign to communicate these dangers to children and 
their families who are considering the journey, and is working with 
stakeholders in Central America and the United States in order to 
encourage the use of Dangers Awareness Campaign materials. I have 
issued an open letter to the parents of those who are sending their 
children from Central America to the United States, which has been 
distributed broadly in Spanish and English, to highlight the dangers of 
the journey and to emphasize there are no free passes or ``permisos'' 
at the other end. DHS is also stressing that Deferred Action for 
Childhood Arrivals (DACA) does not apply to children who arrive now or 
in the future in the United States, and that to be considered for DACA, 
individuals must have continually resided in the United States since 
June 2007. We are making clear that the ``earned path to citizenship'' 
contemplated by the Senate bill passed last year will not apply to 
individuals who cross the border now or in the future, but only to 
those who have been in the country for the last two and a half years.
    Question. Is the Department prosecuting the smugglers that bring 
these children into the country?
    Answer. U.S. Immigration and Customs Enforcement (ICE) utilizes a 
comprehensive human smuggling strategy that leverages the full 
complement of the agency's equities and authorities. ICE Homeland 
Security Investigations (HSI) focuses its efforts on human smuggling 
organizations (HSOs) posing the highest degree of risk to the United 
States and uses different factors to target these organizations. These 
factors include volume, violence, dangerous methods, national security 
risk, the co-mingling of unaccompanied children in smuggling loads, and 
other public safety considerations.
    ICE's goal is to address HSOs as far away from the United States as 
possible and, subsequently, disrupt the organization at every step 
along the criminal continuum, to include source and transit countries, 
as human cargo proceeds toward the United States. Recognizing that the 
number of unaccompanied children apprehended by CBP has risen each 
year, ICE is increasing and sharpening its efforts to counter HSOs 
facilitating this increasing trend.
    During May 2014, ICE HSI conducted a successful month-long human 
smuggling operation, Operation Southern Crossing, throughout the five 
southwest border offices of Houston, San Antonio, El Paso, Phoenix, and 
San Diego. Due to the recent significant levels of human smuggling 
occurring near and through Texas' Rio Grande Valley, this operation 
focused heavily on the investigation and enforcement actions in 
southeast Texas. The operation resulted in the initiation of 119 
investigations, 163 criminal arrests, 60 indictments, and 45 
convictions. The operation also netted the seizure of 9 firearms, 29 
vehicles, and more than $35,000 in proceeds. During the course of these 
investigations, 40 unaccompanied children were encountered.
    In June 2014, ICE HSI commenced Operation Coyote, a 90-day human 
smuggling initiative, focused on the San Antonio and Houston areas of 
responsibility. ICE HSI has deployed 60 personnel to these offices as a 
force multiplier for the execution of human smuggling investigation and 
enforcement actions during the operational period. The detailed 
personnel include 46 special agents, 4 technical enforcement officers, 
and 10 intelligence research specialists. After less than a month into 
this operation, 192 smugglers and their associates had already been 
arrested on criminal charges, more than 500 undocumented immigrants had 
been taken into custody, and more than $625,000 in illicit profits had 
been seized from 288 bank accounts held by human smuggling and drug 
trafficking organizations. Concurrently with this operation, ICE HSI is 
leveraging money remitters' transaction data to target and disrupt 
illicit proceeds associated with identified smuggling activity.
    ICE remains committed to working with CBP, and other Federal, 
state, local, and tribal partners on operational activities and 
information sharing in order to combat HSOs at every opportunity.
    ICE will continue to evaluate the current trends associated with 
human smuggling in order to more effectively counter the actions of the 
criminal organizations involved in this criminal activity.
    Question. How many have you prosecuted in the last year, in the 
last 3 years, and in the last 5 years?
    Answer. ICE has recorded the following statistics related to human 
smuggling over the last five fiscal years (FYs):

 
----------------------------------------------------------------------------------------------------------------
                                    # of Human
           Fiscal Year               Smuggling     # of Arrests        # of            # of       Asset Seizures
                                  Investigations                    Indictments     Convictions
----------------------------------------------------------------------------------------------------------------
2009............................           2,268           2,316           1,252           1,338      $9,351,591
2010............................           2,217           2,554           1,446           1,546     $15,327,370
2011............................           2,246           2,576           1,458           1,629      $6,368,898
2012............................           2,099           2,717           1,548           1,579      $7,454,056
2013............................           1,777           2,718           1,854           1,802      $5,219,924
2014 (as of 7/30/2014)..........           1,550           2,358           1,267           1,213      $8,203,782
----------------------------------------------------------------------------------------------------------------

    Question. Mr. Secretary, if the supplemental request is meant to be 
a holistic approach to stem the flow of UACs, why did the 
Administration not send over the legislative proposal outlined in the 
President's letter on June 30, 2014? In particular, the President's 
letter asked for Congress to provide you more authority to deport UACs 
to noncontiguous countries in Central America.
    Answer. I continue to make myself available to work with Congress 
on the best approach to address this humanitarian situation, in a way 
that ensures due process for those making protection claims, while also 
achieving the timely and safe removal of individuals apprehended at our 
borders.
    Question. Mr. Secretary, if there is no disincentive against 
illegally crossing the border, how do you expect to stem the flow of 
UACs?
    Answer. Deterrence is a key part of the Administration's 
comprehensive strategy to stem the tide of unaccompanied children and 
adults with families crossing the southwest border. As I have stated, 
our message continues to be clear--our border is not open to illegal 
migration. Unless they qualify for some form of humanitarian relief, 
individuals migrating illegally will be sent back to their home 
countries consistent with our laws and values. As part of our 
enforcement strategy, DHS has increased the available facilities to 
house and expeditiously remove adults with children, while still 
providing them with all appropriate protection claims that the law 
affords. I am pleased to report that in July, for the first time this 
year, apprehensions of unaccompanied children and adults with children 
have dramatically decreased. This is welcome news, but we cannot 
predict with certainty the cause of this dramatic decrease or what 
cooler fall weather will bring with regard to this migration pattern. 
That said, DHS has, and continues to take a number of measures to stem 
the tide, which we believe have been effective. However, DHS must 
continue these efforts and expand on the progress made, which will 
require supplemental appropriations from Congress as the President has 
requested.
    Question. Why is the Administration backing away from this 
necessary policy change outlined in the June 30th letter to Congress?
    Answer. The Department of Homeland Security (DHS) continues to 
advocate for additional congressional support to maximize the ongoing 
U.S. Government efforts to reduce the surge of unaccompanied children 
entering the United States.
    Question. How can we stem the tide of UACs coming into this country 
if the large majority of them stay here indefinitely?
    Answer. DHS and other Federal departments and agencies continue to 
work closely with our Mexican and Central American partners to address 
the root causes of migration and stem the flow of adults, adults with 
children, and unaccompanied children into the United States. As the 
U.S. Government continues to communicate to Central American partners, 
sending children to travel illegally to the United States is 
exceedingly dangerous and should not be done. As for those 
unaccompanied children who are sent across the border despite such 
warnings, DHS generally places these children in removal proceedings. 
DHS would like to continue to work with Congress to ensure legal 
authorities are in place to maximize the impact of all U.S. Government 
efforts, including ensuring tough penalties exist for those who smuggle 
vulnerable migrants such as children.
    Federal agencies have been working closely together for some time 
to address the increased number of children, and our efforts this past 
summer are a testament to that work.
    But working together our agencies can only do so much. This 
situation is a prime example of how our immigration system is broken 
and demonstrates the need to fix our legal immigration system.
    Question. Approximately 1,700 UACs are deported each year. Even by 
the most conservative estimates, that means we are deporting less than 
12.5 percent of the illegal children that cross. What is happening to 
the other 87.5 percent of children remaining in the United States?
    Answer. Unaccompanied children not removed in a single fiscal year 
may be in various stages of the immigration process. Some may have been 
granted a form of relief or protection from removal (e.g., a 
trafficking visa, special immigrant juvenile status, or asylum). Others 
may be awaiting their removal hearings on a non-detained docket; still 
others may have been ordered removed but are awaiting the issuance of 
travel documents from their country of origin.
    Under the Homeland Security Act of 2002, the care of unaccompanied 
children was transferred from the legacy Immigration and Naturalization 
Service to the Director of the Office of Refugee Resettlement (ORR) of 
the U.S. Department of Health and Human Services (HHS). See Homeland 
Security Act of 2002, Public Law 107-296 Sec.  462(a), 116 Stat. 2135, 
2202 codified at 6 U.S.C. Sec. 279(a). As such, the U.S. Department of 
Homeland Security (DHS) is required to transfer unaccompanied children 
to HHS ORR custody within 72 hours of determining that such children 
are unaccompanied. After DHS transfers the children to HHS ORR custody, 
HHS ORR has sole responsibility for the care, custody, and placement of 
the unaccompanied children.
    Accordingly, for questions relating to the circumstances of 
unaccompanied children outside the disposition of the removal process, 
DHS defers to HHS ORR. For questions relating to any ongoing 
immigration proceedings, DHS defers to the U.S. Department of Justice's 
Executive Office for Immigration Review which administers the 
immigration courts.
    Question. How many UACs are becoming legal residents?
    Answer. We interpret the reference to ``becoming legal residents'' 
as referring to unaccompanied children obtaining lawful permanent 
resident (LPR) status. There are multiple routes to lawful permanent 
residence, and certain unaccompanied children may be eligible to seek 
this form of relief under our laws. Some unaccompanied children may be 
eligible for asylum, which may in turn enable those individuals to seek 
LPR status. Some unaccompanied children may eventually be eligible for 
lawful permanent residence under the Special Immigrant Juvenile 
provisions of the Immigration and Nationality Act. Some unaccompanied 
children may have a parent in the United States who is either a U.S. 
citizen or LPR, and through which the child may be able to obtain LPR 
status based on a family petition. These and other circumstances are 
examples of how an unaccompanied child may become an LPR. However, none 
of the data that USCIS captures on the relevant forms relating to 
lawful permanent residence identifies a child as an unaccompanied 
child. As a result, USCIS is unable to provide the number of 
unaccompanied children that are becoming LPRs.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
                     money spent to address problem
    Question. What kind of metrics are going to be provided to Congress 
if this money is appropriated?
    Answer. DHS will continue to keep Congress closely informed about 
the UAC situation, including providing the average time in custody for 
unaccompanied children nationwide, which is an important indicator of 
our response efforts.
    Question. Why does this request not include policy changes as 
alluded to in President Obama's letter, to solve the problems that are 
causing the crisis rather than simply ask for money to manage it? The 
President's letter does say that ``separate from this request'' it is 
working to ensure that it has the ``legal authorities'' to expedite the 
removal of unaccompanied minor children from non-contiguous countries. 
Why should this be separate and when will we get those legislative 
recommendations? Would it not save the American people money to solve 
the crisis as soon as possible rather than later? Would not changing 
the provisions of the TVPRA immediately be a much more cost-effective 
measure than spending $1.8 billion dollars toward care for the UACs, so 
that they can be sent home rather than cared for in this country?
    Answer. The situation in the Rio Grande Valley is, without 
question, an urgent humanitarian situation that requires all of our 
collective efforts to solve. To address the situation on the southwest 
border, our strategy has been three-fold: (1) process the increased 
tide of unaccompanied children through the system as quickly and safely 
as possible; (2) stem the increased tide of illegal migration into the 
Rio Grande Valley; and (3) do these things in a manner consistent with 
our laws and values as Americans. The President has requested this 
emergency supplemental appropriation of $3.7 billion, including $1.5 
billion for DHS to support additional detention and removal facilities 
and enhanced processes, as well as increased activities to disrupt and 
dismantle the human smuggling organizations that lure these individuals 
into the dangerous journey from Central America. This appropriation is 
critical to ensuring the continued effectiveness of the series of 
immediate and planned actions DHS has implemented to address this 
urgent situation.
    As you are aware, on June 2nd, President Obama, consistent with the 
Homeland Security Act of 2002, directed me to establish a Unified 
Coordination Group to bring to bear the assets of the entire Federal 
Government on this situation. This group includes DHS and all its 
components, the Departments of Health and Human Services (HHS), 
Department of Defense, Department of Justice (DOJ), and State, and the 
General Services Administration. I, in turn, designated Federal 
Emergency Management Agency Administrator Craig Fugate to serve as the 
Federal Coordinating Official for the U.S. Government-wide response.
    DHS, together with its interagency partners, continues to actively 
work with senior government officials of Guatemala, El Salvador, 
Honduras, and Mexico to address our shared border security interests, 
as well as the underlying conditions in Central America that are 
promoting this mass migration. On June 20th, Vice President Biden 
visited Guatemala to meet with regional leaders to address the influx 
of unaccompanied children and families from Central America and the 
underlying security and economic issues that are causing this 
migration. The Vice President announced that the United States will be 
providing a range of new assistance to the region, including $9.6 
million in additional funding for Central American governments to 
receive and reintegrate their repatriated citizens, and a new $40 
million U.S. Agency for International Development program in Guatemala 
over 5 years to improve citizen security. An additional $161.5 million 
will be provided this year under the Central American Regional Security 
Initiative to further enable Central American countries to respond to 
the region's most pressing security and governance challenges. In 
addition, I traveled to Guatemala on July 8th and 9th, where I met with 
the President of Guatemala and senior government officials from Mexico 
to discuss a range of further steps to improve the regional response to 
this migration. And, on July 25th, President Obama and I met at the 
White House with the Presidents of Guatemala, Honduras, and El Salvador 
to ensure continued progress to address the situation. These 
collaborative efforts are ongoing.
    We have also made strides in the investigation, prosecution, and 
dismantling of the smuggling organizations that prey on vulnerable 
families and children in Central America, and facilitate border 
crossings into the Rio Grande Valley. In May, ICE's HSI conducted a 
month-long initiative along the U.S. southwest border in which 163 
alien smugglers and other violators were arrested. HSI special agents 
also obtained 60 indictments and 45 convictions, seized 29 vehicles, 9 
firearms and more than $35,000 in illicit proceeds. Building on these 
efforts, on June 23, HSI surged 60 special agents, intelligence 
analysts, and support staff to the RGV as part of HSI's ongoing efforts 
to target and dismantle human smuggling operations across the southwest 
border. As of July 21st, 192 smugglers and their associates have 
already been arrested on criminal charges, more than 500 undocumented 
immigrants have been taken into custody, and more than $625,000 in 
illicit profits have been seized from 288 bank accounts held by human 
smuggling and drug trafficking organizations.
    DHS has also re-initiated and intensified our public affairs 
campaigns in Spanish, with radio, print, and TV spots, to communicate 
the dangers of sending unaccompanied children on the long journey from 
Central America to the United States, and the dangers of putting 
children into the hands of criminal smuggling organizations. CBP has 
developed and launched the Dangers Awareness Campaign to communicate 
these dangers to children and their families who are considering the 
journey, and is working with stakeholders in Central America and the 
United States in order to encourage the use of Dangers Awareness 
Campaign materials. I have issued an open letter to the parents of 
those who are sending their children from Central America to the United 
States, which has been distributed broadly in Spanish and English, to 
highlight the dangers of the journey and to emphasize there are no free 
passes or ``permisos'' at the other end. Furthermore, we continue to 
stress that Deferred Action for Childhood Arrivals (DACA) does not 
apply to children who arrive in the United States now or in the future, 
and that to be considered for DACA, individuals must have continually 
resided in the United States since June 2007. We are making clear that 
the ``earned path to citizenship'' contemplated by the Senate bill 
passed last year will not apply to individuals who cross the border now 
or in the future; but only to those who have been in the country for 
the last two and a half years.
    As President Obama, the Vice President, and I have said, our border 
is not open to illegal migration and we will send recent illegal 
migrants back. We have sent this clear message through our recent 
action; removals from the Artesia facility of Central American adults 
with children who recently crossed the border illegally in the Rio 
Grande Valley began on July 14th. Removals of adults with children from 
Honduras, Guatemala and El Salvador continue, following full and 
appropriate due process and other protections being afforded.
    Under our laws, once CBP makes a determination that an individual 
is an unaccompanied child from Central America, or any other non-
contiguous country, that child must be transferred from DHS to HHS. 
Unaccompanied children from Mexico or Canada may be repatriated to 
their country of citizenship without being transferred to HHS, or 
placed in removal proceedings if they do not present any trafficking 
victimization indicators, do not express a fear of returning to their 
home country, and are able to make an independent decision to withdraw 
their application for admission. Mexican or Canadian unaccompanied 
children who present such indicators must be transferred to the custody 
of HHS, similar to those unaccompanied children from Central America 
and other non-contiguous countries. Throughout this time, removal 
proceedings against such children are ongoing. Every unaccompanied 
child will retain the right, like adults, to assert a claim of asylum 
or seek other protections. But, unless the child has been granted 
asylum, or some other protection in this country, he or she will be 
ordered removed.
    Question. How much money has been spent since October 2013 on 
transportation of UACs to communities throughout the country, and what 
form has this transportation taken (bus, plane)?
    Answer. As of July 10, 2014, U.S. Immigration and Customs 
Enforcement (ICE) has spent $28,826,763 on transporting 44,549 
unaccompanied children to U.S. Health and Human Services facilities. 
ICE has primarily transported unaccompanied children by air, but has 
also used buses in some cases.
    As of July 10, 2014, CBP has spent $3,600,000 on transferring 
unaccompanied children from CBP facilities in Rio Grande Valley to 
another CBP facility in Nogales, Arizona. CBP used the Federal 
Emergency Management Agency (FEMA) emergency air contract to transfer 
unaccompanied children via chartered aircraft.
    Question. President Obama's deferred action policies were 
originally justified as a way to ensure limited resources were spent 
only on the Administration's ``enforcement priorities.'' How much money 
has been spent on implementing DACA and prosecutorial discretion 
policies? How does this request, which alone is more than two thirds of 
ICE's budget last year, change your view of what should be your 
enforcement priorities and the use of limited resources?
    Answer. Regarding implementation of Deferred Action for Childhood 
Arrivals (DACA), U.S. Immigration and Customs Enforcement (ICE) bore no 
cost. With respect to U.S. Citizenship and Immigration Services 
(USCIS), the table below provides data regarding DACA obligations by 
cost category since inception. When reviewing the table, it is 
important to note that the reported obligations represent the tracked 
costs that USCIS incurred, or projects to incur, for the DACA program. 
The tracked costs do not include a share of USCIS overhead costs such 
as management and oversight, customer service, and other costs. The 
USCIS fee for the Application for Employment Authorization (Form I-
765), the Application for Travel Document (Form I-131), and the 
Biometrics Services fee include an allocation of these costs which are 
also borne by all other fee paying applicants and petitioners. DACA 
revenue has been sufficient to cover DACA costs, and USCIS expects this 
will continue even as costs (such as salaries) increase over time.

                 DEFERRED ACTION FOR CHILDHOOD ARRIVALS
                 USCIS Fiscal Year 2012-2014 Obligations
------------------------------------------------------------------------
                                                         Actual Fiscal
                    Cost Category                          Year 2012
                                                          Obligations
------------------------------------------------------------------------
Employee Salary and Benefits.........................           $503,664
Employee Overtime....................................          1,446,145
General Operating Expense............................          6,540,303
Contracts............................................          6,934,083
Rent/Facility Costs..................................  .................
                                                      ------------------
      Total..........................................         15,424,195
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                         Actual Fiscal
                    Cost Category                          Year 2013
                                                          Obligations
------------------------------------------------------------------------
Employee Salary and Benefits.........................        $52,432,529
Employee Overtime....................................         15,004,576
General Operating Expense............................         12,132,209
Contracts............................................         36,851,046
Rent/Facility Costs..................................         16,371,643
                                                      ------------------
      Total..........................................        132,792,003
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                        Projected Fiscal
                    Cost Category                          Year 2014
                                                          Obligations
------------------------------------------------------------------------
Employee Salary and Benefits.........................        $88,212,608
Employee Overtime....................................          1,636,773
General Operating Expense............................          5,578,432
Contracts............................................         28,476,777
Rent/Facility Costs..................................          8,443,551
                                                      ------------------
      Total..........................................        132,338,141
------------------------------------------------------------------------

    With respect to the implementation of prosecutorial discretion, ICE 
spent $18.8 million to complete reviews of more than 407,000 cases.
                                 ______
                                 
               Questions Submitted to Hon. Thomas Shannon
         Questions Submitted by Chairwoman Barbara A. Mikulski
    Question. Do you believe that expediting adjudication and 
deportation procedures can, by itself, stop the migration that we are 
seeing from Central America? Is it reasonable to assume that these 
individuals will continue to risk their lives to gain entry into the 
United States?
    Answer. Expediting adjudication and deportation procedures alone 
will not deter the flow of individuals emigrating from Central America. 
Fear of violence, prospects for educational and employment 
opportunities, and family reunification will continue to be factors 
that draw migrants to the United States, despite the publicized dangers 
of the journey. Although deportation is an important and visible sign 
that migrants without documentation are not guaranteed permission to 
stay, the Department of State recognizes that domestic conditions in El 
Salvador, Guatemala, and Honduras afford limited opportunities for 
their citizens, including returned migrants. The United States is 
committed to partnering with Central America to improve economic 
prosperity, security, and governance to create conditions that reduce 
underlying factors that lead to migration.
    Question. Do you have reliable data on the portion of these 
migrants who are motivated to come to the U.S. because of fear of 
violence in their home countries?
    Answer. Although there is not a single reason that explains the 
increase in unaccompanied children migrating to the United States, 
violence in the countries of origin is frequently cited as a principal 
factor. An April 2014 UNHCR report noted that out of 404 children 
interviewed, 192 cited violence as one of their reasons for migrating. 
It is estimated that up to 70 percent of homicides in El Salvador, 
Guatemala, and Honduras occur in the cities from which unaccompanied 
children emigrate. Honduras' homicide rate of 90 per 100,000, the 
highest in the world, is 14.6 times the global average of 6.2 per 
100,000; El Salvador's and Guatemala's rates are fourth and fifth 
highest in the world, respectively, at 41 and 39 per 100,000. In 
Honduras, the single largest place of origin of unaccompanied children 
is the San Pedro Sula/Choloma/El Progreso metropolitan area, which has 
a homicide rate of approximately 179 per 100,000. Significant places of 
origin in El Salvador and Guatemala also include major metropolitan 
areas where crime and violence tends to be at its highest. In Honduras, 
the National Observatory of Violence reported that violent deaths of 
women increased by 246 percent between 2005 and 2012.
    Question. Do you have reliable data on the portion who are fleeing 
domestic or sexual violence, or who are victims of trafficking?
    Answer. We are aware of the high levels of domestic and sexual 
assaults present Central American countries. An April 2014 report by 
UNHCR noted that out of 404 children interviewed, 85 cited abuse in the 
home as one of their reasons for migrating. El Salvador and Guatemala 
have two of the highest rates of murders of women in the world. In 
2013, the Office of the Special Prosecutor for Women in Honduras 
received 4,903 complaints of domestic abuse, and violent deaths of 
women increased 246 percent from 2005 to 2012.
    We know that organized criminal groups in this region profit from 
multiple forms of human trafficking and also force, co opt and/or 
coerce adults and children to engage in illicit activities. In addition 
to the risk of trafficking in their country of origin, these children 
may experience human trafficking during the dangerous journey to the 
United States or once inside the United States.
    Question. In addition to more efficient deportations, some have 
called for cutting aid to the governments of countries from which the 
majority of undocumented minors are coming, if those governments do not 
stop this exodus. It seems to me that would make the situation worse, 
but what is your view?
    Answer. Cutting off aid to our partners in Central America will not 
resolve the migration crisis; it will exacerbate it. Weak economic 
growth, low investment in vocational education and training, increased 
insecurity, declining rural incomes, and ineffective use of limited 
public sector resources are among the various factors encouraging 
family units and unaccompanied children to migrate. U.S. assistance 
addresses those causes of instability, and a loss of such assistance 
would result in an even worse environment for children in those 
countries. U.S. investments have been and must continue to be met with 
resources and reciprocal commitments by Central American governments.
    Additionally, President Obama and the Presidents of El Salvador, 
Guatemala, and Honduras issued a joint statement following their July 
25 meeting in Washington, reiterating a ``commitment to prevent 
families and children from undertaking this dangerous journey and to 
work together to promote safe, legal, and orderly migration.'' They 
pledged to pursue the criminal networks associated with child 
migration, to counter misinformation about U.S. immigration policy, to 
work together to humanely repatriate migrants, and to address the 
underlying causes of migration by reducing criminal activity and 
promoting greater social and economic opportunity.
    Question. We do need willing partners in Central America if we are 
going to have any chance of effectively addressing the root causes of 
this migration. But given the lack of educational opportunities and the 
high rates of unemployment in those countries, what incentive do those 
governments have to stop it? To put it bluntly, isn't it better for 
them if these people become our problem, not theirs?
    Answer. The Central American governments recognize that they have a 
responsibility to respond to the challenge of unaccompanied child 
migration. That it is a shared responsibility which requires a 
regional, comprehensive solution to address issues of security, 
prosperity and governance--all of which play a role in migration. These 
governments are committed to working with the United States to take 
meaningful steps toward economic integration to improve 
competitiveness, create opportunity, and spur job creation. They are 
also building their capacity to receive repatriated migrants.
    Question. What is the total amount currently pending for fiscal 
year 2014 for these programs, including the regular budget request and 
this supplemental? How long would it take to spend this money?
    Answer. The $300 million supplemental request includes $295 million 
for foreign assistance, of which $70 million is for governance, $125 
million is for prosperity, and $100 million is for security. In 
addition, the request includes $5 million for public diplomacy 
programming, whose regular budget is under public diplomacy 
appropriations. While an exact crosswalk for requested supplemental 
funding for foreign assistance is not possible because some 
supplemental programs are multi-sectoral, we estimate that the fiscal 
year 2014 regular appropriations level for comparable governance 
programs is $13.88 million; $40.33 million for prosperity; and $161.5 
million for citizen security.
    The Department of State and USAID believe programs related to the 
following will have the quickest impact: energy; workforce development; 
support to coffee farmers; expansion of 24-hour courts; programs that 
increase access to justice and mobile court facilities; community-based 
programs to reduce crime and violence; efforts to improve border 
security; and repatriation assistance. However, actual obligations and 
subsequent rates of expenditure would substantially depend on the form, 
content, requirements, and timing of supplemental appropriations, and 
whether the programs are new, which would require additional time 
execute.
    Question. A portion of this request is dedicated to financial 
management and reform. That is long overdue, since most of these 
countries have very low tax rates and they have been relying on foreign 
aid to pay for basic services for their people. Do you plan to 
condition our assistance on these types of reforms, since ultimately 
they have to be responsible for meeting the needs of their own people?
    Answer. Improving governance, especially the effective delivery of 
government services to citizens, is an important aspect of improving 
life in Central America. Historically, El Salvador, Guatemala, and 
Honduras have had low levels of tax collection and suffered from 
corrupt and non-transparent practices, further straining their ability 
to address the complex root causes that drive migration. Increased 
government revenue, if used effectively, could allow Central American 
governments to provide needed services for their citizenry. Through 
diplomatic engagement and technical expertise, the United States can 
help them sexpand domestic resources and improve the management of 
public expenditures.
    Programs to increase financial transparency, professionalize budget 
and expenditure practices, and improve tax administration will only be 
effective if we have willing partners and institutions with which to 
work. To that end, we will monitor these assistance programs, and there 
will be no tolerance for corruption. The governments in the region 
acknowledge that addressing the current migration situation is a shared 
responsibility, and we expect them to be willing and transparent 
partners in programs dedicated to financial management and reform.
    Question. What reliable data do you have that media campaigns will 
deter people fleeing violence or seeking a better life from making the 
trip to the U.S.?
    Why not use existing U.S. Government resources such as the Voice of 
America Latin America Service and Public Affairs Officers who are 
fluent in Spanish? Wouldn't using these existing resources allow for a 
quicker response to this crisis?
    Answer. In focus groups, residents of the region indicated that 
they had only a vague understanding of U.S. immigration policy, and 
many have misperceptions about potential benefits or opportunities they 
might be afforded under existing law or as a result of prospective 
reforms. Many potential migrants believe they will be allowed to stay 
in the country long enough to pursue legal immigration status. Our 
public awareness campaigns work to counter these misconceptions with 
intending migrants and their family members, explaining facts about 
deportation proceedings and U.S. immigration laws to dispel the belief 
migrants can easily exploit perceived loopholes in U.S. immigration 
policies.
    The credibility of the message is enhanced when it is delivered by 
people the communities trust and this is why locally designed and 
implemented campaigns are important. The individual delivering these 
messages matters as well as the content of such messages. Ambassadors, 
public affairs officers, and other U.S. Government officials are active 
in local Spanish-language media to discuss the facts of the situation 
and emphasize both the dangers of the journey to the United States and 
to correct misunderstandings about legal immigration benefits for those 
making the trip. Media activity should be augmented by widely-
disseminated, U.S.-branded campaigns, including in indigenous 
languages. Voice of America's Spanish Service is disseminating news and 
information on the perils minors face through television and radio 
stations in Central America.
    Question. Why are youth training programs a public diplomacy 
function?
    Answer. Our public diplomacy programs are uniquely positioned to 
reach out to youth in the region, through an existing network of 
Binational Centers, programmatic interaction, and social media 
engagement. These programs are consistent with a global focus by public 
diplomacy to engage youth audiences with an opportunity agenda focused 
on access to education, pathways to economic success, safer 
communities, and more responsive local governance, while also providing 
information about the United States to shape a better understanding of 
U.S. policy and partnership in the region. Expanded PD programs in 
Guatemala, El Salvador and Honduras targeting at risk youth and 
repatriated migrants would develop skills and leadership among 16- to 
18-year-olds, shrinking the opportunity gaps they face and 
strengthening their ability to remain in their home countries. These 
programs would include:
  --Tech Camps offering intensive technology workshops to develop 
        leadership and computer skills for youth to influence change in 
        their communities.
  --The Youth in Enterprise program features workshops, field visits, 
        and internships facilitated by U.S. experts on small and 
        minority business development, providing youth with the 
        entrepreneurial skills to create their own businesses.
  --Sports programs led by U.S. sports envoys and experts, directed at 
        young people in target migrant generating areas, offer 
        alternatives to the violence of gang activity by promoting 
        positive leadership and life-skills activities through sports.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Assuming that any long term solution to this exodus 
requires effectively addressing its root causes, why is less than 10 
percent of the supplemental being requested for that purpose?
    Answer. In the short term, the Administration scaled the 
supplemental request to provide an infusion of targeted support to the 
specific cities and regions of origin of most of the migrants to 
mitigate factors driving their departure from their homes. This amount 
takes into account the absorptive capacity of Central America in the 
immediate period. The $300 million requested will allow the Department 
and USAID to bring to scale existing successful programs and fill gaps 
where previous investments have been under-resourced. Ultimately, 
however, this mutual supplemental request is only a down payment.
    The supplemental will address the principal drivers of violence, 
economic opportunity, corruption, and poorly performing public 
institutions prompting migration. The Administration is carefully 
reviewing the fiscal year 2016 budget request, which will demonstrate 
its commitment to sustained engagement in Central America for economic 
prosperity, security, and governance to address the underlying factors 
of the migration.
    Question. Do you have reliable data on the portion of these 
migrants who are motivated to come to the U.S. because of fear of 
violence in their home countries? Do you have reliable data on the 
portion who are fleeing domestic or sexual violence, or who are victims 
of trafficking?
    Answer. Although there is no single reason that explains the 
increase in unaccompanied children migrating to the United States, 
violence in the countries of origin is cited frequently as a factor. 
While the Department of State does not have specific data that shows 
the number of children fleeing specific types of violence, we are aware 
of the high levels of human trafficking as well as domestic and sexual 
assaults present in these Central American countries. For example, the 
murder probability faced by Hondurans citizens is 14.6 times the global 
average of 6.2 per 100,000 and in El Salvador, the police reported 
approximately 2,000 cases of domestic violence in 2013.
    We know that organized criminal groups in this region profit from 
labor and sex trafficking, and also force adults and children to engage 
in illicit activities. In addition to the risk of trafficking in their 
country of origin, these children may experience human trafficking 
during the dangerous journey to the United States or once in the United 
States as well. The Department of Homeland Security is responsible for 
determining if an individual is a victim of trafficking, or has a 
credible fear of return to their country of origin that might give rise 
to a claim for international protection.
    Question. Obviously, many of these Central Americans are economic 
migrants. But many are also fleeing horrific violence. We urge other 
governments, whether Jordan, Lebanon, or countries in Africa to provide 
a safe haven to millions of refugees fleeing violence. How will you 
ensure that we respect both domestic and international law and our 
moral obligations to protect people fleeing from violence?
    Answer. The United States is committed to meeting its obligations 
under the Refugee Convention and other applicable domestic and 
international law. The Department of Homeland Security is responsible 
for determining if an unaccompanied child who is apprehended trying to 
enter the United States is a victim of trafficking, has a credible fear 
of persecution, or is at risk of trafficking on return to their country 
of origin. Those seeking to remain in the United States may also raise 
asylum and other claims for protection under U.S. immigration law. I 
refer you to DHS for all questions regarding the specifics of immigrant 
processing in the United States.
    Additionally, the Department of State's Bureau of Population, 
Refugees, and Migration funds the International Organization of 
Migration to train and build the capacity of governments and civil 
society in El Salvador, Guatemala, and Honduras to identify, screen, 
protect, and refer unaccompanied children to appropriate services 
throughout the migration process.
    Question. A portion of this request is dedicated to financial 
management and reform. That is long overdue, since most of these 
countries have very low tax rates and they have been relying on foreign 
aid to pay for basic services for their people. Do you plan to 
condition our assistance on these types of reforms, since ultimately 
the Central American governments are responsible for meeting the needs 
of their own people?
    Answer. Improving governance, especially the effective delivery of 
government services to citizens, is an important aspect of improving 
life in Central America. Programs to improve financial transparency, 
professionalize budget and expenditure practices, and improve tax 
administration are only effective if we have willing partners and 
institutions with which to work. To that end, we monitor these 
assistance programs and have zero tolerance for corruption. The 
governments in the region have acknowledged that addressing the current 
migration situation is a shared responsibility, and we expect them to 
be willing and transparent partners in programs dedicated to financial 
management and reform.
    Question. What incentive do the Central American governments have 
to stem the tide of migration from their countries to the United 
States, and what assurance--if any--has the Administration received 
regarding their cooperation? How will this money be used if the foreign 
government does not display the capacity or political will to partner 
with us on these issues?
    Answer. President Obama and the Presidents of El Salvador, 
Guatemala, and Honduras issued a joint statement following their July 
25 meeting in Washington reiterating a ``commitment to prevent families 
and children from undertaking this dangerous journey and to work 
together to promote safe, legal, and orderly migration.'' They pledged 
to continue to pursue the criminal networks that smuggle or traffic 
children, to counter misinformation about U.S. immigration policy, to 
work together to humanely repatriate migrants, and to address the 
underlying causes of migration by improving security and promoting 
greater social and economic opportunity.
    The implementation of a comprehensive and collaborative strategy 
for Central America--one that addresses security, economic prosperity, 
and governance--is more than simply sending foreign aid. Illegal 
migration from Central America is spurred by economic stagnation, weak 
governance, and insecurity. We will work with our regional partners and 
international institutions to jointly promote regional prosperity; 
transparent, democratic governance; and will strengthen security 
cooperation to reduce gang violence and organized crime.
    We are committed to working closely with the Governments of El 
Salvador, Guatemala, and Honduras to address the factors that affect 
migration and build their capacity to receive repatriated migrants.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Please identify the office or bureau within the 
Department of State that has the capacity and expertise to address this 
issue of international child welfare?
    Answer. Given the complexity of issues relating to unaccompanied 
child migration--under the context of international child welfare--the 
Department of State's engagement is led by my office, supported by a 
number of different bureaus and offices. The Bureau of Western 
Hemisphere Affairs coordinates outreach and engagement with the 
Governments of El Salvador, Guatemala, Honduras, and Mexico, and is 
working with the National Security Council and the U.S. interagency to 
develop a broad-based, long-term strategy for Central America that will 
address underlying causes of migration. The Bureau of Population, 
Refugees, and Migration funds a program implemented by the 
International Organization for Migration (IOM) to build the capacity of 
the Central American governments to identify, screen, protect, and 
refer unaccompanied child migrants to appropriate services throughout 
the migration process. USAID, through IOM, is working to build the 
capacities of the relevant entities in El Salvador, Guatemala, and 
Honduras to provide post-arrival assistance for returning families with 
children and unaccompanied children; the program also will strengthen 
governments' capacities to address underlying conditions contributing 
to migration. The Office to Monitor and Combat Trafficking in Persons 
engages on the potential trafficking nexus related to the migration of 
unaccompanied children.
    USAID and the Bureau of International Narcotics and Law Enforcement 
(INL) implement programs under the Central America Regional Security 
Initiative designed to address the underlying causes of migration. 
USAID programs provide social and economic opportunities for at-risk 
youth, build community resilience, improve relationships between police 
and communities, and improve the rule of law through institutional 
strengthening. INL has trained police units in these countries, many of 
which have increased their attention to smuggling organizations and 
illegal migration. The Office of the Legal Adviser coordinates closely 
with these bureaus to ensure compliance with our international and 
domestic obligations.
    Question. What specifically is the Department of State doing, 
directly or through the U.S. Agency for International Development, to 
work with the countries of origin in Central America to expand their 
capacity to develop functioning child welfare systems?
    Answer. On June 20, Vice President Biden announced $9.6 million to 
increase the capacity of Central American governments to receive, 
reintegrate, and care for repatriated migrants, including unaccompanied 
children. USAID, through the International Organization for Migration 
(IOM), will work to improve and expand existing repatriation centers 
and train and build the capacity for personnel involved in repatriation 
efforts in each country. Funds will expand the capacity of governments 
and non-governmental organizations in government reception centers to 
provide the following services for returned unaccompanied children: 
develop referral mechanisms to address psychosocial needs; undertake 
health screening; provide for basic immediate needs; provide counseling 
and/or education to discourage further emigration; and ensure safe 
return to home communities. The Bureau of Population, Migrants, and 
Refugees (PRM) will also work with IOM to build the capacity of the 
Central American governments to identify, screen, protect, and refer 
unaccompanied child migrants to appropriate services throughout the 
migration process. Our fiscal year 2014 Supplemental Request includes 
an additional $20 million for repatriation programs. We will continue 
to work with the Central American governments to assist in their 
development of functional child welfare systems.
    Question. Who is leading the whole-of-government effort with 
respect to addressing the root causes of this migration of 
unaccompanied children?
    Answer. At the direction of the President, the Department of 
Homeland Security established a Unified Coordination Group (UCG) June 
1, led by the Federal Emergency Management Agency. The UCG includes 
various governmental agencies and is designed to leverage Federal 
resources in a whole-of-government approach to provide humanitarian 
relief to the ongoing situation on the U.S. Southwest border.
    The State Department's Bureau of Western Hemisphere Affairs is 
leading the Department's response, working to address underlying 
factors contributing to migration of unaccompanied children, in 
coordination with other State Department bureaus as well as USAID.
    USAID and the Bureau of International Narcotics and Law Enforcement 
Affairs (INL) implement programs under the Central America Regional 
Security Initiative designed to address the underlying causes of 
migration. Additionally, USAID has bilateral assistance programs that 
focus on economic growth and governance in the region. INL has trained 
police units in these countries, many of which have increased their 
attention to smuggling organizations and illegal migration. The Office 
to Monitor and Combat Trafficking in Persons provides funding in 
Central America and Mexico for trafficking prevention and protection 
and as to enhance institutional capacity to enforce anti-trafficking 
legal frameworks.
    Question. What specifically is the Department of State doing , 
directly or through the U.S. Agency for International Development, to 
work with the countries of origin in Central America to ensure that 
there is adequate and protective reintegration capacity--into families 
or family-like settings--for the children that the Department of 
Homeland Security anticipates beginning to return in large numbers?
    Answer. The Bureau of Western Hemisphere Affairs coordinates 
outreach and engagement with the Governments of El Salvador, Guatemala, 
Honduras, and Mexico and is in the process of developing a broad-based, 
long-term strategy for Central America that will address underlying 
causes of migration. The Bureau of Population, Refugees, and Migration 
funds a program implemented by the International Organization for 
Migration (IOM) that helps build the capacity of the Central American 
governments to identify, screen, protect, and refer unaccompanied child 
migrants to appropriate services throughout the migration process. 
USAID, also through IOM, is working to build the capacity of relevant 
entities in El Salvador, Guatemala, and Honduras to provide post-
arrival assistance for returning families with children and 
unaccompanied children; the program also will strengthen governments' 
capacities to address underlying conditions contributing to out-
migration. The Office to Monitor and Combat Trafficking in Persons 
provides funding in Central America and Mexico for trafficking 
prevention and protection and to enhance institutional capacity to 
enforce anti-trafficking legal frameworks.
    Question. Does the Department of State recognize the critical 
nature of family strengthening, reunification and creation as part of 
the approach to addressing the root causes of the UAC migration?
    Answer. Yes, we recognize the importance of strong families in the 
reintegration and reunification process for unaccompanied children.
    Question. Assuming yes, how is the Department of State planning to 
work with the countries of origin, both diplomatically and 
programmatically, to address these issues, including ensuring that 
repatriation and reintegration efforts are focused on placing children 
in safe, permanent and nurturing families or family-like settings.
    Answer. To respond to the immediate need to increase Central 
American governments' capacity to receive returned migrants, the 
Department of State and USAID are working to expand and improve 
existing reception centers for repatriated migrants, provide training 
in migrant care and transport to immigration officers, and expand the 
capacity of governments and NGOs to provide services to returned 
migrants. A sustainable solution requires a comprehensive approach in 
each Central American country to address issues of security, economic 
prosperity, and governance. All three objectives reinforce one another; 
and we must commit to a sustained engagement with these partners to 
address the underlying factors so that families in the region can 
prosper in safe communities.
    Question. How does the Department of State respond to the concern 
expressed by the United Nations High Commissioner for Refugees (UNHCR) 
and many in the U.S. stakeholder community who work with the UAC 
population that these children pose far more than an illegal 
immigration and enforcement problem and that they are arriving in such 
large numbers, undergoing trauma and terrible risk on the way, because 
the conditions of a forced migration exist in their countries of 
origin?
    a. Does this flow of children include refugees? Is the United 
States honoring its obligations under the Vienna Refugee Convention and 
Protocol?
    b. If the United States implements expedited removal for UACs from 
El Salvador, Honduras and Guatemala, will that be in violation of our 
commitment not to refoul refugees who have a well-founded fear of 
persecution in their country of origin?
    Answer. The problem is complex, and the Department is coordinating 
across multiple bureaus and offices and working closely with the 
interagency to help address the economic and social challenges in El 
Salvador, Guatemala, and Honduras that are contributing to these 
outflows. Those challenges include extreme violence, endemic poverty, 
and often ineffective public institutions, which combine to create an 
environment that many people want to abandon. The presence of families 
already in the United States and the aggressive criminal activities of 
smugglers (including the spreading of misinformation about immigration 
benefits) are also important factors. The Department, led by the Bureau 
of Western Hemisphere Affairs (WHA), has been working with these 
countries to address these issues. In addition, the Department's Bureau 
of Population, Refugees and Migration (PRM) has supported the 
International Organization for Migration (IOM) since 2010 to build the 
capacity of government officials and civil society in Central America 
and Mexico's southern border with Guatemala to identify, screen, 
protect, and assist vulnerable migrants, including children.
    Under U.S. law, a refugee is someone who has fled from his or her 
country of origin and is unable or unwilling to return because he or 
she has a well-founded fear of persecution based on religion, race, 
nationality, political opinion or membership in a particular social 
group.
    An ``asylum seeker'' is an individual who believes he or she is a 
refugee, but whose claim has not yet been evaluated. Asylum is a form 
of protection that can be granted to people who meet the definition of 
a refugee and are already in the United States.
    An unaccompanied child who has arrived in the United States may 
seek asylum, although most do not. Many, but not all, UACs appear to be 
leaving for reasons related to situations of violence, lack of 
opportunity, and other conditions.
    Whether any of the children will qualify for refugee protection 
under U.S. law is ultimately a case-by-case determination dependent on 
the specific facts of each case, after a hearing before a trained 
asylum or immigration judge--something all of these migrants will have 
an opportunity to present, regardless of the removal procedure they 
undergo.
    The Department of Homeland Security screens children to determine 
the validity of their asylum claims consistent with our domestic law 
and international obligations.
    The United States fully honors our obligations as a party to the 
1967 Protocol to the 1951 Refugee Convention. The United States does 
not refoul anyone that U.S. authorities have determined to have a well-
founded fear of persecution in their home country based on race, 
religion, nationality, membership in a particular social group, or 
political opinion.
    No unaccompanied alien children are presently subject to Expedited 
Removal, regardless of whether they are from a contiguous (Mexico, 
Canada) or non-contiguous (El Salvador, Honduras, Guatemala) state. 
Expedited Removal only currently applies to adults and children 
accompanied by their parents. If DHS determines that a UAC from a 
contiguous state is not a victim or a potential victim of trafficking, 
does not have a fear of persecution, and is able to make an independent 
decision to withdraw his/her application for admission, the UAC may be 
permitted to voluntarily return.
    Regardless of country of origin, no UAC who seeks asylum or 
expresses a credible fear of persecution in his/her country of origin 
will be returned until his/her case has been heard before an 
immigration judge or an official from the U.S. Citizen and Immigration 
Services (USCIS).
    Question. Exactly who within the Department of State will oversee 
the programming of this money and how?
    Answer. Within the Department of State, the Bureaus of Western 
Hemisphere Affairs and International Narcotics and Law Enforcement 
Affairs, along with the Office of Foreign Assistance Resources, in 
coordination with USAID, will ensure that appropriated foreign 
assistance funds reach the intended recipients and targeting the 
underlying factors driving migration. This collaborative process will 
enable the Department to align programming--both new and existing--to 
our long-term regional strategic goals and verify the appropriate 
implementers are carrying out these programs. Furthermore, since the 
supplemental budget request for Department of State and USAID includes 
a blend of foreign assistance and diplomatic engagement funding, robust 
public diplomacy and outreach efforts will complement our foreign 
assistance programming.
    Question. How will these efforts be effectively coordinated within 
the rest of the U.S. Government?
    For example, if DHS significantly increases repatriations to El 
Salvador, Honduras and Guatemala in the coming months, how will the 
Department of State ensure the concomitant reception and reintegration 
programs are in place to receive them?
    Answer. The Department of State and USAID work through the 
established interagency process in Washington to coordinate assistance. 
The Department will also utilize existing in-country coordination 
mechanisms at our embassies. We expect this coordination to continue on 
repatriation centers.
    Our supplemental request includes $20 million for repatriation 
assistance based on the initial assessments of the necessary costs to 
improve the repatriation capacities of source countries. Should there 
be an increase in processing returnees, the supplemental request also 
asks for the flexibility to respond to such surges in repatriations 
with the necessary capacity to process returnees and provide the 
appropriate assistance to repatriated family units.
    Question. Does the Department of State believe the $400 million for 
the next 15 months will be sufficient for this purpose?
    Answer. The Administration's $300 million supplemental request 
responds to the extraordinary circumstances surrounding migration from 
Central America. Requested funding expand scope and scale existing 
successful programs, fill gaps where needed investments have been 
under-resourced, and expand U.S. ability to encourage El Salvador, 
Guatemala, and Honduras to work together to address the underlying 
factors driving emigration. The Administration is using existing 
funding where feasible to address the underlying factors contributing 
to the migration through the Central America Regional Security 
Initiative and bilateral assistance programs. We are also working to 
strategically prioritize these issues in fiscal year 2016 budget 
request.
    Question. We are being asked to consider an emergency supplemental 
appropriations bill worth $3.7 billion. Clear lines of authority and 
responsibility need to be established and accountability for the money 
must be a priority. We need to identify who is in charge of fixing the 
deep-rooted, systemic problem, what the plan is, and who is going to be 
held responsible for delivering results.
    Who is accountable in each of your departments or component 
agencies and how are they part of a coordinated whole-of-government 
approach?
    Answer. The Secretary has asked that I, as the Department of 
State's Counselor, lead the Department's participation in the U.S. 
government's whole-of-government, coordinated approach regarding 
migration from Central America. I have traveled to each of the source 
countries to view the on-the-ground situation firsthand and conducted 
high-level meetings with the Foreign Ministers of El Salvador, 
Guatemala, Honduras and Mexico. I am an active participant in the 
interagency coordination process led by the National Security Council.
    Question. What are the specific goals of each of your departments? 
What are the metrics and the benchmarks of success or failure in 
addressing this emergency situation, for the remainder of fiscal year 
2014, for fiscal year 2015, and beyond?
    Answer. The Administration's supplemental request intends to 
increase the capacity of Central American governments to receive 
returned migrants and address the underlying factors driving migration. 
In tandem with existing resources and programs, this funding would 
allow us to enhance our engagement in Central America and advance an 
integrated and comprehensive approach to the economic, social, and 
security challenges driving migration. Specifically, programming 
intends to address the lack of economic opportunity, violence, and 
ineffective state institutions.
    The Department, USAID, and our embassies in the region are 
continually monitoring the effectiveness of our assistance and 
evaluating how best to provide funding to achieve U.S. objectives. For 
example, the State Department and USAID are establishing a 
comprehensive results framework to monitor the progress of programming 
under the Central America Regional Security Initiative. This results 
framework is intended to complement the effective evaluation programs 
already in place. In addition, a recent evaluation by Vanderbilt 
University indicated USAID's work with at-risk youth in select 
municipalities in El Salvador is highly successful in reducing crime. 
Similar studies are underway in Guatemala and Honduras. The Bureau of 
International Narcotics and Law Enforcement Affairs' Model Police 
Precinct program demonstrated significant results in El Salvador and 
Guatemala. Collectively, these results indicate which programs are 
having positive impacts and where we work with the countries involved.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
    Question. The President's Budget was released in March. It is hard 
for me to believe that the Administration did not know that the influx 
of unaccompanied children was occurring at a pace that might outpace 
resources. Why was the influx of unaccompanied children not flagged as 
a priority in the Department of Health and Human Services' (HHS), 
Department of Homeland Security (DHS), and the State Foreign Operations 
funding request? How is the Administration going to ensure that the OMB 
can be agile in their requests and give Congress time to ensure 
oversight for crisis's build over time like this one?
    Answer. Migration by unaccompanied children is not a new 
phenomenon, and it has ebbed and flowed over time. This fiscal year, 
however, the scale of migration has resulted in the apprehension of 
more than 50,000 unaccompanied children from Central America along the 
U.S. southwest border. The Administration's request for emergency 
supplemental funding reflects these extraordinary circumstances. The 
request includes flexibility to allow for an agile response across U.S. 
agencies to address this migration.
    The State and USAID portion of the supplemental request addresses 
the underlying factors of migration and immediate repatriation and 
reintegration needs, especially in El Salvador, Guatemala, and 
Honduras. State and USAID intend to work with the U.S. interagency to 
implement these assistance programs. In addition, State and USAID are 
carefully reviewing the fiscal year 2016 budget request to ensure 
sustained engagement in Central America for prosperity, governance, and 
security, beyond the supplemental request.
    Question. Considering the influx of unaccompanied children into the 
U.S. and that there are reports that neighboring countries to Honduras, 
Guatemala and El Salvador have reported a 400 percent increase in 
children requesting asylum, does the President consider this a 
humanitarian crisis? If so, when can we expect to see a comprehensive, 
multi-national approach and policy to combat the violence and failed 
states in our hemisphere? A funding bill of this size does not address 
the root of the problem and I would like to hear what policy steps the 
Department of State and the Administration are going take.
    Answer. El Salvador, Guatemala, and Honduras suffer from some of 
the highest homicide rates in the world. According to United Nations 
statistics from 2012--the latest figures publicly available--the murder 
rate faced by Hondurans citizens is 90.4, almost 15 times the global 
average of 6.2 per 100,000. Given the precarious security situation in 
these three countries and the tight fiscal environment we have faced 
over the last 5 years U.S. assistance has focused on citizen security, 
primarily via the Central America Regional Security Initiative. We 
partner with other international and regional actors to achieve 
security goals. However, we know violence is only one of the underlying 
factors contributing to the surge of unaccompanied children arriving in 
the United States from Central America. Weak governance and lack of 
economic opportunity are other factors that contribute to out-
migration. We are working with the National Security Council and the 
U.S. interagency to develop a broad-based, long-term strategy for 
Central America that will address underlying causes of migration.
    U.S. assistance is needed to help improve governance and economic 
prosperity. To this end, we must build upon and expand proven programs, 
in partnership with Central American countries, which address the 
economic and educational deficiencies in the region and will improve 
the public's trust and confidence in domestic institutions. We envision 
an economically-integrated Central America that provides economic 
opportunities to all of its citizens; more democratic, accountable, 
transparent, and effective public institutions; and a safe environment 
for its citizens to build their lives in peace and stability.
    Question. I understand there is a request for $300 million for the 
State Department. How will that make a dent in the belief by foreign 
families that children will be able to stay in the U.S. if they come 
here? How are we targeting criminal smuggling organizations to combat 
their lies to families?
    Answer. President Obama and the Presidents of El Salvador, 
Guatemala, and Honduras issued a joint statement following their July 
25 meeting in Washington, reiterating a ``commitment to prevent 
families and children from undertaking this dangerous journey and to 
work together to promote safe, legal, and orderly migration.'' They 
pledged to pursue the criminal networks associated with child migration 
and to counter misinformation about U.S. immigration policy. Ongoing 
host government-led efforts in El Salvador, Guatemala, and Honduras 
include media campaigns and law enforcement investigations targeting 
organizations engaged in human smuggling.
    U.S. public awareness campaigns promote facts about deportation 
proceedings and U.S. immigration laws to dispel the belief children can 
easily exploit perceived loopholes in U.S. immigration policies and 
inform parents who are considering sending their children that they 
will not be allowed to remain in the United States.
    Ambassadors, public affairs officers, and other U.S. Government 
spokespersons actively engage local media to discuss the facts of the 
situation and emphasize both dangers of the journey to the United 
States and the lack of legal immigration benefits for those making the 
trip. Their public messages augment widely-disseminated U.S. 
Government-branded public service announcement campaigns, including in 
indigenous languages. We requested $1.6 million in the fiscal year 2014 
Supplemental Request to increase targeted messaging, focusing on 
Facebook (bought ads and content placement), leveraging the public 
service announcements already produced by U.S. Customs and Border 
Patrol, host country government campaigns, and locally produced U.S. 
Government-branded messaging.
    Question. How is the Department gauging the effectiveness of the 
current deterrence efforts in Honduras, Guatemala and El Salvador?
    Answer. The Governments of El Salvador, Guatemala, and Honduras are 
taking steps to deter migration from their countries. Each government 
is accepting the return of families on direct flights, an important and 
visible sign that no undocumented migrant is guaranteed permission to 
stay in the United States. The three countries are conducting media 
campaigns with messaging underscoring the dangers of the journey to the 
United States and correcting misinformation about U.S. immigration 
policy.
    There have been public declarations from high-level government 
officials warning citizens of the dangers of the journey and urging 
them not to migrate. For example, El Salvador's President Sanchez Ceren 
spoke publicly about the dangers of travel by unaccompanied children, 
the Guatemalan and Honduran First Ladies publicly urged parents not to 
send their children, and the Guatemalan Ambassador to the United States 
has made multiple public statements noting migrants will not receive 
immigration benefits if they arrive in the United States without 
documentation.
    In addition, Honduran, Guatemalan and Salvadoran law enforcement 
are increasing focus on investigating smuggling networks. On June 20 a 
U.S.-trained unit of the Honduran National Police stood up ``Operation 
Rescue Angels'' on the border between Honduras and Guatemala to focus 
on unaccompanied child migrants. To date, they have stopped over 100 
children and captured seven smugglers.
    All of these actions are important in stemming the increase in the 
number of unaccompanied child migrants arriving at the U.S. southern 
border. We are encouraging the governments to continue their 
multifaceted approach to discourage potential migrants from making the 
dangerous journey to the United States.
    Question. The emergency supplemental request includes an ``economic 
support fund.'' Under the request, some portion of those funds would be 
used to expand the capacity of governments and non-governmental 
organizations to provide ``services'' for returned migrants. Would you 
provide a comprehensive list of the types of services that the economic 
support fund would cover?
    Answer. The Economic Support Fund (ESF) account is authorized to 
support a range of social, economic, rule of law, and development 
objectives globally. The fiscal year 2014 Supplemental Request would 
use ESF to expand the capacity of Central American governments to 
receive returned migrants; enhance job creation and improve economic 
growth; further effective, accessible, independent legal systems 
operating under the rule of law; and address border security.
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
    Question. What steps is the State Department taking to fix the root 
causes of bringing migrant children to the U.S. from Central America?
    Answer. The Department of State and interagency partners are and 
have been working closely with our Central American partners to address 
the complex and systemic challenges these countries face. Slow job 
creation, low-quality public education, low investment in vocational 
education and training, insecurity, declining rural incomes, and 
ineffective use of limited public sector resources are among the 
various factors spurring families and unaccompanied children to migrate 
from Central America.
    The U.S. Government seeks to address violence in Central America 
through the Central America Regional Security Initiative (CARSI). 
Through CARSI, the United States works with partner nations to 
strengthen institutions to counter the effects of organized crime, 
control their borders, uphold the rule of law, and protect human 
rights. Department of State and USAID's CARSI prevention programs 
provide at-risk youth with alternative opportunities to joining gangs 
while community policing programs improve communication between police 
and community members to make their neighborhoods safer.
    The United States foreign assistance promotes regional economic 
growth, infrastructure modernization, and collaboration. Millennium 
Challenge Corporation (MCC) programs in Honduras and El Salvador are 
focused on improving infrastructure and market access. In addition, 
Honduras is engaged in an MCC threshold program to improve its 
efficiency and transparency in providing public services. Other 
Department of State and USAID initiatives designed to provide critical 
economic, educational, and commercial opportunities include Pathways to 
Prosperity in the Americas, the Small Business Network of the Americas, 
Women's Entrepreneurship in the Americas (WEAmericas), La Idea, 100,000 
Strong in the Americas, and Feed the Future.
    Ambassadors and Public affairs officers at U.S. embassies in the 
region are continuously engaged in messaging on U.S. immigration 
policy, and have consulted with host governments on recent campaigns to 
stem the flow of unaccompanied minors to the United States.
    Question. Will the $300 million in this request fix these issues?
    Answer. The U.S. Government's vision of an economically-integrated 
Central America that provides economic opportunities to its people; 
more democratic, accountable, transparent, and effective public 
institutions; and a safe environment for its citizens to build their 
lives in peace and stability will require a long term approach. We are 
working to include governance, economic prosperity, and security 
funding for the region in our out-year budget requests. These efforts 
will not only mitigate the factors causing migration but they will 
protect the U.S. national security interests. The United States cannot 
solve these problems alone. We will look to the Central American 
governments to provide their own financial and political commitments to 
address the factors driving migration.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
    Question. Could you tell us what your plans are, if any, for in-
country processing in Guatemala, Honduras, and El Salvador? Do you see 
this as part of a comprehensive approach to this humanitarian crisis?
    Answer. The Administration is considering taking additional steps 
to further deter unlawful and dangerous migration to the United States.
    To stem the flow of migrant children attempting to enter the United 
States, we are considering a small pilot project to explore whether 
children could go through a process to determine if they are eligible 
to come legally to the United States before they leave their home 
countries. Our goals remain twofold in the United States as well as in 
the region: provide an effective deterrent for illegal migration 
through criminal smuggling networks, while protecting legitimate 
humanitarian claims. Any in-country program would be governed by these 
goals.
    This is a pilot project and we expect this to be very modest in 
size. The standard to achieve refugee status is very high, and will not 
be changed. This will not be an avenue to reunite children with 
undocumented family members in the United States.
    Question. Could you describe the current efforts led by the State 
Department to enhance public safety in Guatemala, Honduras and El 
Salvador? How would the emergency supplemental funds help change the 
situation on the ground?
    Answer. The Department of State is and has been working closely 
with our Central American partners to address the complex and systemic 
challenges Central America faces, including public safety. The U.S. 
Government's citizen security program in Central America is the Central 
America Regional Security Initiative (CARSI). Through CARSI, the United 
States works with partner nations to strengthen institutions to counter 
the effects of organized crime, uphold the rule of law, and protect 
human rights. CARSI prevention programs dissuade at-risk youth from 
turning to crime and community policing programs facilitate trust 
between police and community members. Weak economic growth, low 
investment in vocational education and training, increased insecurity, 
declining rural incomes, and ineffective use of limited public sector 
resources are among the various factors encouraging families and 
unaccompanied children to migrate.
    We envision an economically-integrated Central America that 
provides economic opportunities to its people; more democratic, 
accountable, transparent, and effective public institutions; and a safe 
environment for its citizens to build their lives in peace and 
stability. Efforts toward this end will not only mitigate the factors 
causing migration, they serve to protect the U.S. national interest. In 
order to obtain that vision, we must work with regional and 
international partners toward three priority objectives: governance, 
economic prosperity, and security. All three objectives reinforce one 
another; and we must commit to a sustained engagement with these 
partners. Of the $300 million fiscal year 2014 Supplemental Request, 
the Department of State and USAID requested $295 million of Economic 
Support Funds for programs organized under the three priority objective 
areas. This request represents a down payment on a new strategic 
approach in the region. The supplemental also requests $5 million in 
public diplomacy funds to increase public messaging in the region about 
the dangers of the journey.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
    Question. The Department of State has come to Congress requesting a 
large sum of additional money, but the Department of State and USAID 
have not yet obligated the majority of fiscal year 2014 assistance for 
the Western Hemisphere, which totals $1.46 billion.
    What is the current assistance pipeline for Honduras, Guatemala, 
and El Salvador, and how critical is the $300 million supplemental 
request given that significant unobligated balances remain in fiscal 
year 2014?
    Answer. Consistent with the requirements of section 653(a) of the 
Foreign Assistance Act of 1961, as amended, prior to the obligation of 
funds, the Administration provided to House and Senate Committees on 
Appropriations country/program allocations by account for foreign 
assistance funds appropriated in the State, Foreign Operations, and 
Related Appropriations Act, 2014 (SFOAA). The 653(a) allocations for 
fiscal year 2014 foreign assistance are still being reviewed by the 
House and Senate Committees on Appropriations; therefore, fiscal year 
2014 assistance has not yet been obligated. The Administration's $300 
million supplemental request fills critical gaps where needed 
assistance investments have been under-resourced, while bringing to 
scale existing successful programming models to address needs in 
Central America comprehensively.
    Question. Why did the President's fiscal year 2015 budget request 
decrease assistance for the Western Hemisphere by $147 million below 
the fiscal year 2014 level, given the urgency of the situation?
    Answer. The fiscal year 2015 budget reflected an environment of 
fiscal constraint. The fiscal year 2015 request prioritized citizen 
security assistance, including for Central America, and did not 
indicate a reduced level of interest in the hemisphere. Given the 
current extraordinary circumstances, the Administration requested 
emergency supplemental funding to address the needs and requirements 
posed by the current humanitarian situation on the U.S. southwest 
border. In addition, the Administration will include the appropriate 
level of resources to address the driving factors of migration in its 
current internal review of the fiscal year 2016 budget request, which 
will be finalized and submitted to Congress next year.
    Question. The supplemental request for $295 million in the Economic 
Support Fund appears to be aimed predominately at bolstering existing 
programs conducted by USAID and the Department of State in Honduras, 
Guatemala, and El Salvador.
    What new programs does the supplemental request propose to initiate 
in these countries? Should Congress approve the supplemental request, 
do you anticipate that any new programs will be operational by the end 
of this fiscal year?
    Answer. The Administration's foreign assistance supplemental 
request--$295 million--includes funding to scale up successful existing 
programming models to achieve broader impact as well as address 
critical gaps where investments have been lacking and under-resourced. 
Through the fiscal year 2014 Supplemental Request, State and USAID will 
scale and target current and new programs in Central America to 
addresses the underlying factors--including a lack of economic 
prosperity, governance, and security driving--the migration of 
unaccompanied children. For the Department of State, new programming is 
expected to build on current successful models in the areas of 
assistance to provide fuller access to affordably energy, improved 
customs and border controls, justice sector reforms, corrections, and 
police capacity assistance. For USAID, also building on current 
successful models, the new assistance is targeted for public financial 
management and fiscal reform, justice sector, community based youth 
programs, and repatriation.
    The Department and USAID believe the new and expanding programs in 
the following areas will have the quickest impact on the ground: 
energy; workforce development; support to coffee farmers; expansion of 
24-hour courts; programs that increase access to justice and mobile 
court facilities; community-based programs to reduce crime and 
violence; efforts to improve border security; and repatriation 
assistance. However, actual obligations would substantially depend on 
the form, content, requirements, and timing of supplemental 
appropriations as well as whether the programs are new, as these 
require added time to responsibly and effectively plan and execute.
    Question. What evidence can you point to today to demonstrate 
success of the Department's existing programs at addressing the push 
factors for UACs?
    Answer. U.S. programming in Central America has focused on 
addressing the complex causes that drive migrants, including children, 
to leave El Salvador, Guatemala, and Honduras.
    In El Salvador, Guatemala, and Honduras, the United States supports 
community-based Model Precinct Programs to connect citizens with law 
enforcement in neighborhoods identified by the host government as most 
affected by violent crime. In the Villa Nueva suburb of Guatemala City, 
this approach has led to reduced gang activity in 78 schools, greater 
reporting of crime, higher conviction rates, and stronger 
investigations, contributing to a nearly 20 percent reduction in 
homicides. There have been similar reductions in homicide and crime 
rates in El Salvador's precincts.
    The Department of State supports vetted units of host-nation law 
enforcement, operating under the mentorship of U.S. Federal law 
enforcement agencies. These elite host-country units have been behind 
some of the regions' biggest law enforcement successes. In Honduras, 
the national police sent a U.S.-trained unit to the Guatemala-Honduras 
border to focus on smuggling networks. They have since rescued over 100 
children from smugglers and turned them over to Honduran authorities 
for care as part of Operation ``Rescue Angels.''
    Small Business Development Centers provide business counseling to 
over 10,000 businesses, which have created over 5,000 new jobs in El 
Salvador, Guatemala, and Honduras. The Women's Entrepreneurship in the 
Americas Initiative (WEAmericas) encourages inclusive economic growth 
by promoting women's economic empowerment in the Americas, and reducing 
the barriers women often face when starting a business. WEAmericas 
small grants are directly benefiting over 2,000 women in the El 
Salvador, Guatemala, and Honduras.
    USAID has established more than 120 Outreach Centers in Honduras, 
Guatemala, El Salvador, and Panama that provide safe spaces, learning 
opportunities, and life skills development for at risk youth. These 
centers provide a package of assistance that includes municipal crime 
prevention plans, crime and violence data tracking, youth outreach 
centers, job skills training, community policing and improved community 
infrastructure (additional street lights, cleaned up parks, etc.), 
targeted on the major source locations, including San Pedro Sula, 
Tegucigalpa, La Ceiba, Guatemala City, and San Salvador.
    The $300 million supplemental request is a down payment on a new 
strategic approach and we are working to include governance, economic 
prosperity, and security funding for the region in our out-year budget 
requests. The U.S. Government's vision of an economically-integrated 
Central America that provides economic opportunities to its people; 
more democratic, accountable, transparent, and effective public 
institutions; and a safe environment for its citizens to build their 
lives in peace and stability will require a long term approach. These 
efforts will not only mitigate the factors causing migration, but they 
serve to protect the U.S. national interest. We cannot solve these 
problems alone and will look to the Central American governments to 
provide complementary financial and political commitments to address 
the factors driving migration.
    Question. Do these governments possess the necessary political will 
and basic capacity to enact domestic reforms to address the ``push 
factors'' of unaccompanied child migration, which include lack of 
economic, educational and employment opportunities, and gang violence?
    Answer. The Governments of El Salvador, Guatemala, and Honduras 
recognize that this is a regional problem that requires a comprehensive 
approach to address issues of security, economic prosperity, and 
governance--all of which play a role in migration. We are committed to 
working closely with these governments to build their capacity by 
improving and expanding repatriation centers, providing training on 
migrant care and transport, and enabling the Central American 
governments to provide expanded services to returned migrants.
    Question. What prospect is there that simply sending them more 
foreign aid money will ensure they can meet these needs?
    Answer. The implementation of a comprehensive and collaborative 
strategy for Central America--one that addresses security, economic 
prosperity, and governance--requires more than simply sending more 
foreign aid. Migration from Central America is spurred by economic 
stagnation, weak governance, and insecurity. We will work with our 
regional partners and international institutions to promote regional 
prosperity through economic integration; transparent, democratic 
governance and fiscal management; and strengthened security cooperation 
to reduce gang violence and organized crime. We cannot solve these 
problems alone and will look to the Central American governments to 
provide complementary financial and political commitments to address 
the factors driving migration.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. Recently both Secretary Kerry and Vice President Biden 
met with leaders in Central America to discuss this growing 
humanitarian crisis. What assurances has the U.S. received form the 
leaders of these countries that they are committed to address and put 
an end to the rampant migration as well as to increase the security 
situation in their own countries? Additionally, can you elaborate on 
what specifically the U.S. is doing and what we plan to do with the 
resources that have been allocated and committed to aiding these 
efforts? Can we consider these countries serious partners in this 
endeavor?
    Answer. President Obama and the Presidents of El Salvador, 
Guatemala, and Honduras issued a joint statement following their July 
25 meeting in Washington reiterating a ``commitment to prevent families 
and children from undertaking this dangerous journey and to work 
together to promote safe, legal, and orderly migration.'' They pledged 
to pursue the criminal networks that smuggle or traffic children, to 
counter misinformation about U.S. immigration policy, to work together 
to repatriate migrants humanely, and to address the underlying causes 
of migration by improving security and promoting greater social and 
economic opportunity in Central America.
    In El Salvador, Guatemala, and Honduras have all launched media 
campaigns, law enforcement investigations targeting organizations 
engaged in human smuggling, and programs to combat poverty. The Central 
American presidents indicated to President Obama that they are working 
on a comprehensive plan to address the underlying causes of the 
humanitarian situation on the border. These governments are working 
with us to address their shared responsibility to address the urgent 
humanitarian situation on the U.S. southern border.
    On June 20, Vice President Biden announced $9.6 million to increase 
the capacity for Central American governments to receive, reintegrate, 
and care for repatriated migrants, including unaccompanied children. 
Program elements will include improvement and expansion of existing 
repatriation centers; training and capacity building for personnel 
involved in repatriation efforts in each country; and building the 
capacity of the Central American governments to identify, screen, 
protect, and refer unaccompanied child migrants to appropriate services 
throughout the migration process.
    Our supplemental request represents a down payment on our new 
approach in the region to increase governance, prosperity, and security 
in coordination with our regional and international partners. The $295 
million of Economic Support Funds will allow the Department of State 
and USAID to expand successful governance, economic growth, and citizen 
security programs in the region that are already having an impact but 
are not of sufficient scale or scope to stem the flow of undocumented 
migrants.
    Question. The supplemental request states that beyond initial 
assistance to these Central American countries, the Department of State 
and USAID will assess the progress and cooperation of recipient 
governments in order to determine if further assistance will be 
provided. How will you measure progress and cooperation specifically?
    Answer. The Department of State, USAID, and our embassies in the 
region continually monitor the effectiveness of all programs and 
evaluate how to best allocate foreign assistance to advance U.S. 
objectives. This monitoring and evaluation process informs us which 
programs are successful and which programs could be scaled up or 
expanded within Central America, with the commitment of the countries 
involved.
    Furthermore, the Department of State and USAID are developing a 
comprehensive results framework that will compile the results from our 
country-by-country programs and collectively evaluate the progress of 
our security assistance programming under the Central America Regional 
Security Initiative (CARSI), which includes assistance to El Salvador, 
Guatemala, and Honduras. This results framework will complement the 
evaluation programs already in place. For example, a recent independent 
evaluation by Vanderbilt University indicated USAID's community-based 
prevention programs are highly successful in reducing crime and 
increasing the reporting of crimes in El Salvador; results for 
Guatemala and Honduras are forthcoming but look promising as well. 
Similarly, the Bureau of International Narcotics and Law Enforcement 
Affairs' Model Police Precinct program in El Salvador and Guatemala has 
reduced crime, increased reporting of crimes that do occur, and 
improved the administration of justice in those committees where it is 
operating.
    Question. Beyond the supplemental request, the Administration is 
requesting the authority to use an additional $384 million of prior 
year funds to address the issue of unaccompanied child migrants from 
Central America. On top of this, the fiscal year 2015 Senate SFOPS bill 
includes an additional $100 million to address these same topics. 
Exactly how much money is needed for these efforts? Will a more 
specific plan be submitted to Congress to explain how exactly you plan 
on spending this money?
    Answer. The Administration's fiscal year 2014 emergency 
Supplemental Request includes $295 million of foreign assistance for 
the Department of State and USAID to address the underlying factors of 
poverty and insecurity that are contributing to the migration of 
unaccompanied children. Programs will promote economic prosperity by 
increasing access to affordable and reliable energy, promoting small 
businesses and local economic development, and providing in-demand 
skills to at-risk populations. To address corruption, a lack of 
transparency, and impunity in the region, programs will seek to 
strengthen judicial systems and expand resources for the management of 
public expenditures. Additionally, resources will bolster current and 
new programs in police capability and community-based policing, prison 
reform, countering transnational crime and illicit trafficking, and 
building repatriation capacity in the region.
    The Administration has made investments in Central America, 
including $642 million for the Central America Regional Security 
Initiative. However, to respond comprehensively to the factors driving 
migration, additional investments, particularly for prosperity and 
governance, are needed. The emergency supplemental request is a down 
payment on those requirements; it brings to scale existing successful 
programming models while filling gaps in areas that have been under-
resourced.
    The Department of State and USAID are internally reviewing the 
fiscal year 2016 budget to ensure sustained engagement in Central 
America, in order to provide the long-term commitment necessary to 
address this crisis and stem the flow of unaccompanied children. The 
emergency supplemental requests $125 million for prosperity for 
programming for energy, improved income opportunities, rural coffee 
farmer income support, and workforce development. The request includes 
$70 million for governance assistance for public financial management 
and fiscal reform and to strengthen judicial independence, transparency 
and accountability. Finally, $100 million was requested for security 
programming to expand community-based programs to reduce youth crime 
and violence, prison reform and assistance, national police capacity 
and capabilities, capacity to counter transnational criminal 
organizations, smuggling networks, and counternarcotics trafficking, 
and to provide repatriation assistance.
                                 ______
                                 
                  Questions Submitted to Juan P. Osuna
         Questions Submitted by Chairwoman Barbara A. Mikulski
                     legal representation services
    Question. The Justice Department's supplemental request includes 
$15 million for legal representation services for children going 
through the immigration court system.
    On June 6, the White House announced a new initiative called 
``Justice AmeriCorps'' led by the Corporation for National Community 
Service (a HHS agency), but funded at $2 million by the Justice 
Department's Executive Office of Immigration Review. This program will 
provide pro bono legal assistance to the children in court supporting 
approximately 100 AmeriCorps members for 3 years.
    On July 9, the ACLU filed a lawsuit against the Federal Government, 
including the Justice Department, for failing to provide legal 
assistance to children going through immigration court proceedings. 
Their lawsuit claims that both the Constitution's Fifth Amendment Due 
Process Clause and the Immigration and Nationality Act's provisions 
requiring a ``full and fair hearing'' before an immigration judge are 
being violated.
    The Executive Office of Immigration Review cannot administer a 
grant program or provide legal assistance via Justice Department 
attorneys. How will this legal representation program work? Will it 
simply be an extension of the Justice AmeriCorps program?
    Answer. EOIR may use a variety of methods for providing legal 
representation to certain children in some cases, including grant 
programs (such as continuing the Justice AmeriCorps program) and 
contracting with non-governmental organizations.
    Question. Is $15 million for a legal assistance program?
    Answer. $15 million is to provide funding for a legal 
representation program designed to provide legal services and 
representation to some of the children in immigration proceedings.
    Question. How is DOJ tracking the amount of unaccompanied children 
they work with? How many children would receive legal representation 
with a $15 million program?
    Answer. EOIR has added a data field to its case tracking system to 
track recent border entrants, including unaccompanied alien children 
that have been identified by DHS on charging documents filed with the 
immigration court. EOIR estimates that between 4,000 and 10,000 
children, depending upon the average cost of each case, would be 
represented with a $15 million program.
    Question. Given the recent lawsuit by the ACLU, what would it cost 
the Federal Government to provide legal representation to all children 
going through immigration court proceedings?
    Answer. The Department cannot comment on pending litigation and 
does not have an estimate on the cost of providing legal representation 
at this time.
                           immigration judges
    Question. The Justice Department's supplemental request includes 
$45.4 million to hire, train and equip additional immigration judges. 
The request would cover hiring 25 permanent immigration judges and 15 
temporary immigration judges. Immigration judges are a full-time 
unionized workforce.
    What is a temporary judge? How long will their judgeships last? 
Will they receive the same amount of training as permanent judges? When 
can we expect to see them in the courtroom?
    Answer. Temporary Immigration Judges are individuals designated or 
selected by the Director of EOIR, with the approval of the Attorney 
General, to adjudicate immigration cases. As such, temporary 
Immigration Judges will be designated for renewable terms not to exceed 
6 months. Temporary Immigration Judges will be trained as necessary to 
complete the dockets assigned to them. EOIR plans to have temporary 
Immigration Judges hearing their assigned cases within the next few 
months.
    Question. Immigration judges typically go through 10 months of 
training before hearing cases in the courtroom. When can we expect the 
25 permanent judges to start hearing cases?
    Answer. The Immigration Judge hiring process generally takes 
approximately 10 months. New Immigration Judges receive five weeks of 
initial training during their first year. A timeframe for when this 
group of new judges will begin hearing cases strongly depends on when 
the supplemental is enacted.
    Question. Will all of these judges--both permanent and temporary--
be headed to the Southwest Border? How will courthouses be able to 
accommodate these 40 new immigration judge teams?
    Answer. The rise in unaccompanied alien children and families with 
children that enter our country is not limited to the Southwest Border. 
As such, EOIR will shift resources, including Immigration Judges, to 
adjudicate cases involving unaccompanied alien children, adults with 
children that are detained, adults with children that have been 
released on alternatives to detention, and other detained cases.
    Temporary Immigration Judges will supplement the work of the 
immigration court so that the permanent judges can address the four new 
priorities. EOIR projects that adequate courtroom and staff space will 
be available for the requested 25 Immigration Judge teams and 15 
temporary Immigration Judges.
                                 ______
                                 
             Question Submitted by Senator Mary L. Landrieu
                legal services for unaccompanied minors
    Question. The Justice Department launched a program earlier this 
month to send 100 lawyers and paralegals to provide legal services to 
unaccompanied minors in immigration custody, but 100 people are not 
enough to help all the children who need aid. The Obama Administration 
announced last week that it would send more immigration judges and 
officers to the border to move cases more quickly, but the plan does 
not guarantee counsel for unaccompanied minors. The reality is that 
Immigration Courts are seriously overwhelmed by the number of removal 
proceedings. Consequently children wait on average 578 days before a 
Hearing. The Administration has proposed that the Department of Justice 
receive a smaller portion of Supplemental Funding compared to other 
agencies--$64 million out of $3.7 billion in supplemental funds--yet it 
seems as if the delay in processing these cases in large part lies with 
the judicial system.
    Please explain how the Department of Justice plans to expedite 
cases with this $64 million increase.
    Answer. With this funding, EOIR plans to hire 25 additional, 
permanent Immigration Judge Teams, in addition to 15 temporary judge 
teams, in order to help address the immigration court caseload. Each 
Immigration Judge Team consists of an Immigration Judge, Language 
Specialist, Legal Technician, Clerk and Law Clerk, as well as a BIA 
Attorney and Paralegal for every other team. These additional 
Immigration Judge Teams will provide EOIR with a greater capacity to 
hear cases overall. In addition to hiring additional permanent 
Immigration Judge Teams, EOIR will use $2.5 million of this funding to 
expand its Legal Orientation Program (LOP) and Legal Orientation 
Program for Custodians of Unaccompanied Alien Children (LOPC), which 
provide legal orientation presentations in an effort to generate 
efficiency in the immigration court system, as well as $15 million to 
provide direct legal representation services to children going through 
immigration proceedings. These additional resources will assist the 
court in more efficiently adjudicating cases involving unaccompanied 
alien children.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                    influx of unaccompanied children
    Question. The President's Budget was released in March. It is hard 
for me to believe that the Administration did not know that the influx 
of unaccompanied children was occurring at a pace that might outpace 
resources. Why was the influx of unaccompanied children not flagged as 
a priority in the Department of Health and Human Services' (HHS), 
Department of Homeland Security (DHS), and the State for Foreign 
Operations funding request? How is the Administration going to ensure 
that the OMB can be agile in their requests and give Congress time to 
ensure oversight for crisis's build over time like this one?
    Answer. The Department of Justice defers this response to the 
appropriate Administration officials.
    Question. The solution is to return these children safely and 
quickly home to their families and I support the efforts to hire more 
judges to accelerate this process. How will the funds requested ensure 
that there is a higher rate of unaccompanied children who are currently 
with their relatives awaiting judicial proceedings actually show up to 
their hearings?
    Answer. Of the funds requested, $15 million would be used to fund 
legal representation for some of the unaccompanied children. Based on 
past experience, EOIR expects that children with legal representation 
will be more likely to appear for court proceedings because they will 
have counsel appearing with them.
                          immigration backlog
    Question. The number of judges and courts is woefully low, even 
with the supplemental request. Has DOJ considered incorporating any 
legal help from outside groups to help get through the backlog of 
cases?
    Answer. As an adjudicative agency, EOIR must steadfastly ensure 
that it is, and appears to be, neutral. It would be inappropriate for 
immigration court functions to be performed by people or organizations 
other than those employed by EOIR. EOIR and DOJ recognize the need for 
additional Immigration Judges, which is why the fiscal year 2015 
President's Budget requested an additional 35 Immigration Judge Teams 
for the court system. Additionally, EOIR is working to select 32 more 
Immigration Judges in fiscal year 2014.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                           immigration judges
    Question. According to information we received from the Department 
of Justice's Executive Office for Immigration Review, a fully-trained 
Immigration Judge hears, on average, 700 cases per year. However, the 
supplemental request before us projects that immigration judges will 
nearly double their output, hearing an additional 550 cases a year. 
According to the president of the National Association of Immigration 
Judges, the Obama Administration's proposal ``will not be sufficient to 
deal with the long-term scarcity of resources that the immigration 
courts have had to deal with, coupled with the current surge.''
    How will immigration judges increase the number of cases they hear 
each year from 700 to nearly 1300?
    Answer. EOIR does not project that its Immigration Judge Corp will 
increase the number of cases heard annually from 700 to 1300. EOIR's 
current estimate remains that its Immigration Judges will hear 
approximately 700 to 800 cases per year. Additional Immigration Judges 
will improve the capacity of the immigration courts to hear more cases 
overall.
    Question. Are immigration judges really so underworked right now 
that they can handle almost an 80 percent larger caseload?
    Answer. EOIR's Immigration Judges are not currently underutilized. 
Furthermore, EOIR does not anticipate its Immigration Judges will 
handle an 80 percent larger caseload. EOIR still projects that its 
Immigration Judges will each hear approximately 700 to 800 cases 
annually.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                      gang members claiming asylum
    Question. Recently, the Fourth Circuit Court of Appeals issued a 
ruling in a case called Martinez v. Holder, in which it held that a 
former member of ``MS-13''--the notorious El Salvadoran gang--was 
eligible for asylum under U.S. law. Given this ruling, does it concern 
you that some of the unaccompanied minors crossing the southern border 
could be members of gangs--but may untruthfully claim that they no 
longer belong to the gang? Are you comfortable with a policy that 
allows potential gang members to claim asylum in the United States? 
What steps will you be taking to ensure that immigration judges who are 
adjudicating asylum claims will be able to differentiate between asylum 
seekers who no longer belong to a gang, and those who do?
    Answer. EOIR is an adjudicative agency. Immigration Judges 
adjudicate cases on a case-by-case basis, according to current U.S. 
law, regulations, and precedent decisions. Immigration Judges consider 
all evidence and arguments presented by both parties and decide each 
case based on that information. DHS-ICE attorneys advocate on behalf of 
the United States in these proceedings. It is incumbent upon them to 
raise issues such as gang membership to the tribunal, and present 
evidence about those issues, as appropriate. If a DHS-ICE attorney 
disagrees with an Immigration Judge's decision, the attorney may appeal 
that decision to the Board of Immigration Appeals.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
              legal representation for illegal immigrants
    Question. The request seeks $15 million to provide legal 
representation to illegal immigrants. Under current law, illegal 
immigrants are not entitled to taxpayer funded counsel. (See 8 U.S.C. 
1362, and also TVPA Section 235(c)(5)) Isn't this an inappropriate 
request?
    Answer. Providing government-funded counsel to qualifying 
unaccompanied alien minors is not prohibited by section 292 of the 
Immigration and Nationality Act, which provides that aliens' right to 
counsel in immigration proceedings does not include a right of 
representation at the government's expense. Section 292 does not bar 
the government, in its discretion, from providing funding for legal 
representation in certain cases where it might enhance the 
effectiveness and efficiency of immigration proceedings involving 
qualifying unaccompanied alien minors.
    Question. I understand that with the increased flow of children, 
the Department of Justice has requested money for more immigration 
judge teams and these UAC cases will be prioritized. Do you think this 
prioritization of these newest cases will make those already in the 
system and waiting, less likely to show up? I have heard that only 1 in 
10 show up already. Are there any statistics to show the correlation 
between the amount of time one waits and how likely the person will 
show up for court?
    Answer. The Executive Office for Immigration Review (EOIR) does not 
believe that the reprioritization will change the in absentia rate. The 
estimate that only 1 in 10 aliens appears for appointments scheduled in 
immigration courts is inaccurate. The actual in abstentia rate is far 
lower. The in absentia rate for all aliens in fiscal year 2013 was 15 
percent. The in absentia rate for juveniles is 46 percent. For 
additional information, please see P1 of EOIR's fiscal year 2013 
Statistical Yearbook located at http://www.justice.gov/eoir/statspub/
fy13syb.pdf.

                         CONCLUSION OF HEARING

    Chairwoman Mikulski. We will continue our discussion. The 
committee stands in recess until the full committee will be 
marking up next Thursday the defense appropriations with the 
modification that if we can get other things done this week, I 
am sure going to do it.
    [Whereupon, at 5:41 p.m., Thursday, July 10, the hearing 
was concluded, and the Committee was recessed, to reconvene 
subject to the call of the Chair.]

 
             MATERIALS SUBMITTED SUBSEQUENT TO THE HEARING

    [Clerk's Note.--The following outside witness testimonies 
were received subsequent to the hearing for inclusion in the 
record.]
   Prepared Statement of the American Immigration Lawyers Association
    The American Immigration Lawyers Association (AILA) submits this 
statement to the subcommittee on immigration and border security. AILA 
is the national association of immigration lawyers established to 
promote justice and advocate for fair and reasonable immigration law 
and policy. AILA has over 13,000 attorney and law professor members.
    Since 2011, the United States has experienced a dramatic increase 
in the number of unaccompanied children from El Salvador, Guatemala, 
and Honduras apprehended at our southwestern borders. The escalation in 
the movement of unaccompanied alien children (UACs) is a regional 
humanitarian crisis driven primarily by the rapid growth in crime, 
violence and poverty that has affected the region for many years. The 
number of unaccompanied children apprehended by U.S. Customs and Border 
Protection (CBP) jumped from 17,775 in fiscal year 2011 to 41,890 in 
fiscal year 2013. Estimates are that more than 90,000 unaccompanied 
children will enter the United States in the current fiscal year.
    What is happening on our southwestern border is not merely an 
American problem but a humanitarian crisis that affects the entire 
Central American region. Already the United Nations High Commissioner 
for Refugees (UNHCR) reports that Mexico, Panama, Nicaragua, Costa 
Rica, and Belize have all experienced a spike in migrants coming to 
their countries to seek asylum. UNHCR reports that from 2008 to 2013 
there was a 712 percent increase in asylum applications from nationals 
of El Salvador, Guatemala, and Honduras. By all accounts it is 
generating such substantial numbers of people fleeing for reasons of 
violence and fear that it should be deemed a refugee crisis.
    On June 2, 2014, calling the situation ``an urgent humanitarian 
crisis,'' President Obama announced that coordination of the U.S. 
response to this crisis would done by the Federal Emergency Management 
Agency (FEMA). On July 8, the White House released a summary of its 
emergency supplemental appropriations request to Congress of $3.7 
billion to respond to the regional humanitarian and refugee crisis.
    At the outset, AILA strongly recommends that the supplemental 
request not be used to authorize new authority to erode legal 
protections for children. That could result in the immediate and tragic 
reality of children being thrown back into dangerous conditions where 
the potential for violence and abuse is high. AILA specifically opposes 
the curtailment of existing statutory protections for unaccompanied 
children, particularly provisions set forth in the bipartisan 
Trafficking Victims Protection and Reauthorization Act of 2008 (TVPRA), 
which was unanimously approved in the Senate. The standard of care and 
protection of this vulnerable population, developed over the past two 
decades, must be safeguarded and should not be undermined during this 
temporary humanitarian crisis. A direct response to the factors driving 
these children out of their countries would better address and stem the 
migration of these children.
    AILA is pleased to see that the President's request seeks 
substantial additional funding for the Department of Health and Human 
Services (HHS) to address the shelter, custody and processing of 
unaccompanied children. The request also states that it will maintain 
services for refugees which are served by the same agency within HHS 
that has responsibility for unaccompanied children, the Office of 
Refugee Resettlement (ORR). This commitment is critical since ongoing 
and future services for refugees should not be compromised by diversion 
of resources to this more recent humanitarian crisis. AILA is concerned 
that the $300 million request for funding to address the root causes of 
the humanitarian crisis appears inadequate considering the overwhelming 
needs.
                    border security and enforcement
    The supplemental request includes an additional $1.5 billion for 
ICE and CBP to engage in apprehension, detention, and removal 
activities. While AILA recognizes the importance of combatting 
smuggling and criminal enterprises, especially for the purpose of 
maintaining public safety, the amount requested is excessive and 
unnecessary given the unprecedented level of funding already dedicated 
to DHS for immigration enforcement and border security which has 
resulted in a dramatic rise in enforcement. From 2000 to 2012 
immigration enforcement funding increased to $18 billion, more than 350 
percent growth over that period.\1\ Immigration detention continues to 
rise and now totals about 430,000 individuals each year, at a cost of 
$2 billion annually. Removals are at a record high as are the 
percentages of removals that are expedited removals. Federal criminal 
prosecutions of immigration-related status offenses are also at a high, 
up 468 percent from fiscal year 2003. Recognizing these continued 
investments in border security and enforcement, a substantial ``surge'' 
in enforcement resources would be an unwise use of finite taxpayer 
resources.
---------------------------------------------------------------------------
    \1\ Migration Policy Institute. ``Immigration Enforcement in the 
United States: The Rise of a Formidable Machinery,'' January 2013.
---------------------------------------------------------------------------
                         detention and custody
    Federal law requires that unaccompanied children be cared for in 
the least restrictive setting that is in the child's best interests. 
Until the number of UAC increased dramatically this year, the Federal 
government had typically placed children in federally contracted 
shelter facilities and where possible identified suitable relatives to 
serve as guardians. That practice is the most consistent with national 
and international child welfare standards and is far less expensive 
than the Federal taxpayer shouldering the cost of institutional care 
for children.
    AILA is deeply concerned about the repeated emphasis in the 
supplemental request on detention for families. DHS should not expand 
the use of detention for families as a means to address the 
humanitarian crisis or to deter future arrivals as the holding of 
families in detention centers is generally inappropriate, opens the 
door for abuses and inhumane conditions, and should only be used in 
extremely rare circumstances. In 2009, Immigration and Customs 
Enforcement (ICE) was forced to close a Texas family detention facility 
after being sued for abuses and poor conditions. Family detention is 
now used only on a limited basis. Detention hinders the ability of 
children and families to gain access to counsel and compounds trauma 
which in turn severely impacts their ability to seek and receive 
protection. The administration should not only expand, but switch 
completely to, alternatives to detention, which are far more cost-
effective and humane.
                               screening
    Currently law requires that unaccompanied children from non-
contiguous countries be transferred to ORR within 72 hours of 
identification. ORR screens the children for medical and other 
immediate needs as well as for vulnerability factors such as 
trafficking or fear of persecution. Although the supplemental funding 
request does not mention changing the screening process for 
unaccompanied children, some lawmakers have called for authorizing 
legislation that would apply the process used for children from 
contiguous countries (primarily Mexico) to children from non-contiguous 
countries. Such a change raises serious humanitarian and child welfare 
concerns. Currently, Mexican children are treated differently under the 
TVPRA and face nearly automatic repatriation, with limited screening 
for relief that takes place within 48 hours of apprehension, and 
without the advice of counsel. Their deportation decisions are not made 
by immigration judges, but by CBP officers and agents.
    For any unaccompanied child, CBP facilities are not a suitable 
environment for interviewing minors, nor are CBP officers and agents 
the best officials to conduct interviews about sensitive topics such as 
persecution, trafficking, and other possible trauma. All unaccompanied 
children should be screened by a professional with training in child 
welfare, trauma, counseling, and international humanitarian and 
immigration law. Having USCIS asylum officers conduct the initial 
screening would be an improvement compared to CBP officers doing 
screening, but this step would not be sufficient to ensure that 
children are not forced back to countries where they may experience 
further victimization and danger.
    Protocols for screening unaccompanied children could be improved 
upon by adopting best practices from the criminal justice and child 
welfare fields which have developed comprehensive protocols for rape, 
sexual assault and child abuse cases. These criminal justice and child 
abuse practices are designed to ensure that complainant victims are 
given adequate time to report such incidents given the trauma victims 
suffer and the need for time to recover emotionally and physically. 
Moreover, such interviews are done in safe setting and manner that 
minimizes the likelihood of re-traumatizing the victim.
    Nearly all unaccompanied children have undergone a lengthy and 
difficult, likely harrowing, journey to the United States. They very 
likely have experienced violence, trauma, persecution, or been 
trafficked. Like sexual assault or child abuse victims, unaccompanied 
children may require several days or weeks before they are able to 
adjust to a new environment and speak about their experience. 
Accordingly, the 48-hour timeframe during which CBP interviews these 
children under the contiguous country processing method will compromise 
the ability of most if not all children from having meaningful access 
to legal and humanitarian protection. Efforts to expedite processing 
should not rush children to explain their situation until their 
immediate medical and psychosocial needs are met and until they are in 
a safe environment.
    Finally, rather than water down the legal protections for children 
coming from Central America that were enacted by a bi-partisan and 
unanimous Senate in 2008, Congress should strengthen the process for 
screening Mexican children and bring it on par with what is required 
for children from non-contiguous countries. There is no valid reason 
for treating vulnerable unaccompanied children differently based on 
their country of origin. All children should receive careful and robust 
screening and protection to ensure their safety and well-being.
   ensuring meaningful access to asylum, humanitarian relief and due 
                                process
    While the influx of unaccompanied children compels the 
administration and Congress to act swiftly, consideration should be 
given to ensure that vulnerable children are not pressured to make 
quick decisions that may jeopardize their well-being. Every 
unaccompanied child should have the opportunity to consult with legal 
counsel and appear before an immigration judge in removal proceedings 
before he or she is deported.
    The immigration courts have chronically been underfunded especially 
when compared to the dramatic increase in funding for immigration 
enforcement in the past decade. As mentioned previously, immigration 
enforcement funding has increased exponentially in the past decade. By 
comparison, immigration court funding grew from $150 million to $300 
million during from fiscal year 2000 to 2012. The disproportionate 
funding given to enforcement has resulted in such dramatic growth in 
enforcement that the courts are unable to keep pace and have a backlog 
of about 350,000 cases. The underfunding of the courts has resulted 
from decisions made by congressional appropriators and is the principal 
reason the processing of immigration cases suffers from substantial 
delays. Congress should make a concerted effort now to correct that 
resource problem.
    The Department of Justice Executive Office for Immigration Review 
(EOIR) should be adequately funded to hire enough judges and staff to 
not only provide hearings for children without scheduling delays, but 
to reduce the existing backlog and to reduce the need for video 
hearings that can curtail children's rights to properly present their 
cases. The supplemental funding request for immigration judges, 
however, is insufficient. If 75 additional judge teams are necessary to 
adequately respond to the crisis, which appears to be the case from the 
supplemental request, then 75 teams should be requested instead of 
repurposing the 35 new teams already requested for fiscal year 2015, 
which could exacerbate the court backlogs already affecting immigrants 
nationwide.
    The Asylum Division of the United States Citizenship and 
Immigration Services (USCIS) should also be funded to hire more asylum 
officers to promptly adjudicate asylum applications. However, any 
proposal to provide children and families with prompt hearings cannot 
compromise standards of due process and fairness. Summary removal 
procedures, such as expedited removal or pre-hearing voluntary 
departure, should never be used for children, and AILA opposes any 
authorizing legislation that would do so.
    Children who have survived trauma or persecution or live in fear of 
return should not be left to navigate the laws on their own. The lack 
of counsel compounds the vulnerability of children as they move through 
our nation's complicated removal system. AILA recommends that all 
children should be provided counsel in removal proceedings when they 
cannot afford a private attorney or obtain pro bono counsel. In 
addition, EOIR's Legal Orientation Program (LOP) and Legal Orientation 
Program for Custodians of Unaccompanied Alien Children (LOPC) should be 
sufficiently funded to ensure that every child receives the benefits of 
these programs. While not a substitute for legal representation, it is 
the only opportunity for most unaccompanied children to obtain 
information about their rights and responsibilities under the law, 
information vital for them in any proceedings. AILA is pleased that the 
supplemental request acknowledges the need for funding legal counsel 
and LOPs. However, AILA remains concerned that the requested amount--
$15 million for legal representation and $2.5 million for LOP--is 
insufficient to meet the current needs.
                                 ______
                                 
               Prepared Statement of Church World Service
  u.s. must ensure protection of unaccompanied children and adequate 
                    funding for refugee resettlement
    Church World Service (CWS), a 67-year-old humanitarian 
organization, urges the U.S. Government to address the needs of 
unaccompanied children seeking safety in the United States by 
prioritizing their well-being and ensuring access to lifesaving 
protection. To uphold our legal and moral responsibilities, the 
administration and Congress must provide an urgent increase in funding 
for the Office of Refugee Resettlement (ORR) to provide services for 
these children, a coherent plan to ensure children in need of 
protection are treated in a manner that reflects their unique needs and 
vulnerabilities, and a long-term strategy to address the varied and 
complex root causes of displacement in the region.
    The number of unaccompanied children fleeing violence in El 
Salvador, Guatemala and Honduras has increased substantially over the 
past 3 years, from 6,800 in 2011 to an estimated 90,000 in 2014. These 
children are fleeing drastic increases in violence, conscription into 
gangs, trafficking, abuse by smugglers and sexual assault. Some of 
these children are bona fide refugees and asylum seekers, and the 
majority of them meet criteria for international protection.\1\ The 
demographics of these children have changed, and instead of older 
teenage boys, more of these children are girls, younger children and 
victims of trauma. It is critical that the United States and 
international community prioritize their protection, safety and care.
---------------------------------------------------------------------------
    \1\ United Nations High Commissioner for Refugees, Children on the 
Run: Unaccompanied Children Leaving Central America and Mexico and the 
Need for International Protection. 2014. <http://unhcrwashington.org/
children>.
---------------------------------------------------------------------------
    CWS strongly condemns proposals that have focused on expeditiously 
removing, detaining and denying these children access to life-saving 
protection, and urges the administration and Congress to ensure that 
the assessments of protection needs required by international 
obligations \2,\ \3\ are conducted and that the services required by 
U.S. law \4\ are provided to protect these children.
---------------------------------------------------------------------------
    \2\ Articles 2, 3, 6 and 22, The Convention on the Rights of the 
Child. <www.ohchr.org/en/professionalinterest/pages/crc.aspx>.
    \3\ United Nations High Commissioner for Refugees, A Framework for 
the Protection of Children.<www.unhcr.org/50f6cf0b9.html>.
    \4\ U.S. Code Title 22: Foreign Relations and Intercourse, Chapter 
78: Trafficking Victims Protection. <http://uscode.house.gov>.
---------------------------------------------------------------------------
Ensure Access to Protection for Unaccompanied Children Fleeing Violence
    It is important to note that unaccompanied children are not 
breaking the law when they enter the United States. Individuals have 
the right to seek protection from persecution and violence, both 
through international \5,\ \6\ and U.S. law.\7\ Under current U.S. law, 
U.S. Customs and Border Protection (CBP) is required to take child 
migrants into custody, screen them for protection concerns and transfer 
them to the Office of Refugee Resettlement (ORR) in the Department of 
Health and Human Services. ORR places children in foster care or 
reunites them with relatives in the United States and CBP places the 
children into deportation proceedings, issuing them a Notice to Appear 
in immigration court.\8\ Children from Mexico are almost always 
immediately deported, as they are treated differently under U.S. law. 
Expedited removal of non-Mexican children is illegal under the 
Trafficking Victims Protection Reauthorization Act (TVPRA).
---------------------------------------------------------------------------
    \5\ Article 14, The Universal Declaration of Human Rights. 
<www.un.org/en/documents/udhr/index.shtml#a14>.
    \6\ United Nations General Assembly, Declaration on Territorial 
Asylum, 14 December 1967, A/RES/2312(XXII). <www.refworld.org/docid/
3b00f05a2c.html>.
    \7\ U.S. Code Title 8: Aliens and Nationality, Chapter 12: 
Immigration and Nationality, Section 1158: Asylum. <http://
uscode.house.gov>.
    \8\ Providing Comprehensive Services for Unaccompanied Children at 
Immigration Court. Kids In Need of Defense. <https://supportkind.org/
en/about-us/resources/doc_download/70-a-treacherous-journey-child-
migrants-navigating-the-u-s-immigration-system-section-3>.
---------------------------------------------------------------------------
    CWS is strongly opposed to proposals that would undercut the TVPRA, 
as these are important standards established by Congress that should 
not be weakened now just because more children are in need of these 
protections. Deporting unaccompanied children more quickly, before they 
are screened for trafficking and protection concerns would only 
perpetuate a crisis of vulnerable children whose concerns are not being 
addressed and who are passed along to further exploitation and abuse. 
Summarily deporting these children would place them back into the hands 
of smugglers, gangs and dangerous criminal organizations and increase 
the power these groups hold over children and entire communities. The 
United States is under obligations to both international and U.S. law, 
as well as a basic moral compass, to safeguard against refoulement \9,\ 
\10\ (unsafe return) and turning children over to people who will 
traffic or exploit them. Also, expanding the use of detention for 
children and families will do nothing to improve the humanitarian 
crisis faced in Latin America or along the U.S. border. Detention is 
costly and makes it harder for those fleeing persecution to apply for 
protection. Rather than detention, community-based alternatives better 
meet the needs of these vulnerable populations, while keeping costs low 
and ensuring appearances at immigration court proceedings.\11\ Congress 
and the administration should increase resources for immigration courts 
to maintain the integrity of the U.S. immigration system by ensuring 
that cases can be resolved in a timely, but not rushed, manner.
---------------------------------------------------------------------------
    \9\ United Nations High Commissioner for Refugees, Convention and 
Protocol Relating to the Status of Refugees. <www.unhcr.org/
3b66c2aa10.html>.
    \10\ United Nations High Commissioner for Refugees, Note on Non-
Refoulement, 23 August 1977. <www.unhcr.org/3ae68ccd10.html>.
    \11\ Human Rights First, Response to Surge of Unaccompanied Minors 
and Families at the U.S.-Mexican Border Must Reflect American Ideals. 
<www.humanrightsfirst.org/press-release/response-surge-unaccompanied-
minors-and-families-us-mexican-border-must-reflect>.
---------------------------------------------------------------------------
    The U.S. Government should not further militarize the United 
States/Mexico border or assist Mexico in militarizing its southern 
border. Such action would be counterproductive to ensuring access to 
protection, and would offer no solution to the many children fleeing 
violence. Any efforts to keep children who are fleeing persecution from 
finding life-saving access to protection in the United States or 
elsewhere would fly in the face of the fundamental values upon which 
this country was founded. The United States already spends more than 
$17 billion a year on border enforcement, and should instead prioritize 
identifying, disrupting and dismantling transnational criminal 
smuggling networks that prey upon these children. At a time when the 
United States is encouraging Egypt, Jordan, and Lebanon to maintain 
access to protection for the millions of Syrian refugees, the United 
States cannot abandon its standards of protection simply because the 
numbers of unaccompanied children have increased. Especially as the 
number of children, while meaningful, pales in comparison to the number 
of Syrian refugees who continue to be welcomed in nearby host 
countries.
Provide Unaccompanied Children Adequate Services, While Maintaining 
        Services for Refugees
    As the number of unaccompanied children has exceeded projections, 
the Office of Refugee Resettlement (ORR), the agency responsible for 
the care of these children, has addressed its budget shortfall by 
reprogramming $94 million from refugee services. These drastic budget 
cuts are having devastating consequences for refugees and the 
communities that welcome them. CWS urges the administration and 
Congress to increase ORR's budget by at least $200 million in fiscal 
year 2014 to meet the needs of unaccompanied children and refugees, 
asylees, Iraqi and Afghan SIV recipients who served alongside U.S. 
interests, Cuban and Haitian entrants, and all populations in ORR's 
care. In addition to supplemental funds urgently needed this year, ORR 
will require at least $3.167 billion in fiscal year 2015 to respond to 
this crisis without sacrificing funds for vital refugee services.
Support Regional Efforts To Improve Child Protection
    Asylum requests by Guatemalans, Hondurans, and Salvadorans seeking 
refuge in the neighboring countries of Mexico, Panama, Nicaragua, Costa 
Rica, and Belize have increased by 712 percent since 2009, with even 
more fleeing to safe havens within their own countries. In Honduras 
alone, murders of women and girls have increased by 346 percent, and 
murders of men and boys are up by 292 percent since 2005. The U.S. 
Government should work with El Salvador, Guatemala, and Honduras to 
mitigate the reasons these children have to flee, with an eye to their 
well-being in their home countries and during their journeys.
    CWS urges the U.S. Government to support the capacity building of 
well-trained, well-resourced and accountable asylum, humanitarian 
admissions, anti-trafficking, and child protection systems in Central 
America and Mexico. The United States should also increase financial 
assistance and encourage other international donors to fund the United 
Nations High Commissioner for Refugees (UNHCR) to expand their presence 
in the region to assist countries of origin in preventing displacement, 
conduct Best Interest Determinations (BIDS) for children, establish 
refugee resettlement processing, and protect and assist internally 
displaced persons and asylum seekers.
    The current humanitarian crisis will only be solved when violence 
is reduced, trafficking is not feasible, and children can find security 
in their home countries. CWS urges the administration and Congress to 
support programs that help children enroll and remain in school and 
gain jobs skills training, which can help secure children's futures and 
prevent displacement. These solutions, implemented together, are far 
preferable and more effective than walls that keep children in need 
out.
                                 ______
                                 
             Prepared Statement of the Episcopal Church \1\
---------------------------------------------------------------------------
    \1\ The prepared statement was submitted by Alexander D. Baumgarten 
and Katie Conway on behalf of the Episcopal Church. Alexander D. 
Baumgarten is the director of government relations, and Katie Conway is 
the immigration and refugee policy analyst for the Episcopal Church, a 
multinational religious denomination based in the United States with 
members in 15 other sovereign nations.
---------------------------------------------------------------------------
    We thank Senator Barbara Mikulski, Chairwoman of the Senate 
Appropriations Committee, and Ranking Member Shelby for the opportunity 
to submit this testimony. We welcome this hearing and the chance to 
raise our voice in support of a humanitarian approach to both the root 
causes that force children from their homes and the reception 
vulnerable migrants receive when they arrive at our Nation's borders 
seeking safety and peace. Therefore, we strongly support the additional 
$1.8 billion in emergency supplemental funding for the Office of 
Refugee Resettlement (ORR), which cares not only for unaccompanied 
immigrant children such as the ones we see arriving daily but also for 
refugees, victims of trafficking, survivors of torture, Cuban/Haitian 
entrants, and Iraqi and Afghan SIV holders who supported U.S. troops 
abroad. This funding is critical to ensuring that the United States 
fulfills its humanitarian, legal, and moral commitments to vulnerable 
people. The Episcopal Church has been engaged in the work of providing 
humanitarian aid abroad and refugee resettlement domestically since the 
Presiding Bishop's Fund for World Relief was established in 1939, and 
we continue those services today.
    Over the past 3 years, Episcopal communities and service 
organizations have witnessed the rise in arrivals of children forced 
from their homes by pervasive violence and instability, exchanging the 
known dangers at home for the unknown dangers of a journey to the 
United States in a desperate search for peace and protection. In the 
past month, Episcopal communities and service organizations on the 
border and throughout the country have witnessed the arrival of tens of 
thousands of families, the majority of whom are women traveling with 
children. Episcopalians are already engaged in responding to the needs 
of these children and families through loving service: meeting families 
at bus stations with needed food and hygiene supplies, helping migrants 
released from detention reunite with family, and offering pastoral care 
to both children in ORR custody and adults in detention. We are not 
alone in this response and we hope that Congress and the administration 
will join us in addressing this humanitarian crisis with the compassion 
and resources necessary to ensure the protection of vulnerable people 
at our borders and within the region.
    When women and children cross borders it signals an evolving 
humanitarian crisis, not a security threat. It is not illegal for 
adults or children to enter the United States and ask for protection 
under both international \2\ and U.S. law.\3\ For children traveling 
unaccompanied from countries other than Mexico and Canada in 
particular, the law requires that Customs and Border Patrol screen 
these children for protection concerns before they are transferred to 
the Office of Refugee Resettlement where they will be placed in foster 
care or with family members until a child's immigration case is 
heard.\4\ This outflow of people seeking security, economic 
opportunity, and reunification with family members, however, is not 
only occurring at the United States' southern border. Other stable 
countries in the region, such as Mexico, Nicaragua, Panama, Costa Rica, 
and Belize have reported that asylum requests from Honduran, 
Guatemalan, and Salvadorian nationals are up 712 percent since 2009,\5\ 
reinforcing the sustained and regional nature of this migration crisis.
---------------------------------------------------------------------------
    \2\ Article 14, The Universal Declaration of Human Rights.http://
www.un.org/en/documents/udhr/index.shtml#a14
    \3\ U.S. Code Title 8: Aliens and Nationality, Chapter 12: 
Immigration and Nationality, Section 1158: Asylum. http://
uscode.house.gov
    \4\ Providing Comprehensive Services for Unaccompanied Children at 
Immigration Court. Kids In Need of Defense. https://supportkind.org/en/
about-us/resources/doc_download/70-a-treacherous-journey-child-
migrants-navigating-the-u-s-immigration-system-section-3
    \5\ Children on the Run: Unaccompanied Children Leaving Central 
America and Mexico and the Need for International Protection. United 
Nations High Commissioner for Refugees 2014.http://unhcrwashington.org/
children
---------------------------------------------------------------------------
    Given the regional dynamics of the present situation, the growing 
levels of displacement within the region,\6\ and mixed migration flows 
of children, families and adults arriving at border's across the 
region, The Episcopal Church welcomes the Obama administration's 
recognition of the need for emergency funding, and hopes that Congress 
will take the necessary steps to fund the care of vulnerable children 
by ORR, while maintaining vital funding for refugees and other 
populations of humanitarian concern already resettled to the United 
States and awaiting resettlement from dangerous situations abroad. 
Beyond the necessary additional funds for ORR, we urge Congress to 
provide more funds in the supplemental to increase legal services for 
unaccompanied children in the United States, ensuring that they receive 
the guidance and representation they need and that, if deported, 
children are not returned to situations where they will experience 
violence or exploitation. We also ask that Congress robustly support 
programs to reduce violence and increase citizen security in sending 
and transit countries so that individuals, particularly children and 
families, are not forced to undertake these perilous journeys. We are 
particularly concerned by the language in the supplemental request that 
could discourage persecuted individuals in Central America from seeking 
asylum and protection, and we oppose any proposals that would weaken 
protections for children or return them to unsafe situations.
---------------------------------------------------------------------------
    \6\ The Associated Press. ``UN pushes for migrants to be called 
refugees'' 9 July 2014 http://www.washingtonpost.com/world/
the_americas/un-pushes-for-migrants-to-be-called-refugees/2014/07/08/
8c13f25e-0655-11e4-a7ef-9ed5d8510e81_story.html
---------------------------------------------------------------------------
    While The Episcopal Church recognizes the necessity of enforcement 
policies and the responsibility of the government to protect its 
citizens, we also believe our nation's laws must be both proportional 
and humane,\7\ and must respond to the needs of communities. We have 
grave concerns about the administration's request in the Emergency 
Supplemental Appropriations bill for funding to expand the inhumane 
practice of family detention, and support the increased use of 
alternatives to detention. The poor conditions and documented abuses 
that led to the end of family detention at the T. Don Hutto Residential 
Center in 2009 \8\ should not be forgotten. Faith communities and 
community organizations across the country stand willing to assist in 
the implementation and expansion of community-based alternatives to 
detention programs which are more cost effective and humane.
---------------------------------------------------------------------------
    \7\ General Convention, Journal of the General Convention of...The 
Episcopal Church, Columbus, 2006 (New York: General Convention, 2007), 
pp. 532-533. Web 9 July 2014: http://www.episcopalarchives.org/cgi-bin/
acts/acts_resolution.pl?resolution=2006-A017
    \8\ Berstein, Nina. ``U.S. to Reform Policy on Detention for 
Immigrants,'' The New York Times, 5 August 2009, http://
www.nytimes.com/2009/08/06/us/politics/06detain.html?pagewanted=all
---------------------------------------------------------------------------
    The United States is capable of meeting this challenge with 
compassion, and providing regional solutions that address the root 
causes of violence and instability in sending countries that force 
people to flee their homes. We stand ready to work with Congress and 
the administration in the implementation of humanitarian solutions to 
this crisis and ask Congress to move quickly to ensure that ORR is able 
to fulfill its mandate to protect and serve unaccompanied children 
while maintaining vital services for refugees.
    Thank you for carrying the costly burden of public service, and for 
the opportunity to submit these views to the committee.
                                 ______
                                 
Prepared Statement of the Ethiopian Community Development Council, Inc.
    The Ethiopian Community Development Council, Inc. (ECDC) is 
grateful for the opportunity to provide written testimony to the 
Committee regarding President Obama's emergency supplemental request to 
address the influx of unaccompanied children.
    ECDC was established in 1983 to respond to the needs of a growing 
Ethiopian community locally and quickly became a multi-service provider 
with national and international reach. We focus on African refugees and 
immigrants, although we have been resettling refugees from all over the 
world for 23 years. We are one of the nine national refugee 
resettlement agencies that partners with the U.S. Department of State, 
and the only one that works with ethnic community-based organizations 
as our resettlement partners.
    ECDC urges Congress to pass the President's emergency supplemental 
appropriations request and in particular, to approve the appropriation 
of $1.8 billion to the Office of Refugee Resettlement (ORR) within the 
Department of Health and Human Services (HHS) for additional capacity 
to care for unaccompanied children while maintaining services for 
refugees. With these funds, HHS will have the resources to be able to 
care for the children currently projected to come into the custody of 
the Department of Homeland Security, and still provide promised 
services to the other vulnerable populations that fall under ORR's 
mandate including refugees, asylees, Iraqi and Afghan Special Immigrant 
Visa recipients who assisted U.S. efforts, Cuban and Haitian entrants, 
victims of human trafficking and survivors of torture.
    ECDC is very concerned over the current funding crisis at ORR that 
will cause extremely detrimental consequences for refugees resettled in 
the United States and the communities that embrace them, and may even 
lead to the demise of the U.S. Refugee Resettlement Program as we know 
it. To accommodate the steep increase in the number of unaccompanied 
children fleeing violence in Central America and entering the United 
States during fiscal year 2014, ORR has reprogrammed $94 million from 
its fiscal year 2014 budget for refugee services to meet the needs of 
these arriving children. While it is critical that these vulnerable 
children receive protection and care in the United States, we are 
equally concerned that another vulnerable population, resettled 
refugees, will be harmed if ORR does not receive additional funding in 
fiscal year 2014.
    It is crucial that the United States do everything it can to care 
for these vulnerable children on the border, but one vulnerable 
population cannot be served at the expense of another. Cuts to refugee 
services hurt refugees already here and the communities where they 
live, impeding the refugees' ability to obtain education, employment, 
and stability. Integration programs that have been promised such as 
employment services so refugees can attain self-sufficiency, grants 
that assist local schools with refugee children, preventive health 
programs which ensure the health and safety of refugees as well as 
their neighbors, and English classes that help resettled refugees start 
their new lives as Americans, will all be drastically cut. 
Additionally, we have recently been informed that some states, such as 
Florida, have decided that because they will not receive this funding 
to support refugees, they will not approve future refugee arrivals at 
the same level. Thus, ORR's funding shortfall and reprogramming of 
funds will have an impact on the entire U.S. Refugee Resettlement 
Program. This means that refugees who have been languishing in camps 
for decades, having already passed their medical and security checks 
and patiently waiting to be resettled, will have to wait even longer or 
may not be able to come to the United States at all.
    The United States has a long history of offering assistance to 
those who seek safety within its borders, and refugee resettlement has 
been an important foreign policy tool since the end of World War II. 
Having welcomed over 3.1 million refugees to start new lives in our 
country since 1975, the United States must continue its global 
leadership in the area of refugee resettlement. Rather than 
reprogramming funds from one vulnerable refugee group to inadequately 
help another, ORR needs increased funding to meet the needs of all 
refugees who fall under its mandate and to prevent the collapse of the 
entire U.S. refugee resettlement program.
    To this end, ECDC makes the following recommendations:
  --Provide additional funding to the Office of Refugee Resettlement as 
        contained in the $1.8 billion request for HHS in the 
        President's requested emergency supplemental appropriation.
  --Include language in the appropriations measure that ensures that 
        the accounts within ORR/HHS for refugee services and for the 
        unaccompanied children remain separate.
    In conclusion, we thank the Senate Appropriations Committee for 
this opportunity to present our concerns and recommendations, and hope 
that they are seriously considered at this critical time.
                                 ______
                                 
 Prepared Statement of the Fire Suppression Funding Solutions Partner 
                                 Caucus
    The Fire Suppression Funding Solutions Partner Caucus urges the 
Committee to address the vexing issue of wildfire suppression funding 
in an emergency supplemental package, or in any other vehicle that may 
become law. We respectfully request that the committee correct this 
wildfire suppression funding challenge by adopting the administration's 
request for: (1) $615 million in emergency supplemental funding for 
fiscal year 2014 suppression operations; and (2) a new mechanism for 
funding suppression, which mirrors the bipartisan Wildfire Disaster 
Funding Act (H.R. 3992; S. 1875).
    Forecasts are predicting that our nation is facing another intense 
fire season putting lives and properties at risk and harming our public 
lands and the many resources and jobs they provide. We are concerned 
about reports indicating the USDA Forest Service, and possibly the 
Department of the Interior, will run out of suppression before the end 
of the fiscal year.
    We respectfully request that the $615 million fiscal year 2014 
suppression shortfall be funded through an emergency supplemental 
before the Department of the Interior (DOI) and the USDA Forest Service 
(USFS) are forced to transfer funds from non-suppression accounts. Over 
the last 2 years, DOI and USFS were forced to transfer funds from 
important land management, restoration, and public service programs to 
pay for emergency fire suppression. Transfers have real and negative 
impacts on a host of important activities that are vital to care for 
our nation's public and private lands and translate into less land 
management, road maintenance, lost jobs, among many more impacts, and 
long-term increased fire risk and costs.
    Numerous fire seasons over the past decade have required fire 
funding transfers from non-suppression accounts, clearly demonstrating 
the urgent need to change the suppression funding model at the USFS and 
DOI. Therefore, we additionally request that the committee adopt the 
Administration's proposal that mirrors the bipartisan Wildfire Disaster 
Funding Act (S. 1875; H.R. 3992) as part of the supplemental package in 
order to significantly reduce this cycle of ``robbing Peter to pay 
Paul'' that continues to erode the ability of the USFS and DOI to 
effectively manage their budgets. It is time to end the cycle of budget 
deficits due to costly wildfire seasons and provide up-front resources 
to first responders and stable budgets for public lands. More than 230 
organizations throughout the country representing a diverse set of 
interests in natural resources support the Wildfire Disaster Funding 
Act.
    We appreciate your support and the recognition that addressing the 
fire suppression funding challenge is critical to achieving our 
collective goal of healthy and resilient landscapes. We look forward to 
continuing to work with you on these important issues.
    The following are groups supporting the Wildfire Disaster Funding 
Act:

3 Legs Collaboration Services
Alamo Navajo School Board, Inc.
Allegheny Hardwood Utilization Group
Alliance for Community Trees
American Bird Conservancy
American Canoe Association/Canoe--Kayak--SUP--Raft--Rescue
American Farm Bureau Federation
American Forest & Paper Association
American Forest Foundation
American Forest Resource Council
American Forests
American Hiking Society
American Loggers Council
American YouthWorks
Appalachian Mountain Club
Applegate Partnership and Watershed Council
Arid Land Innovation
Arizona Conservation Corps
Arizona Fire Chiefs Association
Arizona Prescribed Fire Council
Arizona Wildlife Federation
Association of Fish and Wildlife Agencies
Association of National Grasslands
Association of Partners for Public Lands
Backcountry Hunters & Anglers
Black Hills Forest Resource Association
Black Hills Regional Multiple Use Coalition
Black Hills Resource, Conservation, and Development
Blue Goose Alliance
Blue Mountains Forest Partners
Boulder County, CO
BRL Services Inc/BRL Logging
Bull Moose Sportsmen's Alliance
California Deer Association
California Farm Bureau Federation
California Fire Safe Council
California Forestry Association
California Ski Industry Association
California Waterfowl
Catch-A-Dream Foundation
Center for Heirs' Property Preservation
Center for Sustainable Communities
Central Oregon Intergovernmental Council
Choose Outdoors
City of Ashland, OR
Civil War Trust
Clean Water Action
Clearwater Resource Council
Colorado Timber Industry Association
Congressional Sportsmen's Foundation
Conservation Legacy
Conservation Northwest
ConservationCorps, MN & IA
Criley Consulting
Defenders of Wildlife
Ducks Unlimited
Earthjustice
Eastern Arizona Counties Organization
Ecosystem Workforce Program
El Tesoro Retreat Center
Elliotsville Plantation, Inc
Endangered Species Coalition
Environment America
Environmental and Energy Study Institute
Environmental Stewards
Estrada Collaborative Resource Management, LLC
Federal Forest Resource Coalition
Firefighters United for Safety, Ethics, and Ecology (FUSEE)
Flagstaff Fire Department
Flathead Economic Policy Center
Foothill Conservancy
Foothills Conservancy of North Carolina
Forest Business Network
Forest County Economic Development Partnership
Forest Energy Corporation
Forest Guild
Forest Health Task Force
Four Forest Restoration Initiative Collaborative Stakeholder Group 
(4FRI)
Fourth Sector Strategies
Framing Our Community, Inc.
Friends of the Columbia Gorge
Friends of the Urban Forest
Front Range Roundtable
Future Forest, LLC
Gila Tree Thinners
Gila WoodNet
Global Parks
Grassroots Outdoor Alliance
Great Lakes Timber Professionals Association
Great Old Broads for Wilderness
Greater Yellowstone Coalition
Hawks Aloft, Inc.
Idaho Conservation League
Idaho Forest Owners Association
Illinois Firefighter Association
Indiana Forestry & Woodland Owners Association
Intermountain Forest Association
Intermountain Roundwood Association
International Association of Fire Chiefs
International Association of Fire Fighters
International Association of Wildland Fire
International Mountain Bicycling Association
Intertribal Timber Council
Jara Landworks
KHII Radio
Lake County Resources Initiative
Lemhi County
Little Colorado River Plateau RC&D
Lomakatsi Restoration Project
Los Padres ForestWatch
Louisiana Forestry Association
Maine Audubon
Mainland Planning, Inc
Mass Audubon
Massachusetts Association of Conservation Commissions
Massachusetts Land Trust Coalition
Massachusetts Resident
Masters of Foxhounds Association
McCutchanville Volunteer Fire Department
Mid Klamath Watershed Council
Montana Conservation Corps
Montana Wilderness Association
Montana Wood Products Association
Mottek Consulting
Mountain States Lumber and Building Material Dealers Association
Mt. Adams Resource Stewards
Mt. Taylor Machine, LLC
Mule Deer Foundation
National Alliance of Forest Owners
National Association of Conservation Districts
National Association of Forest Service Retirees
National Association of State Foresters
National Association of University Forest Resources Programs
National Cattlemen's Beef Association
National Federation of Federal Employees
National Network of Forest Practitioners
National Parks Conservation Association
National Rifle Association
National Ski Areas Association
National Trust for Historic Preservation
National Volunteer Fire Council
National Wild Turkey Federation
National Wildfire Institute
National Wildlife Federation
National Wildlife Refuge Association
National Woodland Owners
Nevada Conservation Corps
New Mexico Forest Industry Association
New Mexico Prescribed Fire Council
New Mexico State Land Office
Northbrook Public Works
Northern Arizona Wood Products Association
Northern Forest Center
Northwest Connections
Northwest Forest Worker Center
Northwest Youth Corps
Outdoor Alliance
Outdoor Industry Association
Partnership for Rural America
Partnership for the National Trails System
Pheasants Forever/Quails Forever
Pinchot Institute for Conservation
Pope and Young Club
Public Lands Council
Public Lands Foundation
Public Lands Service Coalition
Quail and Upland Wildlife Federation
Quality Deer Management Association
Resource Management Service, LLC
Restoration Technologies
Rocky Mountain Elk Foundation
Rocky Mountain Tree-Ring Research
Ruffed Grouse Society
Rural County Representatives of California
Safari Club International
Salmon Valley Stewardship
San Juan Forest Health Partnership
San Juan Woody-Invasives Initiative
Sierra Club
Sierra Forest Legacy
Siuslaw Institute
Society of American Foresters
South Carolina Wildlife Federation
South Dakota ATV/UTV Association
South Dakota Campground Owners Association
Southeast Youth Corps
Southern Environmental Law Center
Southern Oregon Climate Action Now
Southern Oregon Forest Restoration Collaborative
Southern Oregon Timber Industries Assn.
Southern Utah Wilderness Alliance
Southwest Conservation Corps
Southwest Forests Sustainable Partnership
Spatial Interest, LLC
Sustainable Northwest
Swan Ecosystem Center
Taos County Economic Development Corporation
Teller County Home Builders Association
Texas Forestry Association
The Conservation Fund
The Corps Network
The National Association of RV Parks and Campgrounds
The Nature Conservancy
The Trust for Public Land
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Tierra y Montes SWCD
Town of Laona, Forest County, WI
Tread Lightly!
Tree Musketeers
Tribal Environmental Policy Center
Trout Unlimited
Twin Willows Ranch
Upstate Forever
Ute Mountaineer
Vail Resorts
Village Reconstruction and Development Project
Wallowa Resources
Washington State Fire Fighters' Association
Washington Wildlife and Recreation Coalition
Watershed Research & Training Center
West Range Reclamation, LLC
Western Environmental Law Center
Wild South
WildEarth Guardians
Wildlife Forever
Winter Wildlands Alliance
Wisconsin Off-Road Vehicle Park, Inc.
Wisconsin Woodland Owners Association Inc.
Wyoming Mining Association
Wyoming Stock Growers Association
York Land Trust
Zuni Mountain Forest Collaborative
                                 ______
                                 
        Prepared Statement of First Focus Campaign for Children
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
Senate Committee on Appropriations, we thank you for the opportunity to 
submit this statement for the record for this hearing to consider the 
President's supplemental request to address the humanitarian crisis on 
the country's southern border.
    The First Focus Campaign for Children is a bipartisan advocacy 
organization dedicated to making children and families a priority in 
Federal policy and budget decisions. As an organization dedicated to 
promoting the safety and well-being of all children in the United 
States, we urge Congress to work towards finding comprehensive 
solutions to address the Central American child migration crisis that 
prioritizes the best interest of the child and addresses both the 
immediate needs of the child refugees who have recently entered the 
United States as well as the root causes of their migration.
    There is no doubt that the recent influx of unaccompanied children 
across the Southern border represents a humanitarian crisis. Recent 
data from the Department of Homeland Security (DHS) reveals that since 
October 1, 2013, 52,193 children have entered the United States, with 
the majority coming from Mexico, Honduras, El Salvador, and Guatemala 
and a significant increase in the number of girls and young children. 
According to a recent report by the United Nations High Commissioner 
for Refugees (UNHCR), the majority of the children are escaping extreme 
violence and instability in their home countries, spurred by drug 
traffickers and increased gang activity. While some children are also 
motivated by domestic abuse, extreme poverty, high unemployment rates 
and hopes of reunifying with family members in the United States, the 
vast majority are fleeing desperate situations which force both youth 
and their families to make the very difficult decision to stay and 
accept near certain death or risk ``probable death'' by migrating to 
surrounding countries. Of the children who have recently arrived to the 
United States, UNHCR estimates that nearly two-thirds qualify for 
international protection as refugees due to violence and abuse in their 
home countries. On their arduous and dangerous journey, many children 
fall victim to trafficking, sexual abuse, and violence.
    The administration continues to struggle to meet the needs of these 
children, and as a result children are spending significant amounts of 
time in border patrol centers and large emergency shelters, both of 
which are inappropriate settings for children. Thus, it is essential 
that Congress allocate more funds immediately to ensure that the 
agencies tasked with caring for these children have the sufficient 
resources to do so. However, we are also gravely concerned with certain 
areas of the President's supplemental request which seek to expand 
family detention and fall short on ensuring children due process as 
well as addressing root causes of the children's forced migration.
    We support the $1.8 billion request for the Department of Health 
and Human Services (HHS) to ensure that the Office of Refugee 
Resettlement has the resources it needs to care for children under its 
care. Not only will this help ensure we are connecting children to 
vital services, but will also ensure that other refugee services are 
not compromised. We encourage guidelines to be established to ensure 
that children are placed into community-based care whenever possible, 
including placement with parent or relative sponsors, and strengthen 
screening mechanisms and expand follow-up services to ensure children 
are being placed in safe and appropriate settings. When community-based 
care is not an option, children should be placed in proper facilities 
and other settings that are adequately equipped to meet the medical, 
mental health and other special needs of children, as well as pregnant 
and parenting teens, rather than placing children in large 
institutional settings. In recognition of the dire need to provide HHS 
with additional resources for these children, enclosed is a former 
letter signed by over 50 organizations in support of a full committee 
hearing on the appropriations bill marked up by the Labor, Health and 
Human Services, Education, and Related Agencies subcommittee on 
Thursday, June 12, 2014, to provide these critical resources.
    We are disappointed with the request for additional funding to 
expand family detention centers, such as the center that recently 
opened in Artesia, New Mexico. The administration ended the policy of 
family detention in 2009 with the closing of the T. Don Hutto detention 
facility in Texas due to the public outcry concerning the conditions 
families and children were subjected to in such settings. These 
settings remain inappropriate for children, particularly those who are 
victims of trauma. Rather, we encourage funds to be used to expand 
effective and cost-efficient alternative to detention programs for 
parents with children.
    We also believe it is essential that all children placed into 
removal proceedings have access to legal representation. While we are 
pleased to see that the supplemental request for the Department for 
Justice includes resources for direct legal representation for 
children, we are concerned that the $15 million allocated for counsel 
is insufficient to meet the demand and guarantee the due process rights 
of children. Failure to provide counsel would increase the risk of 
children being inappropriately denied humanitarian relief and returned 
to dangerous situations.
    Finally, we are also gravely concerned with the insufficient funds 
included in the supplemental request for the Department of State to 
address the root causes of the problem causing children and families to 
flee Honduras, El Salvador, and Guatemala. It is clear that the extreme 
violence in this region has grown incrementally over the years and the 
governments in these countries have failed to provide their citizens 
with protection. The requested $295 million is insufficient to stem the 
systemic violence being driven by drug cartels, gangs, and smugglers 
that have taken over the region and robbed children and families of 
their sense of security. Furthermore, more resources are needed to 
establish strong repatriation and reintegration programs that include 
youth safety and development components to ensure that returned 
children are afforded both security and opportunity. Successful 
programs require time and resources, and our government should not be 
moving to return any child without assurance that we are returning them 
to a capable guardian and safe environment.
    We thank you again for the opportunity to submit this written 
testimony. We look forward to working with Congress in the weeks ahead 
to find solutions to address this humanitarian crisis that uphold our 
American values of putting children first and protecting them from 
harm. Rather than weakening protections for these child refugees, all 
budget and legislative proposals should strengthen protections and hold 
the best interest of the child paramount.

    [Enclosed letter follows: Sign-on letter to Chairwomen Mikulski and 
Ranking Member Shelby]
                                                      July 10, 2014
Hon. Barbara Mikulski, 
Chairwoman, Committee on Appropriations,
U.S. Senate, Washington, DC.
Hon. Richard Shelby, 
Ranking Member, Committee on Appropriations,
U.S. Senate, Washington, DC.

RE: Labor-H subcommittee bill to address unaccompanied children crisis
    Dear Senator Mikulski and Senator Shelby: The undersigned 
organizations urge you to bring the bill marked up by the Labor, Health 
and Human Services, Education, and Related Agencies subcommittee on 
Thursday, June 12, 2014, to the full committee and report it to the 
Senate with the increase in funds to address the needs of children 
coming to the United States alone. The subcommittee bill includes an 
important increase for fiscal year 2015 in funding for unaccompanied 
alien minors, children who are fleeing desperate situations in their 
home countries, making a long and dangerous journey, and entering the 
United States alone. The Government continues to struggle to respond to 
the increase in the number of migrant children fleeing their homes, 
leading to the humanitarian crisis we now face.
    Most of the increase in children coming to this country alone is a 
result of children from Honduras, Guatemala, and El Salvador leaving 
terrible and dangerous situations in their homes and fleeing to other 
countries. These children are risking their lives to escape near 
certain death as a result of extreme violence and instability in their 
communities, including sexual violence, regularly witnessing 
atrocities, abuse, and violations of their human rights such as forced 
prostitution or conscription. As a result, neighboring countries such 
as Costa Rica, Belize, Mexico, and Nicaragua have experienced a 
significant increase in the number of children crossing their borders. 
Many of these children are also coming to the United States alone; the 
number more than doubled each year from 2011 to 2014, from about 6,560 
in 2011 to an estimated 60,000 this year and projections to increase 
next year. Of the children who come to the United States, the United 
Nation High Commission on Refugees estimates that nearly two-thirds 
qualify for protection due to violence and abuse in their home 
countries.
    The government agencies tasked with caring for these children 
remain insufficiently prepared to address the needs of this population. 
These children face extremely difficult and violent conditions in their 
home countries and on the arduous and dangerous journey, during which 
they face the continuous threat of trafficking, abuse, and gender-based 
violence. Once the children arrive in the United States our system is 
often failing to meet even their most basic needs, let alone helping 
them through the trauma and uncertainty they experience.
    The Senate Subcommittee on Labor, Health and Human Services, 
Education and Related Agencies realized the tremendous need and 
included $1.9 billion for the Department of Health and Human Services 
to help meet that need, as well as expanded transfer authority to 
respond to future needs. In a time of tight budgets and difficult 
appropriations decisions, this allocation to the agency that is tasked 
with caring for these children a reveals a necessary prioritization to, 
at the very least, meet the basic humanitarian needs of these children 
and ideally to provide ongoing support to help them through their 
traumatic experiences. While not sufficient to fully meet the needs of 
these children or to fully address this issue, the subcommittee 
appropriations bill is a major and necessary first step.
    Yet a full committee hearing on this bill has not been scheduled, 
making the appropriation of these essential funds uncertain. Any delay 
in appropriating these emergency funds means more children in the 
United States will suffer due to a failure to respond to this pressing 
issue. We urge you to report the Labor, HHS, Education and Related 
Agencies appropriations bill to the full Senate and include at least 
$1.9 billion to ensure the safety and well-being of these vulnerable 
children.
            Sincerely,

National: 
Alliance for a Just Society
Alliance for Children and Families
Americans for Immigrant Justice
Asian Americans Advancing Justice-AAJC
The Bridge Project
Children's Advocacy Institute
Council on Social Work Education
First Focus Campaign for Children
HIAS
Immigrant Legal Resource Center
Kids in Need of Defense (KIND)
FosterClub
Foster Family-Based Treatment Association
Latin America Working Group
Lutheran Immigration and Refugee Service
Mi Familia Vota
MomsRising
NACAC
National Association of Council for Children
National Association of County Human Services Administrators
National Association of Social Workers
National Coalition for the Homeless
National Crittenton Foundation
National Education Association
National Employment Law Project
National Immigrant Justice Center
National Immigration Law Center
National Latina Institute for Reproductive Health
National Network for Youth
NETWORK, A National Catholic Social Justice Lobby
U.S. Committee for Refugees and Immigrants
U.S. Labor Against the War (USLAW)
Women's Refugee Commission
Young Center for Immigrant Children's Rights

State/Local:
Central American Resource Center (CARECEN) of Northern California
Children's Action Alliance (Arizona)
Children's Alliance (Washington)
County Welfare Directors Association of California
Illinois Coalition for Immigrant and Refugee Rights
Justice For Immigrants San Jose, California
John Burton Foundation (California)
Juvenile Law Center (Pennsylvania)
Massachusetts Immigrant and Refugee Advocacy Coalition
National Association of Social Workers, Arizona Chapter
New Mexico Voices for Children
OneAmerica (Washington)
Our Lady of Guadalupe Parish (California)
PACT Santa Clara County, California
Partners for Our Children (Washington)
Promise the Children (Massachusetts)
Public Policy Center of Mississippi
Services, Immigrant Rights, and Education Network (California)
Texans Care for Children
Wisconsin Council on Children and Families
                                 ______
                                 
                       Prepared Statement of HIAS
    The surge of unaccompanied children at the United States-Mexico 
border is a humanitarian crisis. The U.S. Government must ensure that 
the safety and well-being of migrants--particularly children--are at 
the heart of every policy decision made in response.
    HIAS supports President Obama's $3.7 billion Emergency Supplemental 
Appropriations Request for fiscal year 2014. The $1.83 billion increase 
for the Office of Refugee Resettlement (ORR) must be approved if we are 
to provide migrant children with appropriate care and ensure that the 
United States maintains our country's commitments and obligations to 
asylum seekers and refugees.
    More than 52,000 unaccompanied children have crossed the southern 
border of the United States in the last 9 months, and it is expected 
that 80,000-90,000 will arrive by the end of the current fiscal year. 
U.S. law requires that the children from Central America have their 
cases heard by an immigration judge before they can be deported. The 
system was designed to serve the 6,000 to 8,000 kids who used to come 
to the United States every year--it cannot handle 80,000. This is 
indeed an emergency, and it should be funded as such. Congress must act 
swiftly to provide additional funding to ORR and other agencies that 
are responsible for serving these children.
    Increased funding must not be attached to the repeal of laws 
intended to protect the safety and welfare of unaccompanied children. 
The Trafficking Victims Protection Reauthorization Act (TVPRA) of 2008 
includes important protections for vulnerable children such as ensuring 
access to legal and social assistance. This legislation must remain 
intact as child safety is a recognized national priority and 
humanitarian imperative.
    Although only recently brought to the attention of the public, 
migration from the ``Northern Triangle'' of Central America--El 
Salvador, Guatemala, and Honduras--has risen steadily as violence has 
increased and transnational organized crime has gained a foothold in 
the region. Honduras has the highest homicide rate in the world, and as 
the murder rate has risen, so has migration. In these countries, gangs 
forcibly recruit children as young as five. Kids who refuse are 
tortured and killed by the gangs. They are also targeted by vigilante 
groups who indiscriminately kill young people in neighborhoods known 
for gang activity. There are few employment opportunities; about a 
third of young people in the urban areas of these countries are not 
employed or in school. A recent report from the UN refugee agency 
(UNHCR) found that more than half of the children they interviewed 
cited violence, sexual abuse, forced gang recruitment, and other forms 
of exploitation as the main reason they fled. The police do not protect 
them and the weak governments in the region do not control the 
violence.
    The journeys these migrants take are extremely dangerous, making 
them vulnerable to sexual assault, trafficking, and exploitation. In 
most cases, the unaccompanied children have fled relentless violence 
and hopelessness in search of a safe place and a better life.
    With governments unable to ensure the safety of their citizens, 
children and families are fleeing to the United States, as well as 
other countries in the region including Mexico, Panama, Nicaragua, 
Costa Rica, and Belize. In fact, the United Nations refugee agency 
(UNHCR) reports a 712-percent increase in asylum applicants from the 
Northern Triangle in these countries, an indication that people are 
fleeing in all directions and that the influx of asylum seekers is not 
unique to the United States.
    It is absolutely crucial for Congress to ensure that everyone in 
danger of persecution is given a meaningful opportunity to seek asylum 
under U.S. law. In 2005, a congressionally authorized U.S. Commission 
on International Religious Freedom (USCIRF) Report on Asylum Seekers in 
Expedited Removal found that Customs and Border Protection (CBP) was 
not following its own rules to ensure the protection of migrants with a 
fear of return. The study found that in 15 percent of observed cases 
where an arriving non-citizen expressed a fear of return, CBP summarily 
deported the individual without referring him or her to an asylum 
officer.
    Since the study was released 9 years ago, CBP has not demonstrated 
that any measures have been taken to address the protection 
deficiencies faced by asylum seekers who cross the border. The 
Administration and Congress must not further expand expedited removal 
of migrants--particularly unaccompanied minors--until CBP has taken 
steps to address these deficiencies.
    The right to family unity has long been a cornerstone of U.S. 
refugee policy. Many of the children coming to the United States are 
seeking to reunite with their families in a place of refuge; many are 
the children of the 269,000 Salvadorans and Hondurans legally 
authorized to live and work in the United States under Temporary 
Protected Status. Because of the failure of the House of 
Representatives to follow the Senate's lead and pass comprehensive 
immigration reform, these children have been separated from their 
parents for years with no hope of being able to legally reunite with 
their parents.
    Given the lack of hope for family reunification and the extreme 
violence in their home countries, the United States should offer 
humanitarian parole or other relief to these children. This would open 
family unity and refugee processing channels south of our border while 
undercutting smugglers.
    This crisis requires a holistic approach that prioritizes safety 
and opportunity for children in the countries of the Northern Triangle. 
The U.S. Border Patrol and other Government officials that come into 
contact with migrant children once they arrive at our border should be 
trained to deal appropriately with them. Children should be screened in 
a non-adversarial setting by officials trained to interview children 
who can assess whether the child has a credible fear of return. 
Children who flee the violence who have asylum claims must be able to 
make them.
    Furthermore, systems and funding should be in place to ensure that 
these children have competent legal representation and are not left 
alone to represent themselves in court. Congress should allocate funds 
to the immigration courts to process cases quickly and should fund 
programs to help ensure the safe return and integration of children who 
are sent back to their home countries.
    As a global humanitarian leader, the United States must respond to 
this crisis in a thoughtful and calculated manner thoroughly consistent 
with international refugee law and American principles of due process. 
The entire world is watching our response--other nations around the 
world are receiving increased numbers of vulnerable migrants from 
Northern Triangle countries and other trouble-spots. We must set a good 
example for them to follow.
    Congress must immediately increase funding to ORR for fiscal year 
2014 so that the influx of children at the border is not paid for by 
the refugees from Iraq, Syria, Eritrea, Sudan, and Ukraine and 
elsewhere who have been generously offered protection by the United 
States. The U.S. Refugee Admissions Program is a key component of our 
Government's foreign policy and we should not be pitting the interests 
of resettled refugees directly against those of migrant children.
    Due to the current crisis, ORR--which has long been underfunded--
faces an enormous funding shortfall and has ``reprogrammed'' funds that 
had been budgeted to pay for services for refugees who arrive in the 
United States from around the world. This reprogramming has already 
started to have devastating consequences for recently arrived refugees. 
Many successful programs are at risk, including those that support 
micro-enterprise, child care for refugee families, Cuban-Haitian 
entrants, elderly refugees, and school impact grants.
    Throughout our history, America has been defined by our generosity 
toward those who seek a safe haven from violence, oppression, and 
persecution. We must build and maintain processes that reflect the 
American tradition of offering a chance at a new beginning to those who 
seek safety and freedom. As a global humanitarian leader, the United 
States has an obligation to fairly and objectively assess asylum 
applicants who arrive at our borders in a manner consistent with 
international refugee law and American principles of due process. The 
United States must show leadership in helping unaccompanied children 
while maintaining our commitment to asylum seekers and refugees.
    [Attached is a statement of 20 Jewish organizations urging the U.S. 
Government to protect both unaccompanied children and refugees.]
Jewish Statement on Unaccompanied Children at the United States-Mexico 
                                 Border
                                                       July 7, 2014
    As organizations deeply rooted in Jewish values, we support 
policies that promote human rights, ensure the protection of children, 
and fulfill the Torah's mandate to ``welcome the stranger.'' As such, 
we are very concerned about the urgent humanitarian crisis on the 
United States-Mexico border. Migration of vulnerable children and 
others from the ``Northern Triangle'' of Central America--El Salvador, 
Guatemala, and Honduras--has risen steadily as violence has increased 
and transnational organized crime has gained a foothold in the region. 
The safety and well-being of these migrants--and particularly the 
unaccompanied children--must be at the heart of every policy decision 
made in response to this humanitarian crisis.
    The only long term solution to this crisis is a holistic approach 
that prioritizes safety and opportunity for children in the countries 
of the Northern Triangle. Increased border enforcement must be 
accompanied by more meaningful measures to ensure that all migrants in 
danger of persecution have access to a meaningful opportunity to seek 
asylum. Children in particular must have the legal and social 
assistance they need to determine whether or not they have a refugee 
claim or other forms of legal relief available to them and, above all, 
to ensure that their lives are protected.
    It is crucial that we deal with this urgent humanitarian situation 
while maintaining our country's commitment to asylum seekers and 
refugees. As organizations based on Jewish values, we oppose any plans 
to ``reprogram'' funds that had been budgeted to pay for refugee 
resettlement services. Such cuts to the U.S. Refugee Admissions Program 
would have devastating consequences for recently arrived refugees as 
they begin their lives anew in our communities. The Administration and 
Congress should not be pitting the interests of resettled refugees 
directly against those of migrant children. Based on the Jewish values 
to which we adhere and our proud history as a community and nation 
established by immigrants and refugees, we urge the U.S. Government to 
protect both children and refugees in a humane manner.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Anti-Defamation League
AJC (Global Jewish Advocacy)
AJFCA--Association of Jewish Family & Children's Agencies
AMEINU
B'Nai B'rith International
CCAR--Central Conference of American Rabbis
HIAS
JCPA--Jewish Council for Public Affairs
JLC--Jewish Labor Committee
JWI--Jewish Women International
Keshet
NCJW--National Council of Jewish Women
Rabbinical Assembly
The Soloman Project
T'ruah: The Rabbinic Call for Human Rights
Uri L'Tzedek
URJ--The Union for Reform Judaism
The Workmen's Circle (AR)
                                 ______
                                 
                Prepared Statement of Human Rights First
    Human Rights First is a nonprofit, nonpartisan human rights 
advocacy organization that challenges America to live up to its ideals. 
For over 30 years, we've built bipartisan coalitions and teamed up with 
frontline activists and lawyers to tackle issues that demand American 
leadership, including the protection of the rights of refugees. Human 
Rights First oversees one of the largest pro bono legal representation 
programs for refugees seeking asylum in the country, with offices in 
New York, Washington, DC, and Houston, Texas, working in partnership 
with volunteer attorneys at U.S. law firms.
     review of the president's emergency supplemental request for 
                         unaccompanied children
    Earlier this year, Human Rights First conducted research at key 
southern border areas in Texas, Arizona, and California, including the 
Rio Grande Valley to study the situation of children and families 
crossing the border.\1\ Our review of the President's emergency 
supplemental request is based on our eyewitness research and over 30 
years of nonprofit legal services and expertise in refugee and asylum 
law.
---------------------------------------------------------------------------
    \1\ Human Rights First met with officials from Immigration and 
Customs Enforcement (ICE), Customs and Border Protection (CBP), Border 
Patrol (OBP) and Office of Field Operations (OFO), and U.S. Citizenship 
and Immigration Services in key locations along the southern border 
including the Rio Grande Valley, southern Arizona, and the San Diego 
area. The full Human Rights First Blueprint on How to Protect Refugees 
and Prevent Abuse at the Border is available at: http://
www.humanrightsfirst.org/resource/how-protect-refugees-and-prevent-
abuse-border.
---------------------------------------------------------------------------
    Human Rights First has expressed concern about some key aspects of 
the strategy reflected in the administration's emergency supplemental 
request sent to Congress to address the unprecedented influx of 
children and families at the United States-Mexico border. All proposed 
actions should be consistent with U.S. refugee protection and human 
rights commitments, and include protection mechanisms. The organization 
supports increased resources to conduct timely immigration court 
proceedings, facilitate access to legal information and counsel, care 
for unaccompanied children, and for the Office of Refugee Resettlement 
to have the capacity to both meet the needs of unaccompanied children 
and refugees. Human Rights First is deeply concerned that some of the 
strategy reflected in the request would undermine the integrity of the 
U.S. asylum system and set a poor example for the rest of the world. 
Human Rights First cautions that proposals to increase family detention 
or rush cases through the process would be out of step with the United 
States' legacy of protecting those fleeing persecution, trafficking, 
and other serious human rights violations. There is also an imbalance 
in resources, with insufficient resources requested to address the root 
causes of the conditions prompting flight and not enough requested to 
address protection, case adjudication, and legal information and 
representation.
    As President Obama and Congress try to address this crisis, they 
should do so in ways that strengthen the integrity of the immigration 
and asylum systems, reflect American ideals, and uphold our Nation's 
obligation to protect refugees. The administration's proposal gets only 
some of that right. While it includes provisions to increase resources 
for agencies handling the influx, the proposal could do serious damage 
by increasing detention for children, families, and asylum seekers. 
There are far better and less expensive alternatives that address the 
multiple needs of these families and our Nation's security. Decisions 
to detain should be based on case by case determinations rather than 
blanket policies designed to deter others from seeking this country's 
protection.
    While the request includes emergency funds to alleviate the 
pressure on the agencies managing the influx and staffing immigration 
courts, it also includes substantial resources sought by the 
administration to detain children and adults. President Obama is 
requesting $879 million for Immigration and Customs Enforcement to 
cover costs that include immigration removal, as well as expanding 
available detention facilities and pursuing alternatives to detention. 
In 2009, the Department of Homeland Security rightly ceased using its 
primary detention facility for families after multiple reports of 
inappropriate conditions and treatment of children and families. Human 
Rights First has advocated for increased funding for alternatives to 
detention that cost a fraction of the $160-per-day it takes to maintain 
an adult detention bed. That approach has proven successful as the 
Government's current contract for alternatives results in a 97.4 
percent compliance rate with final immigration hearings.
    While Human Rights First welcomes the administration's decision to 
not include in its appropriations request changes to the Trafficking 
Victims Protection Reauthorization Act (TVPRA) that would weaken legal 
safeguards for unaccompanied children, it notes that the President has 
reaffirmed his intent to continue to seek authority to limit the 
safeguards in processing cases of unaccompanied children. Human Rights 
First urges the administration and Congress to maintain the law's 
crucial protections for unaccompanied children who face particular 
risks from trafficking.
    Human Rights First notes that unless the delays in the immigration 
court system are addressed nationally, and not only at the border, the 
integrity of the system will continue to be at risk. By directing 
increased resources toward those recently apprehended at the border, 
asylum seekers around the country will be left waiting for years for 
their cases to be resolved. We recommend that money requested for 
immigration courts and judges be increased and distributed across the 
nation, rather than only to adjudicate detained cases at the border. 
Congress should fund at minimum the 35 additional immigration judge 
teams called for in the president's fiscal year 2015 appropriations 
request as well as the additional immigration judge teams called for in 
the emergency supplemental request, but in the long term should add 
substantially more, and match the 225 new immigration judge teams that 
were called for in the Senate's comprehensive immigration reform 
proposals last year.
    Rather than spending billions on more immigration detention, 
Congress should support fiscally prudent and effective alternative 
appearance measures and timely immigration court hearings nationally--
including for individuals who are not held in immigration detention. In 
order to address the longstanding delays in immigration court hearings 
and strengthen the integrity of the system, the administration must 
look at the big picture.
    Based on our research, we believe that as Congress considers the 
president's emergency supplemental request, it should appropriate funds 
to:
1. Fund an Alternatives to Detention (ATD) Initiative
    Immigration detention facilities are not appropriate settings for 
children and parents with children. Furthermore, there are more cost-
effective alternatives that are appropriate in many cases. ICE 
currently spends over $2 billion, or $160 per person per day, on the 
detention of up to 34,000 immigrants on any given day.
  --Children and families should not be detained, especially in 
        existing detention facilities. In 2009, DHS ceased using its 
        primary detention facility for families after multiple reports 
        of inappropriate conditions for and treatment of children and 
        their parents. The United States should not hold n children, 
        including infants and small children, in immigration detention. 
        Families should only be held for processing in custody for 
        short periods of time and in conditions appropriate for family 
        detention. Per requirements of the Flores agreement on 
        treatment of children in DHS custody, DHS should always place 
        children in the least restrictive setting appropriate. If 
        families are detained because they are determined to be a 
        danger or a flight risk, and alternatives are not appropriate, 
        then DHS should only use facilities and standards appropriate 
        to civil immigration detention.
  --For cases that need supervision, DHS needs funds to launch an 
        Alternatives to Detention initiative for border cases. The 
        supplemental should fund ICE to launch a nationwide initiative 
        to increase its use of alternatives to detention for cases 
        released in the border areas and elsewhere who pose no security 
        risk but that need additional supervision to mitigate flight 
        risk. This initiative should provide case management, 
        supervision, and/or monitoring to support appearance in the 
        area in which individuals relocate upon release. For families, 
        Congress should use the supplemental to direct DHS to build on 
        models of community-based alternatives, such as the pilots 
        underway by Lutheran Immigration and Refugee Service and the 
        U.S. Conference of Catholic Bishops.
  --ICE must be able to respond on a case-by-case basis. The American 
        immigration system works best when each case is considered on 
        its own merit. However, ICE currently lacks the latitude it 
        needs to make custody decisions on a case-by-case basis. The 
        supplemental should grant ICE the ability to shift funds, where 
        appropriate from detention to other measures to support 
        appearance.
2. Increase Access to Legal Information and Counsel Early in the 
        Process
    Many immigrants and asylum seekers apprehended in the border lack 
access to accurate information and in some cases have been given 
misinformation about the immigration process in the United States. The 
Legal Orientation Program (LOP) provides for competent nonprofit 
lawyers to explain U.S. procedures to detainees and helps migrants 
determine the most appropriate course for them. According to a 2012 
Justice Department study, LOPs create efficiencies in adjudication by 
reducing processing time and time spent in detention, and saved the 
Government approximately $18 million.
  --Fund DOJ to expand access to early legal information 
        presentations--including for families. LOP is a proven program, 
        and especially if processing and deportation for recent border 
        crossers will be accelerated, immigration detainees should be 
        given access to lawyers within a few days of arrival. Congress 
        should appropriate funds to expand LOP from the existing 25 
        sites to all facilities nationwide.
  --Fund DOJ to support increased quality representation early in the 
        process for indigent asylum seekers. The bill should fund 
        expansion of projects to increase access to legal counsel for 
        vulnerable populations, including unaccompanied children. A 
        2014 independent study by NERA Economic Consulting found that 
        providing counsel to indigent immigrants could effectively pay 
        for itself.
3. Reduce Backlogs and Vulnerability to Abuse, With Fair Case-by-Case 
        Decisionmaking
    Prior to the most recent surge, in March 2014, there were already 
over 366,000 cases are pending nationally for approximately 19 months. 
Similarly, because the USCIS Asylum Office continues to divert 
resources to addressing credible fear and other protection screenings 
at the border, the backlog in affirmative asylum cases has grown 
substantially since the influx at the border. The supplemental should 
address the imbalance in funding for the courts and address the backlog 
nationwide. If the bill simply re-directs immigration court resources 
to expedite cases of migrants detained or released into alternatives to 
detention on the border, it will only exacerbate national backlogs in 
the non-detained dockets especially. The Asylum Office needs funding to 
manage both expedited removal and its affirmative caseload.
  --Fund EOIR to increase immigration court staffing nationally to 
        address removal hearing delays and eliminate hearing backlogs 
        with adequate time and safeguards to ensure access to justice 
        and fairness. The bill should include funding to increase 
        resources and staffing for the immigration courts to ensure 
        that nationally individual merits hearings are generally 
        scheduled within approximately 6 months of the filing of an 
        asylum application.
  --Fund USCIS to increase asylum office staffing and resources to 
        reduce backlogs and for the conduct of in-person credible fear 
        and reasonable fear interviews with adequate time and 
        safeguards to ensure access to justice and fairness. The bill 
        should fund the Asylum Division to conduct timely screening 
        interviews in expedited removal and reinstatement of removal 
        without diverting officers from the affirmative asylum process.
4. Do Not Weaken Protection Safeguards including the TVPRA
    DHS should not weaken safeguards including protections within the 
Trafficking Victims Protection Reauthorization Act (TVPRA) to identify 
and protect asylum seekers, victims of trafficking, vulnerable children 
and others with protection concerns and the bill should provide funds 
to for timely in person protection screening. Unaccompanied children 
should be screened for protection concerns by experts outside of a law 
enforcement agency, and screening should occur after an individual has 
had some time to recover from what are often traumatizing journeys, 
outside of border detention facilities, and in conditions that do not 
place children in a compromised position to discuss their 
victimization. A 2005 U.S. Commission on International Religious 
Freedom report on adult asylum seekers processed in expedited removal 
found that border officers often failed to follow procedures designed 
to identify individuals with protection concerns. As documented by a 
2011 Appleseed report on the concerns of screenings of Mexican 
unaccompanied children at the border, the challenges of a screening in 
these conditions are especially acute for children, many of whom are 
extremely young, potentially victims of trafficking, and unable to 
express fears to an armed border officer after long and harrowing 
journeys.
  --Unaccompanied alien children (UACs) should receive appropriate 
        screenings and referrals to HHS custody for care and evaluation 
        for protection or reunification. Congress should not amend the 
        TVRA to expedite the screenings and removals of Central 
        American UACs. Congress should support increased funding for 
        the Office of Refugee Resettlement (ORR) to meet the needs of 
        both unaccompanied children and refugees.
                                 ______
                                 
        Prepared Statement of the International Rescue Committee
    The International Rescue Committee (IRC) thanks Chairwoman Barbara 
Mikulski, Ranking Member Richard Shelby, and the Senate Appropriations 
Committee for holding this important hearing on the funding needs to 
respond to the surge in arrivals of unaccompanied children from Central 
America to the United States border. The IRC shares the Committee's 
deep concern about the safety and wellbeing of unaccompanied children 
at our borders and we are prepared to provide support to the United 
States Government to respond in the most appropriate way.
    The IRC is a global humanitarian organization with a presence in 40 
countries worldwide and in 22 cities in the United States. We provide 
emergency relief and post-conflict development and help refugees and 
other vulnerable people uprooted by conflict, violence and disaster to 
find protection and rebuild their lives. Since its inception, the IRC 
has been involved in virtually every major refugee or other 
humanitarian crisis and resettlement initiative around the globe.
    The IRC is recognized globally as having expertise in child 
protection in humanitarian emergencies, bringing in capacity in areas 
such as: child protection systems, child-friendly spaces, registration, 
family tracing and reunification, best interest determinations, case 
management and psycho-social services, protection information 
management and inter-agency coordination. This expertise is specific to 
our work with children affected by forcible displacement, most often in 
a transnational or cross-border setting. The IRC currently implements 
large-scale, multi-sectoral child protection responses in at least 
eight countries impacted by arrivals of displaced children around the 
world.
    The IRC is also one of the largest voluntary agencies serving 
resettled refugees in the United States, and has historically served 
resettled refugee children (and to a lesser extent other immigrant 
children) through services such as home studies, legal guardianship 
assistance, case management, family reunification support, specialized 
psychosocial services, access to health and education, and services to 
child victims of trafficking. These services have been delivered within 
a broader framework of IRC's resettlement support, in public-private 
partnership with U.S. Federal and State government offices, under the 
umbrella of the U.S. Refugee Admissions Program (USRAP).
    The IRC has not historically extended its child protection services 
here in the United States to the so-called ``unaccompanied alien 
children'' (UAC) population. So if the IRC is speaking out today on 
behalf of the protection needs of the unaccompanied children arriving 
in the recent surge, it is because we firmly believe that there is now 
sufficient and compelling evidence to suggest that violence is a 
predominant factor in what has become a forced displacement situation. 
This means that no less than the integrity of the United States and its 
proud historical record of championing the protection of asylum seekers 
and refugees is at stake.
    The IRC recognizes that the nature of the migration flow of the 
UACs from the three principal source countries of Honduras, El 
Salvador, and Guatemala is ``mixed'' in nature. Mixed migration is by 
its very nature characterized by the melding of people on the move, 
some of whose predominant motivation may be economic or family-
reunification related in nature while others are fleeing targeted or 
generalized violence or persecution. The IRC believes that the current 
flows of unaccompanied children is a complex mixture of: bona fide 
refugees; others who may qualify for other forms of immigration relief; 
and yet others who will not qualify for protective status here. This 
complex reality requires that the most scrupulous of due process 
safeguards be put into place to preserve the right of all children to 
seek asylum (and a sub-set to be recognized with asylee status or other 
immigrant status as appropriate to their individual circumstances). It 
also requires that all of the children enjoy, at a minimum, the full 
range of special protections they deserve given their special status 
and unique vulnerabilities as children while they are on U.S. soil.
    With this in mind, the IRC urges the Committee to consider five 
main imperatives when reviewing the President's emergency supplemental 
request:
  --Preserve the right to seek asylum for unaccompanied children and 
        improve conditions for children while in Department of Homeland 
        Security (DHS) custody.
    The IRC clearly recognizes that enforcement has a place in any 
response to any mass migration or refugee emergency along our borders. 
Yet, measures of deterrence that are intended to--or have the effect 
of--denying vulnerable children the right to reach a safehaven have no 
place in a humanitarian response. ``Stemming the flow'' in an emergency 
situation, where a substantial percentage of children may have 
international protection needs, should not be the principal policy 
objective. Children who flee violence and are desperate to reach safety 
with a relative in the United States will not be deterred from trying, 
and enforcement measures intended principally for deterrence will force 
these children underground, raising the ``transaction costs'' and 
making them even more vulnerable to smugglers and traffickers. The IRC 
is also concerned that the enforcement approach announced by the 
administration may expand the detention of children in DHS-run 
facilities without systematically addressing reports of unacceptable 
conditions in these facilities.
  --Ensure that due process is scrupulously observed, as per our laws 
        and fundamental American values.
    The IRC supports the administration's announced intention to deploy 
more resources to expediting immigration procedures and expand legal 
representation services, in principle. However, much more information 
about plans is needed. Any expedited procedures put into place must 
strictly observe due process standards that are age-appropriate and 
trauma sensitive. And in such processes, all children need and deserve 
competent legal counsel to be able to articulate their fears and 
understand their rights and responsibilities. The funding levels 
requested for the Department of Justice (DOJ) which specifically relate 
to these intentions would not appear to go nearly far enough to ensure 
this imperative.
  --Ensure that the Administration has the funding that it needs to 
        mount an appropriate humanitarian response, and encourage the 
        administration to strengthen collaborative partnerships with 
        non-governmental and community-based organizations to improve 
        protection and care services.
    The IRCs is pleased to see the Administration requests a very 
substantial amount of funding for the Department of Health and Human 
Services (HHS) to care for unaccompanied children. The IRC hopes that 
these funds will not only be used to expand shelter capacity but will 
also be deployed towards improving the existing care and services model 
to better correspond with the current volume of children. We also urge 
that these funds prioritize post-release services so that children 
released to sponsors are safe and well-cared for in our communities and 
their sponsors are in a better position to help children comply with 
immigration processes. Finally, we urge Congress to request that HHS 
review its partnership model and enhance its transparency with non-
governmental and community-based organizations, to ensure that 
voluntary organizations that are ready and able to provide needed forms 
of material aid and protection services to children in custody and 
post-release are able to contribute to the national response. At 
present, agencies that are not a shelter-manager have virtually no 
entry point for assisting HHS to meet its challenges.
  --Ensure that sufficient funding is made available, in a timely 
        fashion, to avoid the consequences of HHS's announced re-
        programming of $94 million from the U.S. Refugee Admissions 
        Program (USRAP) to meet the needs of the UAC population.
    The IRC believes that the needs of extremely vulnerable 
unaccompanied children should not be pitted against the equally 
compelling needs of refugees who have arrived or are waiting to travel 
to the United States under the USRAP. The USRAP is an important 
instrument of U.S. foreign policy which is designed to contribute to 
the global effort to respond to multiple humanitarian crises around the 
world simultaneously. Cuts to USRAP will negatively impact the 
integration of refugee men, women and children as well as the American 
communities that welcome them. And cuts could have a devastating impact 
on thousands of refugees from countries such as Iraq, Afghanistan, 
Burma, and the Democratic Republic of the Congo if the admissions 
program is taken off course by an unrelated crisis within our own 
borders. The unaccompanied minors' humanitarian needs are no less 
deserving, and must have their needs met through separate funding. 
Dismantled state refugee assistance programs will be costly to re-
build. A timely ``fix'' to the announced re-programming of USRAP funds 
is required, before states and voluntary agencies are forced to 
discontinue services.
  --Ensure the proposed foreign policy response is appropriate to the 
        needs and the situation in the home countries of the children, 
        and is based on programs proven to be effective.
    The IRC welcomes the Administration's intent to strengthen 
emergency aid and development assistance to the home and transit 
countries. However, the funding requirements are grossly insufficient 
and the overall orientation of the foreign policy approach must be 
carefully examined to ensure that it is both appropriate and based on 
methodologies that are proven to be effective. Congress should be 
vigilant of any technical assistance to source countries which entrench 
mano dura policies, which effectively criminalize ``being a poor 
child'' and make innocent children targets of the police, and will only 
provoke more displacement beyond borders. Any efforts to ``push back 
the border,'' leaving unaccompanied children at the mercy of transit 
countries who have neither the capacity to shelter and protect them nor 
to fairly process their asylum claims is fundamentally wrong. The 
strengthening of child protection systems and asylum systems in 
countries of transit requires a massive investment and a very long-term 
view--and there is no low-cost, short-term investment or ``quick fix'' 
that will allow the United States to effectively close its borders and 
leave our southern neighbors to try to cope. In such a scenario, 
children will be returned to serious harms, tantamount to indirect 
refoulement by the U.S. Government. There is also no evidence that 
``information campaigns'' of the type designed to dissuade desperate 
persons from leaving their country are effective; in fact, such 
approaches when targeted towards persons fleeing violence are highly 
inappropriate and contrary to international law and the right to seek 
asylum. Indeed, such approaches would be soundly rejected by the U.S. 
Government if practiced by other, far less well-resourced Governments 
bordering conflict, violence- or disaster-impacted countries. Such 
attempts at a ``quick fix'' to stem flows will simply divert precious 
financial resources from programming that is proven to enhance 
protections, such as funding NGO shelters along migration routes (who 
have the required competence to share information with migrants and 
asylum seekers about risks of migration). Return and reintegration 
programs must also be holistic and sustainable in approach, relying on 
the expertise of national and international NGOs with a proven track 
record in this area.
    In closing, allow me to paraphrase the words of a young Central 
American mother who recently fled to our borders with her young child: 
``Thank God the U.S. border control caught us, now my child is am 
safe.'' For the IRC, these simple words represent two realities:
    First, this population is not generally a threat to our country and 
is not coming here for the principal purpose of disappearing into the 
shadows to work without papers. Undocumented economic migrants or 
foreign nationals who wish to do our nation harm do not thank God they 
were caught. The children currently in our Government's care are 
announcing themselves at the border and, by doing so, they are 
effectively requesting protection. This is the way a proper border 
security system with appropriate asylum safeguards is supposed to work. 
The large numbers may present a very real challenge to systems and 
budgets, but this great democracy can meet this challenge.
    Second, this young mother's words suggest that this population is 
coming to the United States because they believe this is a country of 
laws, where people fleeing terrible dangers will be safe and where they 
will be treated with fairness and dignity. Let us uphold that promise 
and not retreat from our fundamental values.
                                 ______
                                 
             Prepared Statement of Kids in Need of Defense
    The United States is experiencing a refugee-like crisis. Children 
from Central America are running for their lives because their 
countries have become virtual war-zones and their only choice is either 
run or stay and be killed. The crisis is not only on our doorstep, but 
it is being felt regionally. This is not an inconvenient immigration 
problem, it is a serious child protection issue. There is no simple and 
swift solution. It is complex and needs both short-term and long-term 
attention and solutions. How we respond to a crisis of children in need 
of safe haven says a lot about our country and ourselves. The United 
States has correctly been quick to demand that other countries around 
the world protect children in danger by offering care, compassion, and 
a commitment to long-term solutions. We can do no less.
    The numbers speak for themselves. From 2004 to 2011, the numbers of 
unaccompanied children coming to the United States each year averaged 
6,800. In fiscal year 2012, their number jumped to more than 13,000. 
The following fiscal year, 2013, more than 24,000 children came. This 
fiscal year, 2014, we're on track to see over 70,000 and some estimates 
are as high as 90,000. Next year their number is expected to increase 
to 127,000. One weekend not long ago, 1,000 children crossed alone into 
the United States.
    The United States is not alone in experiencing the flow--this is a 
regional crisis. The kids are fleeing to wherever they can. Many decide 
to go north to the United States because they have family here or a 
connection to the United States, but the United Nations Refugee Agency 
(UNHCR) found that asylum requests by Hondurans, Salvadorans, and 
Guatemalans seeking refuge in countries south has increased 712 
percent. Children are also fleeing within their own borders. The top 
three sending nations of El Salvador, Honduras, and Guatemala are 
experiencing significant numbers of their own people being internally 
displaced.
    Not only have the numbers changed, but who is coming is different. 
For years it was much more common to see older teens, the large 
majority male, coming to the United States alone. Now there is a 
significant increase in children under age 12 and almost half the 
children coming are girls. Many experience sexual violence during their 
journey; a number are pregnant from rape that occurred either in their 
home country or while they were migrating. The fact that children are 
coming younger and that more girls are coming despite the well-known 
risk of sexual assault along the journey underscores the desperation 
that is pushing the children out of their home countries.
    Honduras has had the highest murder rate in the world for the last 
4 years, according to the United Nations. The president of Honduras 
said in a visit to the United States last week that the Honduran 
children coming alone to the United States ``are displaced by war.'' 
The State Department has issued a warning to Americans not to travel to 
Honduras or El Salvador. The violence level in all three countries is 
described by our own Government as being ``critically high'' and ``the 
police can't protect you.''
    A March 2014 report by the U.N. Refugee Agency (UNHCR) on 
unaccompanied children in Central America and Mexico found that the 
primary reason for these children's flight is increasing violence in 
Central America driven by drug cartels and a variety of other criminal 
elements, and that the majority of these children should be screened 
for international protection. Numerous other reports confirm this, as 
do the children referred to Kids in Need of Defense (KIND): most 
describe fleeing forced gang recruitment and violence for refusing to 
join with criminal groups, as well as threats and harm to family 
members and friends.
    Smugglers are clearly taking advantage of the situation and doing 
what is best for business, likely spreading false information to gain 
more clients. Ironically, the smugglers and traffickers are often 
connected to the gangs and narco-traffickers that drove the children 
out of their home countries to begin with. The United States needs to 
prioritize identifying, disrupting and dismantling the transnational 
criminal smuggling networks.
    The U.S. system that governs the custody, care, release, and social 
and legal services for these children was not built to address the 
needs of these numbers of children. The system must be entirely re-
worked in order to embrace child protection as its core. Our current 
system does not use a best interests of the child standard in 
decisionmaking regarding these children, despite the fact that it is 
the cornerstone of child protection around the world and the basis of 
our child welfare and juvenile justice systems. Our immigration system 
is adversarial and treats children not much differently than adults.
    While KIND welcomes the administration's supplemental request of 
$3.7 billion to address the humanitarian crisis at our borders. But we 
are concerned about the allocation of funding in the request. While we 
well understand the need for support to the Department of Homeland 
Security (DHS) at the border given the huge numbers of unaccompanied 
children presenting themselves at our southern border, the funding--
$1.1 billion for Immigration and Customs Enforcement and $433 million 
for Customs and Border Protection, dwarfs the funding request for the 
Department of Justice (DOJ)--$64 million--for immigration judges and 
legal services. Chronic underfunding of our immigration courts has long 
pre-dated the current crisis. The result is years-long backlogs and 
cases that stretch into years. This situation will only get worse, 
particularly if the 40 immigration judge teams are only temporary. This 
funding is a short-term and ineffective patch on a long-term and deep 
problem. Significant more funding, proportionate to DHS, must be 
provided to the DOJ.
    The provision of counsel for unaccompanied children must be a 
significant part of this funding. The request's allocation of $15 
million is inadequate to reach a majority of the children. It would be 
unconscionable for the United States to adjudicate these children's 
cases without an attorney, as many may qualify for refugee status, as 
UNHCR has found. This means they are fleeing a level of persecution 
from which they need protection outside their borders, in a country 
that can provide them asylum. This means that the majority of these 
children could face serious harm, even death, if returned to their home 
country.
    It is nearly impossible for unaccompanied children to represent 
themselves in immigration proceedings. The large majority of these 
children, who range in age from toddlers to teenagers, do not speak 
English, have had little education, have no idea how the United States 
immigration system works, and do not know their rights or the options 
open to them. The U.S. immigration system is complex and arcane even 
for those trained to work within it. Many of the children are 
traumatized by their experiences in their home countries that pushed 
them to flee, and by the difficult and dangerous journey to the United 
States.
    If adjudications and deportations are expedited, as the 
administration has said it will do, it is even more vital that children 
have attorneys as they will need particular assistance and guidance in 
presenting their case in an abbreviated length of time. If 
unaccompanied children are forced to remain in custody until their 
cases are adjudicated, to not provide counsel to a child who is also 
deprived of his/her liberty would be a shockingly inhumane and a stark 
violation of human rights. These children deserve a full and fair 
adjudication of their cases.
    How could a 5-, 9-, 12-, even 15-17-year-old be expected to present 
their case before an immigration judge and defend against a government 
attorney who is arguing for the child's deportation?
    Counsel for unaccompanied children who are released from custody 
would mean that immigration judges would not have to postpone 
adjudication repeatedly, as they often do, hoping that when the case is 
heard the next time, the child will have found a lawyer. These 
continuances clog up already hugely overburdened court dockets and are 
a waste of time and money. Children with representation are more likely 
to appear for their court dates and obey court orders. Counsel would 
result in efficiencies that allow for cost savings to the government.
    The provision of counsel does not need to be limited to appointed 
counsel. The most efficient use of resources would be to use a mix of 
pro bono and appointed counsel. The private sector has contributed 
significantly to the representation of unaccompanied children in 
removal proceedings, donating tens of millions of dollars worth of pro 
bono representation. Pro bono efforts, however, must be reinforced by 
government resources to support representation of children in cases for 
which counsel is needed very quickly or for which no attorney has been 
found.
    Allowing the most vulnerable immigrants to appear in immigration 
court alone, ``is simply not who we are as a nation. It is not the way 
in which we do things,'' Attorney General Eric Holder said in testimony 
before the Senate Judiciary Committee.\1\ As Attorney General Eric 
Holder also stated, ``It is inexcusable that young kids. . . have 
immigration decisions made on their behalf, against them . . . and 
they're not represented by counsel.'' \2\
---------------------------------------------------------------------------
    \1\ Testimony before the Senate Judiciary Committee Oversight 
Hearing, March 6, 2013.
    \2\ Terry Greene Sterling, Undocumented Kids Crossing the U.S. 
Border Alone in Increasing Numbers, The Daily Beast, Mar. 23, 2013 
(available at http://www.thedailybeast.com/articles/2013/03/23/
undocumented-kids-crossing-the-u-s-border-alone-in-increasing-
numbers.html) (emphasis added).
---------------------------------------------------------------------------
    Former Assistant Secretary of Immigration and Customs Enforcement, 
Julie Myers Wood, told the House Judiciary Committee in a February 5, 
2013, hearing, ``In any new legislation, Congress should consider 
taking steps to assist indigent and vulnerable aliens to retain counsel 
at Government expense. This is particularly important for unaccompanied 
minors and immigrants with competency issues. Although ICE attorneys 
and immigration judges regularly identify legitimate claims by aliens 
who are not represented by attorneys, the system should not rely on the 
ability of opposing counsel or overworked judges to locate valid 
claims.''
    Ms. Myers Wood also noted the inefficiencies in the system created 
when a detained immigrant does not have a lawyer and called it 
``abominable'' that under our current system, unaccompanied children or 
those with mental disabilities don't have counsel.\3\
---------------------------------------------------------------------------
    \3\ Katharina Obser, Importance of Counsel for Asylum Seekers and 
Immigrants in Detention Stressed by Faith, Civil Rights, Legal, and 
Other Leaders, Human Rights First (April 26 2013).
---------------------------------------------------------------------------
    As with the request for DOJ, the request for the State Department--
$300 million--is a start, but Central America has been neglected by the 
United States in terms of development assistance for years--and we are 
now seeing the result. The top sending countries of these children--
Honduras, El Salvador, and Guatemala--need stronger support from the 
United States to develop their national child welfare systems, for 
example, which are nominally functional and are unable to provide even 
limited protection or assistance to children who need protection. Long-
term support for these systems, as well as other humanitarian and 
development assistance, would enable children to stay in their home 
countries and prevent them from feeling they have to leave their 
country to save their lives.
    This leads to another significant gap in the United States' 
treatment of these children--a lack of return and reintegration 
assistance. We largely do not know what happens to children when they 
are returned. In one case we do know, a boy deported from the United 
States was murdered 17 days after his return by the very gang members 
on whom his unsuccessful claim for U.S. protection was based. As a top 
destination country, we must ensure the safe return and reintegration 
of unaccompanied children into their home country so that we do not 
return these children to harm and so they can remain sustainably in 
their home communities.
    KIND's Guatemalan Child Return and Reintegration Project is an 
example of how such programs can be created in the future with success. 
KIND has partnered with four local nongovernmental organizations in 
Guatemala which help provide services to returning children, based on 
an intake conducted by KIND social workers before the child leaves the 
United States. The NGOs follow up with the child to check in and visit 
as needed. To date, KIND has helped 117 children return safely and 
remain sustainably in Guatemala.
    KIND is hopeful that this historic migration of unaccompanied 
children to the United States will in the end result in a U.S. system 
with enhanced child protection mechanisms and one in which children are 
treated as they need and deserve to be treated--as children first and 
foremost.
                                 ______
                                 
     Prepared Statement of Lutheran Immigration and Refugee Service
    ``We are facing a humanitarian emergency to which we cannot close 
our eyes or our hearts,'' says Linda Hartke, president of Lutheran 
Immigration and Refugee Service (LIRS). The organization calls on all 
people of faith to stay true to our values. ``We are compelled to 
provide safety, due process, and compassion to the thousands of 
children who are fleeing Central America,'' adds Hartke.
    LIRS is working with the Government and with a national network of 
social service partners to address this crisis. We welcome the Senate 
Appropriations Committee's review of President Obama's $4.3 billion 
supplemental budget request, which includes $3.7 billion in emergency 
appropriations to address the unprecedented influx of child migrants 
from Guatemala, Honduras, and El Salvador.
    With a 75-year history of serving refugees and migrants, LIRS has 
over 30 years of experience helping to resettle children from all over 
the world, including Central America. Our particular expertise working 
with this vulnerable population guides our policy positions and informs 
our advocacy.
    At a time of humanitarian crisis, we ask that the governmental 
response to child migration protect the best interest of these children 
and uphold our legal obligations to protect those fleeing persecution. 
Congress and the Administration should prioritize the best interest of 
the child in all decisionmaking, develop an inter-agency response that 
leverages the expertise and resources of the Federal agencies 
responsible for addressing this challenge, and invest resources in 
effectively addressing root causes of migration in Central America and 
Mexico.
    The administration's request for emergency supplemental funding 
raises numerous concerns. First, the Office of Refugee Resettlement 
within the Department of Health and Human Services must receive 
sufficient funding to both serve refugees through resettlement programs 
and to care for unaccompanied migrant children. Each of these missions 
is critically important and funding should not be taken from one to 
meet the other.
    Additionally, expanding the detention of families with children is 
gravely disappointing and we reject the premise that it is in America's 
interest to incarcerate families. Detention is completely inappropriate 
for families and we are keen to work with the Administration to 
identify more humane, compassionate and just alternatives. Alternatives 
to detention have been demonstrated to effectively serve the interests 
of the government in upholding the law while also protecting due 
process and ensuring immigrants have a fair chance for justice. LIRS is 
a leader in developing community-based alternatives to detention and is 
willing to work constructively with the government to implement 
alternate solutions at this time.
    Finally, adequate funding must be provided for Immigration Judges, 
legal representation for unaccompanied migrant children, and the Legal 
Orientation Program. The American value of justice for all is arguably 
even more important during times of humanitarian crisis. Vulnerable 
migrant children must be provided the full protection of their rights 
under our laws.
    LIRS makes the following recommendations to Congress:
  --Provide additional resources to Federal agencies serving 
        unaccompanied migrant children to meet their needs while they 
        are in and after they are released from Federal custody.
  --Provide a contingency fund for maximum flexibility to respond to 
        urgent needs of this population.
  --Respect legal and humanitarian protections and ensure all children 
        are treated with safety and dignity.
  --Pass legislation such as the Child Trafficking Victims Protection 
        Act (H.R. 2624/sections 1112 and 3611 of S. 744), the 
        Vulnerable Immigrant Voice Act (H.R. 4936/section 3502 of S. 
        744), the Protect Family Values at the Border Act (H.R. 3130/
        section 1115 of S. 744) and the Humane Short Term Custody Act 
        (S. 1817).
    LIRS makes the following recommendations specific to the Department 
of Health and Human Services' Office of Refugee Resettlement:
  --Place unaccompanied migrant children in community-based care, child 
        welfare shelters operated by NGOs, and other settings 
        reflecting the needs of such children, including therapeutic 
        placements, mentor homes, and foster homes for young children 
        and especially vulnerable teens.
  --Make post-release services available for all released migrant 
        children to help them integrate into their communities; ensure 
        safe reunifications with their families, mitigating risk for 
        breakdown; assist with connecting them to immigration legal 
        representation; and better assure their attendance at 
        immigration court proceedings.
  --Ensure that all unaccompanied children have access to legal 
        representation as well as spiritual care while in shelters.
    LIRS makes the following recommendations specific to the Department 
of Homeland Security:
  --Establish an emergency initiative, operational guidelines, and 
        training to facilitate participation by NGOs to support DHS 
        personnel at U.S. ports of entry and U.S border crossings. 
        Immediately place child welfare professionals to assist DHS 
        with conducting the mandated screening for trafficking and 
        asylum and facilitate ORR's custody and identification of child 
        protection concerns. NGOs, including LIRS, have experience with 
        child welfare and anti-trafficking work and can provide child-
        friendly and trauma-informed informational briefings to DHS 
        personnel at U.S. border crossings, and U.S. ports of entry, to 
        assist in the identification, screening, and referral of 
        trafficking victims and potential child-trafficking victims.
  --Ensure access to monitoring of DHS facilities where migrant 
        children are held by LIRS and other NGOs and the access of 
        legal service providers and child advocates.
  --Ensure that access to spiritual care is available to all 
        individuals, including children and families, in detention.
  --Maximize the use of alternatives to detention to avoid detaining 
        families who are in removal proceedings.
    Started by Lutheran congregations in 1939, LIRS walks with migrants 
and refugees through ministries of service and justice, transforming 
U.S. communities by ensuring that newcomers are not only self-
sufficient but also become connected and contributing members of their 
adopted communities in the United States. Working with and through over 
60 partners across the country, LIRS resettles refugees, reunites 
children with their families or provides loving homes for them, 
conducts policy advocacy, and pursues humanitarian alternatives to the 
immigration detention system. For more information, please visit 
www.lirs.org.
    Additional resources:
  --The June 3, 2014 LIRS statement applauding the President's 
        announcement on coordinated response to unaccompanied migrant 
        children can be found at http://lirs.org/press-inquiries/press-
        room/140603statement/
  --The May 27, 2014 LIRS press release announcing the #ActOfLove 
        campaign can be found at http://lirs.org/press-inquiries/press-
        room/140527newsrelease/
  --The LIRS Backgrounder on Protecting Unaccompanied Migrant Children 
        can be found at http://lirs.org/wp-content/uploads/2014/06/
        LIRS-Backgrounder-on-Unaccompanied-Migrant-Children-FINAL-5-8-
        14.pdf
  --The 2007 LIRS Report, ``Locking Up Family Values'' may be found at 
        http://lirs.org/wp-content/uploads/2012/05/
        RPTLOCKINGUPFAMILYVALUES2007.pdf
                                 ______
                                 
Prepared Statement of the National Immigrant Justice Center (Heartland 
                               Alliance)
    Chairman Mikulski, Ranking member Shelby, and members of the Senate 
Appropriations Committee: In recent years, the United States has 
experienced a steady increase in arrivals of unaccompanied immigrant 
children at the southern border, primarily from El Salvador, Guatemala, 
and Honduras. The U.S. Government, other governments in the region, 
non-governmental organizations (NGOs), and inter-governmental 
organizations are trying to understand why these children are coming 
and how to respond, process, and care for them upon arrival in the 
United States. As a national leader in immigration law and policy, 
Heartland Alliance's National Immigrant Justice Center (NIJC) 
appreciates the opportunity to submit testimony for today's hearing on 
these complex issues. We offer this statement to articulate the urgent 
need to provide adequate funding for the shelter and processing of 
unaccompanied immigrant children, to ensure that due process 
protections are not compromised in a time of crisis and to address the 
root causes of children fleeing their home countries.
    NIJC is an NGO dedicated to safeguarding the rights of noncitizens. 
With offices in Chicago, Indiana, and Washington, DC, NIJC advocates 
for immigrants, refugees, asylum seekers, and survivors of human 
trafficking through direct legal representation, policy reform, impact 
litigation, and public education. NIJC and its network of 1,500 pro 
bono attorneys provide legal representation to approximately 10,000 
noncitizens annually, including thousands of unaccompanied children. 
NIJC is the largest legal service provider for unaccompanied children 
detained in Illinois, conducting weekly legal screenings and legal 
rights presentations, which provide an overview of the child's legal 
rights and responsibilities in the immigration system, at nine Chicago-
area shelters.
    NIJC has played a major role in advocating for reform of the 
immigration system, especially related to unaccompanied children and 
asylum seekers. NIJC co-convenes the Migrant Children's Defense 
Collaborative for legal service providers; actively participates in the 
Interagency Working Group on Unaccompanied Children, a periodic meeting 
of government agencies and NGOs; and, as part of Heartland Alliance, 
serves as the NGO co-chair of the United States-Mexico-Central America 
Working Committee on Unaccompanied Children, a gathering of 
legislators, policy makers, and advocates from the United States, 
Mexico, and Central America. In addition to its expertise regarding 
unaccompanied children, NIJC was a founding member of the Asylum 
Litigation Working Group and regularly participates in separate 
discussions of the Asylum Working Group; together, the groups focus on 
monitoring developments in and implementation of laws and policies that 
impact asylum seekers. NIJC's years of experience advocating on behalf 
of children and asylum seekers, from both policy and direct services 
perspectives, and collaborating with colleagues domestically and 
internationally, gives it a unique perspective on the immigration 
system and its relationship to U.S. obligations under domestic and 
international laws.
    Today, NIJC is extremely concerned that the protection needs of 
immigrant children, families, and others seeking asylum from Central 
America, as well as the push factors driving their flight, are being 
overlooked. In a misguided effort to attribute increased migration from 
Central America to a shift in U.S. immigration enforcement policies, 
the genuine violence and persecution from which these individuals flee 
has been ignored.
    This testimony provides a brief assessment of the current influx of 
unaccompanied immigrant children from Central America as well as the 
emergency supplemental request, and provides recommendations to ensure 
that children are provided due process protections that address their 
best interests and ensure they are not returned to face persecution, 
violence, or other forms of serious harm.
 forced migration: unaccompanied children flee increasing violence and 
                       danger in central america
    While various individual factors are causing children to undertake 
a treacherous journey to the United States, growing violence and danger 
in their home countries is the primary reason the majority of the 
children are fleeing to the United States today. Most unaccompanied 
children apprehended at the border are from El Salvador, Guatemala, and 
Honduras (See Fig. 1), and several reports,\1\ including NIJC's January 
2014 policy brief,\2\ have established that the majority of 
unaccompanied children flee these three countries due to pervasive 
violence, persecution, and abuse. Family reunification may play a role 
in the timing of a child's decision to migrate to the United States and 
to flee to the United States rather than another country; however, it 
is rarely the sole reason for a child's flight.
---------------------------------------------------------------------------
    \1\ See e.g., Kids in Need of Defense (KIND)/Center for Gender and 
Refugee Studies (CGRS), A Treacherous Journey: Child Migrants 
Navigating the U.S. Immigration System, available at: http://
www.usccb.org/about/migration-policy/upload/Mission-To-Central-America-
FINAL-2.pdf; U.S. Conference of Catholic Bishops (USCCB), Mission to 
Central America: The Flight of Unaccompanied Children to the United 
States, 2014, available at: http://www.usccb.org/about/migration-
policy/upload/Mission-To-Central-America-FINAL-2.pdf; Women's Refugee 
Commission, Forced from Home: The Lost Boys and Girls of Central 
America, 2012, available at: http://womensrefugeecommission.org/forced-
from-home-press-kit.
    \2\ Available at: https://immigrantjustice.org/publications/policy-
brief-unaccompanied-immigrant-children-vulnerable-children-face-
insurmountable-o#.Uvqm723ehmc.
---------------------------------------------------------------------------
    The United States is not the only country experiencing a dramatic 
increase in asylum seekers from Central America due to this violence. 
Together, Mexico, Panama, Nicaragua, Costa Rica, and Belize reported a 
712 percent increase in the number of asylum applications filed by 
individuals from El Salvador, Guatemala, and Honduras from 2008 to 
2013.\3\ These numbers demonstrate that the current crisis is a 
regional problem caused by country conditions in the sending countries, 
rather than a perceived change in immigration policies in the United 
States.
---------------------------------------------------------------------------
    \3\ United Nations High Commissioner for Refugees (UNHCR), http://
unhcrwashington.org/children.
---------------------------------------------------------------------------
    Finally, rumors of broken borders or lax U.S. immigration policy 
are not the primary cause for the current influx. Since 2008, U.S. law 
has required that unaccompanied immigrant children be placed in the 
least restrictive setting that is in their best interest.\4\ Moreover, 
the increase in the migration of unaccompanied immigrant children to 
the United States began in October 2011, more than 6 months prior to 
the announcement of President Obama's Deferred Action for Childhood 
Arrivals (DACA) program.\5\ If a perceived change in immigration policy 
was fueling the current migration, there would be comparable numbers of 
immigrant children from other regional countries besides El Salvador, 
Guatemala, and Honduras, but this has not been the case.\6\
---------------------------------------------------------------------------
    \4\ William Wilberforce Trafficking Victims Protection and 
Reauthorization Act (TVPRA) of 2008, (Public Law 110-457), 
Sec. 235(c)(2).
    \5\ United Nations High Commissioner for Refugees (UNHCR), Children 
on the Run, 2014, available at: http://www.unhcrwashington.org/
children/reports, p. 4.
    \6\ UNHCR, 2014.
---------------------------------------------------------------------------
    Violence in the home countries and the failure of U.S. immigration 
policy to provide any other option for immigrant families in the United 
States to provide safety for their children is forcing children and 
their families to make the dangerous journey to the United States. The 
story of Jessica and Daniel (pseudonyms), NIJC's clients, illustrates 
the danger facing these children:
    In 2013, Jessica, a young woman from Honduras, fled to the United 
States when she was 17 to seek protection. Throughout her childhood, 
her father regularly molested and raped her, and abused her mother. 
When Jessica was 10 years old, her mother went to the United States 
with her father to try to provide a better life for Jessica and her 
brother, but her parents separated when her father continued to abuse 
her mother. In 2012, a gang kidnapped Jessica and attempted to traffic 
her into prostitution. Jessica escaped but after she reported the gang 
to the police, the gang began targeting her. In early 2013, the gang 
grabbed her while she was walking to her home, burnt her with 
cigarettes and raped her. As a result of the rapes and abuse, Jessica 
began to cut herself and became suicidal. She fled to the United States 
to find safety and reunite with her mother. She now sees a therapist 
and is seeking asylum.
    16 year-old Daniel lived with his mother in El Salvador in an area 
controlled by the MS-13 gang. In order to get to school, Daniel had to 
cross into a rival gang's territory, causing each gang to believe he 
was a member of the other gang. Gang members repeatedly threatened him 
with a gun and machetes for being in their territory. After they 
threatened him for the third time, Daniel stopped going to school out 
of fear for his life. When his mother learned of the threats, she told 
his father, who lived in Texas. They made the difficult decision that 
Daniel needed to go to the United States for his safety. NIJC 
interviewed Daniel at a Chicago-area children's shelter before he was 
reunited with his father in Texas and determined he was eligible to 
apply for asylum. Daniel hopes to continue his studies without the 
threat of gang retaliation.
    Daniel and Jessica are two of many children who may be eligible for 
legal protections in the United States. The Vera Institute and the U.N. 
High Commissioner for Refugees (UNHCR) have determined that between 40 
percent and 58 percent of the unaccompanied children currently fleeing 
to the United States from Central America and Mexico may be eligible 
for some form of protection.\7\
---------------------------------------------------------------------------
    \7\ UNHCR 2014 and Byrne, O. & E. Miller, The Flow of Unaccompanied 
Children Through the Immigration System: A Resource for Practitioners, 
Policy Makers, and Researchers, Vera Institute of Justice, Mar. 2012, 
available at: http://www.vera.org/sites/default/files/resources/
downloads/the-flow-of-unaccompanied-children-through-the-immigration-
system.pdf.
---------------------------------------------------------------------------
   fair and efficient hearings: the importance of legal counsel for 
                         unaccompanied children
    Unaccompanied children face insurmountable challenges in pursuing 
legal protections in the United States. Like all immigrants, children 
in the immigration system do not receive government-appointed counsel. 
Without an attorney, unaccompanied children struggle to navigate the 
complicated U.S. immigration system alone and experience a denial of 
due process.
    The U.S. asylum system is complex and a successful asylum 
application requires considerable resources. An asylum seeker must 
gather country condition reports, primary documentary evidence, 
affidavits from witnesses in their home country, and medical and 
psychological evaluations. The same holds true for those compiling 
documentation to support applications for U visas for survivors of 
crime, T visas for survivors of trafficking, and petitions for Special 
Immigrant Juvenile Status (SIJS) for certain children who have been 
abused, abandoned, or neglected. Government data and leading academic 
studies consistently show that detention and legal representation are 
significant factors in determining if a noncitizen is granted asylum or 
another form of relief. One landmark academic study showed that legal 
representation in immigration court is the most important factor 
affecting the outcome of an asylum application, with asylum grant rates 
nearly three times higher for those who have an attorney.\8\ Without 
legal counsel, it is virtually impossible for a child to effectively 
understand and navigate these complex processes in the face of the 
threat of deportation. NIJC's clients, Maria and Roxana (pseudonyms), 
were able to obtain relief in the United States with assistance from 
NIJC's pro bono attorneys:
---------------------------------------------------------------------------
    \8\ Ramji-Nogales, Jaya, et. al,. ``Refugee Roulette: Disparities 
in Asylum Adjudication,'' Stanford Law Review, Vol. 60, Issue 2, p. 
340, available at: http://papers.ssrn.com/sol3/
papers.cfm?abstract_id=983946.
---------------------------------------------------------------------------
    Maria and Roxana are 11- and 14-year-old sisters from El Salvador. 
When they were very small, their parents came to the United States 
hoping to provide a better life for them and left them in the care of 
their grandfather. Unbeknownst to the parents, the grandfather 
neglected and abused the girls until they eventually ran away to live 
on the streets. With the help of another family member, Jessica and 
Roxana fled to the United States. The U.S. Department of Homeland 
Security (DHS) apprehended them at the border, placed them in removal 
proceedings, and then transferred them into the custody of the Office 
of Refugee Resettlement (ORR) until they could be released to their 
parents in Indiana. Through NIJC, Jessica and Roxana were able to 
obtain pro bono attorneys to help them understand the immigration 
process and to identify any potential relief. At their hearing in the 
Chicago Immigration Court, the immigration judge decided to 
administratively close Jessica and Roxana's cases, so they can remain 
with their parents and begin to heal from the abuse they have suffered.
    Without representation, these young girls would have been unable to 
navigate the immigration court system at the risk of deportation to a 
country where they faced abuse and neglect.
 emergency supplemental request: misguided allocations for enforcement 
                             and deterrence
    To respond to the influx of unaccompanied immigrant children and 
young families arriving at the United States border, the administration 
has requested $3.7 billion in supplemental funding, much of which 
prioritizes enforcement in a misguided attempt to achieve deterrence 
for individuals making the journey. While allocations of $1.8 billion 
for the Department of Health and Human Services (HHS) to care for 
unaccompanied immigrant children and $116 million for U.S. Immigration 
and Customs Enforcement (ICE) to transport unaccompanied children from 
overcrowded U.S. Customs and Border Protection stations at the border 
to more child-appropriate HHS facilities are urgently needed, NIJC is 
alarmed by the request for $879 million for the detention and removal 
of families. An increase in family detention beds is a significant step 
in the wrong direction, ignoring the government's appalling track 
record in detaining families and years of progress moving away from 
incarceration and towards more cost-efficient and effective 
alternatives to detention. Whereas detention can cost an average of 
$159 per day, alternatives--such as telephonic or in-person reporting, 
community-based programs, and GPS ankle bracelets--can range from 17 
cents to $17 per day.\9\
---------------------------------------------------------------------------
    \9\ National Immigration Forum, ``The Math of Immigration 
Detention,'' Aug. 2013, http://www.immigrationforum.org/images/uploads/
mathofimmigrationdetention.pdf.
---------------------------------------------------------------------------
    NIJC strongly supports the request of $45.4 million for Department 
of Justice (DOJ) to hire approximately 40 additional immigration judge 
teams, given the lengthy backlogs that plague immigration courts across 
the country. For example, the Chicago Immigration Court, one of the 
most backlogged immigration courts in the country, regularly schedules 
hearings for 2016 and beyond. The immigration court system has long 
been under-funded, particularly in light of increases in enforcement 
funding that have channeled more noncitizens into the removal system. 
Other requests for DOJ in the emergency supplemental for legal 
orientation programs ($2.5 million) and legal representation for 
children ($15 million) are encouraging but grossly underestimate the 
overwhelming need for such services.
    NIJC urges the administration to redirect funding requested for DHS 
(apart from much-needed transportation allocations) to increased legal 
services for unaccompanied immigrant children, more robust use of 
alternatives to detention, additional immigration judge teams to 
improve the adjudicatory process, and universal legal orientation 
programs for detained individuals and custodians of unaccompanied 
children to ensure full, fair, and efficient due process. In addition, 
to effectively address root causes and make it possible for children to 
safely remain in their home countries, the Department of State must be 
adequately funded to address the conditions of violence and extreme 
poverty that force many to flee and promote safe repatriation and 
reintegration programs.
  retaining critical due process protections for children in times of 
 crisis: the importance of the william wilberforce trafficking victims 
           protection and reauthorization act of 2008 (tvpra)
    NIJC is alarmed by calls for additional legislative authority to 
expedite screenings and deportations of unaccompanied children fleeing 
El Salvador, Guatemala, and Honduras. The TVPRA, which passed the 
Senate and House by unanimous consent and was signed into law by 
President George W. Bush in December 2008, provides critical 
protections for immigrant children and child refugees that should not 
be withdrawn. The law was initiated as a response to years of 
insufficient screenings of unaccompanied children at the border, 
resulting in the return of vulnerable children to situations of 
violence, abuse, and persecution from which they fled. The TVPRA 
provides child-sensitive procedures for children in immigration custody 
and facing removal. In this challenging time, with unprecedented 
numbers of vulnerable children arriving at our southern border, the 
protections ensured by the TVPRA should be increased rather than 
eviscerated.
    Specifically, the TVPRA requires that unaccompanied children from 
non-contiguous countries be placed in removal proceedings before an 
immigration court rather than subjected to a hurried screening and 
repatriation process akin to expedited removal. This due process 
protection is critical to ensure that children who have been, or fear 
being, abused, tortured, and/or persecuted are not summarily removed to 
places where they face harm. Under the TVPRA, children have the 
opportunity to receive full due process protections in an immigration 
court proceeding. They are also afforded time to recover from their 
journeys and past trauma, receive legal orientation, seek counsel, and 
gather evidence in support of their cases.
    The expedited process currently in place for Mexican children (who 
receive reduced TVPRA protections) requires them to immediately reveal 
their protection claims to the very people who have apprehended and 
detained them without access to attorneys or any form of counseling. 
This procedure should not be applied to children from non-contiguous 
countries and, indeed, should be terminated altogether so that all 
unaccompanied children receive a full and fair hearing when facing 
deportation. NIJC's complaint to the DHS Office of Civil Rights and 
Civil Liberties (OCRCL) and Office of the Inspector General (OIG) on 
behalf of 116 unaccompanied children abused and mistreated while in the 
custody of U.S. Customs and Border Protection (CBP) demonstrates that 
CBP is not the appropriate agency to screen children for relief.\10\ 
Approximately one in four children reported some form of physical 
abuse, including sexual assault, beatings, and the use of stress 
positions by CBP officials. More than half of the children reported 
various forms of verbal abuse, including racially and sexually charged 
comments and death threats. One 16-year-old girl reported that an 
immigration official verbally abused her and accused her of lying when 
she tried to explain the threats she faced in her home country. These 
appalling conditions do not support CBP assuming a larger role in 
screening children for relief.
---------------------------------------------------------------------------
    \10\ Available at: http://www.immigrantjustice.org/sites/
immigrantjustice.org/files/FINAL%20
DHS%20Complaint%20re%20CBP%20Abuse%20of%20UICs%202014%2006%2011.pdf
---------------------------------------------------------------------------
    Moreover, the current expedited screening procedures for Mexican 
children do not screen them for eligibility for Special Immigrant 
Juvenile Status (SIJS), a form of protection for children who have been 
abused, abandoned or neglected by their parents or guardians. If 
children are not provided with access to the immigration court system, 
they will not have the opportunity to seek the protection they need and 
merit under the law.
    Cynthia grew up in Guatemala with an abusive father who physically 
and verbally abused her throughout her childhood for any perceived 
disobedience, including wearing pants and getting the house wet after 
coming in from the rain. Her mother was unable to protect her because 
she too was subject to abuse. Cynthia fled to the United States to 
escape her father's abuse and find safety and security. It is very 
difficult for Cynthia to discuss her father's abuse and it took 
numerous meetings with trained legal staff before she felt comfortable 
revealing this information. Had Cynthia been subjected to expedited 
screening at the border by CBP officers, she would not have been able 
to reveal this information. Even if she had notified CBP officers of 
her abusive childhood, she could have been repatriated because the 
initial screening does not assess children's eligibility for SIJS 
protection.
    The TVPRA also grants initial jurisdiction over unaccompanied 
children's asylum claims to the United States Citizenship and 
Immigration Services (USCIS) Asylum Office. This allows children to 
present their asylum claims in a non-adversarial setting before an 
asylum office who is specially trained on interviewing children and to 
deal with survivors of trauma. This mechanism makes it possible for 
children to fully reveal the nature of their claims and also increases 
immigration court efficiency by resolving some cases outside of the 
courtroom. This means judges are not required to hold a full asylum 
trial and can terminate proceedings upon approval by USCIS.
    Expedited processing makes it extremely difficult for child victims 
of violence and trauma, and their family members, to effectively make a 
claim for asylum or other protections under U.S. law. Like all asylum 
seekers, it is difficult for immigrant children who have suffered abuse 
in their home countries and during their journey to the United States 
to overcome the mental and emotional impact of that harm and discuss 
their fears with a stranger. It is also extremely difficult for all 
asylum seekers, but particularly child asylum seekers, to understand 
how to request asylum at the border and articulate and support a claim 
for protection. Moreover, the accelerated nature of expedited 
processing in remote locations along the border makes it impossible for 
a child to obtain legal counsel during this process.
    Children who have suffered and fear persecution, abuse, and 
trafficking in their home countries are particularly vulnerable after 
their apprehension at the border. Many have been trafficked, exploited, 
and coerced in their home countries and on their journey to the United 
States. The expedited screening process currently utilized with Mexican 
children raises due process concerns for all immigrants fleeing harm, 
but as recognized by our law, it is particularly inappropriate for 
unaccompanied immigrant children. NIJC urges that our law protect all 
unaccompanied children apprehended at the border by exempting them from 
an expedited screening process at the border. Efforts underway to roll 
back the TVPRA are misguided and threaten to compromise the rights of 
children, placing them at risk of experiencing great harm.
                               conclusion
    International law and domestic laws that implement those legal 
obligations provide critical due process protections for individuals 
fleeing persecution and children are no exception to these protections. 
As a nation committed to human rights, the United States must uphold 
its commitment to protecting the persecuted, including the youngest and 
most vulnerable. Any solution to this humanitarian crisis must be 
comprehensive and address the root causes of migration in Central 
America, the natural desire for family members to reunite, and our 
obligations to protect those fleeing persecution. Unaccompanied 
immigrant children have escaped life-threatening violence. We must 
ensure that our laws treat children like children and do not send them 
back into harm's way.

    [Statement submitted by Mary Meg McCarthy, executive director, 
Heartland Alliance's National Immigrant Justice Center.]
                                 ______
                                 
        Prepared Statement of the Record of Refugee Council USA
    Ms. Chairwoman, and members of the committee, thank you for the 
opportunity to submit written testimony regarding President Obama's 
emergency supplemental request to address the influx of unaccompanied 
immigrant children arriving at our southern border.
    Refugee Council USA is a coalition of 20 non-governmental 
organizations committed to refugee and asylee protection and welcome.
    The tragic phenomenon of children arriving alone at our borders is 
unfortunately not a new one. In 2002, Congress designated the Office of 
Refugee Resettlement (ORR) within the Department of Health and Human 
Services as the Federal agency responsible for these children after 
they have been transferred from the Department of Homeland Security's 
care. ORR's mandate also includes providing programs and assistance to 
resettled refugees, asylees, Cuban-Haitian entrants, special immigrant 
visa recipients, and victims of trafficking and survivors of torture. 
It is ORR's responsibility to provide care to these unaccompanied 
children while family tracking efforts are made and then following 
their release to foster care or a sponsor while their immigration 
status is determined. Furthermore, the bipartisan 2008 Trafficking 
Victims Protection Reauthorization Act (TVPRA) further codified U.S. 
commitment to protecting vulnerable children arriving at our borders 
alone, ensuring that children from non-contiguous countries cannot be 
returned home without a full review of their case. Many of these 
children are fleeing violence, persecution, poverty and/or abuse in 
their countries of origin, and many, though not all, could subsequently 
qualify for various forms of refugee protection, child protection, and 
immigration relief under U.S. law.
    Until fiscal year 2011, arrivals of these unaccompanied children 
averaged between 6,000-8,000 each year. However, in fiscal year 2012, 
arrivals doubled to roughly 14,000 and then nearly doubled again in 
fiscal year 2013 to almost 25,000 children. Arrivals in fiscal year 
2014 are estimated to be between 60,000 and 90,000 and it is estimated 
that as many as 127,000 could arrive in fiscal year 2015. The vast 
majority of these children come from Guatemala, El Salvador, and 
Honduras. While traditionally the majority of arriving children have 
been teenage boys, the children arriving now are increasingly younger 
and there is also an increasing number of girls making the journey. 
Also, an increasing number of children are victims of trauma that they 
suffered in their home countries and/or on their journeys through 
transit countries.
    There are several factors influencing the increase in arrivals. In 
March 2014 the United Nations refugee agency (UNHCR) published a report 
that found that of the 404 unaccompanied children they interviewed, 58 
percent of these children may have bona fide international protection 
claims. While the reasons for departure were often complex and 
overlapping, many of these children spoke of fleeing significant 
violence, gangs and other abuse from countries in which the governments 
have not offered meaningful protection to their citizens, often 
allowing murders and violent crimes to be committed with impunity. 
These factors, among others, are also causing dramatic increases in 
asylum applications throughout the region. UNHCR has documented a 712-
percent increase in the number of asylum applications from citizens of 
these three countries in Mexico, Panama, Nicaragua, Costa Rica, and 
Belize, combined, from 2008 to 2013.
    These unexpected increases in child arrivals over the last 3 years 
have significantly strained ORR's limited budgetary resources. In 
addition to caring for these vulnerable children, as stated previously 
ORR is the Federal Government agency responsible for providing vital 
services to resettled refugees, asylees, Cuban-Haitian entrants, 
special immigrant visa recipients who assisted the United States in 
Iraq and Afghanistan, victims of trafficking, and victims of torture. 
Funding to serve all these vulnerable groups has not significantly 
increased over the last decade to address their increasing diversity 
and number, much less for inflation.
    In fiscal year 2012 ORR was forced to reprogram more than $115 
million from services to these groups to address the unanticipated 
increased needs of unaccompanied children. Since then, these already 
underfunded refugee programs have continued to face repeated threats of 
significant budget gaps as the levels of unaccompanied children 
continued to increase beyond budgeted projections. Fortunately, through 
the bipartisan support of Congress and communities around this country, 
baseline funding for refugee services has thus far largely stayed 
intact. For that we are extremely grateful.
    However, on June 20, World Refugee Day, ORR notified Congress of 
their intent to reprogram $94 million of fiscal year 2014 funds for 
refugee services to programs for unaccompanied children due to a lack 
of sufficient funds for the UAC programs. The devastating loss of these 
services will mean that far fewer refugees are able to obtain 
employment services to quickly find jobs and establish self-
sufficiency; many survivors of torture and trauma will be unable to 
access mental health services; elderly refugees will be unable to 
naturalize and maintain their benefit eligibility; and, refugee 
children will lack the tutoring and after school programs needed to 
help them integrate into schools. These cuts will also have an enormous 
impact on the States and local communities that welcome refugees, 
eroding years of progress in building a successful nationwide refugee 
resettlement program and impacting our ability to successfully welcome 
future refugee arrivals.
    Refugee resettlement is a key component of our foreign policy and 
our commitment to international responsibility sharing. The United 
States is the global leader in refugee resettlement, providing roughly 
70,000 individuals fleeing persecution and violence every year the 
chance at a new life. Countries around the world look to the United 
States' example in how we respond to refugee crises. How we respond to 
the current challenges before us will not just impact the lives of 
these vulnerable children seeking refuge in our country, or the 
thousands of refugees that are already part of our communities and 
beginning new lives here--it will impact our standing in the world as a 
country that respects due process, human rights, and the ability to 
seek protection.
    As the Senate Appropriations Committee considers the President's 
emergency supplemental appropriations request, we recommend the 
following:
    1. ORR's funding in the supplemental must be directed to ensure all 
populations under its care are adequately served.
    ORR has borne the brunt of this growing humanitarian crisis for too 
long, and ORR must receive additional funds in fiscal year 2014 to 
ensure that it is able to serve all of the populations that fall under 
its mandate. RCUSA supports the $1.8 billion request for HHS in the 
requested supplemental.
    In addition, Congress should establish and fund a contingency fund 
for ORR, as requested in the fiscal year 2015 administration budget 
request, to address future unexpected flows in the UAC program and in 
any other of ORR's other mandated populations, so that funding for 
refugee services remain intact.
    2. This emergency supplemental must avoid the intertwining of 
emergency funding needs with policy decisions.
    This is an emergency situation that requires an emergency response. 
Without additional funding for ORR, refugees and other vulnerable 
groups and the communities that welcome them across the country will 
face significant impacts, and needed relief must not be tied up by 
larger policy decisions.
    Additionally, the immigration policy decisions to reduce due 
process for children under consideration will have weighty negative 
consequences. They thus must be considered carefully and deliberately 
on their own.
    3. The wellbeing of vulnerable children must remain the driving 
force behind our policy response.
    Congress--and the U.S. Government--must not roll back critical 
protections established in the bipartisan 2008 TVPRA. These protections 
were set up to ensure the most vulnerable among us, children, are not 
sent back to their countries of origin where they could face 
significant harm.
    We must keep our borders open to children fleeing to us for refuge 
and we must maintain a full, fair, and individualized due process for 
all those seeking protection. Anything less would be inconsistent with 
our Nation's values.
                                 ______
                                 
              Prepared Statement of Tahirih Justice Center
    Chairwoman Mikulski, Ranking Member Shelby, and Members of the 
Senate Appropriations Committee: Tahirih Justice Center is a national, 
nonprofit organization dedicated to protecting courageous immigrant 
women and girls from violence. Over the last 18 years, we have provided 
holistic legal and social services to thousands of immigrants who have 
experienced severe trauma in the form of domestic and sexual violence 
and other gender-based violence through offices in the Washington, DC 
area, Houston, Texas, and Baltimore, Maryland. We welcome this 
opportunity to submit written testimony for the record in order to 
lodge our concerns about the supplemental request currently before the 
committee.
    Tahirih urges that the children fleeing violence in Central America 
who are arriving at the U.S. border be treated as humanely as possible 
while their claims for protection are adjudicated by qualified 
personnel. Tahirih objects to the President's emergency supplemental 
request for unaccompanied children insofar as it prioritizes the 
detention and rapid repatriation of these children and does not include 
measures to adequately protect their safety, well-being, or due process 
rights.
    In addition, Tahirih strenuously objects to any proposals that 
would cause the diminishment of existing protections for immigrant 
children. The law currently provides a bare minimum of safeguards for 
the basic due process rights of children who may have claims for 
humanitarian protection here in the United States. These must not be 
rolled back through legislation or policy of any kind.
    Tahirih strongly recommends that the Senate Appropriations 
Committee consider the following:
  --Funding should be directed towards care and adjudication, not 
        detention and removal. Any appropriations made through this 
        supplemental should prioritize the safety and well-being of the 
        children. Department of Health and Human Services (HHS) 
        provides shelter to children who have survived the arduous 
        journey to the United States. Under the law, all children must 
        be quickly transferred from Department of Homeland Security 
        (DHS) custody to HHS custody. Overcrowding in HHS facilities 
        leads to children and families remaining in Immigration and 
        Customs Enforcement (ICE) detention. ICE detention facilities 
        are not equipped to hold children humanely and should be 
        avoided at all costs. As such, funding to HHS so that it can 
        increase its capacity is essential. The current supplemental 
        request seeks an unreasonably high proportion of funds for 
        detention and removal.
  --Funding should be directed to Citizenship and Immigration Services 
        (CIS). Tahirih is seriously concerned that the supplemental 
        request does not include additional funds specifically for CIS. 
        DHS must be funded to increase and improve the capability of 
        CIS and its asylum officers to offer timely and thorough 
        credible fear interviews. Each child's fear of return to his or 
        her country of nationality should at a minimum be assessed by 
        asylum officers who are trained to interview children while 
        using accurate translation. Customs and Border Protection (CBP) 
        officers do not have the specialized training to conduct these 
        interviews. The current crisis does not justify lowered 
        standards of protection and non-specialist officers conducting 
        critical life-or-death interviews; it demands a greater 
        vigilance to ensure due process especially for such vulnerable 
        migrants.
  --Funding to hire additional immigration judges must be increased. 
        The plan put forward by the Department of Justice (DOJ) to move 
        unaccompanied children's cases to the high-priority list, along 
        with detained individuals, will not be possible without 
        increased funding. Without increased funding, an already 
        strained system reflecting delays of several years for 
        adjudications would be even more pronounced. We recommend 
        increasing the amount currently proposed for the DOJ for the 
        purpose of hiring more qualified immigration judges than 
        currently envisioned.
  --Funding must be allocated to legal services. Whether in detention, 
        HHS custody, or released to relatives, unaccompanied minors 
        need legal counsel to navigate our complex immigration system 
        and access the humanitarian protections to which they may be 
        entitled. As unaccompanied minors, they face difficult 
        decisions upon arrival without anyone to consider their best 
        interests and advise them accordingly. Allocations must be made 
        for pro bono legal services provided by charitable 
        organizations to ensure fairness and due process for these 
        children.
  --Protections provided by the TVPRA must not be curtailed in any 
        fashion. The TVPRA established baseline protections for 
        children entering the United States which must not be 
        compromised under any circumstances. The administration seeks 
        to place the power to exercise discretion and expeditiously 
        remove children in the hands of uniformed border officers who 
        are not trained in assessing claims for humanitarian 
        protection. This is a dangerous proposition. Unaccompanied 
        children are often exhausted and malnourished, traumatized, 
        without guardians or legal counsel, and detained by uniformed 
        officers. Their applications must be assessed by trained 
        immigration officers or judges. Children may choose to withdraw 
        their applications at any time, and no changes to the law are 
        needed. To the contrary, additional protections may be 
        necessary to ensure that all children fleeing persecution, 
        including children of Mexican citizenship, are properly 
        considered. Rolling back minimal procedural protections is not 
        a necessary or appropriate measure to address the current 
        crisis.
    In short, the current refugee crisis is a humanitarian situation 
that demands a humanitarian response. Tahirih urges the committee to 
reject any proposals that would result in increased detention, inhumane 
treatment, abrogation of due process, or the repatriation of children 
who face persecution.
    We appreciate this opportunity and welcome your questions or 
comments.

    [Statement submitted by Archana Pyati, director of public policy, 
Tahirih Justice Center.]
                                 ______
                                 
  Prepared Statement of United Nations High Commissioner for Refugees
    Mr. Chairman, members of the Appropriations Committee, thank you 
for the opportunity to submit a statement on today's hearing on the 
Review of the President's Emergency Supplemental Request for 
Unaccompanied Children and Related Matters.
    As the UN Refugee Agency, UNHCR has particular expertise in the 
area of protecting children displaced by violence and conflict.
    About half of the world's refugees are children, and they are 
considered by UNHCR to be particularly vulnerable in situations of 
forced displacement. Because the vulnerability of children is largely 
the result of their age and dependence on adults, exceptional 
protection efforts for children are needed. In situations of violence 
and conflict, children are both indirect and direct targets because of 
their age. Unaccompanied refugee children are the most vulnerable, as 
they have no adult who is legally recognized to be responsible for 
their care. Refugee girls are also more likely than boys to be the 
subjects of neglect and abuse, including sexual abuse, assault and 
exploitation.
    Drawing from our decades of experience and expertise working with 
children, UNHCR developed a Framework for the Protection of Children. 
This framework informs our position on the international protection of 
children, including those who are unaccompanied, in the context of 
forced displacement.
    UNHCR recognizes the enormous challenges facing the United States 
and other countries as a result of the recent large movement of people. 
We are witnessing a complex situation in which children are leaving 
home for a variety of reasons, including poverty, the desire for family 
reunion, and the growing influence of trafficking networks. For some 
children, these reasons include violence at the hands of transnational 
organized criminal groups and powerful local gangs.
    UNHCR recognizes that children are fleeing Central America for a 
variety of reasons and that not all of them are refugees; however, our 
interviews and our knowledge of the situation in these countries 
indicate that a significant number of the kids could potentially face 
harm if returned home.
    In late 2011, UNHCR and others noted a considerable uptick--the 
beginning of what is now known as the ``surge''--in the number of 
unaccompanied children coming across the U.S. border. Every year since, 
the numbers of UACs crossing the border has essentially doubled. These 
children are primarily from three Central American countries--El 
Salvador, Guatemala, and Honduras--and from Mexico. Given our mandate 
to ensure the protection of those fleeing for their lives and freedoms, 
UNHCR undertook a study to understand the reasons for the increase.
    Working closely with the U.S. Government and with child protection 
experts, UNHCR developed and implemented a sound, fully vetted 
methodology to learn from the children themselves why they decided to 
leave. Applying this methodology, UNHCR interviewed 404 children from 
the four countries, aged 12 to 17, in U.S. Federal custody. Launched in 
March 2014, our report, ``Children on the Run: Unaccompanied Children 
from El Salvador, Guatemala, Honduras and Mexico and the Need for 
International Protection,'' \1\ reflects the findings and 
recommendations of our study.
---------------------------------------------------------------------------
    \1\ UN High Commissioner for Refugees (UNHCR), Children on the Run: 
Unaccompanied Children Leaving Central America and Mexico and the need 
for International Protection, 13 March 2014, available at http://
www.unhcrwashington.org/sites/default/files/1_UAC_
Children%20on%20the%20Run_Full%20Report.pdf
---------------------------------------------------------------------------
    The children gave multiple reasons for leaving, including violence, 
family, opportunity and improved living conditions. Shockingly, 58 
percent of the children cited violence in their home countries as at 
least one key reason for leaving. This number varied by country: El 
Salvador (72 percent), Honduras (57 percent), and Guatemala (38 
percent).\2\
---------------------------------------------------------------------------
    \2\ UNHCR is not alone among UN agencies and other 
intergovernmental bodies in the region noting the violent roots of this 
displacement. UNICEF, the UN agency charged with protecting children, 
recently released a statement saying, ``Clear and compelling evidence. 
. . show distinct ``push factors'' are at the heart of why these 
children flee. They are often escaping persecution from gangs and other 
criminal groups, brutality and violence in their own communities and 
even in their homes, as well as persistent conditions of poverty and 
inequality. . . '' Bernt Aasen, UNICEF Regional Director for Latin 
America and Caribbean, ``Dramatic increase of unaccompanied children 
seeking to enter the United States'', 10 June 2014, http://
www.unicef.org/media/media_73755.html.
---------------------------------------------------------------------------
    The Inter-American Commission on Human Rights (IACHR) also released 
a statement expressing its ``deep concern over the situation of 
unaccompanied children migrants that are arriving to the southern 
border of the United States of America.'' Commissioner Felipe Gonzalez, 
the Rapporteur on the Rights of Migrants of the IACHR and country 
Rapporteur for the United States, went on to highlight, ``We are 
dealing with a humanitarian crisis involving record numbers of migrant 
children on the southern border of the United States, but also in other 
countries of the region. Through on-site visits and hearings, we have 
seen that our children are dying or being victims of several forms of 
violence in many parts of the region, and in this context there are 
some children who have been able to flee from these forms of violence, 
both inside and outside of their countries. . . '' http://www.oas.org/
en/iachr/media_center/PReleases/2014/067.asp
    These children shared stories of violence, threats, intimidation 
and abuse--experiences that, like for so many children in situations of 
widespread violence and conflict, they should never have to face.
``My grandmother wanted me to leave. She told me: `If you don't join, 
the gang will shoot you. If you do join, the rival gang will shoot 
you--or the cops will shoot you. But if you leave, no one will shoot 
you.' ''
  --Kevin, Honduras, age 17.

    Unaccompanied children and families who fear for their lives and 
freedoms must not be forcibly returned without access to proper asylum 
procedures. UNHCR calls on all countries in the Americas to uphold 
their shared responsibility to protect displaced children, families or 
adults who are in need. This is critical over both the short and long 
term, as governments implement solutions to address forced displacement 
and its root causes.
    At the core of refugee protection is the prohibition of returning a 
refugee to persecution. This prohibition, known as the principle of 
non-refoulement, is the fundamental obligation of States Parties to the 
1951 Convention relating to the Status of Refugees and/or its 1967 
Protocol, and one that is binding on the United States. A critical 
first step in complying with this obligation is to ensure that asylum-
seekers are identified, screened and given full and meaningful access 
to asylum. This is particularly critical for children, whose age and 
comprehension capacity limits their ability to engage protection 
systems on their own.
    With the knowledge that nearly 60 percent of the unaccompanied 
children from El Salvador, Guatemala, and Honduras have potential 
claims for international protection, it is critical that they be 
identified, screened and given access to the U.S. asylum system. 
Strengthening identification procedures in the United States and all 
other neighboring countries is the critical first step in a 
humanitarian response to ensure that those who fear persecution are not 
turned away.
    Reception of asylum-seekers must focus on protection and not on 
deterrence.
    As a global leader in refugee protection, the United States has 
long led by example in encouraging other countries in the region and 
around the world to develop and strengthen their own protection 
systems. As the United States decides what actions to take in 
responding to the increase in unaccompanied children and families 
crossing the southern border, a crucial element to that response is 
ensuring that they are treated with dignity and respect. The solution 
to the spike in unaccompanied children and families is not to make 
seeking protection more difficult.
    The right to seek asylum is a protected right reflected in U.S. 
law. Seeking asylum is not a crime, nor is it a prohibited act. Any 
response to the ``surge'' should not seek to deter children and 
families from seeking safety and security. Policies and practices 
designed to deter those fleeing persecution from seeking safety and 
protection are contrary to both the letter and the spirit of the 1951 
Refugee Convention and its 1967 Protocol as well as other international 
human rights instruments.
    This is a regional humanitarian problem that needs a regional 
humanitarian solution.
    UNHCR calls for regional cooperation to:
  --Enhance child protection systems in source/transit countries;
  --Enhance the capacity of governments to address the humanitarian 
        consequences of forced displacement through the development of 
        public policies and protection responses;
  --Identify solutions that are in the best interests of children, 
        including, where appropriate, return and family reunification;
  --Reinforce asylum systems in countries of transit and asylum in 
        Central America and Mexico; and
  --Collaborate on violence prevention, citizen security, and 
        unaccompanied children issues with relevant agencies in source 
        and transit countries.
    While the United States receives the vast majority of asylum claims 
from the Northern Triangle, forced displacement from these three 
countries is clearly felt elsewhere in the region. At the time that 
UNHCR published our ``Children on the Run'' report, available data from 
2008 to 2012 showed a 435-percent increase in the number of asylum 
applications overall from El Salvador, Guatemala, and Honduras filed in 
Belize, Costa Rica, Mexico, Nicaragua, and Panama. Updating the data to 
include 2013 figures, the increase from 2008 to 2013 is now 712 
percent.
    Moreover, the trends of displacement over the last few years from 
the Northern Triangle are not out of sync with other situations of 
forced displacement due to conflict. Individuals and families do not 
want to flee their homes or their countries if they can avoid it. Many 
will often displace internally before seeking refuge outside their 
countries.
    Given the regional nature of this displacement crisis, the United 
States cannot and should not bear the burden of addressing the 
situation alone. UNHCR stands ready to support the United States and 
other asylum countries in the region--particularly Mexico and 
Guatemala--to enhance protection systems throughout the region and to 
provide protection to those whose lives and freedoms are under threat. 
The United States has been a leader globally and regionally in refugee 
protection, particularly in protecting unaccompanied children and 
others of our most vulnerable. UNHCR hopes that the United States will 
continue to lead by example to encourage and support strong protection 
for children and families throughout Central American and Mexico.
                               conclusion
    The increase in arrivals of unaccompanied children and families 
along the southern border has no doubt placed great pressures on the 
United States' long-standing commitment to protecting those seeking 
safe haven in the United States. Understanding what has propelled these 
children and families from their homes, providing appropriate reception 
conditions, and ensuring protection to those who cannot return, is 
fundamental to meeting U.S. obligations to protect refugees and other 
vulnerable persons. Perhaps more importantly, it is fundamental to the 
United States' moral authority and longstanding identity as a beacon of 
hope to the persecuted. UNHCR stands ready to support the United States 
and other countries in the region in providing protection to these 
children--and families--on the run.
                                 ______
                                 
  Prepared Statement of the U.S. Committee for Refugees and Immigrants
    Ms. Chairwoman, and members of the committee, the U.S. Committee 
for Refugees and Immigrants (USCRI) urges the Senate Appropriations 
Committee to pass the President's emergency supplemental funding 
proposal and implement policy solutions that are humanitarian focused 
and maintain the U.S. core value and tradition of due process. USCRI 
also urges you fully fund the Office of Refugee Resettlement (ORR) to 
assure unaccompanied immigrant children receive adequate food, shelter, 
clothing, and medical care while they are in custody while still 
maintaining refugee programs.
    USCRI sees the direct impact of ORR programs and the vulnerable 
communities it serves. USCRI is a national nonprofit organization that 
for the past 100 years has helped shape our Nation's history. The 
mission of USCRI is to address the needs and rights of persons in 
forced or voluntary migration worldwide by advancing fair and humane 
public policy, facilitating and providing direct professional services, 
and promoting the full participation of migrants in community life. As 
part of this mission since 2005 USCRI's Immigrant Children's Legal 
Program has provided unaccompanied immigrant children pro bono legal 
representation to over 7,500 children in their immigration proceedings. 
USCRI has also provided in-home social services and linkages to 
education, legal, health, and mental health providers to over 1,000 
children.
                            a refugee crisis
    The increasing number of unaccompanied immigrant children arriving 
in the United States is due to the violence in Central America. 
Honduras leads the world in homicide rates,\1\ with El Salvador and 
Guatemala not far behind. The increase in violence is the result of 
many factors, poverty, corruption and impunity.\2\ There has also been 
an increase in the political and social power of organized crime and 
other armed actors. These criminal actors have increased their control 
and reach throughout the region. They control communities through fear, 
kidnapping, threats, extortion, rape and murder.
---------------------------------------------------------------------------
    \1\ In 2012, Honduras' homicide rate was 90.4 per 100,000 
population. See the United Office on Drugs and Crime (UNODC), 2013 
Global Study on Homicide. Available at: http://www.unodc.org/documents/
gsh/pdfs/2014_GLOBAL--HOMICIDE_BOOK_web.pdf.
    \2\ The Organization of American States, The Drug Problem in the 
Americas, (2013) available at http://www.oas.org/documents/eng/press/
Introduction_and_Analytical_Report.pdf
---------------------------------------------------------------------------
    Various reports by civil society organizations and the UNCHR have 
found that law enforcement in these Central American countries often 
cannot provide protection to its citizens.\3\ The U.S. State Department 
has recognized that ``crime has exploded in northern Central America 
and Honduras now has the world's highest murder rate outside of war 
zones.'' \4\ In Guatemala and Honduras, there is sometimes 
collaboration between organized criminal groups and members of the 
military and police, and police and military involvement in serious 
crimes, which leads to distrust of authorities. This distrust makes 
reporting of crimes and seeking protection more unlikely and 
potentially dangerous.\5\
---------------------------------------------------------------------------
    \3\ Gonzalez, Rosmery Austria deniega permiso de venta de armas a 
gobierno de Otto Perez, El Periodico, (May 2, 2014) available at http:/
/elperiodico.com.gt/es/20140502/pais/246662/
    \4\ http://www.state.gov/j/cso/releases/other/2013/205261.htm
    \5\ United Office on Drugs and Crime (UNODC), 2011 Global Study on 
Homicide
---------------------------------------------------------------------------
    Another important factor is the forced recruitment of children by 
organized crime and local gangs. In Honduras, more than 90 percent of 
violence experienced by minors goes unreported to the police, 
reflecting the limited capacity on the part of law enforcement to 
investigate cases.\6\
---------------------------------------------------------------------------
    \6\ Casa Alianza Honduras, ``Analisis de la situacion de Derechos 
de la Infancia Migrante No Acompanada en el marco de los procedimientos 
de deportacion y retorno a Honduras,'' June 2012. Available at: http://
casa-alianza.org.hn/images/documentos/Observatorio/migrante12.pdf.
---------------------------------------------------------------------------
             uscri data on unaccompanied immigrant children
    USCRI conducted an analysis of our database of unaccompanied 
immigrant children matched with volunteer attorneys in our pro bono 
network from January 2010 through April 9, 2014. During this time the 
overwhelming majority of our clients migrated from Central America.
    In the analysis we identified primary and secondary reasons for 
migration. Thirty-six percent identified violence or direct threats of 
violence from gangs or other violent entities as the primary reason 
they migrated. Child abuse is the second most frequently cited primary 
reason at 26 percent. While unaccompanied immigrant children often come 
to meet family in the United States, it wasn't until children had 
suffered violence or child abuse that they decided to migrate.
                        emergency funding needs
    The Office of Refugee Resettlement (ORR) is responsible for serving 
refugees fleeing persecution and other vulnerable migrant populations, 
including unaccompanied immigrant children. In 2002 the Homeland 
Security Act of 2002 (HSA) granted the care and placement of 
unaccompanied immigrant children to the Dependent of Health and Human 
Services' (HHS) Office of Refugee Resettlement (ORR). ORR's refugee 
programs have been underfunded for many years, but now with the 
increase of unaccompanied immigrant children, the already weak budget 
is exhausted.
    USCRI is seriously concerned that ORR notified Congress on June 20, 
2014, of their intent to reprogram $94 million in refugee funds to care 
for unaccompanied children. Without Congressional leadership and 
intervention America's ability to provide protection for persecuted 
persons and a chance at a new life will be dramatically diminished. The 
supplemental funding must be approved immediately otherwise Congress 
will jeopardize refugees' ability to become self-sufficient and work 
towards full integration into life in the United States.
                      uscri's six policy solutions
    We offer these six policy solutions that will work to stop 
trafficking, protect children and save money:
1. Respect Families
    Allow parents or legal guardians from El Salvador or Honduras who 
reside legally in the United States under Temporary Protected Status 
(TPS) to apply for their minor children to reunite. Their minor 
children may be residing either in the United States or in their 
country of origin and their status would be linked to their parents. 
This will immediately reduce immigration court backlogs and apply to an 
estimated 30-40 percent of the children surrendering at the borders.
2. Keep the Children Out of the Courtroom
    Institute a Children's Corps based on the Asylum Officer Corps 
model. Children Corps officers would be trained in child-sensitive 
interview techniques and Best Interest Determination standards. They 
would determine if a child is eligible for legal relief such asylum, 
Special Immigrant Juvenile Status (SIJS), Trafficking Victims Visa (T-
Visa) or other forms of legal relief. This would move the adjudication 
process from an adversarial, judicial process to an administrative 
process for most children. Those who are not eligible for legal status 
would be placed in removal proceedings. It is estimated that 40 percent 
to 60 percent may be eligible for legal protection.
3. Help Children Avoid the Dangerous Journey
    In-Country Processing allows applicants to apply for refugee status 
in their home country. The children would have to meet the U.S. refugee 
definition, be otherwise admissible, and would be resettled in an 
orderly fashion. In-country processing has been used in the past for 
the resettlement of Soviet Jews, Vietnamese, and Cubans, so they could 
avoid life-threatening escapes. Other countries in North or South 
America may also be willing to accept children for resettlement.
4. Engage the UNHCR
    Unaccompanied children and adults can receive international 
protection from UNHCR after they have fled their home country. Through 
long established procedures, the UNHCR could then refer their cases for 
resettlement to a receiving country. The U.S. Department of State 
coordinates the program, the refugees are interviewed by a USCIS 
Officer and, if approved for entry, undergo extensive security and 
medical clearances prior to being moved to the United States.
5. Forgive the Children
    Grant Children's Protected Status (CPS) to all unaccompanied 
children who have already been brought into custody. As precedent, the 
Cubans and Haitians who arrived illegally during the Mariel Boatlift in 
1980 were given Cuban/Haitian Entrant Status. Simultaneously with the 
announcement of CPS, the government could announce a cut-off-date for 
all future arrivals. After the cut-off date, new arrivals would be 
subject to expedited removal. Granting CPS will relieve the government 
of the burden and cost of adjudicating the cases of thousands of 
unaccompanied minors. This will increase capacity for the Department of 
Homeland Security to handle other immigration cases.
6. Introduce Hope
    Create a Regulated Entry Procedure (REP) for 10,000 Unaccompanied 
Immigrant Children per year per country from Honduras, El Salvador, and 
Guatemala. As precedent, to end the Mariel Boatlift in 1980, a lottery 
was established which allows 20,000 Cubans to enter the United States 
every year. The hope of ``winning'' has kept Cubans from hazarding the 
ocean for the last 34 years. The Central American Children would be 
permitted to enter the United States legally through a regulated system 
managed and processed by the U.S. Government.
    USCRI urges your immediate intervention to honor America's history 
of leadership in protecting the most vulnerable.
    Thank you for your consideration in this very important issue.
                                 ______
                                 
 Prepared Statement of the Young Center for Immigrant Children's Rights
   preserving necessary protections for the most vulnerable children
    Chairwoman Mikulski, Ranking Member Shelby, and members of the 
committee: On behalf of the Young Center for Immigrant Children's 
Rights at the University of Chicago (``Young Center''), I [Maria 
Woltjen] submit this statement for the committee's July 10, 2014 
hearing addressing President Obama's emergency supplemental request for 
unaccompanied children and related matters. The Young Center operates 
the only program providing independent child advocates to child 
trafficking victims and other vulnerable, unaccompanied children 
pursuant to the Wilberforce Trafficking Victims Protection 
Reauthorization Act (TVPRA).\1\ The role of the child advocate is like 
that of a guardian ad litem: to identify and represent the best 
interests of the child, and to develop recommendations pertinent to 
repatriation, custody, detention, family reunification, and legal 
representation. For the last 10 years, we have served as the 
independent child advocate for many hundreds of vulnerable, 
unaccompanied children.
---------------------------------------------------------------------------
    \1\ See William Wilberforce Trafficking Victims Protection 
Reauthorization Act of 2008, Sec. 235(c)(6), 8 U.S.C.A. Sec. 1232(c)(6) 
(West 2014) (``TVPRA'') (allowing the appointment of child advocates 
for child trafficking victims and other vulnerable, unaccompanied alien 
children).
---------------------------------------------------------------------------
    We commend the administration for proposing an increase in funds to 
ensure that vulnerable children receive appropriate care and 
protection. However, we caution Congress against making this funding 
contingent upon a roll-back of the TVPRA, passed by a bipartisan 
Congress in 2008.
    The treacherous journey to the United States-Mexico border is an 
act of desperation. The United States has an obligation to ensure that 
unaccompanied immigrant children are not returned to situations in 
which they will be trafficked, abused, persecuted, or killed and that 
they receive meaningful protection while they are in our care. The 
UNHCR study, Children on the Run, confirmed that a majority--at least 
58%--of Central American children fleeing to the United States would 
qualify for international protection.\2\
---------------------------------------------------------------------------
    \2\ UNHCR, Children on the Run: Unaccompanied Children Leaving 
Central America and Mexico and the Need for International Protection 
(Children on the Run), March 2014, at 25, available at http://
www.unhcrwashington.org/children/reports.
---------------------------------------------------------------------------
    Child immigrants are first and foremost children, and we must treat 
them as such. In considering the President's request, we urge Congress 
to uphold the following principles.
    Congress must prohibit accelerated removal proceedings for 
vulnerable children. Children's cases should be adjudicated in a 
timeframe that respects the child's age, development, and history of 
trauma. Children's proceedings should only be advanced when it is in 
the child's best interests--not simply to reduce Government expense. 
Children's reaction to trauma is complex and can significantly affect 
their ability to process information and talk about what they have 
experienced. Forcing children to participate in accelerated removal 
proceedings significantly increases the likelihood of errors since the 
decision maker may have incomplete information. Many children, 
particularly traumatized children, are unable, in a short period of 
time, to talk about what happened to them, why they are here, what they 
are afraid of.
    In appropriating funds, Congress should ensure that every child is 
represented. All children in immigration removal proceedings should 
have an attorney. No child should appear unrepresented in an 
adversarial proceeding before a judge where the Government is 
represented by a lawyer. The right to counsel for unaccompanied 
children is ``an emerging norm under international law'' necessary to 
safeguard against refoulement.\3\ Representation by legal counsel in 
any proceeding is also a crucial due process protection in keeping with 
our Nation's commitment to fair judicial and administrative proceedings 
involving children. Unaccompanied immigrant children are unable to 
effectively represent themselves in a complex system where they are 
unfamiliar with the laws, procedures, or language. In no other domestic 
system involving children would a child proceed completely 
unrepresented. For those reasons, we also urge Congress to appropriate 
the funds requested by the President for the expansion of direct legal 
representation programs administered by the Department of Justice 
(DOJ).
---------------------------------------------------------------------------
    \3\ Brian Rowe, The Child's Right to Legal Assistance in Removal 
Proceedings Under International Law, 10 Chi. J. Int'l L. 747, 768 
(2010).
---------------------------------------------------------------------------
    Independent TVPRA child advocates should be appointed for 
particularly vulnerable children, including any child who expresses a 
fear of return, or if repatriation would separate the child from a 
parent in the United States. For over forty years, the Federal 
Government has recognized the importance of the appointment of a 
guardian ad litem to protect the interests of children involved in the 
child welfare system.\4\ International law recognizes the importance of 
the appointment of a guardian as a procedural safeguard to ensure 
consideration of the child's best interests, particularly in cases in 
which repatriation is considered.\5\ The child advocate's role is to 
advocate for the child's best interests in all decisions, a role which 
is distinct from a legal representative who represents the expressed 
(stated) interests of the child. Child advocates' fact-based Best 
Interests Recommendations are grounded in U.S. law and well-accepted 
international child protection principles. These principles require 
consideration of factors including the child's safety, family 
integrity, liberty, wishes and development. Best interests 
recommendations do not turn on abstract or paternalistic judgments 
about where a child may be happier or have access to greater economic 
opportunity, rather the focus is on a child's safety and well-being. 
Thus, a child advocate may recommend that it is in a child's best 
interests to return to his or her country of origin if the child can be 
safely returned. Alternatively, the child advocate's Best Interests 
Recommendation may indicate that the child will be unsafe upon return 
because, for example, there is no responsible adult willing and able to 
care for the child.
---------------------------------------------------------------------------
    \4\ See Child Abuse Prevention and Treatment Act (CAPTA) of 1974, 
Public Law No. 93-247 (codified at 42 U.S.C. Sec. Sec. 5101-5107).
    \5\ See United Nations Committee on the Rights of the Child (CRC), 
CRC General Comment No. 6 (2005): Treatment of Unaccompanied and 
Separated Children Outside Their Country of Origin, 21, available at 
http://www2.ohchr.org/english/bodies/crc/docs/GC6.pdf.
---------------------------------------------------------------------------
    The Child Advocate program should be expanded to serve both 
detained and released children as provided in the Violence Against 
Women Act of 2013. The Violence Against Women Act of 2013 amended the 
TVPRA to provide for expansion of the Child Advocate program to six new 
sites over 4 years. These programs are intended to serve both detained 
and released children.\6\ It is critical at this time, to expand child 
advocate programs to serve the population of detained and released 
children.
---------------------------------------------------------------------------
    \6\ Violence Against Women Reauthorization Act of 2013, Public Law 
113-4 (codified as 42 U.S.C. section 1371).
---------------------------------------------------------------------------
    Congress should ensure that all Federal agencies adhere to the 
court-approved Flores settlement agreement regarding the care and 
custody of unaccompanied children. Children who remain in Government 
custody must be placed in the least restrictive setting and provided 
with education, recreation, social orientation, and medical services, 
in addition to shelter and food. The Flores settlement also provides 
that children be promptly released to family while they go through the 
immigration process. The Young Center strongly urges the Federal 
Government to develop mechanisms to expeditiously release children to 
properly vetted, safe sponsors.
    Federal decision-makers should consider the child's best interests 
in all decisions. All states and territories of the United States have 
laws which require that a child's best interests be considered when 
decisions are made about a child's custody or other ``critical life 
issues.'' \7\ The TVPRA recognizes the importance of best interests 
considerations by providing for the appointment of an independent child 
advocate to advocate for the best interests of the individual child. 
The best interests of the child is determined on a case-by-case basis 
and includes the consideration of the child's wishes with due regard 
for the child's age and maturity, as well as the safety and well-being 
of the child. Domestic and international law both recognize the 
vulnerability of children and the need for special safeguards to ensure 
safe repatriation and reintegration of children.\8\ No child should be 
returned to his or her country of origin without an independent 
assessment of the child's best interests.
---------------------------------------------------------------------------
    \7\ Child Welfare Information Gateway, Determining the Best 
Interests of the Child (2013), available at --https://
www.childwelfare.gov/systemwide/lawspolicies/statutes/bestinterest.pdf.
    \8\ TVPRA Section 235(5)(A); General Comment No. 6, para.para.84, 
92-93. See also principal of non-refoulement.
---------------------------------------------------------------------------
    The United States Government should develop a comprehensive and 
collaborative approach to address the causes of children's 
unprecedented migration without sacrificing well-established principles 
of child protection. This approach should take into consideration the 
endemic violence, public insecurity, and weak political structures of 
Honduras, Guatemala and El Salvador, as well as poverty and other 
conditions, including the recent 6.9 magnitude earthquake on the border 
of Mexico and Guatemala. The level of violence in Central America has 
reached a crisis level. Between 2010 and 2013, at least 458 children 
under 14 years of age were killed in violent circumstances in 
Honduras.\9\ In the first 3 months of 2014, 271 people under the age of 
23 were murdered in Honduras.\10\ The U.S. Department of State has 
recognized that the level of crime and violence in Central America, 
particularly in Honduras, ``remains critically high.'' \11\ This has 
led to a nearly 712-percent increase in asylum applications from 
citizens of Honduras, Guatemala, and El Salvador to the countries of 
Mexico, Panama, Nicaragua, Costa Rica and Belize over the past 5 
years.\12\ In a study released by the American Immigration Council this 
month, nearly 60 percent of Salvadoran children who were interviewed 
indicated that crime, gang threats, or violence were the main 
motivators for leaving home.\13\
---------------------------------------------------------------------------
    \9\ Press Release, Inter-Am. Comm'n on Human Rights (IAHCR), IACHR 
Expresses Concern over Violent Deaths of Children, Adolescents, and 
Youths in a Context of Citizen Insecurity in Honduras (May 14, 2014), 
available at http://www.oas.org/en/iachr/media_center/PReleases/2014/
056.asp.
    \10\ Id.
    \11\ Department of State Travel Warning, June 24, 2014, available 
at http://travel.state.gov/content/passports/english/alertswarnings/
honduras-travel-warning.html. See also, Public Insecurity in Latin 
America, FTI Consulting, Mar. 2014, available at http://
www.fticonsulting.com/global2/media/collateral/united-states/2014-
latin-america-security-index.pdf (stating ``entire portions of its 
sovereign territory out of control of the central government due to 
drug cartel activity, and extremely high homicide and violent crime 
rates, in part due to the ``maras'' (gang) activity'').
    \12\ Children on the Run, supra note 2.
    \13\ Elizabeth Kennedy, American Immigration Council, No Childhood 
Here: Why Central American Children Are Fleeing Their Homes (2014).
---------------------------------------------------------------------------
    The United States Government should engage in meaningful regional 
discussions to address the root causes of the forced displacement of 
children, and invest in meaningful programs--often operated by NGOs in 
the three countries--which can help with the successful reintegration 
of children who return to their countries of origin, helping to ensure 
their safety so that they are not forced to flee again.
    It is critical that Congress protect the 2008 Trafficking Victims 
Protection Reauthorization Act of 2008 (TVPRA). The TVPRA was intended 
to providing meaningful procedural and substantive protections for 
unaccompanied immigrant children \14\ from both contiguous and non-
contiguous countries. Prior to the 2008 TVPRA, Mexican children 
typically did not enter protective custody. The TVPRA screening was 
intended to identify those Mexican children with protection needs: 
trafficking victims, those at risk of persecution, and survivors of 
other dangers. However, even with these added screenings, the number of 
Mexican children in Federal custody did not increase nearly as much as 
anticipated, in large part because the screening is undertaken by 
armed, uniformed CBP officials whose primary mission is to protect the 
borders. Advocates believe that vulnerable Mexican children are not 
appropriately identified.\15\ Applying these screenings to non-Mexican 
children would significantly increase the number of relief-eligible 
children--children at risk of persecution, trafficking, abuse, or other 
safety concerns--who are unlawfully turned away at the U.S. border, and 
returned to certain harm.
---------------------------------------------------------------------------
    \14\ An unaccompanied alien child is a child under the age of 18 
years, with no lawful status in the United States, and either no parent 
or legal guardian in the United States or no parent or legal guardian 
available to provide care and custody. 6 U.S.C. Sec. 279(g)(2).
    \15\ Appleseed Foundation, Children at the Border: The Screening, 
Protection and Repatriation of Unaccompanied Mexican Minors (2011), 
available at http://appleseednetwork.org/wp-content/uploads/2012/05/
Children-At-The-Border1.pdf.
---------------------------------------------------------------------------
    The TVPRA also codified the Government's obligations under the 
Flores settlement to place unaccompanied immigrant children in the 
least restrictive setting. Placing unaccompanied children in the 
custody of the Office of Refugee Resettlement allows traumatized 
children the space to recover from their journey in a less threatening 
environment and to disclose trafficking, persecution, or other 
exploitation. Finally, the TVPRA allows children to pursue claims of 
asylum before the asylum office, a much more appropriate setting for 
children.

                                  [all] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
